 110



       Department of Defense




Performance and Accountability Report
           Fiscal Year 2004
             November 15, 2004




 `10
Table of Contents

Message from the Deputy Secretary of Defense                             ii
Report Overview                                                         iii
Year in Review                                                          iv

Part 1. Management Discussion and Analysis
    Mission, Organization and Resources                                 1
    Performance Highlights                                              5
    Financial Highlights                                               11
    Compliance with Legal and Regulatory Requirements                  18
    President’s Management Agenda                                      46

Part 2. Performance Information
    Annual Performance Goals and Results                               48

Part 3. Financial Information
    Chief Financial Officer’s Message                                 113
    Financial Statements
        Principal Statements                                          114
        Notes to the Principal Statements                             126
        Consolidating and Combining Statements                        201
        Required Supplementary Stewardship Information                244
        Required Supplementary Information                            251
        Other Accompanying Information                                262
    Independent Auditors’ Report on the Principal Statements          274

Part 4. Inspector General Summary of Management Challenges            282

Part 5.    Appendixes
    A.    Improper Payments Information Act of 2002                   296
    B.    Glossary                                                    301
    C.    Internet Links                                              306




DoD Performance and Accountability Report      i               Table of Contents
Message from the Deputy Secretary of Defense
November 15, 2004

I am pleased to present the Department of Defense fiscal year 2004 Performance and Accountability Report.

The Department has made significant progress in transforming America’s defense posture to enable decisive plans to
address future security challenges. We have demonstrated our superior warfighting capabilities in Iraq and
Afghanistan. The price of democracy is not cheap. We see continual pressures on the Department’s resources in the
years ahead. We will focus relentlessly on efficient and careful use of these resources as we continue fighting the
global war on terror.

The Department has made improvements in its personnel management practices and we will continue to drive
towards a performance-based rating of our workforce. The quality of life of our military members, who risk their
lives for all of us to enjoy the freedoms of democracy, has been enhanced by upgrading facilities and advancing
private-public partnerships in military housing. We have also seen efficiencies due to practicing performance-based
budgeting, increasing our focus on core support functions, and reforming our annual review of programs and
funding.

Although the Department received a disclaimer of opinion on its financial statements, there have been advancements
throughout the past year in the Department’s efforts to improve financial reporting and management processes.
Specifically, through the Department’s Business Management Modernization Program, the financial management
processes and controls are being integrated into the business processes to ensure accountability and auditability of
the Department’s business transactions.

The Department now has a report card that identifies how well we did in achieving the strategic plan, objectives, and
goals. This is an effective management tool that is allowing us to fine-tune our implementation of the strategic plan.
Looking at our report card results this year, the Department met several of its performance goals, but still has work
to do in other areas. The report displays all of the Department’s performance results this year and provides a clear
picture of our progress in meeting our objectives.

The Department is committed to effective internal controls, full compliance with established guidelines and
standards, and proper stewardship of the resources entrusted to it. During fiscal year 2004, we corrected
11 management control weaknesses, and except for the unresolved weaknesses noted in the Management Discussion
and Analysis section of this report, the Department has reasonable assurance that its management controls are
effective. The Department will continue its efforts to resolve the remaining issues and I am confident that the
Department will continue to fulfill its mission responsibilities.

Looking ahead, the Department continues the transformation of its support structure and management practices.
While the Department has made progress in many areas, we must continue to upgrade performance and
accountability, streamline and strengthen management, and ensure that every defense dollar is expended as wisely as
possible.




DoD Performance and Accountability Report                  ii     Message from the Deputy Secretary of Defense
Report Overview
The Department of Defense fiscal year 2004                       to manage risks to the accomplishment of its strategic
Performance and Accountability Report is designed to             objectives.
provide useful information for American citizens, the
President, Congress, other federal organizations, and            Part 3: Financial Information is composed of the
Department of Defense military members, civilians                Department’s principal financial statements, notes to
and contractors.                                                 these statements, consolidating and combining
                                                                 statements, and other required information for fiscal
Our report encompasses the Department’s operations               year 2004. This section includes the Inspector
for fiscal year 2004, which occurred from                        General, Department of Defense, Auditors’ Report on
October 1, 2003, through September 30, 2004. It                  the fiscal year 2004 financial statements. The
contains five parts. Combined, they provide a                    Auditors’ Report provides the Inspector General’s
thorough description of the Department’s services to             assessment of whether the Department’s financial
the American people and stewardship of our critical              statements are fairly presented in all material respects
resources.                                                       and conform to generally accepted accounting
                                                                 principles.
The pressures on the Department’s resources have
never been greater and will continue to grow in the              Part 4: Inspector General Summary of
years ahead. Our response must be to focus                       Management Challenges presents a summary of the
relentlessly on efficient and careful use and                    most serious management challenges facing the
management of these resources. Only by effectively               Department. This assessment was prepared by the
measuring the results we achieve, as documented in               Inspector General, Department of Defense.
this report, can we adjust the tactics and strategies we
use to meet our goal of mission excellence and deliver           Part 5: Appendixes present detailed information
the best possible performance for the American                   about the Department’s compliance with the
people.                                                          Improper Payments Information Act of 2002, a
                                                                 glossary of acronyms, and a list of internet links for
Part 1: Management Discussion and Analysis is a                  further information referred to in this report.
high-level overview of the Department’s performance
and financial information for fiscal year 2004. Part 1           We are interested in your feedback regarding the
starts with a discussion of the Department of Defense            content of this report. Please feel free to email your
(DoD) mission, organization and resources. It                    comments, or requests for copies of this report, to
highlights the Department’s performance—covered in               DoDPAR@osd.mil or write to:
more detail in Part 2—by summarizing the strategic
plan and goals and the fiscal year 2004 annual                   U.S. Department of Defense
performance goals and results. Next, it provides                 Office of the Under Secretary of Defense
financial highlights—covered in more detail in                   (Comptroller)
Part 3—for fiscal year 2004. The Department’s                    1100 Defense Pentagon
compliance with legal and regulatory requirements is             Washington, DC 20301-1100
also discussed in this section. Part 1 concludes with a
summary of the Department’s status on meeting the                You may also view this document at
President’s Management Agenda objectives.                        www.dod.mil/comptroller/par.

Part 2: Performance Information presents the
Department’s strategic plan, strategic objectives,
annual performance goals, and annual performance
results for fiscal year 2004 in accordance with the
Government Performance and Results Act. It
describes key performance indicators—and their fiscal
year 2004 goals and results—that the Department uses


DoD Performance and Accountability Report                  iii                                     Report Overview
Year in Review
The Department of Defense is leading the global war               To continue these great accomplishments, the
on terror. The courageous men and women in uniform                Department is providing these brave men and women
and the Department civilians who support them have                the tools they need to win the global war on terror,
accomplished tremendous feats since our country was               transforming for the 21st century, and ensuring the
attacked 3 years ago. They have:                                  Department manages the force properly. DoD’s
                                                                  commitment to our men and women in uniform
    •   Overthrown two terrorist regimes, rescued                 means they will have the training and tools necessary
        two nations, and liberated some 50 million                to prevail in wars our nation may have to fight—wars
        people;                                                   which could be notably different from today’s
                                                                  challenges. This commitment extends to attracting
    •   Hunted down thousands of terrorists and                   and retaining the best and the brightest, thereby
        regime remnants in Iraq and Afghanistan;                  sustaining the quality of the all-volunteer force.

    •   Ensured a safe environment for the first                  When this Administration took office, the President
        election in Afghanistan’s 5,000 year history;             charged the Department of Defense with a mission—
                                                                  to challenge the status quo, and prepare the
    •   Disrupted terrorist cells on several continents;          Department to meet the new threats our nation will
        and                                                       face as the 21st century unfolds.
    •   Likely prevented a number of planned
        terrorist attacks.




                       Marines of the 24th Marine Expeditionary Unit meet and greet Iraqi citizens.
                       Marines patrolled the Iraqi neighborhoods, delivered water to residents who needed
                       it and helped out the community as much as they could.

                       The Marines, escorted by a Light Armored Vehicle from Alpha Company, 1st Light
                       Armored Reconnaissance Battalion, drove throughout their area of responsibility,
                       stopping to offer residents water and to talk to them about their living conditions and
                       how the Marines could help them. The day's activities are an important part of the
                       Marines’ security and stabilization mission in Iraq.




DoD Performance and Accountability Report                  iv                                             Year in Review
                                                              While successfully leading the global war on terror,
We have done a good deal to meet that charge, but
                                                              the Department has also served the public around the
our challenge is to build on these successes, and
                                                              world through various disaster relief and
continue the transformation efforts that are now
                                                              humanitarian missions, and other support to civil
underway. In 2004, we:
                                                              authorities.
  •   Continued to successfully prosecute the global
      war on terror;
  •   Further strengthened our combined and joint
      war fighting capabilities;
  •   Continued transforming the joint force,
      making it lighter, more agile and more easily
      deployable, and instilling a culture that
      rewards innovation and intelligent risk-taking;
  •   Strengthened our intelligence capabilities, and
      refocused our intelligence efforts to support
      the new defense strategy and our contingency
      plans;
  •   Began deploying the technologies necessary to             Airmen with the 437th Airlift Squadron, Charleston Air Force
      protect our people from the deadly threat of              Base, S.C., load relief supplies for victims of Hurricane
      ballistic missiles;                                       Charley in Florida aboard a C-17 Globemaster III at Dobbins
                                                                Air Reserve Base, Ga., on Aug. 14, 2004. The 437th was
  •   Improved our management of the force;                     deployed in support of relief operations being conducted by
                                                                the Federal Emergency Management Agency. (DoD photo
  •   Taken critical steps to attract and retain talent         by Staff Sgt. Aaron D. Allmon II, U.S. Air Force.)
      in our Armed Forces—including targeted pay
      raises and quality of life improvements for the
      troops and their families;                              We can continue to live as free people because the
  •   Refocused our overseas presence, further                industriousness and ingenuity of the American people
      strengthening key alliances, and improving our          have provided the resources to build the most
      security cooperation with nations that are              powerful and capable Armed Forces in human
      likely partners in future contingencies;                history, and because we have been blessed with the
                                                              finest young men and women in uniform—volunteers
  •   Worked with the North Atlantic Treaty                   all—that the world has known.
      Organization (NATO) in an effort to make the
      Alliance more relevant and credible in this             They are courageous, they are selfless, and they are
      post-Cold War era;                                      determined. We are grateful to them and proud of
                                                              them.
  •   Continued to improve and refine DoD’s role in
      homeland security and homeland defense; and
  •   Further streamlined DoD processes by
      continuing financial management reform and
      shortening acquisition cycle times.




DoD Performance and Accountability Report                 v                                          Year in Review
                                     Page intentionally left blank.




DoD Performance and Accountability Report
           Part 1:
   Management Discussion and
          Analysis




DoD Performance and Accountability Report
                                     Page intentionally left blank.




DoD Performance and Accountability Report
Mission, Organization, and Resources

Mission
The mission of the United States Armed Forces is to defend the United States; deter aggression and coercion
forward in critical regions; swiftly defeat aggression in overlapping major conflicts while preserving for the
President the option to call for a decisive victory in one of those conflicts - including the possibility of regime
change or occupation; and conduct a limited number of smaller-scale contingency operations.1




Photos courtesy of Military Department webmasters




1
    Quadrennial Defense Review Report, Sep 30, 2001

DoD Performance and Accountability Report                  1             Part 1: Management Discussion and Analysis
Organization                                                     These Departments man, organize, train, equip, and
                                                                 sustain military forces. When the President and
The Department of Defense (DoD) is a Cabinet-level               Secretary of Defense determine that military action is
organization that receives orders directly from the              required, these trained and ready forces are assigned
President of the United States. The Secretary of                 to a Combatant Command that is responsible for
Defense is appointed by the President and is                     conducting the military operations.
responsible for the formulation and execution of
defense policy.                                                  The Military Departments are composed of Active
                                                                 Duty, Reserve, and National Guard forces. The
The Office of the Secretary of Defense carries out the           Reserve and National Guard represent approximately
Secretary’s policies by tasking the Military                     half of America’s total uniformed force. These
Departments, the Chairman of the Joint Chiefs of                 forces provide additional support during military
Staff (JCS), the Combatant Commands, and the                     operations. They also perform critical humanitarian,
Defense Agencies and DoD Field Activities.                       peacekeeping, law enforcement, and disaster
                                                                 assistance missions for the Department of Defense,
Military Departments. The Military Departments                   all of which are important to protecting the national
consist of the Army, Navy—of which the Marine                    security of the United States.
Corps is a component—and the Air Force. The U.S.
Coast Guard is also a special component of the Navy
in wartime, but is otherwise a bureau of the
Department of Homeland Security.




                                                      President


                                             Secretary of Defense


                                      Office of the Secretary of Defense
                                                              • Provides strategy, policy, and oversight


                      Military Departments                               Chairman of the JCS

                • Man, organize, train, equip & sustain                   • Plans & coordinates



                     Combatant Commands                                   Defense Agencies &
                                                                          DoD Field Activities
                      • Conduct operations
                                                                           • Provide support & services




DoD Performance and Accountability Report                 2             Part 1: Management Discussion and Analysis
Chairman of the Joint Chiefs of Staff. The                    Four commands have worldwide mission
Chairman of the JCS—who is the principal military             responsibilities, each focused on a particular
advisor to the President, the National Security               function:
Council, and the Secretary of Defense—assists the             •   U.S. Strategic Command
President and Secretary in providing for the strategic        •   U.S. Special Operations Command
direction of the Armed Forces, including operations
                                                              •   U.S. Transportation Command
conducted by the Commanders of the Combatant
                                                              •   U.S. Joint Forces Command
Commands. As part of this responsibility, the
Chairman also assists in the preparation of strategic
                                                              For example, the U.S. Transportation Command is
plans and helps to ensure plans conform to resource
                                                              responsible for moving military equipment, supplies
levels the Secretary of Defense projects will be
                                                              and personnel around the world in support of
available.
                                                              operations.
Combatant Commands. The nine Combatant
Commands have responsibility for conducting DoD               Defense Agencies and DoD Field Activities.
missions around the world. For example, U.S.                  Defense Agencies and DoD Field Activities provide
Central Command is primarily responsible for                  support services that are commonly used throughout
conducting Operation Enduring Freedom in                      the Department. For instance, the Defense Finance
Afghanistan and Operation Iraqi Freedom. The                  and Accounting Service provides accounting
Army, Navy, Air Force, and Marine Corps supply                services, contractor and vendor payments, and
forces to these commands.                                     payroll services; and the Defense Logistics Agency
                                                              provides logistics support and supplies to all DoD
Five of these commands have specific mission
                                                              activities.
objectives for their geographic area of responsibility:
•   U.S. European Command (USEUCOM)                           For additional information on the Department’s
•   U.S. Central Command (USCENTCOM)                          organization structure and functions, visit
•   U.S. Pacific Command (USPACOM)                            www.defenselink.mil/odam/omp/pubs/GuideBook/To
•   U.S. Southern Command (USSOUTHCOM)                        C.htm and
•   U.S. Northern Command (USNORTHCOM)                        www.dtic.mil/doctrine/jel/new_pubs/jp0_2.pdf.




                            The World with Combatant Command Geographic Areas of Responsibility



DoD Performance and Accountability Report                 3          Part 1: Management Discussion and Analysis
                                                                    Today, the Department has more than
Resources                                                           70 performance metrics in use or under development.
                                                                    The report highlights them in the next two sections,
People. To provide the citizens of the United States                “Performance Highlights” and “Financial
with the highest level of national security, the                    Highlights,” and they are detailed in Part 2,
Department of Defense employs 1.4 million men and                   “Performance Information” and Part 3, “Financial
women in the Active Duty, another 1.2 million in the                Information.”
Reserve and National Guard, and approximately
740,000 civilians. Together, these men and women
work daily to protect American interests in numerous
countries.

Physical Assets. The Department maintains a robust
infrastructure, operating approximately 600,000
individual buildings and structures located at more
than 6,000 different locations, and using
approximately 30 million acres. To protect the
security of the United States, the Department uses
approximately 250,000 vehicles, 15,000 aircraft,
1,000 oceangoing vessels, and 550 public utility
systems.

Budget. The Department’s budget for fiscal
year 2004 was $469.2 billion.2




        Fiscal Year 2004 DoD Budget
                         ($ in Billions)
                      $65.4
                                                    $154.0



           $124.3

                                       $125.5
           Army     Air Force   Navy/Marine Corps    DoD-wide

                       Total = $469.2 billion




Because the American people have entrusted these
resources to the Department of Defense, the
Department is committed to effective resource
stewardship and has implemented numerous
performance and financial measures to help meet that
commitment. The Department continues to research
and develop new methods and measures to enhance
management and stewardship of these resources.

2
 Does not include Trust Fund or U.S. Army Corps of Engineers
Civil Works appropriations.

DoD Performance and Accountability Report                       4          Part 1: Management Discussion and Analysis
Performance Highlights
Strategic Plan

America is a nation at war. We face a diverse set of
security challenges. Yet, we still live in an era of
advantage and opportunity. The defense strategy
outlines an active, layered approach to the defense of
the nation and its interests. It seeks to create
conditions conducive to a secure international order
favorable to freedom, democracy, and economic
opportunity. This strategy promotes close
cooperation with others around the world that are
committed to these goals. It addresses mature and            Part of the U.S. Army’s transforming brigade combat
                                                             teams, these soldiers patrol in Stryker armored wheeled
emerging challenges.                                         vehicles during a search for criminals and weapons in
                                                             Mosul, Iraq, on Oct. 4, 2004. The soldiers are with the
The Quadrennial Defense Review Report serves as              Stryker Brigade Combat Team, 2nd Infantry Division,
the Department of Defense’s strategic plan. The last         from Fort Lewis, Wash. DoD photo by Specialist John S.
review was completed in 2001.                                Gurtler, U.S. Army.


The Quadrennial Defense Review Report describes
America’s security in the 21st Century, U.S. interests
and objectives, the changed security environment,
and the status of the U.S. military. It outlines U.S.
                                                             Strategic Objectives
Defense Strategy and includes strategic objectives
and defense policy goals.                                    Four strategic objectives guide the development of
                                                             U.S. forces and capabilities, their deployment, and
The strategy also describes the need for sustained           use:
transformation of the U.S. military and Defense
establishment over time; including a paradigm shift          Secure the United States from direct attack. The
in force planning that describes what the force must         Department will give top priority to those who seek
be capable of and where it should be positioned to           to harm the U.S. directly.
best meet the challenges of the new security
environment. Transformation is at the heart of the           Secure strategic access and retain global freedom
Defense Strategy.                                            of action. The Department will promote the security,
                                                             prosperity, and freedom of action of the United States
The Department will conduct its next review in 2005          and its partners by securing access to key regions,
and publish its next report in 2006.                         lines of communication, and the global commons.

                                                             Strengthen alliances and partnerships. The
                                                             Department will seek to expand the community of
                                                             like-minded nations and help partners increase their
                                                             capacity to defend themselves and collectively meet
                                                             challenges to our common interests.

                                                             Establish favorable security conditions. The
                                                             Department will create conditions conducive to a
                                                             favorable international system by honoring our
                                                             security commitments and working with others to



DoD Performance and Accountability Report                5          Part 1: Management Discussion and Analysis
bring about a common appreciation of threats; a               Four guidelines structure our strategic planning and
broad, secure, and lasting peace; and the steps               decision-making. They serve to guide the
required to protect against these threats.                    Department in the accomplishment of its objectives.
                                                              Active, layered defense. The Department will focus
                                                              military planning, posture, operations, and
                                                              capabilities on the active, forward, layered defense of
 Policy Goals                                                 our nation, our interests, and our partners.
                                                              Continuous transformation. The Department will
                                                              continually adapt how it approaches and confronts
                                                              challenges, conducts business, and works with others.
The Department accomplishes its objectives along
four broad avenues of effort described below.                 Capabilities-based approach. The Department will
                                                              strengthen its opportunity-oriented approach for
Assure allies and friends. The Department will                addressing mature and emerging challenges—setting
provide assurance by demonstrating our resolve to             priorities among competing capabilities.
fulfill our defense commitments and help protect
common interests. The presence of American forces             Managing risks. The Department will consider the
overseas is one of the most profound symbols of the           full range of risks associated with resources and
U.S. commitment to allies and friends. Through its            operations and manage explicit tradeoffs across the
willingness to use force in its own defense and that of       Department.
others and to advance common goals, the U.S.
demonstrates its resolve and the credibility of the
U.S. military. The Department helps allies and
friends create favorable balances of military power in
critical areas of the world to deter aggression or
coercion. The Department’s strategic direction is
inevitably linked with that of U.S. allies and friends.
Dissuade potential adversaries. The Department
will work to dissuade potential adversaries from
adopting threatening capabilities, methods, and
ambitions, particularly by developing our own key
military advantages. U.S. strategy and actions
influence the nature of future military threats, guide
threats in certain directions, and complicate military
planning for potential adversaries. The United States
also exerts influence by conducting research,
development, test, and demonstration programs, and
by maintaining or enhancing advantages in key areas
of military capability. Well targeted strategy and
policy can dissuade other countries from initiating
future military competitions.
Deter aggression and counter coercion. The
Department will deter by maintaining capable and
rapidly deployable military forces and, when
necessary, demonstrating the will to decisively               An F-15E Strike Eagle receives fuel from a 908th
resolve conflicts on favorable terms.                         Expeditionary Aerial Refueling Squadron KC-10 Extender
                                                              during a mission over Iraq. U.S. Air Force photo by
Defeat adversaries. At the direction of the                   Senior Master Sgt. Mark Moss
President, the Department will defeat adversaries at
the time, place and in the manner of our choosing –
setting conditions for future security. U.S. forces
must maintain the capability to decisively defeat any
adversary of the United States and its allies and
friends.



DoD Performance and Accountability Report                 6          Part 1: Management Discussion and Analysis
                                                                                                                           introduced in 2001 a new risk management
Annual Performance Goals                                                                                                   framework to help the Secretary and his advisors
                                                                                                                           evaluate tradeoffs among key performance objectives
and Results                                                                                                                and fundamental resource constraints.

                                                                                                                           The risk categories are described and illustrated
Managing risk is a central element of the defense                                                                          below. Each category has associated outcome goals
strategy. It involves balancing the demands of the                                                                         and metrics designed to gauge performance. This
present against preparations for the future consistent                                                                     creates a continuous thread to ensure the
with the strategy's priorities. To do this in a                                                                            Department’s performance supports the strategy.
consistent, analytic manner, the Department




                                                     “Defend the United States; deter aggression and coercion forward in critical
                                                        regions; swiftly defeat aggression in overlapping major conflicts while
                                  Mission            preserving for the President the option to call for a decisive victory in one of
            Strategic Plan




                                                    those conflicts - including the possibility of regime change or occupation; and
                                                         conduct a limited number of smaller-scale contingency operations.”


                                                      “Secure the United States from direct attack; secure strategic access and
                             Strategic Objectives    retain global freedom of action; strengthen alliances and partnerships; and
                                                                       establish favorable security conditions.”


                                                    “Assure allies and friends; dissuade potential adversaries; deter aggression
                                Policy Goals                       and counter coercion; and defeat adversaries.”
                                                       Force Management Risk




                                                                                                                               Future Challenges Risk
                                                                               Operational Risk


                                                                                                      Institutional Risk




           The mission, objectives, and                                                                                                                    Outcome goals and metrics
           goals are subject to risk.                                                                                                                      are designed to help decision
           DoD deals with these risks                                                                                                                      makers with risk mitigation
           through its risk management                                                                                                                     and resource allocation
           framework.                                                                                                                                      choices.

                                                                                                                                                             Performance Plan
                                                                                                                                                                     Sources: 2001 Quadrennial Defense
                                                                                                                                                                     Review and 2003 Annual Report to
                                                Risk Management Framework                                                                                            the President and the Congress

       The Risk Management Framework ties the Performance Plan to the Strategic Plan with outcome goals and metrics
                            designed to measure how well the Performance Plan mitigates risks.


1. Force management risk addresses our ability to                                                                          4. Future challenges risk addresses new capabilities
recruit, retain, train, and equip sufficient numbers of                                                                    and new operational concepts needed to dissuade or
quality personnel and sustain the readiness of the                                                                         defeat mid-term to long-term military challenges.
force while accomplishing our many operational                                                                             This risk management framework reflects DoD's
tasks.                                                                                                                     experiences over the last decade in attempting to
                                                                                                                           balance strategy, force structure, and resources.
2. Operational risk focuses on achieving military
objectives in a near-term conflict or other                                                                                Each of these quadrants is further defined by specific
contingency.                                                                                                               outcome goals. By assessing the Defense
                                                                                                                           establishment in these four areas against those goals,
3. Institutional risk covers the management
                                                                                                                           the Department can directly assess how well it is
practices and controls that affect the efficiency with
                                                                                                                           developing and transforming the operational force,
which resources are used and that shape the
                                                                                                                           realizing key enabling capabilities, and providing the
effectiveness of the Defense establishment.
                                                                                                                           deployment and support infrastructure needed to
                                                                                                                           achieve the strategic goals of the defense strategy.

DoD Performance and Accountability Report                                                         7                                                     Part 1: Management Discussion and Analysis
Even as we accept some increased near-term risk so             The Reserve Components are facing significant
we can prepare for the future, our performance goals           recruiting challenges in 2004. Active component
for fiscal year 2004 recognized that new and                   recruiting met its quality and quantity goals,
unexpected dangers will likely be waiting just over            however, there are fewer applicants than desired in
the horizon—and that we must be flexible to face               the pool of those awaiting basic training (known as
them.                                                          the Delayed Entry Program), suggesting 2005 will be
                                                               a challenge.
The challenge during the past year was to do three
difficult things at once:                                      All Services are on track to meet retention goals and
                                                               Reserve component enlisted attrition is well within
  • Win the global war on terror,
                                                               acceptable limits. Nevertheless, the Department is
  • Prepare for the threats we will face later this            watchful for indications of a downturn.
    decade, and
                                                               The Department continues to work to improve the
  • Continue transforming for the threats we will face         working and living conditions for its people,
    in 2010 and beyond.                                        including the quality of military health care and other
                                                               force management related goals. Obtaining these
The following paragraphs summarize the                         goals is critical for ensuring effective recruitment,
Department’s performance results for the past fiscal           training, and retention.
year, and describe our progress in achieving the
results needed to ensure risk remains balanced across
the Department’s many activities and investments.
These results are measured against the Department’s
performance goals as outlined in the 2003 Annual
Report to the President and Congress
(www.defenselink.mil/execsec/adr2003).

Balancing Force Management Risk. Force
management risks steadily mounted during the
1990’s. The Department’s investments left
compensation and quality of life programs, like
housing, short of their desired goals. At the same
time, the increase in military deployments led to
                                                               Sergeant Major of the Army Kenneth O. Preston, left,
unusual stresses on units and personnel brought on by          speaks to first-week recruits during basic training at
frequent or extended periods away from home.                   Fort Leonard Wood, Mo. As the Army's senior enlisted
Together, these trends took a toll on military families,       Soldier, Preston serves as the Army Chief of Staff's
reduced morale, and contributed to the reduced                 personal adviser on all enlisted-related matters,
ability to retain military personnel with key skills and       particularly in areas affecting Soldier training and
                                                               quality of life.
leadership abilities. This negative cycle illustrates
the kind of force management risk that the
Department must monitor and control.                           Balancing Operational Risk. During the 1990’s,
                                                               near-term operational risks were the dominant
Just as the Department invests resources to maintain
                                                               concern of the Department, distracting attention from
the operational readiness of its forces, it is now also
                                                               other sources of risk. Under the previous construct,
consciously investing resources to mitigate force
                                                               operational risk was measured almost exclusively in
management risks. These actions are indispensable
                                                               terms of the ability of the Armed Forces to wage two
in terms of sustaining the nation’s commitment to an
                                                               major wars simultaneously in Northeast Asia and
all-volunteer force, and to keeping faith with the men
                                                               Southwest Asia. In 2001, the Department adopted a
and women who serve in uniform. The Department
                                                               new approach—known as a “capabilities-based
met its fiscal year 2004 performance goals related to
                                                               approach”—to manage operational risk, moving
the force management risk area with some notable
                                                               away from the two war construct.
exceptions.
                                                               The capabilities-based approach reflects the fact that
While the Nation continues to operate in a state of
                                                               the United States cannot know with confidence what
National Emergency, the Army and Air Force end
                                                               nation, combination of nations, or non-state actor will
strengths exceeded the goal to remain within 2% of
                                                               pose threats to vital U.S. interests decades from now.
the end strength authorized in the National Defense
                                                               The new construct more realistically captures the
Authorization Act.

DoD Performance and Accountability Report                  8          Part 1: Management Discussion and Analysis
demands facing the Armed Forces by focusing more              close cooperation with other agencies involved in
on how an adversary might fight rather than on whom           foreign policy, like the Department of State.
the adversary might be or where a war might occur.
                                                              The Department made significant progress advancing
It requires identifying capabilities that U.S. military
                                                              the adaptive planning concept. The adaptive
forces will need to deter and defeat adversaries who
                                                              planning concept will replace existing planning
will rely on surprise, deception, and asymmetric
                                                              methods with an ability to produce plans that are
warfare to achieve their objectives. These new
                                                              more timely and responsive to the current security
capabilities manifest themselves in the shape of
                                                              environment. The Secretary approved the concept
transforming U.S. military forces.
                                                              and established a team to ensure successful
In support of, and complementing, a capabilities-             implementation throughout the Department.
based approach, the Secretary of Defense directed the
                                                              The Enhanced Joint Lessons Learned Program Study
Chairman of the Joint Chiefs of Staff to develop
                                                              was completed; this initiative analyzes existing
improved methods for allocating forces to the
                                                              capabilities to capture lessons-learned and develop
Geographic Combatant Commanders. With these
                                                              alternative courses of action. As part of this effort,
new force allocation methods, each Combatant
                                                              the U.S. Joint Forces Command established the Joint
Commander is responsible for developing and
                                                              Center for Operational Analysis–Lessons Learned;
maintaining operations plans which are developed to
                                                              joint lessons-learned specialists were placed in the
meet potential contingencies. In the past, the
                                                              individual Services’ lessons-learned centers to assist
allocation of forces did not account for on-going
                                                              with the collection, analysis, and distribution of
operations or for the current state of readiness of
                                                              lessons-learned.
individual units. To overcome these issues, the
Secretary also directed the U.S. Joint Forces
Command to develop a means for monitoring joint
force operational availability; in other words,
knowing how ready a unit is and how soon it can be
deployed for operations. In response to a
capabilities-based approach and new force allocation
methods, the Department initiated the Global Force
Management process, designed to continuously
manage the process that provides forces to conduct
operational missions. Global Force Management
provides comprehensive insight into U.S. force
postures worldwide, and accounts for ongoing                     Paratroopers prepare to board a U.S. Air Force
                                                                 C-130 aircraft at Al Asad Air Base, Iraq, during
operations and constantly changing unit availability.            Operation All-American Lightning. Two-hundred
Throughout 2004, the Department made steady                      and forty 82nd Airborne Division Soldiers
progress establishing Global Force Management.                   jumped during the airborne operation, which
Complementing the effort was a major decision                    functioned as a show of force.
making USJFCOM responsible for developing
timely, global, joint sourcing solutions that provide         Balancing Institutional Risk. As the Department
Combatant Commanders the right units with the right           transforms its military capabilities to meet changing
capabilities.                                                 threats, it must also transform its institutions to
                                                              ensure that its people can focus their immense talents
In addition to employing a capabilities-based
                                                              on defending America, and that they have the
approach to mitigating operational risk, the
                                                              resources, information, and freedom to perform.
Department is focusing effort on security
cooperation, adaptive planning, and better ways to            Mitigating institutional risk necessitates changing the
learn from current operations.                                way the Department conducts its daily business. It is
                                                              a matter of urgency because left alone, the current
The Department continues to focus on major defense
                                                              organizational arrangements, processes, and systems
policy themes that include combating terrorism,
                                                              will continue to drain scarce resources from training,
influencing key nations and improving relationships
                                                              infrastructure, operations, and housing. In addition,
with them, and strengthening alliances for the future.
                                                              if left unattended, institutional risks over time will
This has improved the quality of the security
                                                              increase risks in other areas like force management,
cooperation program—the program the Department
                                                              operational, and future challenges risks. The
undertakes to build defense partnerships with friends
                                                              Department met several fiscal year 2004 goals related
and allies. Importantly, this program must ensure
                                                              to the institutional risk area.

DoD Performance and Accountability Report                 9          Part 1: Management Discussion and Analysis
The Department made progress toward Acquisition                 Transformation Planning Guidance directed the
Excellence, moving to level the playing field for all           development of the Joint Concept Development and
contractors—ensuring fairness in contracting and                Experimentation Campaign Plan to describe the role
making it easier for new entrants to the acquisition            of joint experimentation as a major generator of
contract process. Acquisition Excellence has the                transformational change. The Chairman of the Joint
additional benefit of giving DoD greater exposure to            Chiefs of Staff approved the Plan and submitted it to
new ideas. Further, the aim is to invigorate the fiscal         the Secretary of Defense. As of the end of the third
well being of the defense industry by rewarding good            quarter of FY 2004, the U.S. Joint Forces Command
performance and fostering strong competition vital to           co-sponsored four major exercises with each of the
maintaining a healthy industrial base.                          Services that included multi-national partners. These
                                                                exercises served as “testing grounds” for new
The Department is improving the transparency of
                                                                concepts.
component program and budget submissions. Older
programming and budget tools did not produce easily             In 2003, the Secretary of Defense directed the five
verifiable data and this hindered management                    Geographic Combatant Commands to establish
discussions and decisions. By streamlining the flow             Standing Joint Force Headquarters by FY 2005.
of data from the components to the Department, and              This headquarters serves as a planning staff during
taking measures to improve data accuracy and                    day-to-day operations. In the event of a crisis, the in-
validity, the Department is better able to align its            place Headquarters is immediately prepared to
resource plans with the Secretary’s strategic                   execute command and control functions for the
guidance. The result is better-informed leaders with            integrated employment of land, air, maritime, and
the insight they need to make decisions.                        information forces. These headquarters will be
                                                                established by FY 2005 with the exception of U.S.
Extraordinary logistics demands in the current
                                                                Central Command’s, where the ongoing contingency
wartime environment caused higher customer wait
                                                                has delayed participation. The other Geographic
times—the elapsed time from when a customer
                                                                Combatant Commands conducted initial training,
(military unit or other DoD organization) orders an
                                                                procured appropriate facilities, and installed garrison
item of material until its receipt. Through the second
                                                                equipment for their Standing Joint Force
quarter, the average customer wait time was 24 days.
                                                                Headquarters. They have completed plans to conduct
Current operations will continue to stress logistics
                                                                a full-scale joint training event in FY 2005 that will
pipelines. Nevertheless, satisfying the operational
                                                                serve as the “graduation” event for their new joint
needs of the troops remains a top priority, and the
                                                                command and control capability.
measure of that satisfaction is the ability to achieve a
customer wait time of 15 days or less.                          In the technology arena, an independent peer review
                                                                panel rated the Department’s Defense Technology
Balancing Future Challenges Risk. In light of the               Objectives, reviewing technologies such as radar, jet
dynamic changes in the security environment, a                  engines, nuclear weapons, night vision, and smart
premium has been placed on the need to manage                   weapons. The review panel assesses whether a
future challenges risk. While many elements of the              technology objective is on budget, on time, and
existing force will continue to contribute to the               performing as required. Favorable ratings in these
United States Armed Forces capabilities, defense                criteria give an objective a satisfactory progress
managers acknowledge the need to develop new,                   rating. For FY 2004, the Department exceeded its
leading-edge capabilities. The Department met                   performance target of 70% of technology objectives
several fiscal year 2004 goals regarding future                 progressing satisfactorily.
challenges risk.
The goal of the Department’s experimentation
program is to rapidly convert innovative warfighting
concepts to prototypes and then turn those into
fielded capabilities. Accordingly, the April 2003




DoD Performance and Accountability Report                  10           Part 1: Management Discussion and Analysis
Financial Highlights
Key Financial information is summarized in this
section with detailed financial information provided          As indicated by the table below, six of the
in Part 3 of this report.                                     Department’s subordinate financial statement
                                                              reporting entities received unqualified audit opinions,
                                                              one received a qualified audit opinion, and three of
Financial Overview                                            the Department-wide financial statement items
                                                              received favorable audit results. As a result of the
The Department of Defense continues to improve                Military Retirement Fund receiving an unqualified
financial management by overhauling the                       audit opinion, nearly 50 percent of the Department’s
Department’s business and financial management                total liabilities received unqualified audit opinion
processes and systems. This represents a major                again this year.
management challenge that goes far beyond financial
accounting. The Secretary and his senior leaders are                                                      Audit
                                                                        DoD Component
committed to changing the Department’s business                                                          Opinion
culture, thus improving the Department’s combat               Defense Commissary Agency                 Unqualified
support infrastructure.                                       Defense Contract Audit Agency             Unqualified
Each year the Department spends billions of dollars           Defense Finance and Accounting            Unqualified
designing, building, operating and maintaining                Service
business systems that support the troops. Many of             Defense Threat Reduction Agency*          Unqualified
these systems support one military service, a specific        Military Retirement Fund                  Unqualified
defense agency, or in some cases, an individual
command. Consequently they are unable to operate              Medicare Eligible Retiree Health Care
                                                                                                        Qualified
as a single enterprise network of systems. The                Fund
Armed Forces of the United States must have                   Inspector General, DoD*                   Unqualified
business systems that can interact with one another                        DoD-Wide                       Audit
and facilitate the execution of end-to-end business                 Financial Statement Lines             Results
processes; provide DoD decision makers with timely,           Appropriations Received*                  Favorable
accurate, and reliable information; comply with all
financial management laws, standards, and                     Federal Employee Contribution Act         Favorable
                                                              Liabilities*
requirements; and produce auditable financial
statements.                                                   Investments*                              Favorable
                                                              * = New for fiscal year 2004
Furthermore, the transformation of the business
management systems and the business processes they            DoD is accomplishing the difficult task of business
support must be accomplished without interrupting             transformation and improved financial management
the level of support provided to the warfighter and           through the business management modernization
on-going military operations. This unprecedented,             program, financial improvement initiative, and
comprehensive, and visionary task remains one of the          financial management balanced scorecard.
Department’s top priorities.
                                                              Business Management Modernization Program.
The Department has already made progress in                   During the three years since the Department of
transforming its business and financial processes and         Defense began the business management
systems.                                                      modernization program, significant progress has been
                                                              achieved in building a baseline architecture,
    Nearly 50 percent of the                                  governance structure, and re-engineering
    Department’s total liabilities                            methodology to reach the ultimate goal of
                                                              streamlining and integrating business processes and
    received an unqualified audit                             systems. In 2004, the Department achieved the
    opinion again this year                                   following.


DoD Performance and Accountability Report                11           Part 1: Management Discussion and Analysis
• Developed specific business transformation                   • Released version 2.2 of the business enterprise
  metrics that are tied directly to goals, objectives            architecture, which includes an enterprise
  and targets. These metrics represent the                       business process model, describing the end-to-end
  program’s first set of integrated business                     business processes for DoD; it also incorporates
  transformation metrics.                                        statutory, regulatory, and administrative
                                                                 requirements and procedures. Visibility of these
• Implemented an incremental approach to                         requirements in the context of DoD business
  transformation, which allows DoD to prioritize                 operations is necessary to correct deficiencies,
  and focus on the most pressing business                        assure uniform interpretation and implementation,
  transformation initiatives. Although the                       and provide timely, accurate and reliable business
  Department previously had defined Increment 1                  information.
  (obtaining better financial traceability, total asset
  accountability, and total personnel visibility), it          The Department will incorporate the remaining
  had not done so for the increments subsequent to             statutory, regulatory, and administrative requirements
  it. Increment 2 will focus on reengineering the              in future versions of the business enterprise
  Department’s method of contracting for and                   architecture. The timetable for these improvements
  acquiring goods and services, accounting for                 is outlined in the table below.
  physical assets, and improving military health
  care delivery. Increment 3 will focus on
  improving the Programming, Planning, Budgeting
  and Execution process and achieving an
  integrated total force picture.

• Established portfolio management policies and
  broadly outlined duties and responsibilities for
  managing information technology investments
  across the department.

                   Release Dates for Future Versions of the Business Enterprise Architecture:


                                      Description                                                Release Date


Release of Business Enterprise Architecture Version 2.3
Updates all business enterprise architecture work activities, information, system               November 2004
functions and interchanges needed to support the defined enterprise business process
model.

Release of Business Enterprise Architecture Version 2.4
Continue to detail enterprise business process model. Addresses remaining statutory,             January 2005
regulatory, and administrative requirements and map those deemed financially
relevant to the enterprise business process model for increment 1.

Through the above accomplishments, DoD has laid                •   Establish and enforce an agency-wide
the groundwork for significant progress during the                 governance process that ensures efficient
coming year. The work is proceeding steadily. The                  execution, guidance, and oversight for DoD
scope and complexity of DoD business processes and                 business transformation and compliance
systems are too large and unwieldy to change all at                activities,
once and the transformation will take time. Long
term efforts will focus on the following integrated            •   Reduce or eliminate redundant, outdated, and
activities.                                                        stove-piped systems using a systems review and
                                                                   portfolio management process, and
•   Incrementally build and extend a business
    enterprise architecture,

DoD Performance and Accountability Report                 12          Part 1: Management Discussion and Analysis
•   Reengineer the Department’s business processes            establishing executive-level performance goals and
    a piece at a time using an incremental approach.          tracking results; designates key performance
                                                              outcomes, measures, and indicators; and assigns
For detailed information on the Department’s                  responsibility for cascading performance metrics to
Business Management Modernization Program, visit              the individual component levels within the
www.dod.mil/comptroller/bmmp/pages/index.html/                Department.

Financial Improvement Initiative. Although                    Budget and financial indicators are used to monitor
strategic change through the business management              and guide financial management reform and target
modernization program will take time, the                     resources to areas where DoD needs to drive better
department is taking steps to correct weaknesses and          stewardship of financial resources.
deficiencies using the discipline and methodology of
financial audits.
                                                                                      Execution of Appropriations
To help meet this objective, the Department launched
the financial improvement initiative in 2003. The                               Military Personnel and Operation and
goal of the financial improvement initiative is to                                   Maintenance Appropriations
ensure proper transfer of good data and processes
into the broader reengineered business processes. By          The Department obligated 99.9 percent of its Military
cleansing data and reengineering processes based on           Personnel Appropriations and 99.7 percent of its
the rules documented in the business enterprise               Operation and Maintenance Appropriations. The
architecture, the Department will mitigate the risk of        Department developed the following Military
importing poor data and poor controls into the new            Personnel Appropriations and Operation and
architecture.                                                 Maintenance Appropriations indicators to monitor the
                                                              execution of DoD’s budget and project the rate and
To accomplish the goal of receiving an unqualified            amount of funds the Military Services obligate. The
audit opinion, the DoD components developed and               Department compares each appropriation’s annual
submitted financial improvement plans listing                 budget authority with each Service’s projected
deficiencies and necessary corrective actions. The            obligations to ensure funds are available to finance
financial improvement initiative has allowed the              the requirement.
Department to:
                                                                                       Military Personnel Appropriations
•   Better define and align financial statement
                                                                              150.0
    deficiencies to financial statement lines,
•   Begin linking deficiencies to enterprise business
    process model processes, and                                              120.0           Budget Authority $115.6B
•   Provide Department-wide oversight and
    visibility to improving financial statements.
                                                              $ in Billions




                                                                               90.0
The improvement plans identify deficiencies that
                                                                                                                         115.5


must be corrected through policy revisions, process
                                                                                                           105.0




                                                                               60.0
                                                                                                 96.7




improvements, or systems changes. This information
                                                                                      86.4




is being linked to the Business Management
Modernization Program so that the Department can                               30.0
clearly distinguish between problems that can be
solved in the near term through policy and process
actions and problems that must be solved through                                0.0
systems changes.                                                                      Jun 04       Jul04   Aug 04        Sep 04
                                                                                             Obligated         Budget Authority



Financial Management Balanced Scorecard. The
Department’s Financial Management Balanced
Scorecard is aligned with the risk management
framework established in the Department’s strategic
plan. The Scorecard provides the framework for

DoD Performance and Accountability Report                13                       Part 1: Management Discussion and Analysis
                                                                                                                              Defense Working Capital Fund
                  Operation and Maintenance Appropriations                                                                    Accumulated Operating Results

                150.0                              Budget Authority $138.8B                              The Defense Working Capital Fund Accumulated
                                                                                                         Operating Results (AOR) indicator reflects the
                                                                                                         cumulative operating gain or loss since inception for
                120.0                                                                                    each industrial type business area. This indicator
                                                                                                         displays the variance between the phased plan for
$ in Billions




                 90.0                                                                                    AOR provided in the budget and the actual AOR




                                                                                    138.4
                                                                                                         reported in the monthly financial reports.


                                                                    125.1
                                                     115.1
                                        104.5



                 60.0
                                                                                                         Overall, the revenue is above plan by $3.2 billion and
                                                                                                         expenses are above plan by $1.7 billion, due to the
                 30.0                                                                                    global war on terror. However, Recoverable
                                                                                                         Operating Results were reduced by $0.8 billion to
                   0.0                                                                                   recognize the impact of cash transfers. As a result,
                                        Jun 04        Jul 04        Aug 04 Sep 04                        the Department's fiscal year (FY) 2004 AOR of
                                                Obligated                  Budget Authority              $0.06 billion was less than the planned $1.14 billion.

                                                                                                                                2.0

                                  Defense Working Capital Fund                                                                  1.0
                                       Cash Management

                                                                                                              $ in Billions
                                                                                                                                0.0
Cash Management within the Defense Working
Capital Fund is defined as the ability to maintain                                                                             -1.0
sufficient liquidity to meet current obligations and
accurately forecast cash requirements. The                                                                                     -2.0
Department transferred $3.8 billion in fiscal year
2004 to Operation and Maintenance appropriations.                                                                              -3.0
                                                                                                                                       FY 2001 FY 2002 FY 2003 FY 2004
Cash is inflated in fiscal year 2004. Higher than
                                                                                                                              Actual    -2.73   -0.02   0.67     0.06
normal inventory sales in fiscal year 2004, due to the
                                                                                                                              AOR
global war on terror and pricing of transportation
services, has generated substantial cash. However,                                                                            Plan      -0.13   0.00    0.55     1.14
when this inventory is replaced and with lower
transportation pricing, cash will decrease
significantly to pay for the restocking of inventory in
fiscal year 2005. The fiscal year 2004 ending cash
balance is $4.99 billion.                                                                                       Late Payments of Commercial Invoices
                                                                                                         The Prompt Payment Act requires that invoices be
                                  8.0                                                                    paid on time—within 30 days of receipt. This
                                                                                                         indicator highlights the degree to which the
                                                                                                         Department is able to reduce untimely commercial
                  $ in Billions




                                  6.0                                                                    payments. DoD’s fiscal year 2004 goal was to reduce
                                                                                                         late payments to a level not to exceed 3 percent of
                                                                                                         total commercial invoices. The Department exceeded
                                  4.0                                                                    the goal by reducing late payments to 2.6 percent.
                                                                                                         Improving this indicator reduces cost and improves
                                                                                                         DoD’s relationship with suppliers.
                                  2.0


                                  0.0
                                           Mar      Apr     May               Aug             Sep
                                                                Jun 04 Jul 04
                                           04       04      04                 04             04

                Current Bal.               6.31    4.52      4.94   3.82     3.30    3.77   4.99
                Plan                        4.2    4.42      3.97   3.94     3.25    3.22   3.64

DoD Performance and Accountability Report                                                           14                  Part 1: Management Discussion and Analysis
          Delinquent Accounts Receivable                                                        DoD Travel Card Program
                                                                                      Individually Billed Accounts Delinquency Rates
The Accounts Receivable indicator highlights the
amount owed to the Government by an individual,                                  This indicator illustrates the Department employees’
organization, public entity, foreign entity, or any                              record for paying their travel card invoices in a
other entity to include federal entities, to satisfy a                           timely manner—within 60 days. The Department
debt or claim.                                                                   measures the percent of delinquent payments relative
                                                                                 to the total billed amounts. A low delinquency rate
The Department’s goal was to reduce delinquent                                   accrues cash benefits to the Department in the form
receivables (more than 30 days old) by 25 percent in                             of rebates and improves the credibility of the travel
fiscal year 2004. The Department has two types of                                and purchase card programs with both the Congress
delinquent receivables: receivables with the public                              and the general public. Since fiscal year 2001,
(i.e., individuals, contractors, local and foreign                               delinquency rates for individual travel accounts
governments, etc.) and intragovernmental receivables                             declined 54 percent, from 9.4 percent delinquent to
with other federal government agencies.                                          4.3 percent delinquent.

Approximately $4.0 billion of the $4.9 billion
delinquent public receivables were at Treasury for
collection or in litigation. DoD is actively working to
collect the remaining $0.9 billion in delinquent public                                  10
receivables. The Department’s delinquent public
receivables, for which DoD controls collecting,                Delinquency Rate (%)
                                                                                          8
decreased by 21 percent in fiscal year 2004.

Delinquent intragovernmental receivables owed to
                                                                                          6
the Department by other federal agencies are
currently $302 million. The Department reduced
these receivables by 16 percent in fiscal year 2004.                                      4
                                                                                                Sep 01     Sep 02    Sep 03     Sep 04

                                                                                        DoD       9.4       7.3        5.1       4.3




DoD Performance and Accountability Report                 15                                  Part 1: Management Discussion and Analysis
Financial Statement                                                                          Types of Liabilities
                                                                                                Accounts             Other
Analysis                                                                     Environmental
                                                                                                Payable            Liabilities
                                                                                                  2%                  3%
                                                                               Liabilities
                                                                                                                                   Military
                                                                                  4%
                                                                                                                                  Retirement
                     Types of Assets                                                                                             Benefits and
                                                                                                                                    Other
                                                                                                                                 Employment
                       Other Assets
     Inventory and                                                                                                                 Related
                           3%
        Related                                                                                                                    Actuarial
       Property                                                                                                                   Liabilities
         18%                                     Property,                                                                           91%
                                                  Plant &
                                                 Equipment
                                                    36%




Investments
   19%                                                                     Liabilities. The Consolidated Balance Sheet shows
                                                                           that DoD liabilities as of September 30, 2004, were
                                                                           $1.7 trillion, an increase of $150.5 billion (10%) from
                                       Fund Balance
                                       with T reasury
                                                                           fiscal year 2003.
                                            24%                            Military Retirement Benefits and Other Employment
                                                                           Related Actuarial Liabilities increased $140.1 billion
                                                                           primarily due to a new law which allows certain
Assets. The Consolidated Balance Sheet shows that                          disabled military retirees to concurrently receive
DoD assets as of September 30, 2004, were                                  disability payments from the Veterans Administration
$1.2 trillion, an increase of $67.2 billion (6%) from                      and their DoD military retirement pay. Prior to this
fiscal year 2003.                                                          legislation, disability payments offset military
                                                                           retirement payments by an equal amount.
Increased funding to fight the global war on terror
caused the Fund Balance with Treasury to increase                          Environmental Liabilities increased by $2.9 billion
$37.5 billion.                                                             primarily due to improved accuracy in the reporting
                                                                           of environmental liabilities.
Investments increased by $25.9 billion primarily due
to positive security cash flows for the Military                           Accounts Payable increased by $2.2 billion primarily
Retirement Trust Fund and the Medicare Eligible                            due to the global war on terror.
Retiree Health Care Fund for retired military
members and their dependents.
                                                                                                    Liabilities
                            Assets                                                                   Fiscal          Fiscal
                                                                                                     Year            Year           Change
                                                                             Liability Type
                              Fiscal         Fiscal                                                  2004            2003
                              Year            Year           Change                                                 Billions
     Asset Type
                              2004            2003                         Military
                                            Billions                       Retirement
Property, Plant, and                                                       Benefits and other
                               $440.9           $446.3         -$5.4                                 $1,569.7        $1,429.6          $140.1
Equipment                                                                  Employment
Fund Balance with                                                          Related Actuarial
                               $289.6           $252.1         $37.5
Treasury                                                                   Liabilities
Investments                    $231.5           $205.6         $25.9       Environmental
                                                                                                           $64.4         $61.5            $2.9
Inventory and Related                                                      Liabilities
                               $213.2           $205.5          $7.7
Property                                                                   Accounts Payable             $30.2           $28.0            $2.2
Other Assets                    $33.3            $31.8          $1.5       Other Liabilities            $45.8           $40.5            $5.3
Total                        $1,208.5         $1,141.3         $67.2       Total                     $1,710.1        $1,559.6          $150.5



DoD Performance and Accountability Report                             16           Part 1: Management Discussion and Analysis
Costs. The Consolidated Statement of Net Cost                            Budget Authority. This is the authority provided by
shows that the net cost of operations for the                            law to incur financial obligations that will result in
Department of Defense for fiscal year 2004 was                           outlays. Specific forms of budget authority include
$605.4 billion, an increase of $93.1 billion (18%)                       appropriations, borrowing authority, contract
from fiscal year 2003. The principal reasons for this                    authority, and appropriation transfers from other
increase were the military retirement program’s new                      agencies. The Combined Statement of Budgetary
legislation just discussed and the global war on terror.                 Resources shows that the amount of budget authority
As indicated by the table below, increases occurred in                   the Department had for fiscal year 2004 was
several major military programs to support this effort.                  $616.5 billion. This is a $40.0 billion (7%) increase
Most notably, the Department’s military retirement                       from fiscal year 2003. Increased funding to fight the
costs increased $52.2 billion due to increased                           global war on terror caused this increase and the
actuarial liabilities. In addition, costs to operate,                    corresponding increases to both obligations and
maintain, supply and transport forces increased by                       outlays, which are discussed below.
$14.6 billion. The Consolidating Statement of Net
Cost provides a more detailed breakout of the                            Obligations. An obligation is a binding agreement that
Department’s costs.                                                      will result in outlays, immediately or in the future.
                                                                         Budgetary resources must be available before obligations
                              Costs                                      can be incurred legally. The Combined Statement of
                              Fiscal         Fiscal                      Budgetary Resources shows that obligations made
                              Year           Year          Change        during fiscal year 2004 were $720.9 billion, an increase
  Program Type                                                           of $51.1 billion (8%) from fiscal year 2003.
                              2004           2003
                                            Billions
Military Personnel             $112.3         $108.9          $3.4       Outlays. An outlay is a payment to liquidate an
Operation &                    $187.1         $172.5         $14.6       obligation (other than the repayment of debt principal).
Maintenance
                                                                         Outlays generally are equal to cash disbursements, but
Procurement                     $79.2              $60.0     $19.2
                                                                         also are recorded for cash-equivalent transactions, such
Research,                       $56.8              $51.1      $5.7
Development, Test
                                                                         as the subsidy cost of direct loans and loan guarantees,
& Evaluation                                                             and interest accrued on issues of public debt. Outlays
Military Retirement            $153.5          $101.3        $52.2       are the measure of government spending. The
Other Programs                  $16.5           $18.5        -$2.0       Combined Statement of Budgetary Resources shows that
Total                          $605.4          $512.3        $93.1       outlays made during fiscal year 2004 were
                                                                         $521.1 billion, an increase of $52.6 billion (11%) from
                                                                         fiscal year 2003.
Revenues. The Consolidated Statement of Net Cost
shows that the total revenues received by the                                    Statement of Budgetary Resources
Department for fiscal year 2004 were $37.8 billion.                                        ($ in billions)
This is a $12.0 billion (47%) increase in revenues
from fiscal year 2003. The increase in revenues was                         $800.0
mainly due to the U.S. Treasury directing that other
gains on assets be treated as revenue, whereas                              $600.0
previously other gains were netted against costs.
                                                                            $400.0

                      Revenues                                              $200.0
                    ($ in billions)                                           $0.0
                                                                                     Budget Authority   Obligations      Outlays

  $40.0                                                                                      Fiscal Year 2003     Fiscal Year 2004
  $30.0
  $20.0                                $37.8
                $25.8
  $10.0
   $0.0
           Fiscal Year 2003     Fiscal Year 2004




DoD Performance and Accountability Report                           17          Part 1: Management Discussion and Analysis
Compliance with Legal and Regulatory
Requirements
Each year the Department works aggressively to
comply with laws made by Congress to ensure that
the federal government provides the best possible        Chief Financial Officers
service to the American people. Among these laws
are the:                                                 Act
•   Chief Financial Officers Act of 1990
•   Federal Managers’ Financial Integrity Act of         The Chief Financial Officers Act requires federal
    1982                                                 agencies to prepare auditable annual financial
•   Federal Financial Management Improvement Act         statements. Each year, the Department prepares
    of 1996                                              financial statements.
•   Inspector General Act Amendments of 1988
•   Improper Payments Information Act of 2002            As discussed earlier, several of the Department’s
                                                         subordinate agencies have received a favorable audit
                                                         opinion on their financial statements. However, to
                                                         date, the DoD-wide statements have received a
                                                         disclaimer of opinion from the auditors, which means
                                                         the statements are not able to be audited.

                                                         The Department created detailed financial
                                                         improvement plans. These plans identify specific
                                                         corrective actions, costs, and key milestones for
                                                         improving the information reported in the
                                                         Department’s financial statements.

                                                         To minimize the funds spent on audits until the
                                                         financial statements are ready for audit, the
                                                         Department implemented a rigorous five phase
                                                         process in FY 2004. Phase one requires entities to
                                                         identify and correct deficiencies in financial
                                                         reporting. In phase two, management is required to
                                                         validate that the deficiencies were corrected. After
                                                         the validation, management is to assert to the auditors
                                                         that the information is reliable in phase three. The
                                                         assertion process contains detailed requirements for
                                                         documenting the basis for asserting. In phase four,
                                                         the auditors perform an assessment to determine audit
                                                         readiness. If the information is ready, the auditors
                                                         will perform a full audit in phase five.

                                                         The Department currently has 11 auditor identified
                                                         financial statement material weaknesses. A summary
                                                         of these weaknesses and their corrective status
                                                         follows.




DoD Performance and Accountability Report           18           Part 1: Management Discussion and Analysis
Financial Statement                        Description                                        Status
    Weakness
Financial Management        The DoD systemic deficiencies in financial        The Department developed the initial
Systems                     management systems and business                   version of a new business enterprise
                            processes result in the inability to collect      architecture. The architecture helps
                            and report financial and performance              describe how the Department’s
                            information that is accurate, reliable, and       business processes and systems will
                            timely.                                           integrate to ensure that accurate and
                                                                              timely financial information is readily
                                                                              available for decision makers.


Intragovernmental           The inability to reconcile most                   The Department is taking action
Eliminations                intragovernmental transactions results in         internally and with other federal
                            adjustments that cannot be fully supported.       agencies to help resolve this issue.


Accounting Entries          The DoD continues to enter material               The Department has implemented a
                            amounts of unsupported accounting                 training program to minimize
                            entries.                                          unsupported accounting entries and is
                                                                              tracking progress through the financial
                                                                              metrics program. Total elimination of
                                                                              these entries is contingent upon full
                                                                              implementation of the Department’s
                                                                              business enterprise architecture, new
                                                                              systems, and business processes.



Fund Balance with           The Department has been unable to fully           The Department strengthened internal
Treasury                    reconcile its records to those of the U.S.        controls for disbursements through
                            Treasury.                                         reconciliation training and metric
                                                                              tracking to more accurately record
                                                                              disbursements. The Department also
                                                                              obtained legislation to clear old
                                                                              unreconcilable suspense accounts and
                                                                              check issue differences. The
                                                                              Department has a multi-phase program
                                                                              underway to enhance system
                                                                              functionality for improving expenditure
                                                                              reconciliation and reporting.


Environmental Liabilities   Guidance and audit trails are insufficient.       The Department issued guidance for
                            The inventory of ranges and operational           closed sites in October 2002 and
                            activities (landfills, open burning pits, etc.)   continues to issue guidance for on-
                            is incomplete.                                    going operations. Inventories of
                                                                              operational and non-operational ranges
                                                                              are complete. Additional review and
                                                                              validation is needed to ensure audit
                                                                              trails are sufficient.




DoD Performance and Accountability Report               19               Part 1: Management Discussion and Analysis
Financial Statement                        Description                                      Status
    Weakness
General Property, Plant      The cost and depreciation of DoD General        The Department implemented guidance
and Equipment (PP&E)         PP&E is not reliably reported due to: (a) a     and training to improve property
                             new accounting requirement that went into       accountability and provide better
                             effect in FY 2003 that classifies military      financial reporting. The Department
                             equipment as General PP&E (such costs           plans to complete valuations of all
                             were previously expensed), (b) a lack of        known military equipment programs by
                             supporting documentation for General            September 2005. The military
                             PP&E which were purchased many years            equipment baseline will be updated to a
                             ago, and (c) most legacy property and           single base year in fiscal year 2006.
                             logistics systems are not integrated with       The Department plans to develop a
                             acquisition and financial systems and were      white paper on accounting and
                             not designed to capture the acquisition         reporting for spare parts, based on the
                             cost, cost of modifications and upgrades,       practices of other Federal agencies and
                             or calculate depreciation.                      private sector organizations. The paper
                                                                             will be submitted to the Federal
                                                                             Accounting Standards Advisory Board,
                                                                             with resolution anticipated by
                                                                             March 2005.
Government Property and      The cost of DoD property and material in        The Department is developing policy
Material in the Possession   the possession of contractors is not reliably   and processes to help correct this
of Contractors               reported due to a lack of an integrated         weakness. Implementation of new
                             reporting methodology.                          policy and the Department’s business
                                                                             enterprise architecture will eliminate
                                                                             this problem. To improve
                                                                             accountability, accuracy, and
                                                                             reliability, DoD is in the process of
                                                                             creating an on-line government
                                                                             property system to be jointly used by
                                                                             government and industry for recording
                                                                             property in the possession of
                                                                             contractors.

Inventory                    The existing inventory valuation at most        The Department issued a change in
                             activities is not reported in accordance        policy in fiscal year 2001 to begin
                             with generally accepted accounting              valuing inventory at moving-average-
                             principles.                                     cost to comply with historical cost
                                                                             valuation requirements. In fiscal
                                                                             year 2004, the Department chartered
                                                                             the Inventory and Operating Materials
                                                                             and Supplies Working Group to
                                                                             identify and develop processes and
                                                                             methods leading to inventory valuation
                                                                             based on historical costs. This effort
                                                                             involves assessing the Department’s
                                                                             major logistics and financial systems—
                                                                             current and future—to determine the
                                                                             adequacy for producing historically-
                                                                             based valuations. The working group
                                                                             is developing valuation techniques
                                                                             where standard methods are not
                                                                             feasible or practical.




DoD Performance and Accountability Report               20              Part 1: Management Discussion and Analysis
Financial Statement                     Description                                    Status
    Weakness
Operating Materials and   The Department’s systems were designed       The Inventory and Operating Materials
Supplies                  to expense materials when purchased          and Supplies Working Group is
                          rather than when consumed.                   addressing this issue by examining the
                                                                       Department’s practices, processes, and
                                                                       systems to determine the appropriate
                                                                       Department-wide business rules and
                                                                       systems that will correct this weakness.




Statement of Net Cost     The Statement of Net Cost is not presented   The implementation of the
                          by programs that align with major goals      Department’s business enterprise
                          and outputs described in the DoD’s           architecture will correct this weakness.
                          strategic and performance plans required
                          by the Government Performance and
                          Results Act. Revenues and expenses are
                          reported by appropriation categories
                          because financial processes and systems do
                          not collect costs in line with performance
                          measures.


Statement of Financing    The DoD cannot reconcile budgetary           The implementation of the
                          obligations to net cost without making       Department’s business enterprise
                          unsupported adjustments.                     architecture will correct this weakness.




DoD Performance and Accountability Report           21             Part 1: Management Discussion and Analysis
Federal Managers’ Financial                                     full disclosure of material weaknesses, and prompt
                                                                resolution of previously reported material weaknesses.
Integrity Acthe                                                 The scorecard has already improved the timeliness of
                                                                component feeder statements. In fiscal year 2003, only
The Federal Managers’ Financial Integrity Act requires          48% of the feeder statements were received on time.
federal agencies to assess the effectiveness of                 This fiscal year 88% of the feeder statements were on
management controls for program, operational, and               time.
administrative areas as well as accounting and financial
management. Management controls are the                         Beginning at mid-year in fiscal year 2004, the
organization, policies, and procedures which are                Department began using the automated system, Financial
considered the tools that help program and financial            Information Progress System, to quarterly track and
managers achieve results and safeguard the integrity of         update the progress of corrective actions for reported
their programs.                                                 weaknesses. Quarterly tracking has increased the
                                                                leaderships’ awareness of the importance the Department
Using self-assessments as the basis, this Act requires          places on prompt resolution of reported weaknesses.
agency heads to provide an annual statement of
assurance on the effectiveness of the management                In fiscal year 2004, the Department conducted training
controls and to include material weaknesses found in            briefings for 25 percent of the Defense components. In
management controls that warrant reporting to a higher          addition, the Department conducted training at the
level. The Department’s fiscal year 2004 Annual                 American Society of Military Comptrollers national
Statement of Assurance is provided in the Deputy                training session, the Professional Military Comptroller
Secretary’s Message at the front of this report.                School, and a Senior Executive Service orientation class.

Maintaining integrity and accountability in programs and The Department strongly encourages forthright reporting
operations:                                              of material weaknesses in management controls on all
                                                         operations important to accomplishing the mission of
(1) is critical for good government,                     defending our nation from adversaries, foreign or
(2) demonstrates responsible stewardship over assets     domestic. As weaknesses are corrected, new ones may
     and resources,                                      be identified and the total number of weaknesses can
(3) promotes high-quality, responsible leadership,       fluctuate. Therefore, the outstanding number of
(4) enhances the sound delivery of services              uncorrected weaknesses may not change significantly
     to customers, and                                   from one fiscal year to another. The Department
(5) maximizes desired program outcomes.                  monitors corrective activities and does not allow
                                                         milestone slippage without justification by senior
In fiscal year 2004, the Department took numerous steps leaders. In fiscal year 2004, the Department notified the
to improve the Department-wide training, awareness,      leaders of all DoD component activities that failure to
communication, and emphasis for full disclosure and      correct material weaknesses in a timely manner is
prompt resolution of weaknesses. Early in the year, the  unacceptable. One of the main reasons for the inability
Department conducted a Department-wide conference        to correct weaknesses on time has been overly optimistic
attended by more than 100 representatives from 70% of    projections. The Department is emphasizing the
the Department’s components. The Controller of the       importance of using more realistic projections.
Office of Management and Budget helped kick off the
conference and made the case for the importance of       The Department uses periodic self-assessments as the
identifying and promptly resolving material weaknesses basis for the annual statement of assurance and reports
in the functional area of financial reporting. At the    management control weaknesses relating to Sections 2
conference, the Department introduced a newly designed and 4 of the Federal Managers’ Financial Integrity Act.
DoD scorecard used to measure important elements of      Section 2 requires “internal accounting and
the Defense components’ feeder statements. These         administrative controls that reasonably ensure costs
feeder statements are essential in developing the DoD    comply with applicable laws, assets are safeguarded, and
Statement of Assurance. The categories scored in the     revenue and expenses are recorded and accounted for
development of the DoD feeder statements are the         properly.” Section 4 requires that “accounting systems
timeliness of the statements, accuracy and completeness conform to principles, standards or related requirements
of the feeder reports, program execution and training to prescribed by the Comptroller General.”
ensure robust assessments of the management controls,


DoD Performance and Accountability Report                  22              Part 1: Management Discussion and Analysis
The Department classifies management control                In fiscal years 2002, 2003, and 2004, the Department
weaknesses into 3 categories:                               reported one Section 4 System Nonconformance
                                                            Weakness which encompasses the entire DoD financial
  1. Section 2 Systemic Weaknesses:                         system noncompliance with control requirements. The
  Weaknesses materially affecting management                Department also considers DoD financial system’s
  controls across organizational and program                noncompliance as a systemic weakness affecting
  lines and usually affecting multiple DoD                  multiple DoD components. In addition, the auditors
  components.                                               have identified DoD financial systems as a material
                                                            weakness under the requirements of the Chief Financial
  2. Section 2 Material Weaknesses:                         Officers Act in fiscal years 2002, 2003, and 2004.
  Weaknesses materially affecting management
  controls that warrant reporting to a higher level         The following four tables list the weaknesses grouped
  and usually affect a single DoD component.                differently as Section 2 (corrected or ongoing) and
                                                            Section 4 (ongoing only).
  3. Section 4 System Nonconformance
  Weaknesses: System nonconformance with                    Table I, Section 2 Corrected Material and Systemic
  the principles, standards or related                      Weaknesses lists 11 corrected during this fiscal year (10
  requirements prescribed by the Comptroller                material and 1 systemic weakness).
  General.
                                                            Table II, Section 2 Systemic Weaknesses – Ongoing
                                                            lists the nine systemic weaknesses that remained opened
Last fiscal year, the Department had 40 uncorrected         at the end of fiscal year 2004, one of which was newly
Section 2 weaknesses. In fiscal year 2004, the              identified this fiscal year.
Department reported 17 new weaknesses and corrected
11 weaknesses, leaving 46 uncorrected weaknesses at the     Table III, Section 2 Material Weaknesses – Ongoing
end of fiscal year 2004. Of the 17 new weaknesses, 1 is     lists the 37 ongoing material weaknesses. Twelve are
systemic and 16 are material weaknesses. The                financial issues of which five are new. Twenty-five are
Department began fiscal year 2004 with 17 financial         related to non-financial issues of which 11 were newly
weaknesses of which 5 were systemic and 12 were             identified this fiscal year. For these material
material. During the year, the Department corrected 5       weaknesses, a sample of the corrective actions was
relating to financial issues and reported 5 as new          selected for reporting. Each material weakness is
material weaknesses, ending the year with a total of 17.    required to have a validation as the final action to ensure
                                                            that the weakness is corrected.
The Department identified 9 areas that affect numerous
DoD components as systemic weaknesses. The              Table IV, Section 4 Systemic Weaknesses – Ongoing
Department identified the remaining 37 weaknesses as    lists the 1 ongoing Section 4 system nonconformance
material weaknesses affecting the individual components material weakness.
as indicated on the table below.




 Table I. Section 2 Corrected Material and Systemic Weaknesses                          DoD Component

 1. The actual loss of government funds could not always be fully identified
                                                                                        Defense Finance and
 because of improper disbursement transaction processing and inadequate
                                                                                        Accounting Service
 documentation. (Material Weakness)

 2. Due to inadequate supporting documents, freight supply payments are not             Defense Finance and
 properly pre-certified before they are made. (Material Weakness)                       Accounting Service

 3. Payments less than $2,500 are not always certified and post payment audits are
                                                                                        Defense Finance and
 not always performed on electronic vendor payments to verify that the supporting
                                                                                        Accounting Service
 documentation is correct. (Material Weakness)




DoD Performance and Accountability Report              23              Part 1: Management Discussion and Analysis
 Table I. Section 2 Corrected Material and Systemic Weaknesses                         DoD Component
 (Continued)

 4. Adequate management controls were not in place to detect or prevent                Office of the Under Secretary
 disbursements in excess of obligations. (Material Weakness)                           of Defense for Comptroller

 5. The military pay system has made invalid payments resulting in members             Defense Finance and
 separating from service in debt. (Material Weakness)                                  Accounting Service

 6. Better controls are needed to properly account for proceeds from submarine         Defense Threat Reduction
 dismantlement scrap revenues. (Material Weakness)                                     Agency

 7. Not all DoD components have completed essential continuity of operations           Defense Threat Reduction
 plans. (Material Weakness)                                                            Agency

 8. Responsible DoD officials failed to secure host nation telecommunications
 agreements necessary to maximize the combat effectiveness of warfighters.             Department of the Air Force
 (Material Weakness)

 9. Controls were not adequate to ensure that the program manager of the Joint         Office of the Under Secretary
 Chemical Agent Detector—an Acquisition Category III program—reported cost             of Defense for Acquisition,
 breaches to the acquisition program baseline. (Material Weakness)                     Technology and Logistics

 10. DoD risks improperly storing Privacy Act information on systems. (Material        DoD Counterintelligence
 Weakness)                                                                             Field Activity
 11. Acquisition oversight is not always adequate when contracting for DoD
 services and can result in failure to obtain the best value on individual             Office of the Under Secretary
 procurements. (Systemic Weakness) [Management took action to resolve this             of Defense for Acquisition,
 weakness and reported it closed. However, new concerns identified by auditors         Technology and Logistics
 during FY 2004 will be reviewed and the impact assessed.]


                               Table II. Section 2 Systemic Weaknesses -- Ongoing
                  1. Department of Defense Financial Management Systems and Processes
 Title


 Description of   The Department of Defense financial and business management systems and processes are costly
 Issue            to maintain and operate, not fully integrated, and do not provide information that is reliable,
                  timely, and accurate.

 Progress to          A. Completed Milestones:
 Date
                           •    Created a portfolio management approach to review information technology
                                investments.

                           •    Incorporated the Enterprise Business Process Model into the Business Enterprise
                                Architecture release 2.1.

                           •    Established integrated goals, objectives, measures, and targets.

                           •    Initiated a single Department-wide information technology registry to track all
                                business systems.



DoD Performance and Accountability Report              24             Part 1: Management Discussion and Analysis
                       Table II. Section 2 Systemic Weaknesses – Ongoing (Continued)
                  1. Department of Defense Financial Management Systems and Processes (Continued)
 Title

 Progress to          B. Planned Milestones for FY 2005:
 Date
 (Continued)               •   Complete the Business Enterprise Architecture (BEA) Increment #1, which
                               includes business processes in support of an unqualified audit opinion.
                           •   Perform targeted portfolio management reviews as part of the FY 2005 through
                               FY 2006 planning, programming, and budgeting process.
                      C. Planned Milestones for Beyond FY 2005:
                           •   Complete BEA Increment #2, which focuses on business processes that support
                               acquisition practices, total asset visibility, accurate valuation of assets, military
                               health care delivery, and environmental safety and occupational health.
                           •   Complete BEA Increment #3, which focuses on business processes that support the
                               planning, programming, budgeting and execution, total force management, and
                               installations management.
                           •   Complete targeted portfolio management reviews, which are part of the
                               Department’s planning, programming, budgeting, and execution process.

                                          Correction Target Date: 4th Quarter, FY 2007

 Title            2. Management of Information Technology and Assurance

 Description of   The Department of Defense information systems are potentially vulnerable to an information
 Issue            warfare attack. In addition, this issue has also been reported as a “significant deficiency” under
                  the reporting requirements of the Federal Information Security Management Act.

 Progress to           A. Completed Milestones:
 Date
                           •   Expanded the authority of the United States Strategic Command to include network
                               operations and information assurance.
                           •   Completed and updated the Department of Defense policies addressing public key
                               infrastructure and enterprise-wide certification requirements for information
                               assurance / technology professionals.
                           •   Completed the draft revision and informal coordination of the certification and
                               accreditation policy, which improves compliance and provides an enterprise
                               management capability.
                           •   Developed and piloted an automated security certification and accreditation process
                               for information systems. Began the expansion to more robust web based design
                               using shared information and services that deliver improved functionality by
                               interconnecting data transactions into a common database.
                           •   Awarded the Department of Defense-wide enterprise license for an information
                               assurance vulnerability scanning tool.




DoD Performance and Accountability Report              25              Part 1: Management Discussion and Analysis
                       Table II. Section 2 Systemic Weaknesses – Ongoing (Continued)

 Title            2. Management of Information Technology and Assurance (Continued)

 Progress to           B. Planned Milestones for FY 2005:
 Date
 (Continued)              •    Revise the security certification and accreditation policy in order to improve
                               compliance and to provide an enterprise management capability.
                          •    Incorporate a revised certification and accreditation process, including vulnerability
                               management and complete the piloting process. Continue modular development
                               and deployment of additional services to support the information assurance
                               processes, e.g., investment and resource management.
                          •    Award the enterprise licenses for automated IA tools to patch vulnerabilities and
                               prevent malicious modification of Operating Systems.
                       C. Planned Milestones for Beyond FY 2005:
                          •    Provide the United States Strategic Command real-time situational awareness of the
                               Department of Defense posture. Provide information assurance management tools
                               as a core enterprise service.

                                         Correction Target Date: 3rd Quarter, FY 2007

 Title            3. Environmental Liabilities


 Description of   The Department of Defense has not developed the policies, procedures, and methodologies
 Issue            needed to ensure that cleanup costs for all of its ongoing and inactive or closed operations are
                  identified, consistently estimated, and appropriately reported. Site inventories and cost
                  methodologies to identify budget requirements and financial liabilities continue to need
                  improvement.

 Progress to           A. Completed Milestones:
 Date
                          •    Provided guidance to accomplish an initial operational range inventory.

                          •    Reported the operational range inventory to Congress in February of FY 2004.

                          •    Completed a real property inventory business process reengineering and presented
                               the concept for Department of Defense-wide review.

                          •    Revised the Financial Management Regulation for liability recognition and
                               reporting for operational ranges and munitions response areas.

                          •    Published the directive entitled “Sustainment of Ranges and Operating Areas,” that
                               requires reporting of environmental remediation liabilities.

                          •    Issued planning guidance that requires the assessment of environmental condition
                               of the operational ranges.




DoD Performance and Accountability Report             26              Part 1: Management Discussion and Analysis
                              Table II. Section 2 Systemic Weaknesses -- Ongoing

                  3. Environmental Liabilities (Continued)

 Progress to           B. Planned Milestones for FY 2005:
 Date
 (Continued)              •    Develop an inventory of non-Defense Environmental Restoration Program
                               activities.
                          •    Develop the non-Defense Environmental Restoration Program liability estimates.
                          •    Assess the progress made by the Military Services in reporting complete, accurate,
                               and supported environmental liability data during the review of the FY 2004
                               financial statements.
                       C. Planned Milestones for Beyond FY 2005:
                          •    Update the site inventories and environmental liability estimates of the Defense
                               Environmental Restoration and the non-Defense Environmental Restoration
                               Programs.
                          •    Assess the progress made by the Military components in reporting complete,
                               accurate, and supported environmental liability data during review of the FY 2005
                               financial statements.

                                            Correction Target Date: 1st Quarter, FY 2006

 Title            4. Personnel Security Investigations Program


 Description of   The Department of Defense hiring is adversely affected because personnel security investigations
 Issue            are backlogged.


 Progress to          A. Completed Milestones:
 Date
                          •    Signed an interagency agreement with the Office of Personnel Management to
                               allow the Defense Security Service to use the Office of Personnel Management
                               computer system for tracking and controlling the Department of Defense personnel
                               security investigations and case processing.

                          •    Realigned 200 overhead positions in the Defense Security Service to investigator
                               positions, redesigned the organizational structure, closed offices that lacked
                               sufficient work, and deployed “tiger teams” to conduct overseas investigations.
                               Reduced the number of pending cases in the case control management system from
                               over 400,000 to less than 57,000.

                          •    Reinforced quality reviews of contractor work. Issued to the contractors cure
                               letters for failing to meet agreed upon timelines. Took back a number of
                               investigations from the contractors.

                      B. Planned Milestones for FY 2005:
                          •    50 percent of the investigations are submitted within the agreed upon timeframes.




DoD Performance and Accountability Report             27             Part 1: Management Discussion and Analysis
                       Table II. Section 2 Systemic Weaknesses – Ongoing (Continued)

 Title            4. Personnel Security Investigations Program (Continued)

 Progress to           C. Planned Milestones for Beyond FY 2005:
 Date
 (Continued)              •    80 percent of the investigations within the agreed upon timeframe by the end of
                               FY 2005.
                          •    100 percent of the goal for investigations by the end of FY 2006.


                                          Correction Target Date: 4th Quarter, FY 2006

 Title            5. Real Property Infrastructure


 Description of   The Department has not adequately managed the real property infrastructure to halt the
 Issue            deterioration or obsolescence of facilities on military installations.


 Progress to           A. Completed Milestones in FY2004:
 Date
                          •    Conducted a comprehensive review of planned facilities sustainment programs,
                               resulting in an increase of $85 million in funding for FY 2005.

                          •    Preserved the previously approved corporate facilities sustainment rate at 95
                               percent of benchmarks in FY 2005.

                          •    Improved funding to support an overall facilities recapitalization rate of 136 years,
                               down from a funded rate of 149 years in FY 2003.

                          •    Issued updated strategic planning guidance to the Defense components addressing
                               sustainment and recapitalization goals.

                          •    Initiated new efforts to model the operation costs for facilities and forecast
                               requirements.

                          •    Published an updated Defense Installations Strategic Plan, expanding the focus to
                               include environment and installation services, and directed the Defense components
                               to prepare implementation plans.

                          •    Initiated a second survey of demolition and disposal requirements for obsolete and
                               excess assets.

                          •    Completed a study of facility restoration requirements to update the target date for
                               restoring adequate readiness conditions.




DoD Performance and Accountability Report              28             Part 1: Management Discussion and Analysis
                       Table II. Section 2 Systemic Weaknesses – Ongoing (Continued)

 Title            5. Real Property Infrastructure (Continued)

 Progress to           B. Planned Milestones for FY 2005:
 Date
 (Continued)               •   Initiate common reporting of facility conditions.
                           •   Set new corporate demolition and disposal targets for removing obsolete and excess
                               assets from the inventories.
                           •   Release a real property requirements model that addresses requirements for facility
                               related services, utilities, and leasing.

                                            Correction Target Date: 1st Quarter, FY 2008

 Title            6. Government Card Program Management

 Description of   Instances of misuse, abuse, and fraud in respect to purchase and travel card use, and centrally
 Issue            billed accounts have been attributed to inadequate DoD emphasis on proper use of the cards,
                  poorly enforced controls, and lax oversight.


 Progress to      Purchase Card Program:
 Date
                       A. Planned Milestones for FY 2005:

                           •   Implement a self-certification process to assess the creditworthiness of prospective
                               cardholders at all 1,400 local union bargaining units.

                           •   Issue the Charge Card Guidebook, including governing laws and regulations and
                               business rules for purchase, travel, fleet, and air cards.

                           •   Begin use of the on-line statement review, approval, and certification.

                           •   Make available an enhanced centralized data mining tool to detect fraudulent,
                               wasteful, and abusive card transactions.

                           •   Independently verify the fraud detection process.

                   Travel Card Program:

                      A. Completed Milestones in FY 2004:

                           •   Updated Joint Federal Travel Regulation and Joint Travel Regulation specifically
                               prohibiting commercial travel offices from issuing premium class tickets without
                               proper approval.

                           •   Issued guidance directing Defense components to modify contracts with
                               commercial travel offices so that performance standards direct them not to issue
                               airline tickets for premium class travel unless the traveler’s orders identify that
                               premium class travel is authorized.




DoD Performance and Accountability Report              29             Part 1: Management Discussion and Analysis
                      Table II. Section 2 Systemic Weaknesses – Ongoing (Continued)

 Title           6. Government Card Program Management (Continued)

 Progress to     Travel Card Program (Continued):
 Date
                     A. Completed Milestones in FY 2004 (Continued):
 (Continued)
                         •   Issued policy for all travelers to return unused paper and electronic tickets to their
                             travel offices.
                         •   Issued policy to commercial travel offices to cancel unused tickets 30 days after the
                             date of the last leg of the itinerary and to initiate refund actions.
                         •   Issued policy directing a contract modification with commercial travel offices that
                             automatically cancels unused tickets 30 days after the date of the last leg of the
                             itinerary and provides reports of unused airline tickets.
                         •   Issued policy to develop processes and procedures that minimize the potential for
                             commercial travel offices to issue airline tickets under fraudulent circumstances.
                         •   Instituted a monthly review of travel card metrics.
                         •   Implemented mandatory split disbursement for military personnel and initiated
                             bargaining for civilian employees.
                         •   Published disciplinary guidelines for both military and civilian personnel and
                             modified systems to record and report instances of disciplinary actions taken.
                         •   Closed 161,000 unused accounts in FY 2004, and approximately 600,000 in
                             FY 2002 and FY 2003.
                         •   Closed 3,900 accounts after reviewing the separation or retirement lists.
                         •   Collected approximately $48 million through salary offset.
                         •   Issued exemptions from mandatory use of the government travel charge card for
                             travel related to deployments.
                         •   Instituted a monthly review of charges made on merchant codes that are supposed
                             to be blocked from authorization.
                         •   Implemented a management initiative decision to require higher approval
                             authorities for premium travel and to strengthen management controls.
                      B. Planned Milestones for FY 2005:
                         •   Continue deployment of the travel system.
                         •   Implement a data mining pilot program with the Bank of America to flag and
                             review high-risk transactions.
                         •   Enhance the travel system to provide visibility of charges and additional controls.
                         •   Publish a standard training program.
                         •   Develop additional guidelines for management of centrally billed accounts.
                         •   Establish a self-certification for creditworthiness in the absence of a credit check.




DoD Performance and Accountability Report            30             Part 1: Management Discussion and Analysis
                      Table II. Section 2 Systemic Weaknesses – Ongoing (Continued)

 Title            6. Government Card Program Management (Continued)

 Progress to      Travel Card Program (Continued):
 Date
                      B. Planned Milestones for FY 2005 (Continued):
 (Continued)
                          •   Continue to implement the premium class travel task force recommendations
                              regarding policies for the Department.
                          •   Develop a method for preventing or identifying centrally billed travel tickets
                              claimed for reimbursement on an individual’s travel voucher.
                      C. Planned Milestones Beyond FY 2005:
                          •   Complete deployment of the travel system.

                                         Correction Target Date: 4th Quarter, FY 2006

 Title            7. Valuation of Plant, Property, and Equipment on Financial Reports

 Description of   The Department of Defense is unable to accurately report the value of property, plant, and
 Issue            equipment on its financial statements.

 Progress to          A. Completed Milestones for FY 2004:
 Date
                          •   Established offices and groups of personnel to develop baseline valuations for
                              property, plant, and equipment.
                          •   Received financial improvement and executing plans from components.
                          •   Established recurring reviews of Department of Defense components’ progress
                              against plans.
                          •   Established metrics.
                          •   Issued new guidance for Internal Use Software Financial Management Policy.
                          •   Directed the Defense Commissary Agency and the Military Services to reconcile
                              property under the Department’s “preponderance of use” policy. The Department
                              has begun a similar initiative with the other Defense agencies.
                      B. Planned Milestones for FY 2005:
                          •   Obtain agreement between the Government Accountability Office and the Office of
                              the Inspector General, Department of Defense, on a 1998 real property baseline.
                          •   Publish the Federal Acquisition Regulation rule for property in the hands of
                              contractors.
                          •   Publish business rules for the military equipment valuation in the Financial
                              Management Regulations.
                          •   Reconcile other Defense Agencies’ property under the “preponderance of use” rule,
                              which will be issued by Office of the Under Secretary of Defense (Comptroller).




DoD Performance and Accountability Report            31             Part 1: Management Discussion and Analysis
                       Table II. Section 2 Systemic Weaknesses – Ongoing (Continued)

 Title            7. Valuation of Plant, Property, and Equipment on Financial Reports (Continued)

 Progress to          C. Planned Milestones Beyond FY 2005:
 Date
 (Continued)               •   Complete the establishment of baseline values for military equipment.
                           •   Ensure that the Military Departments assert that property, plant, and equipment
                               ending balances are ready for audit.
                           •   Ensure that the Military Department Audit Services complete their reviews and
                               inform the Department of Defense Inspector General that Military Departments are
                               ready for financial statement audits.
                           •   Ensure that the audit community completes the audits and the Department receives
                               an unqualified audit opinion.


                                              Correction Target Date: 4th Quarter, FY 2006

 Title            8. Valuation of Inventory on Financial Reports


 Description of   The valuation of inventory is not always correctly reported.
 Issue

                       A. Completed Milestones for FY 2004:
 Progress to
 Date                      •   Convened an inventory working group charged with developing a baseline for
                               inventory valuation, establishing methodologies for valuing inventory, and testing
                               the existence and completeness assertions.
                           •   Updated the policy on unique identification of assets.
                           •   Established an operating materials and supplies group, which is developing a
                               methodology for baseline valuation.
                       B. Planned Milestones for FY 2005:
                           •   Issue new and revised policies as a result of the inventory working group findings
                               and recommendations.
                           •   Resolve issues regarding testing identified by the inventory working group.
                           •   Issue a final “unique identification and valuation” rule.
                           •   Issue Defense Federal Acquisition Regulation Supplement rule for radio frequency
                               identification.




DoD Performance and Accountability Report             32              Part 1: Management Discussion and Analysis
                      Table II. Section 2 Systemic Weaknesses – Ongoing (Continued)

 Title            8. Valuation of Inventory on Financial Reports (Continued)

 Progress to           C. Planned Milestones Beyond FY 2005:
 Date
 (Continued)              •   Extend “unique identification and valuation” rule to legacy items.
                          •   Resolve issues concerning testing that are identified by the inventory working
                              group.


                                          Correction Target Date: 2nd Quarter, FY 2006


 Title            9. Improper Use of Non-Department of Defense Contracting Vehicles


 Description of       Non-Department of Defense contracting vehicles have been used improperly to procure
 Issue                services or supplies. (Newly reported: FY 2004)


 Progress to           A. Completed Milestones for FY 2004:
 Date
                          •   Developed and coordinated guidance.

                          •   Developed training.

                          •   Conducted outreach programs with assisting civilian agencies.
                      B. Planned Milestones for FY 2005:

                          •   Issue policy memorandum.

                          •   Issue interim rules in the Defense Federal Acquisition Regulation Supplement.

                          •   Initiate workforce training.

                          •   Begin obtaining reports on the Department of Defense use of non-Department of
                              Defense contracts from assisting civilian agencies.

                      C. Planned Milestones for Beyond FY 2005:

                          •   Complete a compliance review regarding the implementation of the policies for
                              proper use of non-Department of Defense contracts.



                                        Correction Target Date: 2nd Quarter, FY 2006




DoD Performance and Accountability Report            33             Part 1: Management Discussion and Analysis
                               Table III. Section 2 Material Weaknesses – Ongoing

                                                                                                       Indicates
       Financial Material
                                                    Major Corrective Action(s)                       Completed or
          Weaknesses
                                                A sample of the actions is presented.                 Milestone
                                                                                                         Date
                                                                                                        Qtr/FY
 1. Adequate documentation          9   Built crosswalks from the legacy line of accounting to the    Completed
 does not always exist to support       standard fiscal code to the Defense Departmental
 adjustments used to reconcile          Reporting System-Budgetary.
 general ledger data to budgetary
 data. (Defense Finance and         9   Implemented and validated a crosswalk process to map          Completed
 Accounting Service)                    transactions to the appropriate general ledger accounts.
                                    9   Activate the Defense Departmental Reporting System-           2nd / 2005
 First Reported: FY 2003                Budgetary.
                                    9   Validate that the weakness is corrected.                      2nd / 2005

                                         Correction Target Date: 2nd Quarter, FY 2005
 2. Policy for recording,           9   Monitor monthly and perform quarterly reconciliation.         Completed
 reporting, collecting and
 reconciling accounts receivable    9   Publish standard accounts receivable operating                2nd / 2005
 from public and government             procedures for Department.
 sources is not always followed.    9   Conduct random review of compliance to policy and              4th / 2005
 (Defense Finance and                   procedures.
 Accounting Service)
                                    9   Provide assertion that accounts receivables are ready for      1st / 2006
 First Reported: FY 2003                audit.
                                    9   Validate that the weakness is corrected.                       3rd / 2006

                                          Correction Target Date: 3rd Quarter, FY 2006
 3. Estimation of accrued           9   Revise and publish the estimation policy in the DoD            1st / 2005
 liabilities, when goods and            financial management guide.
 services are provided, is not
                                    9   Develop adequate procedures and controls for the DoD           1st / 2005
 always properly monitored due
                                        business enterprise architecture.
 to inadequate controls recording
 undelivered orders. (Defense       9   Validate that the weakness is corrected.                       4th / 2005
 Finance and Accounting
 Service)
                                         Correction Target Date: 4th Quarter, FY 2005
 First Reported: FY 2003
 4. Suspense account balances       9   Legislation passed to allow DoD to write-off aged             Completed
 with the Treasury trial balances       suspense accounts to help reduce the balances to zero.
 are not fully resolved and
                                    9   Began write-offs.                                             Completed
 reconciled. (Defense Finance
 and Accounting Service)            9   Implement courses of action to reduce account activity to      4th / 2005
                                        an acceptable level, thus improving the reconciliation
 First Reported: FY 1997                process.

                                    9   Validate that the weakness is corrected.                       4th / 2005

                                          Correction Target Date: 4th Quarter, FY 2005

DoD Performance and Accountability Report             34             Part 1: Management Discussion and Analysis
                        Table III. Section 2 Material Weaknesses – Ongoing (Continued)


                                                                                                       Indicates
       Financial Material
                                                                                                     Completed or
          Weaknesses                                 Major Corrective Action(s)
                                                                                                      Milestone
          (Continued)                            A sample of the actions is presented.
                                                                                                         Date
                                                                                                       Qtr/FY
 5. Appropriation balances in the    9   Updated procedures on how to reconcile DoD balances          Completed
 accounting records do not always        with the Treasury balances.
 balance with the Treasury’s
                                     9   Conducted the first Department-wide conference               Completed
 balances and transaction level
                                         highlighting business rules.
 reconciliations are not always
 performed. (Defense Finance         9   Expand systems solutions for Treasury reporting.              4th / 2005
 and Accounting Service)
                                     9   Validate that the weakness is corrected.                      4th / 2005
 First Reported: FY 1999
                                           Correction Target Date: 4th Quarter, FY 2005
 6. Telecommunication invoices       9   Began summary certification process for the Defense          Completed
 are not always certified and            information telecommunications.
 obligations are not pre-validated
                                     9   Receive from the Defense Information                          1st / 2005
 prior to payment. (Defense
                                         Telecommunications leadership a formal decision on how
 Finance and Accounting Service)
                                         to account for the receipt of telecommunication services.
 First Reported: FY 2001             9   Validate that the weakness is corrected.                      4th / 2005

                                           Correction Target Date: 4th Quarter, FY 2005
 7. Accounts receivable and          9   Issued standard guidance and procedures for managing         Completed
 accounts payable need to be             accounts receivables and payables.
 actively managed and reduced to
                                     9   Collected, wrote-off, or closed-out supportable and valid    Completed
 acceptable levels. (Defense
                                         account receivables over two years old except for certain
 Logistics Agency)
                                         categories.
 First Reported: FY 2002             9   Implement a plan to liquidate valid over aged accounts        1st /2005
                                         payable and write-off invalid payables.
                                     9   Validate that the weakness is corrected.                      4th / 2005

                                           Correction Target Date: 4th Quarter, FY 2005
 8. Inadequate controls have         9   Standardized the procedures for suspending retirement        Completed
 caused payments to be made to           payments when Department suspects the retiree has died.
 deceased retirees which were not
 reclaimed in an effective or        9   Improved documentation of procedures.                        Completed
 timely manner. (Defense
 Finance and Accounting Service)     9   Train customer service representatives to differentiate       1st / 2005
                                         between an account suspended due to death rather than
 First Reported: FY 2004                 for other reasons.

                                     9   Automate processes for using existing records to              3rd / 2005
                                         determine if payment should be made.

                                     9   Validate that the weakness is corrected.                      3rd / 2005

                                           Correction Target Date: 3rd Quarter, FY 2005

DoD Performance and Accountability Report              35             Part 1: Management Discussion and Analysis
                        Table III. Section 2 Material Weaknesses – Ongoing (Continued)
                                                                                                     Indicates
       Financial Material                                                                          Completed or
                                                    Major Corrective Action(s)
          Weaknesses                                                                                Milestone
                                                A sample of the actions is presented.
          (Continued)                                                                                  Date
                                                                                                      Qtr/FY
 9. Inadequate data being           9   A team was established from all the Services to work in     Completed
 provided to the Services for           concert with finance for a viable solution to the varied
 budget planning results in the         problems.
 appearance of over-obligation on
 the financial statements.          9   Begin implementing forward compatible pay.                   2nd / 2005
 (Defense Finance and
 Accounting Service)                9   Validate that the weakness is corrected.                     3rd / 2005

 First Reported: FY 2004                 Correction Target Date: 3rd Quarter, FY 2005
 10. The accounts payable do not    9   Reviewed current business practices.                         Completed
 always accurately reflect the
 liabilities associated with the    9   Establish a plan of action.                                   1st / 2005
 actual receipt of goods and
 services in the appropriate time   9   Implement metrics to measure magnitude of problem and        2nd / 2005
 period. (Defense Finance and           impact of corrective actions.
 Accounting Service)                9   Validate that the weakness is corrected.                     2nd / 2006

 First Reported: FY 2004                  Correction Target Date: 2nd Quarter, FY 2006
 11. Adequate controls are not in   9   Established control mechanisms to confirm receipt of         Completed
 place to ensure that “fast             payment data.
 payment purchases” are received
                                    9   Developed and distributed standard operating procedures.     Completed
 in Department of the Navy
 vendor pay offices. (Defense       9   Initiated system change requirements to automatically        Completed
 Finance and Accounting Service)        compare receipt data in the supply system to payment
                                        data.
 First Reported: FY 2004
                                    9   Implement system change.                                      1st / 2005

                                    9   Validate system change and implement corrections as           1st / 2005
                                        necessary.
                                    9   Validate that the weakness is corrected.                     3rd / 2005

                                          Correction Target Date: 3rd Quarter, FY 2005
 12. Contract pay services are      9   Implemented a daily validation process that compares         Completed
 non-compliant with Certifying          invoice data to payment data.
 Officer’s Legislation because
                                    9   Modify the contract pay certification process.               2nd / 2005
 some invoices are not
 individually reviewed and          9   Pursue data mining techniques to enhance and automate        2nd / 2005
 certified prior to payment.            the comparison of invoices to payments.
 (Defense Finance and
 Accounting Service)                9   Validate that the weakness is corrected.                     4th / 2005

 First Reported: FY 2004                  Correction Target Date: 4th Quarter, FY 2005




DoD Performance and Accountability Report             36              Part 1: Management Discussion and Analysis
                          Table III. Section 2 Material Weaknesses – Ongoing (Continued)


                                                                                                       Indicates
        Non-Financial                                                                                Completed or
                                                       Major Corrective Action(s)
      Material Weaknesses                                                                             Milestone
                                                   A sample of the actions is presented.
                                                                                                         Date
                                                                                                        Qtr/FY
 13. DoD’s capital investment          9   Completed the inventory of the enterprise information       Completed
 process for information                   technology hardware and established a mechanism to
 technology does not confirm that          maintain it.
 the best investments are selected,
 that they deliver expected            9   Publish a capital planning and investment guide that        2nd / 2005
 benefits, or that the final product       incorporates the portfolio management, enterprise
 or service delivers what DoD              architecture requirements, and information management.
 expects. (Defense Information
                                       9   Validate that the weakness is corrected.                    3rd / 2005
 Systems Agency)
                                            Correction Target Date: 3rd Quarter, FY 2005
 First Reported: FY 2002
 14. Procedures are not always         9   Conducted reviews to ensure proper documentation of         Completed
 adequate to ensure that the prices        “price-reasonableness.”
 paid for contracts are reasonable.
                                       9   Conduct a management review to assess performance.          1st / 2005
 (Defense Logistics Agency)
                                       9   Validate that the weakness is corrected.                    2nd / 2005
 First Reported: FY 2001
                                             Correction Target date: 2nd Quarter, FY 2005
 15. Payments for fuel charges         9   Established an integrated process team for oversight of     Completed
 incurred as part of the DoD Fleet         program management.
 Card have been delinquent.
                                       9   Establish periodic audit procedures. Develop a plan to       1st / 2005
 (Defense Logistics Agency)
                                           ensure oversight responsibilities are adequate.
 First Reported: FY 2002               9   Establish and implement a formal training program for        1st / 2005
                                           program coordinators and end-users.
                                       9   Validate that the weakness is corrected.                     1st / 2005
                                            Correction Target Date: 1st Quarter, FY 2005
 16. Controls for assessing which      9   Obtained Union agreement on mass transit benefits.          Completed
 employees can receive mass
 transit benefits are not always       9   Validate parking decals. Certify employee participation     1st / 2005
 adequate. (Defense Logistics              against the Department of Transportation database.
 Agency)                               9   Validate that the weakness is corrected.                    1st / 2005
 First Reported: FY 2003                     Correction Target Date: 1st Quarter, FY 2005
 17. The Russian Federation            9   The Russian Federation has signed the amendments for        Completed
 failed to honor commitments               storage security, weapons transportation security, and
 associated with the Cooperative           chemical weapon elimination.
 Threat Reduction Program.
 (Defense Threat Reduction             9   Work with Russian Federation to ensure plans are            3rd / 2005
 Agency)                                   prepared for further reduction of nerve agents.
                                       9   Validate that the weakness is corrected.                    3rd / 2005
 First Reported: FY 2002
                                            Correction Target Date: 3rd Quarter, FY 2005



DoD Performance and Accountability Report                37             Part 1: Management Discussion and Analysis
                         Table III. Section 2 Material Weaknesses – Ongoing (Continued)


                                                                                                        Indicates
        Non-Financial                                                                                 Completed or
                                                     Major Corrective Action(s)
      Material Weaknesses                                                                              Milestone
                                                 A sample of the actions is presented.
         (Continued)                                                                                      Date
                                                                                                        Qtr/FY
 18. Existing controls did not       9   Completed 138 of 165 corrective actions. Incorporated         Completed
 ensure that incidents of sexual         training to improve the gender climate.
 assault among the cadet
                                     9   Implement remaining action items.                             1st / 2005
 population were prevented or
 reported. (Department of the        9   Conduct unit compliance inspections to review                 2nd / 2005
 Air Force)                              institutional response to sexual assault and compliance
                                         within the instructions.
 First Reported: FY 2003
                                     9   Validate that the weakness is corrected.                       4th / 2005

                                           Correction Target Date: 4th Quarter, FY 2005
 19. Controls over management        9   Sponsored an integrated process team and performed an         Completed
 of spare parts were not always          analysis to determine the correct number of stock level
 adequate to meet the warfighter         days that should be used in spares’ computation. Revised
 mission. (Department of the Air         the Department of the Air Force guidance.
 Force)                              9   Initiated a management plan to enhance spare parts            Completed
                                         support and identify systematic supply shortfalls.
 First Reported: FY 1999
                                     9   Determined the total spares parts requirement for             Completed
                                         FY 2004 Program Objective Memorandum.
                                     9   Revised the requirements computation systems to provide       Completed
                                         more accurate consumption patterns.
                                     9   Included the total spare parts requirement in the FY 2004     Completed
                                         Program Objective Memorandum submission.
                                     9   Compare the projected spare part requirements to actual        4th / 2005
                                         and determine effectiveness of forecasting tools and other
                                         corrective actions.

                                           Correction Target Date: 4th Quarter, FY 2005
 20. Better controls over efforts    9   Raised the awareness of air hazards around aircraft           Completed
 to provide safe areas surrounding       operations. Developed the Department of the Air Force
 air installations are needed to         multi-Service training.
 minimize public exposure from
 the hazards of aircraft             9   Revise guidance to include base-level responsibilities,        3rd / 2005
 operations. (Department of the          identify a waiver approval process for construction within
 Air Force)                              the clear zones, and encourage each installation to
                                         delegate a program manager.
 First Reported: FY 2000             9   Re-evaluate the Air Installation Compatible Use Zone          2nd / 2006
                                         Program.
                                     9   Validate that the weakness is corrected.                       4th / 2006

                                           Correction Target Date: 4th Quarter, FY 2006



DoD Performance and Accountability Report              38             Part 1: Management Discussion and Analysis
                         Table III. Section 2 Material Weaknesses – Ongoing (Continued)
                                                                                                         Indicates
        Non-Financial                                                                                  Completed or
                                                      Major Corrective Action(s)
      Material Weaknesses                                                                               Milestone
                                                  A sample of the actions is presented.
         (Continued)                                                                                       Date
                                                                                                          Qtr/FY
 21. DoD has not established          9   Developed policies and procedures.                            Completed
 guidance or effective controls for
 processing line of duty and          9   Legal review of the regulation changes.                        1st / 2005
 incapacitation pay, which
 adversely affects reservists who     9   Publication of the regulatory guidance.                       2nd / 2005
 attempt to receive benefits after
 their duty obligation is met.        9   Audit review to validate the effectiveness of corrective       4th / 2005
 (Department of the Army)                 actions.

 First Reported: FY 2002
                                            Correction Target Date: 4th Quarter, FY 2005
 22. Current processes for            9   Validated the missions. Refined the linkage between           Completed
 managing workload, linking               operating and generating forces.
 workload to dollars required, or
                                      9   Analyze workload for peacetime and wartime. Link the          2nd / 2005
 predicting future manpower
                                          workload to the operating force.
 requirements have not been
 established. (Department of the      9   Ensure that there is accurate documentation to validate        4th / 2005
 Army)                                    the manpower requirements in the official record called
                                          the “Table of Distributions and Allowances.”
 First Reported: FY 1997
                                      9   Issue a change to the regulation on the approval authority     4th / 2005
                                          for manpower requirement determinations.
                                      9   Validate that the weakness is corrected.                       4th / 2005

                                            Correction Target Date: 4th Quarter, FY 2005
 23. Processes for reporting the      9   Discontinued the use of estimates to compile data, using      Completed
 readiness for going to war are           only actual enrollees or graduates.
 not always accurate and
                                      9   Revised training and readiness reporting procedures to        Completed
 consistent. (Department of the
                                          ensure accuracy and consistency.
 Navy)
                                      9   Develop an installation readiness assessment system to         3rd / 2005
 First Reported: FY 2002                  support and sustain forces.
                                      9   Validate that the weakness is corrected.                       4th / 2005

                                           Correction Target Date: 4th Quarter, FY 2005
 24. Some procedures for              9   Automated the instructor requirements.                        Completed
 projecting training requirements
 have not been adequate, causing      9   Used computer software to develop more effective and          Completed
 inefficient use of training              efficient delivery techniques to provide instruction.
 resources and lost operational       9   Transition to a curriculum module within the Training          4th / 2006
 work years. (Department of the           Information Management System, which will enable
 Navy)                                    quantitative tracking and analysis.
 First Reported: FY 1999              9   Validate that the weakness is corrected.                       1st / 2007

                                            Correction Target Date: 1st Quarter, FY 2007



DoD Performance and Accountability Report               39             Part 1: Management Discussion and Analysis
                         Table III. Section 2 Material Weaknesses – Ongoing (Continued)
                                                                                                         Indicates
        Non-Financial                                                                                  Completed or
                                                      Major Corrective Action(s)
      Material Weaknesses                                                                               Milestone
                                                  A sample of the actions is presented.
         (Continued)                                                                                       Date
                                                                                                          Qtr/FY
 25. Better management of             9   Ensured that the recruiter and classifier errors are          Completed
 Active and Reserve recruiting            corrected or waived in a timely and efficient manner.
 functions is needed to maintain a
                                      9   Validate the corrective measures using an on-site              1st / 2005
 ready force. (Department of the
                                          verification.
 Navy)

 First Reported: FY 2001                    Correction Target Date: 1st Quarter, FY 2005
 26. Automated management             9   Modified the global command and control system to             Completed
 tools are needed to ensure               allow data entry at all the mobilization stations.
 accountability of Reserve
                                      9   Correct the mobilized unit identification codes.               1st / 2005
 component personnel from home
 station to duty station and back     9   Correct any disconnects between mobilization orders and       2nd / 2005
 home. (Department of the Army)           the data entry.
 First Reported: FY 2003              9   Interface between the global command and control              2nd / 2006
                                          system and the mobilization deployment integration
                                          system to obtain the on-hand data.

                                      9   Validate that the weakness is corrected.                       4th / 2006

                                           Correction Target Date: 4th Quarter, FY 2006
 27. Lack of sufficient controls to   9   Designed and developed a training program.                    Completed
 ensure regulation compliance,
 information management, and          9   Develop a comprehensive plan, budget to address issues,        1st / 2005
 records management. (National            and correct them.
 Reconnaissance Office)               9   Develop and implement records management program.              3rd / 2005
 First Reported: FY 2004              9   Design and implement additional specialized training.          1st / 2006

                                      9   Synthesize the file plan and records control schedule.        2nd / 2006

                                      9   Develop and implement pilot audit and evaluation               1st /2007
                                          program.
                                      9   Validate that the weakness is corrected.                       1st / 2007

                                            Correction Target Date: 1st Quarter, FY 2007
 28. Lack of clearly defined          9   Develop draft strategies and implement risk management         1st / 2005
 strategies or implementation             plans.
 plans has caused program
                                      9   Submit draft strategies and plans for review and approval.     1st / 2005
 inefficiencies for both the
 Chemical Demilitarization and        9   Complete actions required for a clearly defined strategies    2nd / 2005
 the Nuclear Weapons Physical             and implementation plans.
 Security Programs. (Office of the
 Under Secretary of Defense for       9   Validate that the weakness is corrected.                      2nd / 2005
 Acquisition, Technology and
 Logistics)

 First Reported: FY 2004                   Correction Target Date: 2nd Quarter, FY 2005

DoD Performance and Accountability Report               40             Part 1: Management Discussion and Analysis
                          Table III. Section 2 Material Weaknesses – Ongoing (Continued)


                                                                                                          Indicates
        Non-Financial                                                                                   Completed or
                                                       Major Corrective Action(s)
      Material Weaknesses                                                                                Milestone
                                                   A sample of the actions is presented.
         (Continued)                                                                                        Date
                                                                                                          Qtr/FY
 29. Inadequate controls have          9   Set record keeping standards.                                 Completed
 caused instances of inaccurate
 accountability for equipment          9   Developed checklists for validation.                          Completed
 sold to foreign countries.
 (Defense Security Cooperation         9   Deploy automated application and conduct assessment            4th / 2005
 Agency)                                   visits.
                                       9   Validate that the weakness is corrected.                       4th / 2006
 First Reported: FY 2004
                                            Correction Target Date: 4th Quarter, FY 2006
 30. Lack of policy and clear          9   Review and coordinate changes to regulations.                  3rd / 2005
 delineation of organizations and
 responsibilities puts the             9   Publish handbook.                                             2nd / 2006
 organization at risk for security
 violations, duplication of efforts,   9   Validate that the weakness is corrected.                      2nd / 2006
 delays in program activities, and
 confusion over financial
 requirements. (Defense Security
 Cooperation Agency)

 First Reported: FY 2004                    Correction Target Date: 2nd Quarter, FY 2006
 31. Policies and procedures           9   Reviewed current policies and procedures.                     Completed
 were not always adequate for
 processing other non-recurring        9   Published policy and procedures guidance.                     Completed
 requirement transactions.
 (Defense Logistics Agency)            9   Complete validation of policy and procedures and publish      2nd / 2005
                                           final policy.
 First Reported: FY 2004               9   Validate that the weakness is corrected.                      2nd / 2005

                                            Correction Target Date: 2nd Quarter, FY 2005
 32. Inadequate training has           9   Developed a program management training course.               Completed
 caused inconsistent,
 uncoordinated, and sometimes          9   Held two pilot training sessions for module 1, which          Completed
 inadequate approaches to                  addressed planning and documentation for milestone
 satisfying the United States’             decision authority review and approval.
 commitment to provide foreign
 countries adequate assistance         9   Hold module 1 training session.                                1st / 2005
 with Cooperative Threat
                                       9   Hold pilot training session for module 2, which will          2nd / 2005
 Reduction. (Defense Threat
                                           address contract and project execution, control and close-
 Reduction Agency)
                                           out.
 First Reported: FY 2004               9   Hold module 2 training session.                               2nd / 2005

                                       9   Validate that the weakness is corrected.                       3rd /2005

                                            Correction Target Date: 3rd Quarter, FY 2005


DoD Performance and Accountability Report                41             Part 1: Management Discussion and Analysis
                        Table III. Section 2 Material Weaknesses – Ongoing (Continued)


                                                                                                       Indicates
        Non-Financial                                                                                Completed or
                                                     Major Corrective Action(s)
      Material Weaknesses                                                                             Milestone
                                                 A sample of the actions is presented.
         (Continued)                                                                                     Date
                                                                                                       Qtr/FY
 33. Inadequate controls to          9   Developed instructions addressing responsibilities for       Completed
 ensure that secondary item repair       validating sources of repair used in preparing budgets.
 costs were properly budgeted.
                                     9   Publish revised secondary item repair costs instructions.    2nd / 2005
 (Department of the Air Force)
                                     9   Incorporate new procedures in automated budget system         3rd / 2005
 First Reported: FY 2004                 to support budget development.
                                     9   Validate that the weakness is corrected.                      4th / 2005

                                          Correction Target Date: 4th Quarter, FY 2005
 34. Controls were not always        9   Actively participated with interagency working group.        Completed
 adequate over exported Defense
 articles from initial shipment      9   Issue detailed documentation requirements and policy.         4th / 2005
 point to receipt by foreign
 customers. (Defense Security        9   Issue policy decision on freight tracking system.             4th / 2005
 Cooperation Agency)
                                     9   Validate that the weakness is corrected.                     4th / 2006
 First Reported: FY 2004
                                           Correction Target Date: 4th Quarter, FY 2006
 35. Controls were not always        9   Disciplinary actions initiated to correct personnel          Completed
 adequate to ensure accountability       performance issues.
 of automated data processing
                                     9   Appointed custodians to assist in managing and tracking      Completed
 equipment. (United States
                                         equipment.
 Pacific Command)
                                     9   Perform 100% wall-to-wall inventory.                          4th / 2005
 First Reported: FY 2004
                                     9   Validate that the weakness is corrected.                      4th / 2005

                                           Correction Target Date: 4th Quarter, FY 2005
 36. Manpower challenges             9   Identified manpower requirements.                            Completed
 impact the mission
 accomplishment of military          9   Developed documentation for manpower requirements.           Completed
 intelligence operations. (Office
 of the Under Secretary of           9   Validating manpower data to correct weakness.                2nd / 2005
 Defense (Intelligence))
 First Reported: FY 2004                  Correction Target Date: 2nd Quarter, FY 2005
 37. Adequate policies to            9   Obtain approval of a transformation roadmap.                  1st / 2005
 mandate the appropriate
 proficiency in foreign languages    9   Publish revised DoD Directive.                               2nd / 2005
 are necessary to more adequately
 support the global war on terror.   9   Publish DoD Instruction.                                      3rd / 2006
 (Office of the Under Secretary of
 Defense (Personnel and              9   Validate that the weakness is corrected.                      4th / 2006
 Readiness)
 First Reported: FY 2004                   Corrected Target Date: 4th Quarter, FY 2006


DoD Performance and Accountability Report              42             Part 1: Management Discussion and Analysis
                              Table IV. Section 4 Systemic Weaknesses -- Ongoing

 Description   1. DoD Financial Management Systems: The DoD systemic deficiencies in financial
 of Issue      management systems and business processes result in the inability to collect and report financial and
               performance information that is accurate, reliable, and timely.


 Progress to      A.   Completed Milestones:
 Date
                        •   Created a portfolio management approach to review information technology
                            investments.

                        •   Incorporated the Enterprise Business Process Model into the Business Enterprise
                            Architecture release 2.1.

                        •   Established integrated goals, objectives, measures, and targets.

                        •   Initiated a single Department-wide information technology registry to track all business
                            systems.
                   B. Planned Milestones for FY 2005:
                        •   Complete the Business Enterprise Architecture (BEA) Increment #1, which includes
                            business processes in support of an unqualified audit opinion.
                        •   Perform targeted portfolio management reviews as part of the FY 2005 through FY
                            2006 planning, programming, and budgeting process.
                   C. Planned Milestones for Beyond FY 2005:
                        •   Complete BEA Increment #2, which focuses on business processes that support
                            acquisition practices, total asset visibility, accurate valuation of assets, military health
                            care delivery, and environmental safety and occupational health.
                        •   Complete BEA Increment #3, which focuses on business processes that support the
                            planning, programming, budgeting and execution, total force management, and
                            installations management.
                        •   Complete targeted portfolio management reviews, which are part of the Department’s
                            planning, programming, budgeting, and execution process.


                                         Correction Target Date: 4th Quarter, FY 2007




DoD Performance and Accountability Report               43              Part 1: Management Discussion and Analysis
Federal Financial                                              Improper Payments
Management Improvement                                         Information Act
Act
                                                               The Improper Payments Information Act of 2002, as
                                                               implemented by the Office of Management and
The Federal Financial Management Improvement Act               Budget, requires federal agencies to review annually
requires federal agencies to conform to the United             all its programs and activities and identify those
States Government Standard General Ledger, comply              which may be susceptible to significant erroneous
with all applicable federal accounting standards,              payments.
establish financial management systems that meet
government-wide standards and requirements, and                DoD's fiscal year 2004 survey did not identify any
support full disclosure of federal financial data,             programs or activities where erroneous payments
including the costs of federal programs and activities.        exceeded the established thresholds (i.e., an error rate
                                                               greater than 2.5 percent and erroneous payments in
The Department does not fully comply with these                excess of $10 million), nor were any found to be
requirements. However, as part of the Business                 susceptible to significant risk. Although the
Management Modernization Program, the                          Department is currently under these thresholds for all
Department teamed with IBM to develop an initial               its programs and activities, the Office of
version of the business enterprise architecture in             Management and Budget established an additional
April 2003 to help transform business processes and            requirement that all programs initially identified in
systems. The architecture helps describe how the               Section 57, “Information on Erroneous Payments,” of
Department’s business processes and systems will               Circular A-11, perform all the prescribed steps
integrate to ensure accurate and timely financial              outlined in its guidance. These steps include the
information is readily available for decision makers.          production of a statistically valid estimate of the
When the architecture is fully implemented, the                erroneous payments, implementing a plan to reduce
Department expects to meet all the requirements of             the amount and reporting to the President and
this Act.                                                      Congress on progress. For the Department of
                                                               Defense, these programs are Military Health Benefits
                                                               and Military Retirement. The results of the review of
                                                               these programs are highlighted below.

Inspector General Act                                          Military Health Benefits. The military health
                                                               benefits program has numerous prepayment and post
Amendments                                                     payment controls built into the claims processing
                                                               system to minimize improper payments.
                                                               One control is the claims edit system, which
The Inspector General Act of 1978, as amended,                 rebundles services that should be billed under a
requires an explanation for all audit reports with             single code. Procedure unbundling occurs when two
recommendations open for more than 1 year. As of               or more procedure codes are used to describe a
September 30, 2004, the Department had 212 audit               service when a single comprehensive code exists that
reports open for more than 1 year. We are                      accurately describes all services performed. This is a
implementing many of these recommendations and                 poor practice, one that seeks to increase
the savings are estimated to be $7.9 billion. The              reimbursement.
Department has already closed out and implemented
recommendations from 130 audit reports in fiscal
year 2004 with claimed monetary benefits of
approximately $255 million.




DoD Performance and Accountability Report                 44           Part 1: Management Discussion and Analysis
An example of this practice is laboratory test                  to retirees and more than $5,500 made to annuitants
unbundling. A laboratory can perform numerous                   are reviewed. Another example is a monthly review
tests from a single blood sample. Separate charges              of the retired military pay file for similar social
for each test inflates the billing, as illustrated here:        security numbers, which helps minimize duplicate
                                                                payments.

Unbundled Billing                                               The Department projected $34.1 million of improper
Cholesterol, serum (82465):             $ 6.98                  payments (underpayments and overpayments) for
Lipoprotein (HDL cholesterol)                                   the Military Retirement Program in fiscal year 2004.
  (83718):                             $13.14                   This represents an error rate of 0.0952% of the
Triglycerides (84478):                  $ 9.24                  $35.8 billion in military retirement payments made
TOTAL:                                 $29.36                   during fiscal year 2004.

Rebundled (Proper) Billing                                      For further reporting details about the Improper
Lipid panel (80061)                                             Payments Information Act, see Appendix A.
(includes cholesterol,
lipoprotein and
triglycerides):                        $21.50

A cost avoidance of $87.6 million was realized in
fiscal year 2003 as a result of the military health
benefits program rebundling edits. Anticipating that
the trend will continue, the Department projects
approximately a 10% increase in the amount of the
cost avoidance for fiscal year 2004.

The Department projected $100.1 million of
improper payments (underpayments and
overpayments) for the military health benefits
program – purchased care program – in fiscal year
2004. This represents an error rate of approximately
2.16% of the $4.6 billion in military health benefits
program payments made during fiscal year 2004.
The 2.16% is a preliminary payment error rate. The
final payment error rate is not available until the
administrative process associated with the audits has
been completed, which is targeted for September
2005. Historically, the final figure has been less than
the 2% threshold allowed by contract. In support of
this position, last year’s DoD Performance and
Accountability Report listed the preliminary payment
error rate for fiscal year 2003 as 1.36%. The final
payment error rate for fee-for-service claims was
0.85%.

Although health benefit dollars are used to also pay
for expenditures incurred under the U.S. Family
Health Plans and other areas, these were not
identified as being susceptible to significant
erroneous payments. Therefore, they are excluded.

Military Retirement. The Department conducts
various types of prepayment and postpayment
reviews for military retirement payments. One
example is that all payments more than $9,000 made

DoD Performance and Accountability Report                  45          Part 1: Management Discussion and Analysis
President’s Management Agenda
                               The Department continues      savings of $9.3 billion dollars. In addition, the
                               to make progress              Department has plans underway for competing
                               accomplishing President       more than 9,000 additional positions.
                               George W. Bush’s
                               Management Agenda.            Improving Financial Performance. The
                               The goal of this Agenda is    Department has three primary initiatives underway
                               to improve performance in     to improve its financial performance: the Business
                               five key federal              Management Modernization Program, Financial
                               management areas.             Improvement Initiative, and the Financial
                               Following is a brief          Management Balanced Scorecard. These
                               description of each           initiatives directly respond to financial
                               initiative and efforts the    improvement plans required by the Office of
                               Department has                Management and Budget’s guidance for the Chief
                               undertaken thus far toward    Financial Officer Financial Management 5-Year
successful implementation of the President’s Management      Plan and Financial Management Systems Plan, as
Agenda.                                                      well as the Federal Financial Management
                                                             Improvement Act’s requirement for remediation
Strategic Human Capital Management. Even though              plans.
DoD is engaged in major endeavors overseas,
transforming the Department continues to be a priority, as   Expanding Electronic Government. Of the 25
evidenced by the Department’s efforts in seeking a           initiatives identified by the President’s
National Security Personnel System. Without doubt the        Management Council, 18 involve DoD activities.
flexibility inherent in this system would enable the         The Department is taking an active role in many
Department to respond to threats to national interests,      of those initiatives. In conjunction with the
while continuing to provide benefits to both DoD military    Office of Management and Budget, the
and civilian personnel and link both basic pay and           Department will improve management processes
performance incentives directly to the performance           relating to the creation and description of
measurement process. Further, DoD has developed a            business cases for information technology
Human Resources Strategy which was “cascaded”                initiatives. The DoD Chief Information Officer
throughout the Department to ensure that complementary       is also working closely with Office of
actions are taken across the Department. During              Management and Budget on other scorecard
FY 2004, the Department also began preparing for the         elements such as the enterprise architecture,
2005 round of Base Realignment and Closure. Research         business cases for information technology
was conducted to compare current DoD transition tools        investments, program management, and security.
and outplacement activities to those used in private         During the past fiscal year, the Department
industry in an effort to minimize adverse effects on our     improved a substantial number of business cases
mission and human resources. We instituted formal gap        for information technology investments, and
analyses of core mission and critical support occupations.   made progress on its integrated information
These occupations are analyzed and reported quarterly.       technology architectures. The Department also
No significant gaps have been identified. The                strengthened its information technology security
Department has also forwarded a Workforce                    program. The Department is actively engaged
Restructuring Plan to the Office of Management and           with the General Services Administration in the
Budget, describing the organizational plans to meet          Federal Smart Buy program, which is based on
workforce needs.                                             DoD’s award-winning Enterprise Software
                                                             Initiative that has achieved $1.6 billion in cost
Competitive Sourcing. The Department has a goal to           avoidance since its inception in 1998.
compete 226,000 positions by year 2009. DoD far
exceeded the Office of Management and Budget’s goal of       Budget and Performance Integration. The
competing 67,800 positions by fiscal year 2004; more         Department uses meaningful performance
than 84,000 positions were competed with an estimated        metrics in managing and justifying program

DoD Performance and Accountability Report              46       Part 1: Management Discussion and Analysis
resources. The year 2005 President’s budget included           The Department cascaded the scoring process to the
performance metrics (to include a Program Assessment           Services and Defense Agencies this year. The
Rating Tool for 15 programs) for 40 percent of the             Department has empowered all defense
Department’s resources. Additional efforts are underway        organizations to apply the principles of the
to integrate performance metrics into all phases of the        President’s Management Agenda in a results-
Department’s planning, programming, budgeting, and             oriented manner for their benefit, thus ensuring
execution process.                                             Department-wide implementation and
                                                               institutionalization.
Summary. The Office of Management and Budget
scores the initiatives for each government agency. The         The Department is making every effort to
scorecard employs a simple grading system: green for           implement policies and procedures that
success, yellow for mixed results, and red for                 accentuate efficiency and sound management
unsatisfactory. The Department’s progress and current          principles. The Department is confident this will
status ratings supporting the President’s management           be reflected positively as it progresses through
goals in these five key federal management areas are           the coming years.
depicted in the following chart. Further information is
available at http://www.results.gov.




        President’s Management Agenda Initiative                     Current Status              Progress

   Strategic Human Capital Management                                      Yellow                  Green

   Competitive Sourcing                                                     Green                  Yellow

   Improving Financial Performance                                           Red                   Yellow

   Expanding Electronic Government                                           Red                   Green

   Budget and Performance Integration                                      Yellow                  Green




DoD Performance and Accountability Report                 47      Part 1: Management Discussion and Analysis
                                    Page intentionally left blank.




DoD Performance and Accountability Report
                Part 2:
        Performance Information




DoD Performance and Accountability Report
                                    Page intentionally left blank.




DoD Performance and Accountability Report
Performance Information
    Annual Performance                                      Our performance metrics track current outputs. They
                                                            set quantitative, annual targets for performance that
    Goals and Results                                       are measurable.

In Part 1, Management Discussion and Analysis, we                         Sample Performance Metric
presented the year in review for the Department of             P erform
                                                               Perform       ance
                                                                           ance     M etric:
                                                                                 M etric: Satisfaction
Defense, including our Performance Highlights. Part            W
                                                               S  ith
                                                                   ti MfMilitary
                                                               W ith       ilitary H ealth
                                                                             ti H ealth  C areCPlan
                                                                                               are
2, Performance Information, describes, in detail,              Pl
more than 70 metrics in use or under development.                    FY 2003                    FY 2004
They are organized by the Risk Management                             A ctual                 Target/Actual
Framework introduced in Part 1.                                       51.2%                   ? 56% / 53%
                                                                                              >

            Risk Management Framework
                                                            Our activity metrics track developmental activities.
                                                            They are usually qualitative and track key milestones
                                                            or events in lieu of a specific annual performance
                                                            target. Activities in the Department of Defense
                                                            performance plan are initiatives to drive change –
                                                            when complete, they will result in a new baseline or
                                                            benchmark, define a new capability, or provide a new
                                                            performance metric.

                                                                             Sample Activity Metric

                                                            Activity Metric: Optimal Officer Career
Our goal is to make sure investments across the
                                                            Patterns
Department are balanced among the four risk areas.
Each quadrant of the risk management framework is                    FY 2003                     FY 2004
associated with four outcome goals that define              Phase I study complete.
                                                                                      Published Phase I report.
leading indicators of successful performance within         Started Phase II.
that quadrant. By monitoring overall performance
trends for these important indicators, we can better
                                                            More than half of the metrics in the FY 2004
frame choices on how to balance risks and thus
                                                            performance plan are activity metrics—of those,
allocate resources across the entire Department.
                                                            36 percent are designed to deliver a new capability in
Each outcome goal has corresponding metrics to              support of the Department’s overall goal to transform
track our performance in meeting these goals. They          U.S. forces for the 21st century. Finally, several
comprise the balance of Section 2, and are organized        metrics are labeled as “lagged” or “lagging.” These
as follows:                                                 are metrics for which data becomes available only
                                                            after publication.
                Organization of Metrics
                                                            These same metrics and others under development
    Risk Category                                          enable a robust evaluation of the FY 2005
       Outcome Goals                                       performance plan contained in the Annual Report to
              Performance or Activity metrics              the President and the Congress.

The metrics track two trends: where we are and
where we want to go. Accordingly, we monitor
metrics for both current outputs and developmental
initiatives.

DoD Performance and Accountability Report              48                         Part 2: Performance Information
                                                                   their best. The Department must take care of the
                                                                   future—seek out or create the skilled workforce
Data Quality (Verification and Validation)                         demanded of a 21st century military force.
General: The Department of Defense is committed
to providing clear and reliable data to those who use               We must forge a new compact with war-fighters
it for managing, decision-making and for oversight of               and those who support them, one that honors
DoD programs. The Department also ensures, to the                   their service, understands their needs, and
greatest extent possible, the data is quantifiable and              encourages them to make national defense a
verifiable by putting in place internal management                  life-long career.
controls and by being responsive to the insights
provided by the Department’s Office of the Inspector                         Secretary Rumsfeld, September 10, 2001
General, the General Accounting Office, and others.
Data Integrity Systems and Controls: Performance                   The four outcome goals for this risk management
data for most quantifiable measures are generated as               quadrant are:
a by product of DoD’s routine operations. Surveyed                     • Maintain a Quality Force
satisfaction data is produced from statistically valid                 • Ensure sustainable military tempo and
surveys. Accuracy measures come from validated                              maintain workforce satisfaction
automated systems and are periodically reviewed and                    • Maintain reasonable force costs
analyzed for accuracy. New metrics or metrics under                    • Shape the force of the future
development will be subject to the same data quality
requirements once the metric is established.                       More than half the metrics supporting these outcome
                                                                   goals are performance metrics for recruiting and
Detailed performance information is available at
                                                                   retention, health care, and quality of life. The
www.dod.mil/comptroller/par/fy2004/06-
                                                                   remaining measures are activity metrics focused on
01_Detailed_Performance.pdf
                                                                   improving recruiting and retention by refining tools
                                                                   to look at skills, grade and occupational category,
                                                                   attributes for civilian and military future skills,
                                                                   improving tempo monitoring tools, and developing
                                                                   additional cost indicators.



         Force Management Risk



Force Management Risk stems from issues affecting                  Outcome Goal: Maintain a Quality Force
the ability to recruit, retain, train, and equip sufficient
numbers of quality personnel and sustain the
readiness of the force while accomplishing our many                A quality force is maintained when you recruit
operational tasks.                                                 quality people and then retain your best.
                                                                   Longstanding metrics that help gauge aptitude,
Providing a trained and ready force is the leading                 education, and retention, have helped the Department
business of the Department of Defense. The                         ensure America has the best force in the world. This
Department must employ the tools of modern                         outcome goal has eleven metrics.
commerce to better manage our military and civilian
workforce—more flexible compensation packages,
contemporary recruiting techniques, improved
training.

DoD must guarantee the working and living
conditions that will enable our people to perform at


DoD Performance and Accountability Report                     49                       Part 2: Performance Information
Performance Metric: Active Component End                                 Performance Metric: Reserve Component
Strength within 2% of Authorization                                      Selected Reserve End Strength
                                                                         (Congressionally Authorized End Strength)
                                                      FY 2004
              FY 2001       FY 2002      FY 2003     Authorizeda/                                                                   FY 2004
  Service      Actual        Actual      Actual*       Actualb               Reserve           FY 2001     FY 2002     FY 2003     Authorized/
                                                                            Component           Actual      Actual      Actual      Actual a
 Army         480,801       486,542      499,301       482,400/
                                                       500,203           Army National         351, 829    351,078     351,091       350,000/
              (+0.2%)       (+1.4%)      (+4.0%)
                                                       (+3.7%)           Guard (ARNG)
                                                                                               (+0.4%)     (+0.3%)      (+0.3%)      342,970
 Navy         377,810       383,108      382,235       373,800/                                                                       (-2%)
                                                       375,521
              (+1.4%)       (+1.9%)      (+1.7%)                         Army Reserve          205,628     206,682     211,890       205,000/
                                                       (+0.5%)
                                                                         (USAR)                (+0.2%)     (+0.8%)      (+3.4%)      210,630
 Marine       172,934       173,733      177,779       175,000/
                                                                                                                                     (+2.7%)
 Corps                                                 176,202
              (+0.2%)       (+0.7%)      (+1.6%)
                                                       (+0.7%)           Navy Reserve          87,913       87,958      88,156       85,900/
                                                                         (USNR)
 Air          353,571       368,251      375,062       359,300/                                (-1.1%)     (+1.1%)      (+0.4%)      82,711
 Force                                                 379,887                                                                       (-3.7%)
              (-1.0%)       (+2.6%)      (+4.4%)
                                                       (+5.7%)
                                                                         Marine Corps          39,810       39,905      41,046       39,600/
 a
   In accordance with the FY 2004 National Defense Authorization         Reserve (USMCR)
                                                                                               (+0.6%)     (+0.9%)      (+3.8%)       40,127
 Act.
 b
                                                                                                                                     (+1.3%)
   The FY 2004 data are as of the 3rd quarter.
                                                                         Air National          108,485     112,075     108,137       107,030/
                                                                         Guard (ANG)
                                                                                               (+0.4%)     (+3.4%)      (+1.4%)      106,781
Metric Description. Service end strength                                                                                             (-0.2%)
authorizations are set forth in the National Defense                     Air Force             74,869       76,632      74,754       75,800/
Authorization Act (NDAA) for the fiscal year.                            Reserve (USAFR)
                                                                                               (+0.7%)     (+2.6%)      (-1.1%)      74,369
Services are required to budget and execute to that                                                                                  (-1.9%)
end strength by the end of the fiscal year. The                          Coast Guard            7,976       7,816        7,720       10,000/
Services’ actual end strength for each quarter will be                   Reserve (USCGR)
                                                                                               (-0.3%)      (-2.3%)    (-14.2%)        7,729
evaluated against the authorized strength for that                                                                                   (-22.7%)
fiscal year. By law, the Service Secretaries may                         a
                                                                           The data provided in the FY 2004 column above represents actual
authorize operating up to two percent above the                          results for the fiscal year as of 3rd quarter.
authorized end strength, and the Secretary of Defense
may authorize Services to be up to three percent
above their authorized end strength for that fiscal                      Metric Description. End strength authorizations for
year, if determined to be in the national interest. Last                 each of the seven Reserve components are set forth in
year was the first year that quarterly comparisons                       the National Defense Authorization Act (NDAA) for
were made.                                                               the fiscal year. Components are compelled to budget
                                                                         and execute to that end strength by the end of the
Performance Results for FY 2004. The nation                              fiscal year. The component actual end strength for
continued to operate in a state of National Emergency                    each quarter will be evaluated against the authorized
by Reason of Certain Terrorist Threats in FY 2004.                       end strengths for that fiscal year. By law, the
Consequently, the end strength requirements were                         Secretary of Defense may authorize the components
waived. The Army and Air Force exceeded the                              to vary, by no more than 2 percent, their authorized
three percent criterion again, while the Navy and                        end strength for that fiscal year, if determined to be in
Marine Corps ended the third quarter within the                          the national interest. It should be noted that while
two percent criterion. In the spring of 2004, the                        under partial mobilization, the Secretary may, as
Army received permission from the Secretary of                           authorized by the President, waive all end strength
Defense to operate with 512,400 troops, or 30,000                        limitations, if deemed appropriate.
more than authorized. The Air Force instituted two
phases of force shaping in FY 2004 to reduce its                         Performance Results for FY 2004. In his
operating strength; these programs, combined with a                      Declaration of National Emergency by Reason of
programmed reduced accession mission, will allow                         Certain Terrorist Threats, the President, among other
Air Force to end FY 2005 at the authorized strength                      things, waived the end strength limitations during the
level.                                                                   time of national emergency. Components, however,
                                                                         have been directed by the Secretary to attempt to
                                                                         meet the 2 percent criterion, though exceptions are
                                                                         authorized based on the operational situation. As of

DoD Performance and Accountability Report                           50                            Part 2: Performance Information
the end of the 3rd quarter of this fiscal year, four                            recruits. All military applicants take a written
components are at, or exceed, the 2 percent variation.                          enlistment test called the Armed Services Vocational
Three of those four components are under their                                  Aptitude Battery (ASVAB). One component of that
authorizations. The primary reason for the shortfall                            test is the Armed Forces Qualification Test, or
in strength for these three components is a shortfall in                        AFQT, which measures math and verbal skills. The
recruiting. However, this is by design in the Navy                              table below shows how AFQT percentiles are
Reserve because the Navy Reserve is downsizing by                               grouped into categories:
almost 10,000 people over the next 5 years, with a
2,500 reduction in FY 2005. Also, the Coast Guard                                   Armed Forces Qualification Test (AFQT) Categories and
Reserve shortfall appears to be exaggerated because                                 Corresponding Percentile Score Ranges

of certain strength accounting rules. The Coast                                            AFQT Category             Percentile Score Range
Guard Reserve actually has another 1,022 members
                                                                                                 I                           93–99
who are not counted in their strength, but are being
counted in the Active Coast Guard strength because                                               II                          65–92
of those accounting rules. Additionally, the Coast                                              IIIA                         50–64
Guard Reserve budgeted for an end strength of 8,052
instead of the Congressionally authorized 10,000,                                               IIIB                         31–49

which makes their end strength achievement seem                                                 IV                           10–30
very low. Finally, the Coast Guard Reserve comes
                                                                                                 V                             1–9
under the new Department of Homeland Security
(DHS) and not the Department of Defense (DoD).
One component (the Army Reserve) currently                                      As shown in the table, those who score at or above
exceeds the 2 percent variance goal at +2.7 percent of                          the 50th percentile on the AFQT are in categories
authorized. The primary reason is directly attributed                           I-IIIA (CAT I-IIIA). DoD values these higher-
to the ongoing mobilization. Based on budgeted                                  aptitude recruits because their training and job
manpower ramps, the current end strength status may                             performance are superior to those in the lower
approximate year-end data.                                                      categories (Category IIIB-IV). DoD also values
                                                                                recruits with a high school diploma because years
                                                                                of research and experience tell us that high school
Performance Metric: Active Component                                            diploma graduates are more likely to complete
                                                                                their initial term of service. Quality benchmarks
Enlisted Recruiting Quality                                                     for recruiting were established in 1992 based on a
                                                                                study conducted jointly by the Department of
                            FY 2001 FY 2002 FY 2003             FY 2004         Defense (DoD) and the National Academy of
          Category                           Actuala         Target/Actual b
                             Actuala Actuala                                    Sciences.1 The study produced a model linking
 Percentage of                  93         94         95           >90 / 97     recruit quality and recruiting resources to the job
 recruits holding high
 school diplomas                                                                performance of enlistees. Based on this study, the
 (Education Tier 1)                                                             Department adopted minimum acceptable quality
 Percentage of                  66         70         72           >60 / 76     thresholds: 90 percent in education tier 1
 recruits in AFQT                                                               (primarily high school graduates), 60 percent in
 categories I–IIIA
                                                                                AFQT categories I–IIIA. The Department does
 Percentage of                  1          0.7        0.2            <4 / 0.2
 recruits in AFQT                                                               not accept more than 4 percent in AFQT category
 category IV                                                                    IV, and does not recruit from category V.
     NOTE: AFQT = Armed Forces Qualification Test. The AFQT is a                Adhering to these benchmarks reduces personnel
     subset of the standard aptitude test administered to all applicants for    and training costs, while ensuring the force meets
     enlistment. It measures math and verbal aptitude and has proven to
     correlate closely with trainability and on the job performance.            high performance standards.
 a
   Official High School Diploma Graduates performance excludes 4,000
   participants in the Army’s GED+ pilot program, therefore the actual
                                                                                Performance Results for FY 2004. Through June
   numbers were adjusted to reflect this factor.
 b
   The data provided in the FY 2004 column are as of 3rd quarter.               1
                                                                                 Modeling Cost and Performance for Military Enlistment.
                                                                                National Research Council, Commission on Behavioral and
Metric Description. DoD measures recruiting                                     Social Sciences and Education, Committee on Military
quality along two dimensions – aptitude and                                     Enlistment Standards; Bert F. Green, Jr. and Anne S.
educational achievement of non-prior service                                    Mavor, editors; National Academy Press, Washington;
                                                                                1994

DoD Performance and Accountability Report                                  51                            Part 2: Performance Information
2004, all Active components are on course to meet or                      that is still the case. The Army National Guard
exceed their recruiting quality goals for FY 2004, as                     continues to struggle to meet the Department’s
they did in FY 2003. The next fiscal year, FY 2005,                       quality benchmark for high school diploma
may be more challenging in a war-time environment                         graduates. DoD is working with the Army National
with an expanding economy, and a depleted delayed-                        Guard to examine this issue. The Army National
entry pool of applicants.                                                 Guard recruit quality will likely continue to remain
                                                                          below the DoD benchmark for the next several years.



Performance Metric: Reserve Component
Enlisted Recruiting Quality                                               Performance Metric: Active Component
                                                                          Enlisted Recruiting Quantity
                                                            FY 2004
                         FY 2001   FY 2002     FY 2003      Target/
        Metric            Actual    Actual      Actual       Actualc                                                                   FY 2004
                                                                                               FY 2001     FY 2002      FY 2003        Target b
 Percentage of              89         89          87        ≥90/88%a           Metric          Actual      Actual       Actuala       /Actual c
 recruits holding high
 school diplomas                                                           Number of           196,355     196,472      184,879        181,360/
 (Education Tier 1)                                                        enlisted Active                                             128,900
 Percentage of              64         66          66        ≥60/66%b      Component
 recruits in AFQT                                                          accessions
 categories I–IIIA                                                         a
                                                                             FY 2003 Actual has been adjusted by two to reflect finalized data.
                                                                           b
 Percentage of              1          1.1        1.5        <4/1.4%         FY 2004 target has changed since last report because of changes in
 recruits in AFQT                                                          requirements and recruiting behavior.
                                                                           c
 category IV                                                                 The data provided in the FY 2004 column are as of the 3rd quarter.
 NOTE: AFQT = Armed Forces Qualification Test. The AFQT is a subset
 of the standard aptitude test administered to all applicants for
 enlistment. It measures math and verbal aptitude and has proven to       Metric Description. Department-wide targets for
 correlate closely with trainability and on the job performance.          active duty enlisted recruiting represent the projected
 a
   Excludes Navy Reserve and Air National Guard; see discussion in        number of new Service members needed each year to
 Performance Results paragraph.
 b
                                                                          maintain statutory military end strengths and
   Excludes Navy Reserve; see discussion in Performance Results           appropriate distributions by rank, allowing for
 paragraph.
 c                                                                        discharges, promotions, and anticipated retirements.
   The data provided in the FY 2004 column are as of 3rd quarter
 (estimate).                                                              As personnel trends change during the year, Active
                                                                          component recruiting objectives may be adjusted.
Metric Description. Like the active component, the
reserve component maintains quality benchmarks of                         Performance Results for FY 2004. Through June
at least 90 percent in education tier 1 (primarily high                   2004, all Active components are on course to meet or
school graduates), 60 percent in AFQT categories I–                       exceed their recruiting quantity goals for FY 2004.
IIIA (top 50 percentiles), and not more than 4 percent                    Delayed-entry program levels are somewhat
in AFQT category IV.                                                      depleted, suggesting FY 2005 will be challenging.

Performance Results for FY 2004. The Reserve
components, in the aggregate, are meeting their
AFQT I-IIIA goal, but not their Tier 1/High School
Diploma Graduate (HSDG) goal for enlisted recruit
quality in FY 2004. Moreover, all are facing
significant recruiting challenges. More emphasis is
being placed on the non-prior service market as the
number of individuals affiliating with the Reserve
components following active duty service has
decreased. The Air National Guard and the Navy
Reserve continue to improve in reporting recruit
quality data. Efforts are ongoing to correct these data
issues. Both of these components have historically far
exceeded the DoD benchmarks, and we are confident

DoD Performance and Accountability Report                            52                            Part 2: Performance Information
Performance Metric: Reserve Component                                             Activity Metric: Manning Levels of
Enlisted Recruiting Quantity                                                      Critical Skills

                                                              FY 2004             End-state Metric      FY 2001     FY 2002    FY 2003       FY 2004a
                     FY 2001      FY 2002       FY 2003      Annual Tgt/
       Metric         Actual       Actual        Actual        Actuala            The percentage       No historical data:    Started to   Established
                                                                                  of skills that are   new metric             define       common
Number of            141,023       147,129      133,075          126,410b/
                                                                                  deemed critical                             critical     definition for
enlisted
                                                                  88,266          for retention                               skills       critical skill
Reserve
                                                                                  relative to a
Component
                                                                                  DoD-wide
accessions                                                                                                                    Services     Tested data
                                                                                  benchmark.
a                                                                                                                             developed    collection
    The data provided in the FY 2004 are as of the 3rd quarter
                                                                                                                              list of
b
  Army Reserve and National Guard and Navy Reserve have adjusted                                                              critical
their FY 2004 targets downward because trends changed during                                                                  skills
FY 2003. Therefore, the DoD-wide target decreased from the 139,523                a
                                                                                      The FY 2004 data are final.
previously reported to 126,410.

Metric Description. Department-wide targets for                                   Metric Description. The Department is developing
reserve component enlisted recruiting represents the                              a way of measuring how effective we are at recruiting
projected number of new Service members needed                                    and retaining the military skills most critical to our
each year to maintain statutory military end strengths                            mission. As a first step, the Department established a
and appropriate distributions by rank, allowing for                               common definition and metric to monitor critical
discharges, promotions, and anticipated retirements.                              skills across the Services. The next step is to test
As personnel trends change during the year, Reserve                               both our data collection methods and the
component recruiting objectives may be adjusted.                                  effectiveness of the metric in monitoring manning
                                                                                  levels.
Performance Results for FY 2004. Three of the six
Reserve components have met or exceeded their                                     To be designated as “critical,” a skill must meet two
FY 2004 year-to-date numeric recruiting goals.                                    tests: (1) it must be short of its targeted manning and
Overall, the Reserve components recruited 88,266                                  (2) it must be critical to the Service’s mission. The
through June against a goal of 92,491, or 95 percent                              metric we are developing monitors each Service’s
of their mission. In a difficult recruiting                                       ability to retain members in its top ten critical skills.
environment, made more difficult by significantly                                 If the Service retains 95 percent or more of its desired
smaller numbers of individuals who affiliate with the                             goal for a particular skill, it will be deemed “Green.”
Reserve components following separation from the                                  If the Service retains 86 percent to 94 percent of its
Active force, the Army National Guard, Air National                               goal for a particular skill, it will be deemed
Guard or Air Force Reserve have failed to achieve                                 “Yellow.” If it retains 85 percent or less of its goal
their numeric goal. The Department expects that all                               for a particular skill, it will be deemed “Red.” The
Reserve components except the Army National                                       Service’s overall rating will be no higher than its
Guard will achieve their FY 2004 goal by the end of                               lowest rated designated critical skill.
the fiscal year.                                                                  Ongoing Research. In fourth quarter FY 2004,
                                                                                  Services provided test data for this metric. This test
                                                                                  collected information on the top ten most critical
                                                                                  skills that meet both parts of the “critical” definition
                                                                                  of shortage and mission criticality, as well as data
                                                                                  about how well the Service is meeting retention goals
                                                                                  for each skill category, and overall manning for each
                                                                                  skill. The Department is working to refine the metric
                                                                                  definition and its data collection methods.
                                                                                  Timeline for Completion. Beginning in FY 2005,
                                                                                  this metric will be added to the monthly Status of
                                                                                  Forces review conducted by the Under Secretary of
                                                                                  Defense for Personnel and Readiness.
                                                                                  Performance Results for 2004. The Office of
                                                                                  Secretary of Defense and Service points of contact


DoD Performance and Accountability Report                                    53                               Part 2: Performance Information
refined data collection procedures in July 2004; the                          Mission Capable,” deciding to rate each skill as
Services tested data collection methods in August                             “Green” if its recruiting fill is 95 percent or above;
2004.                                                                         “Yellow” if its recruiting fill is 85 percent to 94
                                                                              percent; and “Red” if its recruiting fill is 84 percent
                                                                              or below. This is an ambitious rating scale and
                                                                              reflects an assumption that operational units will be
                                                                              best equipped to achieve the desired skill match
Performance Metric: Critical Skill                                            levels if the recruiting system ensures even greater
Recruit Needs                                                                 precision in the job mix of each accession cohort.
                                                                              The Department will reassess this issue as our
               FY 2001      FY 2002      FY 2003         FY 2004              understanding of the process matures.
     Metric     Actual       Actual       Actual      Target/Actual a
 Percent-        No historical data: new metric     >95% fill for all         Performance Results for FY 2004. This measure is
 age of                                              skills / 4 of the
 acces-                                              63 designated            new for FY 2004, so predicting the final FY 2004
 sion                                               skills (6%) filled        outcome from third quarter data is difficult. As of the
 mission                                             less than 95%
 met for
                                                                              end of third quarter, 4 of 63 designated skills were
 all skills                                                                   filled to less than 95 percent. The understanding that
 Notes:                                                                       our target was very ambitious and all specialties
         1.   Accession missions for each skill are set by the                deemed critical skill recruit needs are challenging
              Services based upon required manning levels in the              recruiting tasks, leads us to project from third quarter
              current and future force and expected losses in
              training.                                                       results that some specialties will not be filled to the
         2.   Data was not collected for this metric prior to                 desired 95 percent level by year’s end.
              FY 2004.
 a
     The data provided in the FY 2004 column are as of 3rd quarter.



Metric Description. The Department is now
implementing a "critical skill recruit needs" metric.
Each Service will annually identify the 10 percent of
their skills that are most critical for their recruiting
force to focus on in the coming year. At this time,
the metric is only applied to active duty enlisted
recruits.

“Critical skill recruit needs” receive extra recruiting
emphasis though such tools as enlistment bonuses,
college funds, and incentives to recruiters. The skill
must meet one or more of the following criteria:
     • Is crucial to combat readiness
     • Is undermanned in the force
     • Has unfilled training class seats
     • Requires a high volume of recruits
     • Has much higher entrance standards than
          most skills
     • Is considered undesirable duty by most
          recruits

The exact fill rate for each skill will be measured, and
each Service will be rated based on the recruit rate of
its lowest skill rating.

The working group has initially set its target for
recruiting critical skills somewhat above the level
applied to determine whether units are “Fully


DoD Performance and Accountability Report                                54                        Part 2: Performance Information
Performance Metric: Active Component                                            is pursuing constructive levers (Force Stabilization
Enlisted Retention Goal                                                         policy initiatives, reenlistment bonus program
                                                                                updates, and targeted special pays) to influence
                                                                                soldiers and families to reenlist. Through July 2004,
                       FY         FY          FY           FY 2004
                                                         Annual Target          approximately 6,700 soldiers have taken advantage of
                      2001       2002        2003
    Service           Actual     Actual     Actualb        /Actualb,c           the Present Duty Assignment Selective Reenlistment
Army                                                                            Bonus by reenlisting to stay with units in
   Initial            20,000     19,433     21,838      23,000/19,782           Afghanistan, Iraq, or Kuwait. While the Army is
   Mid-career         23,727     23,074     19,509      20,292/16,538           using constructive levers to increase retention, the
   Career             21,255     15,700     12,804      12,808/10,972
                                                                                Navy and Air Force are using force-shaping
Navy
                                                                                programs to reduce the active duty end strength and
    Initial           56.9%      58.7%       61.8%        56%/57.9%
    Mid-career        68.2%      74.5%       76.7%        70%/72.9%
                                                                                retention. The Department expects all Services to
    Career            85.0%      87.4%       87.9%        85%/87.8%             meet or exceed retention goals for FY 2004.
Marine Corps
    First term        6,144a      6,050      6001         5,990/5,860
    Subsequent        5,900a      7,258      5815         5,628/6,751
Air Force
     First Term       56.1%      72.1%       60.5%         55%/67%              Performance Metric: Selected Reserve
     Mid-career       68.9%      78.3%       72.9%         75%/73%              Component Enlisted Attrition Ceiling
     Career           90.2%      94.6%       95.2%         95%/97%
a
  In FY 2001, the Marine Corps established numeric goals for
retention and established subsequent term goals for the first time.                                                                                 FY 2004
b                                                                                    Selected Reserve        FY 2001       FY 2002      FY 2003     Ceiling/
  The Services are allowed (due to the National Emergency) to                           Component             Actual        Actual       Actual     Actual a
operate with the strength required to prosecute the war on terror.
Because of Operation Iraqi Freedom and Operation Enduring                        Army National                 20.0          20.6          18.1     18.0/14.1
                                                                                 Guard
Freedom, the Services decided to operate at a higher level than they
had planned at the beginning of the year. To get to this higher                  Army Reserve                  27.4          24.6          22.1     28.6/15.6
strength, they increased the retention goals. The Services use                   Navy Reserve                  27.6          26.5          26.5     36.0/21.8
retention and recruiting as two levers they can adjust to hit the
desired end strength. So, if recruiting is falling short, they increase          Marine Corps                  26.4          26.0          21.4     30.0/21.0
retention goals. Similarly, if retention is falling short, they may              Reserve
choose to increase recruiting goals. In this case, they chose to                 Air National Guard            9.6           7.3           12.7     12.0/9.0
adjust retention goals to operate at desired operational strength.
c                                                                                Air Force Reserve             13.4          8.7           17.0     18.0/10.3
  The data provided in the FY 2004 column are as of the 3rd quarter.
                                                                                 a
                                                                                     The data provided in the FY 2004 are as of the 3rd quarter.
Definitions:                                                                     Note: All numbers are percentages representing total losses divided by average
               Army: Mid-career: 7 to 10 years of service (YOS); career:         strength.
.                    10 to 20 YOS
               Navy: Mid-career: 6+ to 10 YOS; career 10+ to 14 YOS
               Air Force: Mid-career: 6 to 10 YOS; career 10 to 14 YOS          Metric Description. In assessing retention trends in
                                                                                the Reserve components, we use attrition rather than
Metric Description. The Services determine, within                              retention rates. Attrition is computed by dividing
the zone of eligibility, their annual retention goals.                          total losses from the Selected Reserve of a specific
Each Service is given latitude in how they establish                            component for a fiscal year by the average personnel
their categories, goals within each category, and                               strength of that component’s Selected Reserve for
methods for tracking attainment of those goals. For                             that year. This metric is preferable to retention rates
that reason, two metrics are used: number of people                             because only a small portion of the Reserve
retained (used by the Army and Marine Corps) and                                component population is eligible for reenlistment
the percentage of eligible people retained (used by                             during any given year. In addition to monitoring
the Air Force and Navy). The annual goals for either                            attrition, we have established annual attrition ceilings
metric are dynamic and can change during the year of                            for Reserve component personnel. These ceilings,
execution.                                                                      which took effect in FY 2000, represent the
                                                                                maximum number of losses deemed acceptable in a
Performance Results for FY 2004. All Services are                               given fiscal year.
on track to achieve FY 2004 retention goals.
Nonetheless, we are watchful for indications of a                               Performance Results for FY 2004. The Presidential
downturn. The Department’s systematic review of                                 Declaration of National Emergency by Reason of
leading indicators for retention is an important                                Certain Terrorist Threats, and accompanying
business practice to allow for adequate time to adjust                          Executive Order, gave the Military Departments the
resources and meet retention challenges. The Army                               authority to implement “stop loss” programs. They


DoD Performance and Accountability Report                                  55                                   Part 2: Performance Information
remain in effect as the global war on terror and                            Ongoing Research. In support of the DoD Military
operations in Iraq continue. The only Military                              Personnel Human Resources Strategic Plan, the
Department pursuing a “stop loss” program is the                            Department is assessing the Services’ current
Army. Depending on the number of members                                    retention metrics to ensure measurement tools are
mobilized, this influences attrition rates, since                           designed to meet force sustainment goals. The study
mobilized Army Reserve component members are                                will focus on validating these metrics and identifying
subject to “stop loss” for the duration of their                            changes needed to help improve forecasting
mobilization, plus a transition period of 90 days after                     occupational skill strength and grade requirements,
demobilization. Reserve component enlisted attrition                        program review, and personnel planning.
remains strong and is well within acceptable limits.
There is nothing remarkable or unexpected in                                Timeline for Completion. During FY 2005, the
attrition figures to date. However, continued                               Services will establish a long-term baseline/goal to
vigilance is prudent, especially considering the large                      determine the promotion timing benchmark to help
rotation of troops in Iraq during FY 2004 and the                           focus retention programs and evaluate outcomes.
ongoing Army “stop loss” program.                                           Promotion data is available now; however, the
                                                                            Services need to determine benchmarks for the
                                                                            occupations, such as time-in-service or time-in-grade.

                                                                            Performance Results for FY 2004. During
Activity Metric: Retain Balanced Mix of                                     FY 2004 the Department completed a study of
Non-Commissioned Officer (NCO)                                              Service retention goal-setting in order to understand
Grade/Experience                                                            how Services establish goals today. Based on the
                                                                            results of this study, the Department began the
  End-state
                                                                            revision of DoD Directive 1304.20, “Enlisted
                FY          FY                                              Personnel Management,” to be published in FY 2005.
   Metric
               2001        2002          FY 2003            FY 2004
Number of      No historical data:   Services
                                                                            The planned revision will mark a distinct change in
                                                        Completed study
skills/           new metric         established a
                                                        of Service
                                                                            Department policy by establishing that grade and
experiencing                         promotion-                             experience should be linked. After the Directive is
                                                        retention metrics
deficiencies                         timing
                                     benchmark for                          published, a metric will be established.
Top ten
                                     10 most critical   Began policy
enlisted
                                     enlisted           revisions to
occupational
                                     occupational       establish a tie
groups.
                                     specialties        between grade
                                                        and experience

Metric Description. The metric will measure the
number occupational skills or groups experiencing
deficiencies. The metric will account for grade
requirements and the supply of experience emerging                          Outcome Goal: Ensure Sustainable
from promotion and retention programs. It will also                         Military Tempo and Workforce
account for promotion bottlenecks that hinder                               Satisfaction.
retention. The performance metric will monitor the
top ten enlisted occupational skills/groups that fall
outside Service-defined promotion boundaries which                          As with many goals, where changes in one goal’s
include the amount the enlisted member has been in                          outcome correlate to other goals’ outcomes, our
the service (time-in-service), and the time the                             success in maintaining workforce satisfaction will
member has been in his or her grade (time-in-grade).                        have a magnified impact across the force. Seven
Annual goals are dynamic and can adjust from year                           existing and developmental metrics help the
to year. The goal for this metric is to minimize skill                      Department care for our most valuable resource:
and experience deficiencies. Though a challenging                           people.
goal, the information is very useful for evaluating our
experience and skill mix and to determine where                             The next two metrics deal with Personnel Tempo.
emphasis should be placed in our professional                               On October 1, 2000, Congress directed the Services
development, promotion, and retention programs.                             to start tracking and reporting individual time away
                                                                            from home (expressed in days), commonly referred
                                                                            to as personnel tempo (PERSTEMPO).

DoD Performance and Accountability Report                             56                        Part 2: Performance Information
Each of the Services has developed or enhanced                                       Metric Description. The metric will capture the
existing data collection systems to support the                                      percentage of an occupational group, as defined by
legislative requirements. They will report the                                       DMDC occupational codes that have exceeded the
number of days each member is deployed with                                          400-day PERSTEMPO constraint within the last 730
particular emphasis and scrutiny placed on those 10                                  days and/or the 191-day-consecutive PERSTEMPO
major occupational groups that have deployed 400+                                    constraint, by Service and across the Department.
days out of the preceding two years. The same data                                   This metric will provide valuable insight into the
is also used to assess PERSTEMPO for the Services                                    “high deploying” skills and relate them to the high-
and their active and reserve components.                                             deploying/low-density (HD/LD) units, as appropriate.

Both metrics under development will incorporate a                                    Ongoing Research. The Department has contracted
frequency and duration dimension to PERSTEMPO                                        with LMI, a not-for-profit consulting firm, to define
based on changes to the PERSTEMPO legislation in                                     and refine key performance indicators. DMDC has
the FY 2004 National Defense Authorization Act.                                      been tasked to provide the data to develop the
                                                                                     metrics.
The Defense Management Data Center (DMDC) has
spent considerable time with Services to ensure that                                 Timeline for Completion. Development of this
the PERSTEMPO reporting process is working                                           metric will be complete in FY 2004; data will be
properly. However, validation and verification is a                                  reported in FY 2005.
very difficult and expensive process. Although the
Services conducted some initial checks to ensure                                     Performance Results for FY 2004. In FY 2004, the
accuracy of data, the onus is largely on the service                                 Department began tracking PERSTEMPO trends.
member to ensure “deployed days” reported on                                         We expect to establish this metric in time to report on
individual Leave and Earnings Statements are                                         it in FY 2005.
accurate. Accordingly, the Department has asked
DMDC to crosscheck the accuracy of its
PERSTEMPO information with similar information
reported by the Defense Finance and Accounting
                                                                                     Activity Metric: PERSTEMPO
Service who maintains individual Leave and
Earnings Statements.                                                                 Standards Met
On October 8, 2001, the Department suspended                                             End-state
                                                                                                         FY 2001         FY 2002    FY 2003     FY 2004a
certain PERSTEMPO management processes in                                                 Metric
accordance with the provisions of the national                                       The               Congression-    Published
                                                                                                                                   Validated    Began
security waiver set forth in section 991(d) of Title 10,                             percentage        ally directed   Interim
                                                                                                                                   and          tracking
                                                                                     of Active and     PERS-           Personnel
United States Code.                                                                  Reserve           TEMPO           Tempo
                                                                                                                                   verified     frequency
                                                                                                                                   data.        and
                                                                                     Components        reporting       (PERS-
                                                                                                                                                duration of
                                                                                     (by Service)      began.          TEMPO)
                                                                                                                                                PERS-
                                                                                     that exceed                       Policy      Consider-    TEMPO
                                                                                     PERS-                             Guidance.   ed Global    trends.
                                                                                     TEMPO                                         Joint
Activity Metric: PERSTEMPO Across                                                    constraints.                                  Rotational
Occupational Groups                                                                                                                Policy.      Completed
                                                                                                                                                initial
                                                                                                                                                tracking
     End-state                                                                                                                                  metrics.
                                                                            a        a
      Metric         FY 2001            FY 2002      FY 2003      FY 2004                The FY 2004 data are preliminary.
The                 Services            Published
                                                    Validated    Began
percentage          began               Interim
                                                    and          tracking
                                                                                     Metric Description. This metric will portray the
of an               tracking            PERS-                                        percentage of the Service Active and Reserve
                                                    verified     frequency
occupation-         PERS-               TEMPO
                                                    Service      and duration        components that exceed the 400-day PERSTEMPO
al group that       TEMPO as            Policy
                                                    data.        of PERS-
surpasses           directed by         Guidance.
                                                                 TEMPO               constraint within the last 730 days and/or the 191-day
the PERS-           Congress.
TEMPO day                                           Consider-
                                                                 trends.             consecutive PERSTEMPO constraint. This metric
constraints.                                        ed Global                        will provide valuable insight into the “high
                                                    Joint        Completed           deploying” tendencies of various Service
                                                    Rotational   initial
                                                    Policy.      tracking            components.
                                                                 metric.
a
    The FY 2004 data are preliminary.



DoD Performance and Accountability Report                                       57                               Part 2: Performance Information
Ongoing Research. The Department has contracted               Activity Metric: Commitment to Military
with LMI, a not-for-profit consulting firm, to help us        Life Index
define and refine key performance indicators.

Timeline for Completion. The LMI study effort is                  End-State      FY        FY
                                                                   Metric       2001      2002        FY 2003          FY 2004 a
to be completed by end of FY 2004.
                                                              Trend data to                       • Reviewed        • Fielded
                                                              monitor                               corporate         survey
Performance Results for FY 2004. In FY 2004 the               results in key                        commitment
                                                                                                                    • Developed
                                                              commitment          No historical     literature.
Department began tracking PERSTEMPO trends.                   areas that are       data: new                          final
We will complete the metric by the end of the fiscal          predictors of         metric.       • Developed         commitment
                                                              retention and                         commitment        index for
year.                                                         satisfaction.                         factors           military
                                                                                                    reflecting        service.
                                                                                                    military
                                                                                                                    • Fielded
                                                                                                    environment
                                                                                                                      commitment
                                                                                                    and culture.
                                                                                                                      index in April
                                                                                                  • Conducted         2004 survey
                                                                                                    focus groups      of Guard and
The next two metrics are part of three to help address                                              to validate       Reserve
quality of life (QoL) stresses on service members and                                               and expand        members.
                                                                                                    commitment
their families. These activity measures respond to the                                              factors.
                                                                                                                    • Commitment
National Security Presidential Directive–2 (February                                                                  index included
                                                                                                                      in the August
2001), “Improving Quality of Life,” and are in line                                                                   2004 active
with Secretary of Defense Guidance to track QoL                                                                       duty survey.
improvements and give priority to the
implementation of QoL initiatives.                            a
                                                                  The FY 2004 data provided above is preliminary.

The Commitment to Military Life index, in                     Metric Description. The Commitment to Military
combination with a QoL Social Compact                         Life Index is a new indicator that will track the
Improvement Index and a QoL Per Capita Cost                   factors that influence and predict commitment to
Metric, helps measure the health of QoL programs              military service for both active duty members and
and services supporting military members and                  spouses. This index is modeled after an approach
families.                                                     used in corporate America to measure employee
Current deployments and high personnel tempo                  commitment.
necessitate robust QoL support for troops and                 Retention is a critical problem in the military and
families. In an effort to mitigate force management           commitment has been shown to be a primary
risk and enhance workforce satisfaction, the                  predictor of retention decisions. Thus, this effort is
Department must transform QoL to meet the needs of            directed at developing an index of service member
changing demographics and expectations of military            commitment to military service that can be used to
members and their families.                                   track commitment periodically over time. The
                                                              Department is also developing a complementary
                                                              index of spousal commitment to the military, thereby
                                                              acknowledging the importance of both the military
                                                              member and the family in predicting commitment to
                                                              the military.
                                                              The value of the index is to demonstrate the different
                                                              fluctuations and factors of commitment over time.
                                                              The commitment indexes contained in the DMDC
                                                              Reserve component Survey (April 2004) and the
                                                              DMDC active duty Survey (August 2004) will
                                                              provide an initial baseline for the commitment index.
                                                              The index will gain meaning as the factors
                                                              influencing commitment are tracked over time. The
                                                              survey instrument will be reviewed and updated as
                                                              needed and data will be cross-referenced with the
                                                              QoL Social Compact Improvement Index and


DoD Performance and Accountability Report                58                              Part 2: Performance Information
Community QoL Per Capita Cost Metric.                                       data mature and priorities change. It currently
                                                                            includes six major program areas, and we anticipate
Ongoing Research. Work on the index began by                                no more than 10 functional program areas in the
reviewing current literature and other applicable                           index at any one time.
research on commitment and developing a set of
commitment factors that reflected the needs and                             Metrics, baselines, targets and parameters have been
environment of the military and its culture.                                established for the six functional areas within the
Additionally the Department developed a strategy for                        initial index to track improvement in QoL:
validation of the results. Focus groups were
conducted at four military installations during the                             •    Housing Assignment: Percentage of out-of-
months of June and July 2002 to validate and expand                                  pocket housing expenses, percentage of E1
the factors and to garner the information needed to                                  to E4 junior enlisted families living on base,
develop the survey instrument.                                                       and percentage of single E4s and E5s living
                                                                                     on base.
Timeline for Completion. The final commitment                                   •    24/7 toll free family assistance: Military
index survey instrument was developed in March                                       OneSource - Number of installations with
2004. The survey was fielded for the first time in                                   coverage.
April 2004.                                                                     •    Voluntary education/Tuition Assistance:
                                                                                     Out-of-pocket education costs, number of
                                                                                     enrollments, and number of degrees or
Performance Results for FY 2004. The Department
                                                                                     diplomas earned.
developed and fielded the final commitment index in
the April 2004 DMDC survey of National Guard and                                •    Financial readiness: Percentage of E1-E4s
Reserve component members. The commitment                                            reporting problems paying bills and
index was included in the August 2004 active duty                                    percentage of E1-E4s who report they have
survey. The data collected provides baseline                                         “difficulty making ends meet” or are “in
commitment data for FY 2005.                                                         over their heads.”
                                                                                •    Childcare: Number of childcare spaces and
                                                                                     percentage of accredited child development
                                                                                     centers.
                                                                                •    DoD Educational Activity (DoDEA): Pupil-
Activity Metric: Quality of Life Social                                              teacher ratio and student achievement
Compact Improvement Index                                                            scores.

                                                                            The Office of the Under Secretary of Defense,
                     FY        FY
      Metric        2001      2002       FY 2003        FY 2004   a         Military Community and Family Policy will update
                                                                            the performance data annually. Data will be cross-
Trend data to                          Developed       Established
monitor                                framework for   baselines and        referenced with the Community QoL Per Capita Cost
                   No historical data:
improvements
                   new metric.
                                       QoL index       initial              Metric and Commitment to Military Life Index to
in leading QoL                                         performance
indicators.                                            targets              ensure QoL programs are keeping pace with the
                                                                            changing expectations of military members and
a
    The FY 2004 data provided above is preliminary.
                                                                            families.

                                                                            Ongoing Research. Service Social Compact
Metric Description. The Quality of Life (QoL)                               functional area teams have addressed each area
Social Compact Improvement Index is the second                              impacting QoL for military members and families.
indicator of the three QoL measures.                                        Beginning in October 2002, the teams began a series
                                                                            of meetings to update functional area goals, establish
The index is designed to link QoL programs and                              achievable targets, outcomes, and long-term
services included in the Social Compact. It                                 strategies. The teams developed performance
recognizes the reciprocal partnership that exists                           indicators, and identified data sources. This data was
between the Department, the service member, and his                         incorporated into the QoL Social Compact
or her family. The index will track improvements in                         Improvement Index. The Social Compact is a 20-
QoL to ensure the Department underwrites support to                         year strategy requiring continual review and revision
families. The index is envisioned to be dynamic with                        to keep pace with the changing needs of the
program areas and metrics added or eliminated as

DoD Performance and Accountability Report                              59                       Part 2: Performance Information
transforming military. While the Social Compact                               Performance Metric: Satisfaction with
includes long-term, mid-term and short-term                                   Military Health Plan
strategies, the index will focus on the short-term. In
FY 2004, the Social Compact was modernized to                                                                 FY 2001     FY 2002       FY 2003       FY 2004
reflect the performance metrics included in the DoD                                         Metric             Actuala     Actualb       Actualc   Targetd/Actual e
balanced scorecard.                                                            Percentage satisfied             44.6%       46.5%        51.2%       ≥ 56%/ 53%
                                                                               with military health plan
                                                                               a
                                                                                    Surveys fielded in January, April, and July 2001.
Timeline for Completion. The index is scheduled to                             b
                                                                                    Surveys fielded in October 2001 and January, April, and July 2002.
be completed in FY 2005.                                                       c
                                                                                 The civilian average is based on a representative population from the
                                                                               national Consumer Assessment of Health Plans Survey Database (CAHPSD)
                                                                               for the same time period; this is the target for the Military Health System.
Performance Results for FY 2004. Baselines and                                 (Example: A July 2003 survey would be compared to July 2003 data from the
performance targets were established for housing                               CAHPSD.) Due to the nature of the program, only a DoD-level goal is tracked.

assignment, Military OneSource–1-800 family                                    d
                                                                                 The FY 2004 initial goal was the same as the FY 2003 goal; however, after
                                                                               progress tracking for FY 2003, it was determined that the FY 2004 goal
assistance coverage, voluntary education/tuition                               needed to be reset to a yearly goal that would likely be achieved and will
                                                                               match the Defense Health Program Performance plan for FY 2004.
assistance, financial readiness, childcare, and                                Accordingly, the goal changed from ≥ Civilian Average to 56%, which
DoDEA.                                                                         represents closing the gap with civilian plans in three years. All future years
                                                                               goals are updated on an annual basis.
                                                                               e.
                                                                                    The data provided in the FY 2004 column are as of the 3rd quarter.

                                    FY 2003              FY 2004
            Metric                  Baseline              Target              Metric Description. A person’s satisfaction with his
           Housing                   7.5%                 3.5%                or her health plan is a key indicator of the
Percentage of out-of-                                                         performance of the Military Health System (MHS) in
pocket housing expenses                                                       meeting its mission to provide health care to over
     24/7 Toll Free Family            30                   300                eight million eligible beneficiaries. For this metric,
      Assistance–Military                                                     the following survey item is used:
          OneSource
Number of installations
with coverage                                                                             We want to know your rating of all
      Off Duty/Voluntary       1)    Meet DoD       1)    Meet DoD                        your experience with your health
          Education                  policy for           policy for                      plan. Use any number from 0 to 10
                                     per unit cap         per unit cap
1)     Out-of-pocket
                                     and annual           and annual
                                                                                          where 0 is the worst health plan
       education costs                                                                    possible, and 10 is the best health
                                     ceiling              ceiling
2)     Number of degrees/                                                                 plan possible. How would you rate
                               2)    33,527         2)    34,676
       diplomas
                                                                                          your health plan now?
     Financial Readiness
1)     Percentage reporting    1)    41.5%          1)    39.4%
       problems paying bills                                                  Satisfaction is measured as the percentage of
2)     Percentage reporting
                                                                              respondents (weighted by appropriate sampling
                               2)    16.5%          2)    15.7%
       having difficulty                                                      weights) who answer 8, 9, or 10.
       making ends meet or
       are in over their
       heads                                                                  The survey, fielded quarterly, asks respondents
      Child Development                                                       questions about the plan during the prior year.
1)     Number of spaces        1)    1,741          1)    4,884               Currently, the results for the year are based on the
2)     Percentage of           2)    90%            2)    95%                 surveys fielded during the fiscal year, which means
       centers accredited                                                     the results are actually based on the respondent’s
           DoDEA
                                                                              interactions with the health system during the prior
                                                                              fiscal year.
1)     Pupil to Teacher        1)    No less        1)    No less
       Ratio                         than 18.0:1          than 18.0:1
                                     nor greater          nor greater
                                                                              The goal established for this metric in FY 2003 is
2)     Student Achievement                                                    considered a stretch goal that will drive the
                                     than 24.0:1          than 24.0:1
       – 75% of all students
       at or above Standard    2)    Meet or        2)    Meet or             organization forward, but will likely not be achieved
       (math, reading,               exceed               exceed              during that year. For FY 2004, the goal has been
       language arts)                National             National
                                     Standard             Standard            changed to reflect the desire to make the goal
3)     Student Achievement
       –8% or fewer of all     3)    Meet or        3)    Meet or             achievable during the current year, while still closing
       students fall below           exceed               exceed              the gap with the civilian sector in three years. These
       Standard (math,               National             National
       reading, language             Standard             Standard.
                                                                              goals are established based on a civilian survey, and
       arts)                                                                  will be updated on an annual basis.

DoD Performance and Accountability Report                                60                                    Part 2: Performance Information
Performance Results for FY 2004. The 3rd quarter                  The percentage of respondents (weighted by
year-to-date score of 53 percent is 2 percentage                  appropriate sampling weights) that answer “Good,”
points above last year’s score and should continue to             “Very Good,” or “Excellent” on a scale from “Poor”
improve. For the individuals who have chosen to                   to “Excellent” is computed. The survey is fielded
enroll in TRICARE Prime, their scores for the 3rd                 monthly. Because of the fielding period, data
quarter report met the goal of 56 percent. During the             collection period, and analysis period, there is a 55-
3rd quarter reporting, all but one enrollment Service             day lag between the appointment date and the posting
managed to meet the goal. In fact, enrollees to the               of data on the web-based reporting site. Reports are
Managed Care Support Contractor not only met the                  produced quarterly. Although information is
goal for the year, but also surpassed the Civilian                available by the Military Service branch that is
Benchmark for each quarter of FY 2004. Continuous                 financially responsible for the MTF, only an
increases in enrollment, along with improvement in                aggregate MHS score is shown.
the score, demonstrates real progress for the program.
                                                                  Performance Results for FY 2004. Satisfaction
                                                                  with Telephone Access is showing a slight decline
Performance Metric: Satisfaction with                             for the year. While the score remains fairly high
                                                                  overall, the system will not meet the goal for the
Access
                                                                  year. As DoD transitions to the new TRICARE
                                                                  contracts, the appointment process is also in a state of
                                                    FY 2004
                                                                  transition. Appointment scheduling responsibility is
                 FY 2001     FY 2002    FY 2003     Target/
    Metric        Actual      Actual     Actual     Actual
                                                           a      moving back to the Military Treatment Facilities
Satisfaction      81.8%       80.8%      83.0%       >84%/
                                                                  (MTFs), Hospitals/Clinics, from the Managed Care
with access                                          82.6%        Support Contractors. In the long run, this should be
a
  The data provided in the FY 2004 column are estimated
                                                                  an improvement for management of the
results for the 3rd quarter.                                      appointments, but it may cause some problems in the
                                                                  short term. Historically, there has been a problem in
Metric Description. Access to medical care has                    trying to identify the problem with access to health
always been a significant factor in the overall                   care appointments at the MTFs, with two different
satisfaction with medical care, and an area for                   organizations controlling different parts of the
focused improvement. The intent of this metric is to              process. With the conversion to full MTF
improve satisfaction with access to appointments for              management of the appointment process, it will be
those individuals who have chosen to enroll in                    easier to identify where problems may exist, so that
TRICARE PRIME (similar to a Health Maintenance                    improvement programs can be instituted if needed.
Organization) within the Military Health System                   During the migration to new contracts, it is
(MHS). This metric is based on a monthly customer                 anticipated that satisfaction may initially decrease,
satisfaction survey for those individuals who had an              but should rebound within a year. All TRICARE
outpatient medical visit at a Military Treatment                  regions will be converted by November 1st, 2004.
Facility (MTF)—hospital or clinic—during the                      Since data currently available does not yet contain
previous month.2 Although there are a number of                   the survey results for the first conversion period, the
measures related to access, ease of making an                     impact cannot be determined.
appointment by phone has been considered a key
measure for access and has been tracked over the last
couple of years. The metric is based on Question 10a
of the customer satisfaction survey:

       How would you rate the (Clinic
       Name) on Ease of Making this
       Appointment by Phone?


2
  The same survey is used for a metric that tracks overall
satisfaction with appointments. However, that metric looks
at responses to different survey questions and uses scores
from all beneficiaries who visited an MTF rather than only
TRICARE PRIME enrollees.

DoD Performance and Accountability Report                    61                        Part 2: Performance Information
Performance Metric: Overall Satisfaction                                   Performance Results for FY 2004. The objective
with Appointment                                                           for this fiscal year was to achieve even higher levels
                                                                           of performance; however the current score surpasses
                                                                           the historical civilian benchmark for this survey. In
                                                           FY 2004
                    FY 2001     FY 2002      FY 2003        Target/        an effort to improve overall performance on this
      Metric         Actual      Actual       Actual       Actual a        measure, the Army instituted a provider-level survey
Overall               88.5%       87.1%        88.4%         >90%/         program that focuses on individual providers in an
satisfaction with                                            87.6%
appointment
                                                                           attempt to improve the overall score. Since the year
                                                                           is not complete, the full impact of this approach is
a
                                                                           still unknown. However, preliminary information
  The data provided in the FY 2004 column are estimated results for
the 3rd quarter.                                                           has not shown significant improvement.

                                                                           A further review of the survey results shows that
Metric Description. This metric looks at                                   while satisfaction remains high for retirees and their
beneficiaries’ overall satisfaction with their                             family members, satisfaction for active duty members
outpatient medical appointments at a Military
                                                                           and their families is not as high. The survey shows
Treatment Facility (MTF)—hospital or clinic—                               that some of this is attributable to age differences;
during the month. Overall satisfaction with the                            older individuals tend to be more satisfied than
appointment is affected by numerous factors during
                                                                           younger individuals. But even considering age
the visit including the experience of getting an                           differences, the satisfaction level of active duty
appointment, the wait time at the appointment, the                         family members is largely unchanged from FY 2003
interaction with the provider, and interactions with
                                                                           to FY 2004. However, there has been a decrease in
the pharmacy or ancillary services. This metric is                         satisfaction for active duty members themselves.
based on a monthly customer satisfaction survey for                        While the data set does not allow for a more detailed
those individuals who had an outpatient medical visit
                                                                           review between active duty personnel and Reservists
at an MTF during the previous month.3 The metric is                        called up in support of Operation Iraqi Freedom, the
based on Question 12 of the customer satisfaction                          timeframe does match.
survey:4

            All things considered, how satisfied
            were you with the (name of clinic)
            during this visit?

The percentage of respondents (weighted by
                                                                           Outcome Goal: Maintain Reasonable
appropriate sampling weights) who answer “Good,”
“Very Good,” or “Excellent,” on a scale from “Poor”                        Force Costs.
to “Excellent,” is computed. The survey is fielded
monthly. Because of the fielding period, data                              It is prudent to carefully watch the cost of day-to-
collection period, and analysis period, there is a 55-                     activities—those that take place whether America is
day lag between the appointment date and the posting                       at war or not. Recruiting, training, pay, and medical
of data on the web-based reporting site. Results are                       costs are examples. This outcome goal has ten
based on the summation of results for all surveys                          metrics to help the Department manage them.
completed by patients during the year. Although
information is available by the Military Service
branch that is financially responsible for the MTF,
only an aggregate Military Health System (MHS)                             Performance Metric: Cost of Basic
score is shown.                                                            Training

                                                                            Cost Indicator             FY 2001     FY 2002      FY 2003   FY 2004
3
  The same survey is used for a metric that tracks                          (Constant FY 2004 $)        Actual      Actual       Actual    Actuala
satisfaction with access. However, that metric looks at                     Cost of basic training
                                                                                                        $7,393      $8,250      $9,132    $11,462
responses to different survey questions and uses scores                     per enlisted recruit
from only TRICARE PRIME enrollees rather than from all
beneficiaries who visited an MTF.                                           a
                                                                                The FY 2004 are as of the 3rd quarter (final)
4
  Other questions in the survey are used to identify specific
areas for improvement.

DoD Performance and Accountability Report                             62                               Part 2: Performance Information
Metric Description. Basic training is the                       Cost Indicator – Enlisted Training Costs
fundamental introductory and indoctrination training            Enlisted
provided to enlisted entrants. Each Service has                 Accession            FY 2001          FY 2002       FY 2003       FY 2004
different training pipelines that take different lengths        Costs (in             Actual           Actual        Actual       Estimate
                                                                2004 Constant
of time to complete. The cost of basic training is a            Dollars)
management cost indicator – performance/production
                                                                Total Recruit
targets are accession-driven and vary by Service and            Training               $1,612M         $1,842M       $1,932M       $2,336M
year. Funding requirements are projected by fiscal              Costs
year in the Department’s Future Years Defense
                                                                Army                       $481           $547          $565        $1,066
Program (via Program Element 804711); this
projection includes manpower, support equipment,                Navy                       $445           $490          $551          $522

facilities, and all other costs associated with                 Marine Corps               $472           $453          $542          $500
indoctrinating recruits into military culture, raising          Air Force                  $214           $352          $274          $248
their standards of physical conditioning, and
instructing them in basic military skills. (Basic               Basic
                                                                Training
training costs do not include expenses associated with          Input (non-             218,084        219,998       211,543       203,855
initial skills training; initial skills training follows        prior
                                                                enlistees)
basic training, and its duration and costs vary with
each military specialty.)                                       Army                     86,866         87,405        86,046        78,333

                                                                Navy                     53,976         46,547         43,919       43,200
Performance Results for FY 2004. The basic
training cost trend continues to increase by                    Marine Corps             36,600         39,999         37,363       35,822
approximately 10 percent per year. Although basic               Air Force                40,642         46,047        44,215        46,000
training costs for the Navy, Air Force, and Marines             Average cost
have remained steady for the past several years, the            per recruit              $7,393         $8,250        $9,132       $11,462
Army’s costs have risen dramatically due to                     trainee

mobilization and deployment of large numbers of                 Army                     $5,533         $6,260        $6,566       $13,529

Army Reserve and National Guard soldiers for                    Navy                     $8,247        $10,520       $12,543       $12,081
Operations Enduring Freedom and Iraqi Freedom.                  Marine Corps            $12,905        $11,326       $14,493       $13,972
This has required expansion of the training base and
                                                                Air Force                $5,270         $7,062        $6,204        $5,383
its infrastructure. Construction of training barracks
in Afghanistan and Iraq have also added to higher
costs but they may be removed from FY 2005
training budget data to better represent the cost to
train recruits domestically.
                                                                  Performance Metric: Cost Per Enlisted
The overall increase in Army costs was not entirely               Recruit - Active Component
due to these factors, however. The increased costs
per recruit also reflect the higher costs for                       Cost Indicator
TRICARE-FOR-LIFE health care accrual. When                                              FY 2000       FY 2001       FY 2002        FY 2003
                                                                    (Constant            Actual        Actual        Actual        Actual
                                                                                                                                          b
coupled with fewer new recruits (accessions), the                   FY 2004 $)
cost per recruit rises. Without these costs, the                    Cost-per-
                                                                                                  a             a             a
Army’s cost per recruit would drop to a more                        Recruit           $11,890      $13,288     $14,030        $14,206
reasonable figure.                                                  a
                                                                        Methodology and data updated from the FY 2003 performance report.
                                                                    b
                                                                        The FY 2003 data are as of the 4th quarter (final).
During the past year, the Department has begun to
address anomalies that had existed in the data                    Metric Description. The metric is a lagged
reporting, thus increasing the integrity of the                   performance indicator designed to analyze costs and
reporting.                                                        trends over time, not set specific annual performance
                                                                  targets. Each year, the Department enlists about
                                                                  200,000 new recruits for the Active components.
                                                                  These new Service members provide us with the
                                                                  entry-level manning necessary to meet manning and
                                                                  readiness needs. The cost of recruiting is calculated
                                                                  by dividing a Service’s total number of accessions

DoD Performance and Accountability Report                  63                                   Part 2: Performance Information
(non-prior service + prior service ) into the total                                and research, development, technology, and
expenditures for enlisted recruiting. These resources                              experiment funding).
are made up of recruiting personnel compensation,
enlistment bonuses, college funds, advertising,                                    Performance Results for FY 2003. This macro-
communications, recruiting support (vehicles,                                      level indicator is used in the analysis of Service
equipment, computers, supplies and applicant’s                                     programs. Recruiting costs are driven by a host of
transportation, food and lodging, etc.), and other                                 external variables, such as the state of the economy,
appropriations resources within the recruiting                                     unemployment, youth propensity to serve. Costs
command/service (i.e., other procurement and                                       have risen steadily over the past years, but appear to
research, development, technology and experiment                                   be leveling in the current budget.
funding).
Performance Results for FY 2003. As stated
earlier, this is a macro-level performance indicator
that is used in the analysis of Service programs.                                  Performance Metric: Military Personnel
Recruiting costs are driven by a host of external                                  Costs – Enlisted Pay Gap
variables, such as the state of the economy,
unemployment, youth propensity to serve, the posture                                                       FY 2001     FY 2002     FY 2003    FY 2004
of the delayed-entry program, etc. Although cost-per-                                       Metric          Actual      Actual      Actual     Actualb
recruit increased annually through FY 2002, it has                                  Percentage of
stabilized at about the 2002 level through the                                      enlisted pay gap       23%           47%         61%       71%
                                                                                    closed a
FY 2005 President’s Budget.                                                         Percentage of
                                                                                    remaining gap          N/A           31%         25%       26%
                                                                                    closed (annually)
                                                                                    a
                                                                                      Relative to FY 2000 baseline
                                                                                    b
                                                                                        The FY 2004 data are as of the 4th quarter (final).
Performance Metric: Cost Per Enlisted
Recruit – Reserve Component                                                        Metric Description. The goal of military
                                                                                   compensation is to provide sufficient military
 Cost Indicator             FY 2000      FY 2001      FY 2002      FY 2003         manpower to provide for the national defense. To
                                                                          b
 (Constant FY 2004 $)        Actual       Actual       Actual      Actual          achieve this end, military compensation must be
 Cost-per-Recruit –                  a            a            a                   competitive. The 9th Quadrennial Review of Military
                            $6,185       $6,886       $6,473       $7,585
 Reserve                                                                           Compensation (QRMC) has determined that military
 a
  Methodology and data updated from the FY 2003 performance                        pay that matches the 70th percentile of pay earned by
 report.                                                                           comparably experienced civilian workers is an
 b
     The FY 2003 data are as of the 4th quarter.                                   appropriate short-run measure for assessing whether
                                                                                   military pay is competitive with civilian
Metric Description. The lagged metric is designed                                  compensation. In the past, whenever military
as an indicator to analyze costs and trends over time,                             compensation was significantly less than the 70th
not to set annual targets for performance. Each year,                              percentile as compared to civilian pay, recruiting and
the Department enlists about 200,000 new recruits for                              retention problems arose. It is generally very costly,
the Active components and about 160,000 for the                                    both in terms of dollars and experience mix, to
Reserve components. These new Service members                                      correct recruiting and retention shortfalls after they
provide us with the entry level manning necessary to                               have appeared. This metric tracks the percentage of
meet manning and readiness needs. The cost of                                      the pay gap closed, since FY 2000, between military
recruiting is calculated by dividing a Service’s total                             pay and the comparable 70th percentile for civilian
number of accessions (non-prior service + prior                                    counterparts.
service) into the total expenditures for enlisted
recruiting. These resources are made up of recruiting                              For officers, the appropriate comparison group is
personnel compensation, enlistment bonuses, college                                civilians with college degrees and advanced degrees
funds, advertising, communications, recruiting                                     in managerial and professional occupations. The
support (vehicles, equipment, computers, supplies                                  FY 2000 pay gap for officers was eliminated in
and applicant’s transportation, food and lodging,                                  FY 2002 through a combination of targeted pay
etc.), and other appropriations resources within the                               increases, across-the-board raises that exceed the
recruiting command/service (i.e., other procurement                                average increase in the private sector, and general

DoD Performance and Accountability Report                                     64                               Part 2: Performance Information
increases in allowances.                                         Performance Metric: Community Quality
Measurement of the enlisted pay gap is based on                  of Life Per Capita Metric
civilian pay by education and years of experience and
enlisted pay by pay-grade and years of service.                                                                          FY 2004
There still is a measurable pay gap today for enlisted                Metric (Current   FY 2001   FY 2002    FY 2003   Target/Actual
                                                                          $000)          Actual    Actual     Actual    (Budget) a
service members. Therefore, our goal is to close at
least 25 percent of the remaining gap annually until              Community
                                                                  Quality of Life
the gap is eliminated. After the gap is closed, the               Per Capita Cost
goal is to ensure military pay remains commensurate               Metric
with the 70th percentile of comparable civilians.                 Army                   $1,125     $1,180    $1,539    $1,559/1370
                                                                                                                          (-$189)
Ratings for this metric will be assigned based on the             Navy                   $1,121     $1,269    $1,391    $1,409/1357
percentage of the enlisted pay gap closed each year.                                                                       (-$52)
If at least 25 percent of the remaining gap is closed,            USMC                    $812       $940     $1,018    $1,031/983
the result will be rated “Green.” If at least 15 percent                                                                   (-$48)
but not 25 percent is closed, the result will be rated as         Air Force              $1,507     $1,580    $1,642    $1,663/1718
“Yellow.” If the result is less than 15 percent of the
                                                                                                                           (+$55)
remaining gap is closed, the rating will be “Red.”                a
                                                                      The FY 2004 data are preliminary.

Although a good leading indicator of recruiting or
retention trends, this metric alone is not sufficient to         Metric Description. Quality of Life (QoL) per capita
gauge the overall efficiency or effectiveness of the             is the third of three metrics that, combined with the
military personnel compensation program.                         QoL Social Compact Improvement and the
Consequently, the Department is also working on                  Commitment to Military Life indices, measures the
monitoring change in total military personnel costs              health of QoL programs and services supporting
(in current and constant dollars), the probability an            military members and families. This metric also
enlisted member will remain in service until 15 years,           responds to the National Security Presidential
and the average experience at promotion for grades               Directive–2 (February 01), “Improving Quality of
affected by the pay gap.                                         Life,” and is in line with the Secretary of Defense
                                                                 guidance to track QoL improvements and give
Performance Results for FY 2004. Military                        priority to the implementation of QoL initiatives.
members received an average pay raise of 4.15                    The QoL per capita metric will help us monitor
percent for FY 2004. The average civilian wage as                trends in the Department’s QoL funding investment
measured by the Employment Cost Index (Private                   per active duty member over time. The Department
Industry Wages and Salaries) for this period was 3.2             also will track individual Service progress towards
percent. Mid-career enlisted members received wage               sustaining or improving funding for critical QoL
increases of 3.7 percent to 6.25 percent. The Basic              support.
Allowance for Housing, an important component of
Regular Military Compensation, increased by 7                    The metric will calculate per capita cost using
percent for FY 2004. The combination of basic pay                financial data submitted annually by the Services and
and basic allowance for housing increased relative to            annual active duty end strength data. The majority of
civilian wages and salaries. As a result, the                    funding to support Service QoL activities is identified
percentage of the pay gap closed from 61 percent to              in specific budget and program exhibits submitted to
71 percent. The Department achieved its goal of                  the Office of the Secretary of Defense on an annual
closing 25 percent of the remaining gap in FY 2004.              basis. The metric will correlate active duty end
                                                                 strength with Service direct operation and
                                                                 maintenance funding for the following programs:
                                                                 morale, welfare and recreation; child care; family
                                                                 centers; voluntary education and tuition assistance;
                                                                 and youth programs.
                                                                 Performance Results for FY 2004. FY 2004
                                                                 performance reflects preliminary data based on
                                                                 budget estimates in the 2005 President’s budget. The
                                                                 budget estimate reveals a decline in per capita

DoD Performance and Accountability Report                   65                              Part 2: Performance Information
funding for Army, Navy, and Marine Corps QoL                                     The measure is constructed based on the workload
programs in FY 2004. The Department is concerned                                 consumed by the enrollees for any individual month.
about these planned reductions and will monitor these                            For each enrollment location, workload is
programs for potential impact on the support                                     accumulated for each enrollee, and priced out
provided to troops and their families. FY 2004                                   according to care provided in MTFs, claims paid for
actuals will be available in the FY 2006 President’s                             purchased care, and mail-order pharmacy.
Budget, which will be submitted to Congress in
                                                                                 This aggregate measure helps us monitor how well
February 2005.
                                                                                 the MHS is managing the care for TRICARE Prime
QoL per capita will become the benchmark for QoL                                 enrollees. It looks at all Prime enrollees, whether at
investments as the global basing profile changes.                                the MTF or with the health support services
The goal is to keep standards high even as the                                   contractors. The overall measure can be broken into
Department closes, realigns, and relocates                                       multiple components that allow for review of
installations and units to better fit the global defense                         utilization factors for both direct care and purchased
mission. QoL per capita is a macro-level indicator                               care, and unit cost information for direct care and
that must be analyzed in conjunction with the QoL-                               purchased care. By reviewing this information,
Social-Compact-Improvement-Index and the                                         MTFs are able to determine the cost of providing care
Commitment-to-Military-Life-Index to gain insight                                at the MTF, and how many times the enrollee is
into the best ways to support and take care of Service                           receiving care. For an efficient Military Health
members and their families.                                                      System, the cost per unit needs to be at or below the
                                                                                 cost of purchasing the care, and the utilization of
                                                                                 services by the enrollees must be controlled. While
                                                                                 the top-level measure is used to track overall
                                                                                 performance; detailed measures allow for review and
Performance Metric: Medical Cost per                                             management at the local level.
Enrollee per Month
                                                                                 Due to claims processing times, purchased care
Metric (Current     FY 2000     FY 2001     FY 2002            FY 2003
    $000)            Actual      Actual     Actual b        Target c/Actuald
                                                                                 workload is projected to completion six months after
                                                                                 the fiscal year ends; final results will not be available
Medical cost          No historical data:      $152            N/A / $170
per enrollee            new metric.a                                             for approximately three years. Purchased care
per Month                                                                        workload does not allocate care delivered overseas to
Percentage                                      N/A            N/A / 11%         hospital or clinic areas. Therefore overseas workload
change
                                            (First Year                          is excluded. To ensure consistency across program
                                               Data                              years, purchased care excludes all resource sharing,
                                            Reported)
a                                                                                continued health care benefit plan, and TRICARE-
  Data used to calculate this metric were not available in FY 1999 or
2000. Additionally, since the metric is based on rolling 12-month                for-Life purchased care workload. Since data will not
expenses from the Medical Treatment Facilities, FY 2002 was the first            be available until six months after fiscal year end,
year when data could be reported.
b
                                                                                 this will be a lagging indicator.
  FY 2002 data have been updated to reflect additional purchased care
claims and improper allocation of pharmacy expenses in the calculation.
c
  This is a new metric as of FY 2004; thus, no goal was established for
                                                                                 Performance Results for FY 2003. Since this was a
FY 2003.                                                                         new metric established during FY 2003, there was no
d
    The FY 2003 data are estimated as of the 4th quarter.                        goal for FY 2003 performance. However, when
                                                                                 comparing the 11 percent increase in the MHS
Metric Description. This lagged metric looks at how                              medical cost per enrollee to the Kaiser Family
well the Military Health System manages the care for                             Foundation health benefits increase of 13.9 percent,
those individuals who have chosen to enroll in a                                 one sees slightly better performance for the Military
Health Maintenance Organization (HMO)-type of                                    Health System. Without a performance goal for
benefit. It is designed to capture aspects of three                              FY 2003, the results become the baseline for further
major management issues: (1) how efficiently the                                 review with FY 2004 performance where issues
Military Treatment Facility (MTF) is providing care;                             regarding unit cost, utilization management, and
(2) how efficiently the MTF is managing the demand                               purchased care management will need to be
of its enrollees; and (3) how well the MTF is                                    reviewed.
determining which care should be provided inside the
facility versus that purchased from a managed care
support contractor.

DoD Performance and Accountability Report                                   66                        Part 2: Performance Information
The current method does not adjust for the various                    Over the past couple of years, the downsizing of
expected health care expenditures for different                       small hospitals into ambulatory care clinics has
populations, and the methodology will likely be                       affected the clinical capabilities of these facilities,
changed in the future. Since enrollment                               and market share has decreased. This reduction is
demographics can vary significantly by Service, and                   expected to continue for the next couple of years until
across time, it is important to adjust the measure. For               the direct-care system stabilizes.
example, as more older individuals enroll, the overall
                                                                      Market-share percentages for the Services are shown
average medical expense per enrollee would likely
                                                                      based on direct-care workload compared to total
increase. On the other hand, if relatively more
                                                                      purchased-care plus direct-care workload for MTF
young, healthy active duty personnel are enrolled, the
                                                                      TRICARE Prime enrollees. This metric will be
overall average medical expense per enrollee would
                                                                      based on relative value units (RVUs)5 to more
likely decrease. Through the use of adjustment
                                                                      accurately compare the relative complexity of care
factors, a comparison across Services and across time
                                                                      instead of just a visit count.
can be made more meaningful.
                                                                      Like the previous metric, purchased-care workload is
                                                                      projected to completion six months after the fiscal
                                                                      year ends, and final results will not be available for
                                                                      approximately three years. Overseas workload is
Performance Metric: TRICARE Prime                                     also excluded here. To ensure consistency across the
                                                                      program years, purchased care excludes all resource
Outpatient Market Share
                                                                      sharing, continued health care benefit plan, and
                                                                      TRICARE-for-Life purchased-care workload. Since
                     FY 2001     FY 2002       FY 2003
        Metric        Actual      Actual     Target/Actual            data will not be available until six months after fiscal
 TRICARE               84.4%       81.0%         N/A a/75.1% b
                                                                      year end, this will also be a lagging indicator.
 Prime
 outpatient                                                           To compensate for factors that cannot be controlled
 market share                                                         under current program rules, the metric was changed
 (MTF Enrolled)
                                                                      in FY 2004 to focus just on the Medical Treatment
 a
     This is a new performance measure.
                                                                      Facility TRICARE Prime enrollees. Rules under the
 b                                                                    TRICARE Prime enrollee program provide more
     Data are estimated as of the 4th quarter.
                                                                      oversight for the MTF in managing the overall health
                                                                      and utilization of this population. During FY 2003,
Metric Description. Outpatient encounters represent                   each MTF provided a business plan indicating how
the majority of contacts between the Military Health                  much care their enrollees would demand from both
System (MHS) and its beneficiaries. Accordingly,                      direct care and purchased care. This information will
the market-share metric—a lagging indicator—looks                     be used to set the goal for the FY 2004 TRICARE
at how much of the care is delivered in the direct                    Prime outpatient market-share metric.
system rather than being purchased. There is a large
fixed manpower cost related to maintaining the                        Performance Results for FY 2003. As indicated
medical readiness mission. Therefore it is vital for                  previously, this metric has been updated for FY 2004
proper program management to use resources                            to focus specifically on the TRICARE Prime market.
efficiently and effectively during peacetime                          The previous metric targets were:
operations. Thus, the goal is to have Military                                                         FY 2001   FY 2002     FY 2003
Treatment Facilities (MTFs) achieve the targets                                    Metric               Actual    Actual   Target/Actual
established in their business plans for each year.                        Outpatient market share        77%       74%       >74% / 71%
Although medical care can be purchased at numerous                        (Enrolled and Non-
                                                                          enrolled)
locations throughout the United States and in
overseas locations, the focus of this measure is on                   Direct-care workload in FY 2003 represented only 71
enrollees in the United States. Overseas activities are               percent of total ambulatory workload for areas
currently excluded from the measure since purchased                   surrounding MTFs. While there was some decrease
care data is not available in sufficient detail. Due to
the extensive medical capabilities of hospitals                       5
                                                                       Developed by the Centers for Medicare and Medicaid Services,
compared with ambulatory clinics, the market-share                    RVUs approximate the physician resources used during the visit.
percentage will vary by MTF and military Service.                     For example, a returning visit by a patient with a simple problem
                                                                      might be 0.17 RVUs, whereas arthroscopic surgery of the knee
                                                                      might be 16.00 RVUs.

DoD Performance and Accountability Report                        67                                 Part 2: Performance Information
in workload at the MTFs, the most significant reason                         encounters per beneficiary, an additional goal is to
for the change in market share was related to                                ensure that the dollars spent on medical care are used
increases in purchased care. This was due to (1)                             efficiently.
increases in overall utilization by eligible                                 The targets for this metric represent stretch goals that
beneficiaries; (2) the call up of Reserve component                          were instituted to move the organization forward, but
members and the addition of their family members to                          likely will not be achieved in FY 2003 or FY 2004.
the beneficiary population; and (3) the deployment of                        This metric looks at the complexity of care and the
MTF specialists to Operation Iraqi Freedom.                                  number of patients seen by the primary care
                                                                             providers each day, with a goal of increasing the
With the increased cost of health care benefits in the
                                                                             complexity, number, or both, of patients seen each
private sector, the rich benefit offered by the Military
                                                                             day by the provider.
Health System attracted more unique users who never
used the benefit in the past. A number of those                              Like the previous metric, this one also uses relative
individuals dropped their other health insurance. Due                        value units (RVU) to measure the complexity of care
to the limited expansion capabilities of the MTFs,                           to approximate physician resources used during a
these two factors added to the increase in purchased                         visit.
care during the year.
                                                                             Due to the nature of its reporting, the metric results
Additionally, due to the current operations, DoD                             will lag actual performance by one quarter.
experienced a change in available providers and a
                                                                             Performance Results for FY 2004. Improvements
significant increase in Reserve component
                                                                             in productivity have continued in FY 2004, but the
beneficiaries, including Reserve component family
                                                                             system is not expected to meet the “stretch” goal of
members. These family members are not traditional
                                                                             14.5 RVUs. Currently two of the three Services are
users of the Military Health System, and the majority
                                                                             at or approaching the goal for the year. The goal is
of their care is purchased care. The influx of Reserve
                                                                             more aggressive than the historical trend. The desire
component users was not anticipated when the
                                                                             is to move the organization forward in a manner that
performance target for FY 2003 was established.
                                                                             requires dramatic improvements to the system.
Performance Results for FY 2004. This is a lagging
                                                                             Even with the possibility that two of the Services
indicator. Final analysis of the FY 2004 results will
                                                                             may reach their individual goals, there are a number
be completed by the next reporting cycle.
                                                                             of issues that cause problems when interpreting the
                                                                             results. First, there has been an emphasis to improve
                                                                             medical coding and to enforce medical coding
                                                                             guidelines that have resulted in a 6 percent decrease
                                                                             in the average level of complexity being reporting in
Performance Metric: Primary Care                                             the medical record. That drives down the RVUs used
Provider Productivity                                                        in the numerator of the metric.
                                                                             Additionally, as part of the effort to improve coding
                         FY 2001     FY 2002    FY 2003       FY 2004
         Metric           Actual      Actual     Actual     Target/Actualb   and overall operations at an MTF, a new clinical
Relative Value Units        13.6       13.8 a      14.0       >14.5 / 14.1
                                                                             information system began deployment during the
(RVUs) per primary                                                           year. Part of the reason for adjusting the goal at the
care provider per                                                            beginning of the year was the expectation that this
day
a
                                                                             would have a small impact on the performance
  FY 2002 has been updated to a final number from the 13.6 estimate
reported in the 2003 Annual Defense Report.                                  related to physician training and implementation.
b
    The FY 2004 data are estimated as of the 3rd quarter.                    However, the impact appears to be much larger than
                                                                             expected. Concerns with the performance of the
Metric Description. To run a premier Health                                  system have placed a temporary hold on future
Maintenance Organization (HMO), the critical focus                           deployments and the full impact is not known.
area is primary care. The primary care provider
                                                                             Since these factors can have a significant impact on
frequently is the first medical interaction between the
                                                                             the overall performance, the fact that two of the three
beneficiary and the HMO. In this role, the primary
                                                                             Services are approaching their goals represents a
care provider is responsible for the majority of
                                                                             positive improvement in performance. The
preventive care to keep beneficiaries healthy and
                                                                             aggressive nature of the goals will likely result in
away from more costly specialty care. While the
                                                                             performance below the goal level, but the
HMO has a goal to reduce the overall number of

DoD Performance and Accountability Report                               68                        Part 2: Performance Information
Department expects performance to continue to                                         recruitment or retention based on payment of the
improve.                                                                              incentive.


Performance Metric: Civilian Force Costs                                              The metric monitors trends in the following pay
                                                                                      categories:
 Civilian force
     costs                                                                                •    Basic pay (Office of Management and
 (Current Year         FY 2001        FY 2002       FY 2003         FY 2004                    Budget (OMB) Object Classes 11.1 and
     $000)             Actual b       Actual c       Actuale       Projected f
                                                                                               11.3) represents the aggregate personnel
 Total a             42,258,733     44,867,328      47,227,585      48,803,246
 Basic pay           31,887,999     33,376,576      34,947,575      36,532,535
                                                                                               compensation for full-time permanent, full-
 Premium pay d         1,985,502               —              —                —
                                                                                               time temporary, and part-time/intermittent
 Overtime pay                 —      1,173,810       1,215,873         834,760
                                                                                               appointments.
 Holiday pay                  —            53,772         46,787           46,052
                                                                                          •    Premium pay (OMB Object Class 11.5)
 Other pay                    —      1,119,919       1,105,238       1,146,133
                                                                                               represents personnel compensation for:
 Benefit pay           8,066,742     8,822,937       9,501,778      10,010,975
                                                                                               overtime, holiday, Sunday, night
 Separation             318,490        320,049           410,333       232,790
 pay                                                                                           differential, hazardous duty, post
                                                                                               differential, staffing differential, supervisory
                                                                                               differential, physicians comparability
 a
     Totals may not add due to rounding.                                                       allowance, remote work site allowance, cash
 b
  FY 2001 data are from DoD component summary of President’s Budget                            awards, and other.
 FY 2003.
 c
     FY 2002 data are from FY 2004 President’s Budget.
                                                                                          •    Benefit pay (OMB Object Class 12.1)
 d
   Premium pay includes overtime pay, holiday pay, and other pay. It was
                                                                                               represents personnel compensation for:
 reported only as an aggregate number in FY 2001.                                              health insurance, life insurance, retirement,
 e
  FY 2003 through FY 2005 data are from FY 2005 President’s Budget, OP 08                      social security, workers' compensation,
 Exhibit.
                                                                                               uniform allowances, overseas allowances,
 f
  FY 2004 is projected based on FY 2005 President’s Budget, OP 08 Exhibit                      non-foreign cost-of-living allowance
 (February 2004), and represents actual results as of the 2nd quarter.
                                                                                               (COLA), retention allowance, recruitment
Metric Description. In the past, civilian force costs                                          bonus, relocation bonus, and other.
reflected those reported annually to the Office of                                        •    Separation pay (OMB Object Class 13.0)
Personnel Management (OPM) in the 1351 Report,                                                 represents personnel compensation to
“Work Years and Personnel Costs.” However, this                                                involuntarily separated employees and
resource is not timely. Currently, OPM has FY 2001                                             payments made through the $25,000
costs available to its users, and FY 2002 is still being                                       voluntary separation incentive pay program
analyzed and not yet available. No call has been                                               (e.g., buyout bonuses).
made for FY 2003 data. Beginning in FY 2004, DoD
sought a more useful alternative and determined that                                  Performance Results for FY 2004. In FY 2004,
the OP 08 Exhibit of the President’s Budget provided                                  DoD changed the source of our civilian cost trend
a better source of current and projected workforce                                    data to increase the timeliness of reporting. The
cost data. Consequently, beginning in FY 2002,                                        Department also is displaying workforce costs in
premium pay costs are presented with more                                             “constant dollars” to more clearly define trends in
specificity in these categories: overtime, holiday, and                               compensation. Currently, the trend is relatively a flat
other pay.                                                                            line. Full-Time Equivalent work years were added to
                                                                                      the metric in order to tie dollars and work years
Although this metric provides only a broad overview                                   together for a more complete representation, i.e.
of civilian compensation costs, it may become a                                       civilian force cost per Full-Time Equivalent work-
baseline for evaluating National Security Personnel                                   year.
System (NSPS) costs. However, it is not an effective
measure of the success of any individual personnel
program or benefit. For example, additional benefit
costs do not indicate successful use of recruitment or
retention incentives. Furthermore, increased
recruitment bonus or retention allowance payments
would only measure usage rates, not the change in

DoD Performance and Accountability Report                                        69                        Part 2: Performance Information
Activity Metric: Total Costs for                                            Performance Results for FY 2004. At the time of
Contractor Support                                                          writing, the Army was awaiting Secretary of the
                                                                            Army approval to issue and implement guidance to
                                                                            the field.
    End-state Metric   FY 2001     FY 2002    FY 2003       FY 2004 a

Trend data             No historical data:   Army         Implement pilot
showing the            new metric            assigned     program within
percentage                                   pilot        Army.
increase or                                  program to
decrease in costs                            contractor
associated with                              manpower
contract support                             and costs
a
    The FY 2004 data are preliminary.


Metric Description. The contractor workforce is
important to accomplishing the Department’s
mission. Contractor costs will grow as DoD
continues its efforts to balance personnel investments
by outsourcing non-core functions, allowing us to
return military manpower to operational tasks that
can only be performed by a trained soldier, sailor,
airman, or Marine.

The purpose of the contract support cost indicator is
to provide visibility into the total funding burden of
contracted personnel across the Department. To do
this, we must find ways to capture data about the
contracted work performed, the associated costs, and
the unit supported. This information is needed to
satisfy fiscal accountability standards as well to help
us discover where our contractor investments
overlap, allowing us to propose alternative solutions,
as needed.

Unfortunately, our existing financial and
procurement systems do not capture contractor
workforce data such as direct labor hours, direct labor
costs, and the unit supported. Thus, we are working
to establish a systematic method to capture this data
across DoD; the final cost indicator will allow us to
monitor the trends in contracted direct labor costs for
all military Services.

Ongoing Research. In summer 2002, the
Department approved an Army pilot program to
capture contractor manpower and associated costs.
The Army is testing a Contractor Manpower
Reporting Application, documenting lessons learned,
and developing a proposal for DoD-wide use.
Timeline for Completion. The Army Pilot program
is scheduled for completion in September 2006.
Likewise, a DoD-wide version of the program is
completing its final steps with implementation
expected by 2008.



DoD Performance and Accountability Report                            70                        Part 2: Performance Information
Outcome Goal: Shape the Force of the                                        Eagle/Enduring Freedom/Iraqi Freedom) and
                                                                            comparing the data against previous operations
Future.                                                                     (Desert Shield/Desert Storm) and recent Presidential
                                                                            Reserve Call-ups (Bosnia, Kosovo, Southwest Asia).
America needs a force trained and ready to meet                             The study measured stress using three factors:
future asymmetric threats and international                                 frequency of call-ups; duration of call-ups; and
challenges. We know that status quo personnel                               percentage of inventory used (i.e., how much of the
policies won’t suffice, so we will need modern                              force capability was employed). The results of this
personnel systems, and better ways to use the                               study helped us better balance the Army’s AC/RC
Reserve component.                                                          capabilities mix in the FY 2005 budget. We also
                                                                            identified over 100,000 positions that could be
The eight metrics described here, which include                             realigned to reduce the need for involuntary Reserve
discussions of the Civilian and Military Human                              component mobilization and relieve the stress on
Resource Strategic Plans, provide ways to ensure                            high-demand Reserve component capabilities.
DoD shapes itself to effectively meet future
challenges.                                                                 We also are exploring other alternatives to mitigate
                                                                            stress on the force. Some of these alternatives will
                                                                            require legislative or policy changes to implement.
                                                                            For example, we are pursuing the concept of
                                                                            “reachback.” Reachback is defined as the ability to
                                                                            connect electronically to sites in the Continental
Activity Metric: Active                                                     United States or other locations around the world to
Component/Reserve Component Force                                           accomplish essential tasks and missions in an effort
Mix                                                                         to reduce the number of forward-deployed personnel
                                                                            needed to support combat troops during an operation.
    End-state      FY       FY                                              We are looking beyond near-term efficiencies to
     Metric       2001     2002        FY 2003           FY 2004a           address stress on the force. We are planning to put in
Benchmark of        No historical   Identified force   Identified           place better global force management and Reserve
the proper           data: new      rebalancing        areas of             component mobilization processes, new technologies,
balance               metric        requirements       stress on the
between                                                force                and more modular units to underpin the force’s
Active and                                                                  transformation. These actions will not only relieve
Reserve
Component
                                                       Identified           stress on the force today, but will have long lasting,
                                                       areas which
Forces
                                                       can be               positive impacts on our ability to manage peak
                                                       civilianized         demands on our military in the future.
a
    The FY 2004 data are final.
                                                                            Other working groups are exploring ways to
                                                                            streamline processes and policies, such as the
Metric Description. The FY 2001 Quadrennial                                 mobilization process and force management policies,
Defense Review directed a comprehensive study of                            which might also mitigate stress on the force.
the proper mix of Active and Reserve component                              Successes here may reduce the need for certain force
(AC/RC) forces. That study was completed in                                 rebalancing actions.
December 2002. It concluded we could enhance
overall military capability by rebalancing both                             Finally, the Secretary of Defense identified 148
AC/RC force mix and mission assignments.                                    “Stress on the Force” actions to be addressed by
                                                                            future action plans and metrics.
The purpose of this rebalancing is to create a                              Timeline for Completion. Our timeline for
structure which uses the Reserve component more                             completing this metric has been adjusted to
effectively. Some initiatives in support of                                 December 2004 to allow for the many ongoing
rebalancing will likely require legislative changes                         actions to mature. We are also in the process of
and take several years to implement.                                        identifying up to 300,000 military positions for
Ongoing Research. A variety of initiatives are                              possible “civilianization.”
underway. A study of the stress on the Reserve                              Performance Results for FY 2004. During
component forces examined all specialties mobilized                         FY 2004, more detailed and frequent “stress on the
for current operations (Operations Noble                                    force” analyses have been conducted, with enhanced


DoD Performance and Accountability Report                              71                       Part 2: Performance Information
data accuracy. They have provided insight into those                                 resources management information system.
areas where force rebalancing is necessary.                                     •    Sustain continuous human resource process
                                                                                     improvement.
Supported by these “stress” analyses, up to 30,000
military billets will have been restructured by the end                     Each goal has subordinate objectives and actions.
of FY 2004. Up to 10,000 military infrastructure                            The plan is a living document, so the number of tasks
positions will have been identified for civilianization                     varies from year to year. As studies of new ideas or
by the end of FY 2004. Legislative proposals to                             proposals are completed, one of four actions is taken:
reduce stress on the force through enhanced                                 the idea is abandoned (typically because it is
volunteerism have been submitted in the                                     ineffective or inefficient); legislation is requested to
Department’s FY 2005 Omnibus bill.                                          implement the idea; the idea is implemented and
                                                                            applicable metrics established; or the idea is
                                                                            scheduled for further study. A task that resulted in a
                                                                            decision for action is considered completed, and
                                                                            removed from the plan. New ideas also are added to
Performance Metric: Military Human                                          the document. In FY 2002, the plan contained a total
Resource Strategic Plan                                                     of 40 tasks. Currently, there are 30 resourced tasks
                                                                            associated with the six goals in the plan. Of these
                    FY 2001      FY 2002       FY 2003      FY 2004
                                                                            tasks, 7 are on-going actions, 7 were completed in
       Metric        Actual       Actual        Actual    Target/Actuala    FY 2003; 16 tasks are scheduled for completion in
 Percentage            No            1            7        80%b/100%        FY 2004 or FY 2005.
 of scheduled       historical
 tasks              data: new
 completed           metric                                                 This plan establishes priorities for the next several
 a
     FY 2004 data are as of the 4th quarter (estimate).
                                                                            years:
 b
  In 2002, 25 funded or in-house studies were programmed to be
                                                                                • Accessing enlisted personnel with the right
 completed by the end of FY 2005. However, in 2003, this metric was                  level of education and aptitude.
 changed to be consistent with the Civilian Human Resource Strategic
 Plan metric. Beginning with FY 2004, the measure is the percentage
                                                                                • Ensuring the force is manned with the right
 of tasks (funded or in-house) scheduled for completion that we                      number of military members in the
 completed during the fiscal year.                                                   appropriate skills.
                                                                                • Implementing a two-year pilot program,
                                                                                     putting into place an “up-and-stay”
Metric Description. This metric compares the                                         promotion process for certain high-
number of tasks scheduled for completion under the                                   investment specialties.
Military Human Resources Plan with those actually
completed. If 80 percent of tasks are completed, the                        Performance Results for FY 2004. We expect to
result is considered “on track” for achieving plan                          achieve 100 percent of our goal by completing all 10
goals. Beginning in FY 2004, the percentage target                          scheduled tasks; one task previously scheduled for
will be calculated by dividing the number of projects                       FY 2004 was expanded in scope and extended until
completed in a fiscal year by the number scheduled to                       FY 2005. In addition, we used in-house resources to
be completed that fiscal year. As described below,                          develop a set of leading indicators the Department
tasks are removed from the plan as they are                                 can use to predict recruiting and retention problems.
completed.


The Military Human Resources Strategic Plan has six
main goals:
    • Increase the willingness of the American
        public to recommend military service to our
        youth.
    • Recruit the right number of quality people.
    • Develop, sustain, and retain the force.
    • Seamlessly transition members to and from
        Active and Reserve status.
    • Develop a flexible, integrated human

DoD Performance and Accountability Report                              72                        Part 2: Performance Information
Activity Metric: Implement New Reserve                                           combined Active and Reserve component career
Component Management Paradigm                                                    development.

                                                                                 We have not settled on a means for measuring the
    End-state       FY         FY
     Metric        2001       2002          FY 2003          FY 2004    a        success of this new paradigm. Possible metrics are:
                                                                                 (1) number of approved tasks completed (on time)
A new             No historical data:   Established goals Introduced
baseline for         new metric         such as promoting legislative            compared with the number of approved tasks; (2)
managing                                volunteerism and proposals.              percentage of legislative proposals approved; and (3)
Reserve                                 reachback
Component                               capabilities.                            number of force management initiatives identified by
                                                           Introduced
forces
                                                           linguist
                                                                                 each Service to better integrate and remove barriers
                                        Employed five      program.              compared with the number approved.
                                        initiatives geared
                                        to support                               However, at this time, these do not appear to provide
                                        creating a
                                        seamless flow
                                                                                 valid evaluation tools for effectively measuring the
                                        between Active                           efforts undertaken to implement the continuum of
                                        and Reserve                              service concept. Efforts to determine valid, useful
                                        Components.
a
                                                                                 performance measures will continue as we move
    The FY 2004 data are final.
                                                                                 forward with these multiple initiatives.
Metric Description. The FY 2001 Quadrennial                                      Timeline For Completion. Undetermined at this
Defense Review directed a comprehensive review of                                time because specific measures have not yet been
the use of Reserve component forces. That study,                                 developed.
completed in December 2002, proposed a concept
called “continuum of service.” Under this concept, a                             Performance Results for FY 2004. During FY2004
Reservist who normally trains 38 days a year could                               we established the Army’s 09L (Arabic
volunteer to move to full-time service for a period of                           linguist/translator) program. Two hundred three
time – or some increased level of service between                                individuals have been recruited into the program; 102
full-time and his or her normal Reserve component                                of them have been sent to training; 52 have
commitment, without abandoning civilian life.                                    completed (or are in) training. Approximately 25
Similarly, an active duty Service member could                                   members have graduated and have been deployed to
request transfer into the Reserve component for a                                Iraq or Afghanistan.
period of time, or some status in between, without                               The civilian employer information requirement has
jeopardizing his or her full-time career and                                     met legal requirements and is now on-line. The
opportunity for promotion. Military retirees with                                system allows for direct input by the Reserve
hard-to-find skills could return on a flexible basis and                         component member. Data collection is in its initial
create opportunities for others with specialized skills                          stages.
to serve.
                                                                                 Certain Service-specific programs have been
The purpose of the new management paradigm is to                                 initiated, such as the Air Force’s additional
create a comprehensive management system that will                               blended/associated units; Air Force-sponsored
better facilitate flow between Active and Reserve                                Reserve component base operations and support; the
component service, and enhance Reserve component                                 Army’s “stressed” career fields initiative; the Navy’s
usage. Some of the initiatives in the study                                      Sea Warrior program; and the Marine Corps’
recommended will require legislative, policy, or                                 increased use of volunteers.
regulatory changes and, therefore, will take several                             The Department has submitted a series of FY 2005
years to implement.                                                              legislative proposals in its Omnibus Bill to enhance
                                                                                 Reserve component use, promote volunteerism, and
Ongoing Research. Our efforts are geared to                                      provide flexibility in management.
support: (1) creating a seamless flow between Active
and Reserve components forces; (2) encouraging                                   Overall, there has been significant activity in this
volunteerism and establishing new affiliation                                    area, but we have not yet determined how to measure
programs; (3) simplifying rules for accessing,                                   progress since we have not yet determined the
employing, and separating Reserve component                                      optimum outcome required for long-term, high-level
personnel; (4) increasing flexibility of the Reserve                             performance.
component compensation system; and (5) enhancing

DoD Performance and Accountability Report                                   73                       Part 2: Performance Information
Activity Metric: Identify Future Critical                                               skills are going to be required to support this future
Skills                                                                                  strategy and which of those skills will be catalogued
                                                                                        as “critical” (e.g., foreign area specialists,
                                                                                        information operators, space experts) based on the
    End-state
     Metric        FY 2001     FY 2002       FY 2003           FY 2004a
                                                                                        criteria established in the study. The follow-on
                                                                                        questions are many, such as: How will personnel be
Outcome             No historical data:
goals that             new metric.
                                          Established      Agreed to                    recruited in these skills? What programs will be
                                          common           common
establish
                                          definitions of   definition of
                                                                                        required? Will we need special incentives? Could
standards                                                                               more wide-spread use of lateral entry options ease
                                          critical fill    critical skills.
for
                                          needs.                                        skill shortages? Is the training base adequately
emerging
critical skills.                                           Identified most              resourced with experienced personnel to provide
                                          Considered       critical needs for
                                          alternative      recruitment and
                                                                                        entry level and advanced training? What retention
                                          metric           retention.                   incentives are going to be required to retain them?
                                          development.                                  What jobs and education are required to provide for a
a
    The FY 2004 data are preliminary.                                                   viable and rewarding career path?

Metric Description. We need to be able to identify                                      This metric has a “yes” or “no” outcome. We are not
those skills which will be critical to the future force                                 positing that in order to answer “yes” for the metric
with enough lead time to ensure that, when they are                                     that the answer be a list of critical skills and plans
needed, there are Service members in these skills                                       and programs outlined to answer all the questions
who are trained and ready. The skill and experience                                     addressed; rather, the desired outcome is a planning
combinations that are deemed critical will vary from                                    document which lays out what has to be
Service to Service. Because of this variability, it is                                  accomplished in order for the Department to begin
not possible for us to fully understand what makes                                      the process to recruit, train, retain and sustain
these skill/experience combinations so important.                                       personnel for a future critical skill.
Without this knowledge, we cannot adequately assess
our capability to identify, recruit, train, retain, and                                 Timeline for completion. Three months after the
sustain service members in these skills.                                                Phase I study is complete, we will draft a study plan
                                                                                        for Phase II. A final report will be published six
Ongoing Research. The Officer and Enlisted                                              months after the Phase II study begins.
Personnel Management (OEPM) Directorate is
responsible for designating a common set of criteria                                    Performance Results for FY 2004. A DoD-wide
for “critical skills.” In addition to a set of common                                   definition of “critical skill” was established in Spring
criteria, each Service will use its own criteria to                                     2004, and the corresponding metric will be complete
determine those skills, or skill/experience                                             during 2004.
combinations, that are critical to individual Service
missions.

As part of Phase I of the study to understand how to
set future critical skills, we sought to establish a                                    Activity Metric: Optimal Officer Career
metric to track progress on determining current
“critical skills.” In Spring 2004, we established a
                                                                                        Patterns
common definition of “critical skill.” By the end of
FY 2004, a metric for “critical skills” should be in                                   End-state Metric   FY 2001     FY 2002        FY 2003       FY 2004a
place. The metric will provide a comprehensive list                                Percentage of            No historical data:   Phase I of      Published
of the most common critical skills across the                                      officers on optimal         new metric.        RAND study      Phase 1
                                                                                   career path for                                complete.       report.
Department. While the final product will be Service-                               retention
                                                                                                                                  Started Phase
specific; the final list will meet a common DoD                                                                                   II.
definition of “critical skill.”                                                    a
                                                                                       The FY 2004 data are preliminary.

Phase II of the study will review the Services’
transformation programs and the Department’s vision                                     Metric Description. Objective 3.4 of the Military
of military strategy and responsibilities for the next                                  Personnel Human Resources Strategic Plan is to
25 years. Specifically, we will need to address what                                    “conduct studies on officer career and promotion


DoD Performance and Accountability Report                                     74                                 Part 2: Performance Information
management that will extend time in job and service         Performance Metric: Civilian Human
tenure.” Consequently, we commissioned a study to           Resources Strategic Plan
assess the management and policy implication of
potential changes in officer career management,
                                                                              FY 2001        FY 2002         FY 2003       FY 2004
given officer requirements. We expect legislative           Metric
                                                                               Actual         Actual          Actual     Target/Actual
changes will be required to implement such changes.         Percent-             No            90%             98%         80%/53%
                                                            age of            historical
                                                                                             (26 of 29       (40 of 41    (32 of 60
                                                            Civilian HR         data:
Ongoing Research. RAND is currently conducting              Strategic            new
                                                                                               tasks           tasks        tasks
a study to develop alternative management processes,                                        completed)      completed)   completed) a
                                                            Plan tasks         metric
plans, and policies that consider:                          completed
                                                                                                           (includes     (includes one
    •    The cap on officer career lengths                                                                 three         FY 2003
                                                                                                           FY 2002       carryover
    •    The feasibility and advisability of longer                                                        carryover     task)
         assignments                                                                                       tasks)
    •    The effects of different grade and position        a
                                                                The FY 2004 data are as of the 3rd quarter (final)
         tenures on retention or performance
    •    Past officer assignment length patterns            Metric Description. Good human capital
    •    Patterns of promotion and career tenure            management is one of the key tenets of the
                                                            Department’s transformation initiative. The DoD
    •    Existing system dynamics military
                                                            Civilian Human Resources Strategic Plan is the
         manpower models to reflect selected
                                                            roadmap that provides direction and outlines the
         changes to current officer management
                                                            standards for achieving those transformational
    •    The implications of selected changes to
                                                            results. This plan links to agency mission and goals
         policy for officers' career paths
                                                            that cascade throughout the Department. We
    •    The need for different or additional               measure progress quarterly.
         compensation and incentives to support any
         changes in existing personnel practices.           We judge success by comparing the number of tasks
                                                            scheduled to the number completed on a quarterly
Phase I of the study addressed General and Flag             and annual basis. To be rated as successful, 80
Officer careers; Phase II is addressing careers of          percent of tasks scheduled must be completed
officers in the grade of Colonel and below.                 annually. (This target changed in FY 2003 to be
After Phase II is complete, an implementation plan          consistent with how progress under the Military
will be developed. This plan may depend on                  Personnel Human Resources Strategic Plan was
legislative requests and policy changes.                    being measured.) To provide more qualitative
                                                            information about the overall effect of our annual
Timeline for Completion: The Phase I study was              activities, we are now working to replace task-
completed in July 2003 and the report published in          dependent output measures with task-dependent
January 2004. The Phase II study began at the end of        outcome measures.
FY 2003. The final report, “Future Officer Force
Modeling and Analysis,” is expected by the end              The process of refreshing the strategic plan is
FY 2005. As appropriate, policy or legislative              dynamic and necessary to ensure implementation of
changes will be compiled in FY 2005 and FY 2006,            any requirements levied by law, policy, or best
and metrics developed in FY 2006. The timeline has          practice. The total number of tasks identified for any
slipped by approximately one year, because the scope        given reporting period is not static over time, but
of the project was increased to include at least one        remains fairly consistent in the short term.
Air Force community, in addition to Army and Navy           Our strategic planning process is effectively
communities.                                                integrated with the combined program and budget
                                                            and Unified Legislative Budget processes. The
Performance Results for FY 2004. The Phase I                Human Resources Strategic Planning Senior Steering
RAND report was published in January 2004. So far           Group meets at least annually to refresh the plan and
this year, two Phase II communities have been               ensure that new and emerging initiatives are
modeled: Navy Surface Warfare Officers and Army             considered and receive the highest level of support
Infantry. Progress reports were completed in January        and recognition.
and June 2004 and subsequently passed to the Army
and Navy.                                                   Performance Results for FY 2004. As of the end of
                                                            the third quarter of FY 2004, 32 of 60 activities were

DoD Performance and Accountability Report              75                                  Part 2: Performance Information
completed. As of the date of publication, the                               Ongoing Research. On May 6, 2004, OPM imposed
Department exceeded the FY2004 scheduled                                    a new requirement to report on their 45-day hiring
quarterly expectations and expected to meet 4th                             model. The OPM model tracks the number of
quarter expectations by completing at least 21 of 26                        working days from the date the vacancy
scheduled activities. One exception will be to                              announcement closed to the date the job offer was
carryover the Department’s scheduled July 2004                              made. Since the OPM 45-day hiring requirement is a
fielding of the DoD Civilian Satisfaction Survey to                         subset of the DoD “Time to Fill Metric” DoD plans
October 2004. The FY 2004 target of 66 was                                  to combine the DoD and OPM requirements into a
adjusted by four to reflect the shift in National                           single reporting requirement.
Security Personnel System responsibilities to a
                                                                            Timeline for Completion. This metric is scheduled
Program Executive Office. Two tasks were moved to
                                                                            to be fielded in FY 2005.
FY 2005.
                                                                            Performance Results for FY 2004. Representatives
                                                                            from Office of the Secretary of Defense (OSD) and
                                                                            the components participated in a working group to
                                                                            develop standard performance metrics for human
Activity Metric: Civilian Recruiting Cycle                                  resources as part of the DoD Civilian Human
Time                                                                        Resources Strategic Plan. This group considered the
                                                                            various aspects of a metric that would measure
                                                                            civilian recruiting cycle time, and revised the
    End-State      FY       FY                                              performance measures to mirror human resources
     Metric       2001     2002        FY 2003           FY 2004 a
                                                                            metrics used by Key Fortune 500 organizations.
Trend data to                      • Draft            • Issue
monitor the                          Performance        reporting
                   No historical
number of                            Measures           requirements
                      data:
days                                                    for measure
appropriated       new metric      • Benchmark
fund                                 with Fortune     • Integrate OPM
positions are                        500                reporting
                                                        requirements
                                                                            Activity Metric: Meeting Civilian Critical
vacant.
                                                        into DoD            Fill Goals
                                                        reporting
                                                        requirements.
a
    The FY 2004 data provided above is preliminary.                                            FY      FY
                                                                                  Metric      2001    2002          FY 2003             FY 2004 a

Metric Description. This measure provides a                                 Number of                         •     Reviewed        •   Analyzed
                                                                            critical                                previously          data at DoD
standard performance metric and a standard data                             positions                               identified          and
collection method for evaluating the efficiency of                          encumbered       No historical          DoD critical        Component
                                                                            as compared      data: new              positions, by       level.
civilian recruiting cycle time across the Department.                       to number of     metric                 core mission
                                                                                                                                    •   Reported
It is linked to the Office of Personnel Management                          critical                                and critical
                                                                                                                                        results of
                                                                            positions                               support
(OPM) Human Capital Standards for Success, the                              authorized                              occupations
                                                                                                                                        analysis
Office of Management and Budget (OMB) scorecard,                            equals
                                                                            percentage.                       •     Issued
and is benchmarked to the “time to fill” metric used                                                                reporting
by Fortune 500 companies. Once data is collected,                                                                   requirements
the Department will be able to determine, for                               a
                                                                                The FY 2004 data are preliminary.
appropriated fund placement actions, the average
number of days from the date the position became                            Metric Description. This measure monitors the fill
vacant to the effective date of the placement action.                       rate of critical positions by core mission occupations
The time it takes to fill a vacancy can seriously affect                    and critical support occupations. Core mission
an organization’s ability to accomplish its mission.                        occupations are those that most directly affect the
OPM’s Human Resources Management (HRM)                                      Department’s ability to accomplish its mission over
Accountability System Standards issued on January                           the long term. Critical support occupations are those
4, 2002, lists “time to hire” as an example of a                            that provide support for the core mission occupations.
measure of human resources operational efficiency.                          The ability of an organization to fill critical positions
The HRM Accountability System Standards may be                              in support of its core functions affects how efficiently
viewed at:                                                                  and effectively it can accomplish its mission. Thus,
http://www.opm.gov/account/standards.asp.                                   fill rate is an integral part of human capital

DoD Performance and Accountability Report                              76                              Part 2: Performance Information
management. As early as 1999, the Government                             FY 2005, their “Top Ten List” of short-term critical
Accountability Office asked us to list our core                          mission occupations. Currently, we have no reliable,
mission and critical support occupations. We                             consolidated, automated system for collecting
subsequently surveyed the Military Departments and                       position authorization data; we continue to explore
Defense Agencies to identify core mission and                            automated methodologies.
critical support occupations and identified 13 core
                                                                         Timeline for Completion. By the end of FY 2005,
mission occupations and 23 critical support
                                                                         we will develop civilian fill targets by occupation, as
occupations:
                                                                         well as short-term “Top Ten” lists of critical
 Core Mission Occupations        Critical Support Occupations            positions by Service and defense agency.
Occupational                  Occupational
  Series       Series Title     Series            Series Title           Performance Results for FY 2004. As of the 3rd
   0602        Medical            0018       Safety and
                                                                         quarter FY 2004, the overall fill rate for core mission
               Officer                       Occupational Health         occupations was 96.98 percent, and for critical
   0800        Engineering        0080       Security                    support occupations was 99.83 percent. The Services
               Professions                   Administration              and defense agencies fill rates were:
   1101        General            0083       Police
               Business
                                                                         Core Mission occupations -
   1102        Contracting        0085       Guard
                                                                             • Army – 102.88%
   1152        Production
               Control
                                  0201       Personnel
                                             Management
                                                                             • Navy – 101.15%
   1300        Physical           0260       Equal Employment
                                                                             • Air Force – 80.13%
               Science                       Opportunity                     • Defense agencies – 93.02%
               Professions
   1520        Mathematics        0301       Miscellaneous               Critical Support occupations –
                                             Administration
                                                                              • Army – 106.99%
   1550        Computer           0343       Management
               Science                       Analyst                          • Navy – 99.62%
   1910        Quality            0346       Logistics                        • Air Force – 81.14%
               Assurance                     Management                       • Defense agencies – 95.16%
   2001        General            0391       Telecommunications
               Supply                        Manager
   2003        Supply             0501       Financial
               Management                    Administration
   2010        Inventory          0505       Financial
               Management                    Management
   2030        Distribution       0510       Accounting
               Management
                                  0560       Budget Analyst
                                  1670       Equipment Specialist
                                  1710       Education and
                                             Vocational Training
                                  1712       Training Instruction
                                  1811       Criminal
                                             Investigating
                                  2101       Transportation
                                             Specialist
                                  2130       Traffic Management
                                  2150       Transportation
                                             Operations
                                  2161       Marine Cargo
                                  2210       Computer Specialist



Ongoing Research. Due to changing mission
requirements and the variety of missions within DoD,
the Military Departments have been asked to review
the DoD list of critical positions and provide, by


DoD Performance and Accountability Report                           77                        Part 2: Performance Information
                                                              Outcome Goal: Do we have the right
                                                              forces available?
           Operational Risk
                                                              A pivotal tenet—to be able to respond rapidly, set
                                                              conditions for deterrence, or swiftly defeat an
                                                              adversary—is having the right forces in the right
Operational risk results from factors shaping the             place at the right time. This means having:
ability to achieve military objectives in a near-term         • Forces forward stationed, or in-theater rotating
conflict or other contingency.                                    forces. First Responders
                                                              • Forces that fly-in or fall-in on prepositioned
In simplest terms, it is about whether we can                     equipment. Immediate Response
overcome today’s threats—about our ability to create          • Forces that flow quickly into theater Rapid
plans that can be adapted quickly as events unfold,               Response
train for the next mission, and supply the warfighters
with what they need now. It is about achieving near-          The following metric is under development but is
term objectives, not long-term outcomes—thus, it is           designed to help the Department follow this tenet.
an important dimension of the defense strategy, but
not the entire strategy.
“Most agree that to win the global war on terror,
our Armed Forces need to be flexible, light and
agile—so they can respond quickly to sudden                   Activity Metric: Operational Availability
changes. ”
                             Secretary Rumsfeld                   End-state Metric
                                                                                      FY       FY        FY
                               February 5, 2003                   (New Baseline)     2001     2002      2003       FY 2004 a

                                                              Integrated data        No historical data: new   • Tested
                                                              and management                 metric.             prototype
The four outcome goals of this risk management                systems that can                                   process for
                                                              be used to assess                                  Global Force
quadrant help the Secretary of Defense answer the             percentage of                                      Management
following questions:                                          force ready for                                    system.
                                                              specific joint tasks
     • Do we have the right forces available?                                                                  • Approved
                                                                                                                 adaptive
     • Are our force postured to succeed?                                                                        planning
     • Are our forces currently ready?                                                                           concept and
                                                                                                                 prototype.
     • Are our forces employed consistent with our
                                                                                                               • Developed two
         strategic priorities?                                                                                   current and two
                                                                                                                 future analytic
All of the measures in this quadrant are activity                                                                baselines.
                                                              a
metrics and reflect efforts currently underway within             The FY 2004 data are preliminary.
the Department to develop new joint baselines, new
joint capabilities, or new performance metrics for            Metric Description. Today we increasingly rely on
joint readiness.                                              forces that are capable of both symmetric and
                                                              asymmetric responses to current and potential threats.
                                                              We must prevent terrorists from doing harm to our
                                                              people, our country, and our friends and allies. We
                                                              must be able to rapidly transition our military forces
                                                              to post-hostilities operations, and identify and deter
                                                              threats to the United States while standing ready to
                                                              assist civil authorities in mitigating the consequences
                                                              of a terrorist attack or other catastrophic event.
                                                              These diverse requirements will demand that we
                                                              integrate and leverage other elements of national
                                                              power, such as strengthened international alliances
                                                              and partnerships.

DoD Performance and Accountability Report                78                             Part 2: Performance Information
To meet these new missions, and to hedge against an           models (THUNDER, Integrated Theater Engagement
uncertain future, we are developing a broader                 Model, and Joint Integrated Contingency Model).
portfolio of capabilities, and realigning our forces          Finally, we began work on a study entitled,
using a building-block approach to match those                “Operational Availability FY 2005 (OA 05).” To
capability portfolios with mission goals. Among the           support this study, we will develop two future-year
most important initiatives are:                               analytic baselines: Major Combat Operation-1 and
                                                              the Baseline Security Posture. In addition, other
    •   Global Force Management. This initiative              major combat operations studies, as well as small-
        will provide a database and management                scale contingency studies, will use the OA-05-
        system that can be used to monitor U.S.               developed Baseline Security Posture for analysis. A
        force postures worldwide. It will account             more detailed discussion of each of these three
        for ongoing operations and constantly                 initiatives is provided in separate metrics.
        changing unit availability, and will allow us
        to do the kinds of analyses needed to ensure
        we allocate the right force for specific
        missions, at the right place and time.

    •   Adaptive Planning. Our goal is to produce
        war and contingency plans that are more               Outcome Goal: Are our forces postured
        timely, adaptive, and responsive to the               to succeed?
        current security environment, thus providing
        relevant options to the President and
        Secretary of Defense. We are working                  The ability to globally manage the location and
        toward having a networked capability to               apportionment of air, sea, and land forces and do so
        produce plans on demand via the global                in a manner that meets worldwide commitments,
        information grid by 2008.                             while strengthening our ability to meet security
                                                              challenges, is the focus of efforts being measured to
                                                              have our forces postured to succeed.
    •   Analytic Baselines. To guide analyses for
        both the near- and far-term, we are creating
        a set of common scenarios and data. These
        analytic baselines will underpin our strategic
        assessments, and guide decisions on joint             Activity Metric: Global Force
        warfighting issues and policy.                        Management

Ongoing Research. See the discussion of these                      End-state        FY           FY
                                                                    Metric         2001         2002      FY 2003       FY 2004a
activities elsewhere in this document.
                                                              Real-time             No historical      Developed
                                                                                                                      Established
Timeline for Completion. These and related                    operational            data: new         Global Force
                                                                                                                      Force
                                                              availability and        metric.          Management
initiatives, including the Defense Readiness                  risk                                     construct.
                                                                                                                      Management
                                                                                                                      Functional
Reporting System, are slated to complete                      assessment to
                                                                                                                      Capabilities
                                                              guide
development and enter fielding during FY 2005                 decisions on
                                                                                                                      Board.
through FY 2008.                                              how to source
                                                              joint force                                             Tested
Performance Results for FY 2004. During                       capabilities                                            prototyped
FY 2004, we made steady, positive progress in                                                                         process to
                                                                                                                      source
establishing Global Force Management, notably by                                                                      FY 2005-2006
making the U.S. Joint Forces Command responsible                                                                      commitment.
                                                              a
for developing global, joint sourcing solutions for               The FY 2004 data are final.
conventional forces in support of Combatant
Commander requirements – independent of unit                  Metric Description. In 2003, the Secretary of
assignment to a specific Combatant Command. We                Defense directed the Chairman of the Joint Chiefs of
also made progress toward our adaptive planning               Staff to develop an integrated force assignment,
goals by using the concept to construct force flows           apportionment, and allocation methodology. The
for the Operational Availability 2004 simulation              Secretary also directed the U.S. Joint Forces


DoD Performance and Accountability Report                79                               Part 2: Performance Information
Command (USJFCOM) to develop a means for                        Global Force Management. This document is a
monitoring joint force operational availability. In             critical step in attaining the GFM goals of ensuring
response, we have initiated the Global Force                    the most available, best positioned force supports
Management (GFM) process, designed to                           Combatant Commander requirements, while
continuously manage the process that provides forces            measuring risk incurred to standing contingencies
to conduct operational missions (called “sourcing”).            and plans based on sourcing recommendations. A
It uses analytically based availability and readiness           final development this year was the establishment of
management methodologies. GFM provides                          the Force Management Functional Capabilities Board
comprehensive insight into U.S. force postures                  under the Joint Capabilities Integration and
worldwide, and accounts for ongoing operations and              Development System process. This board oversees a
constantly changing unit availability. GFM leverages            myriad of GFM actions to ensure validated
the most responsive, best-positioned force at the time          operational requirements are supported, and to
of need; it forms the basis of Joint Presence Policy            provide the military advice to the Secretary on force
that guides the allocating of Service forces that rotate        management issues.
into theater. GFM provides senior decision-makers
the means to assess risk in terms of forces available
for Combatant Commanders’ war plans and likely
stress on the force. When mature, this metric will
                                                                Activity Metric: Theatre Security
describe our ability to rapidly source joint force
capabilities with the right units providing the right           Cooperation
capability.
                                                                                         FY        FY
                                                                    End-state Metric    2001      2002      FY 2003           FY 2004 a
Ongoing Research. There are several ongoing
initiatives in support of GFM. The Joint Staff is               Annual                   No historical
                                                                                                         Initial security   FY 2005 plans
                                                                assessment of             data: new
leading the standardization and web-enabling of                 how theater                metric.
                                                                                                         cooperation        completed.
                                                                                                         guidance
Service and Combatant Command force structure                   security
                                                                                                         developed and
data as a key enabler to reliable, visible, and                 cooperation plans                                           FY 2004
                                                                                                         approved.
                                                                are contributing to                                         strategies
responsive global force availability information. In            DoD strategic                                               successfully
another GFM-related initiative, USJFCOM is                      goals                                    Combatant          completed.
                                                                                                         commands and
assuming the role of the primary joint force provider                                                    Services
and thus the single voice to source commitments. A                                                       developed
final initiative is the codification of the Global Force        a
                                                                                                         strategies.
                                                                    The FY 2004 data are final.
Management Board – this Joint Staff-led study team
is establishing the roles, missions, and functions of
this board that will support the GFM process.                   Metric Description. Recently, we initiated a
                                                                comprehensive security cooperation strategy review
Timeline For Completion. The Global Force                       that focused the activities of Combatant Commands,
Management Data Initiative is expected to achieve               the Services, and defense agencies on the common
initial operational capability by FY 2006. By                   goals that we need to achieve if we are to build the
December 2004, USJFCOM requirements in support                  right defense partnerships with friends and allies.
of the joint force provider functions will be                   Security cooperation embraces all defense
determined and the GFM Board will be codified.                  interactions with foreign defense establishments, and
Performance Results for FY 2004. During                         is our primary means of building relationships that
FY 2004, we made steady, positive progress in                   promote specific U.S. security interests. Security
establishing GFM. A major development was the                   cooperation activities help our allies develop military
decision by the Secretary to establish USJFCOM as               capabilities for self-defense and coalition operations.
the primary joint force provider. USJFCOM is now                They also provide information, intelligence, and
responsible for developing global, joint sourcing               peacetime access to enroute infrastructure and other
solutions for conventional forces in support of                 access in the event of a contingency. Theater
Combatant Commander requirements – independent                  security cooperation is a subset of defense security
of unit assignment to a specific Combatant                      cooperation and encompasses activities Combatant
Command. We also integrated the previously stove-               Commands conduct to further our national goals and
piped assignment, allocation and apportionment                  priorities.
processes under a single integrated document entitled


DoD Performance and Accountability Report                  80                               Part 2: Performance Information
Ongoing Research. We are currently researching               Activity Metric: Adaptive Planning
appropriate assessment metrics to determine
effectiveness of the security cooperation program,
                                                                                       FY        FY
and evaluating the capabilities required for security             End-state Metric    2001      2002     FY 2003         FY 2004a
cooperation. This analysis will help us shape an             Percentage of             No historical   Tested          Approved
associated Joint Operating Concept.                          deliberate and             data: new      prototype of    adaptive
                                                             crisis plans                metric.       adaptive        planning
                                                             networked as                              planning tool   concept and
Timeline for Completion. Initial metrics are slated          “living plans” in a                                       matured
for completion during FY 2005, in time to be used to         collaborative joint                                       operational
                                                             command and                                               prototype.
develop the FY 2006 plans.                                   control environment
                                                              a
                                                                  The FY 2004 data are final.
Performance Results for FY 2004. In FY 2004, we
continued to focus efforts on the six major defense          Metric Description. As a result of a Combatant
policy themes: combating terrorism, influencing the          Commander’s conference, the Secretary of Defense
direction of key powers, transforming the                    directed the Chairman of the Joint Chiefs of Staff to
relationships with key powers, cooperating with              develop a new system to replace existing deliberate
parties to regional disputes, supporting realignment,        and crisis planning methods. The goal is to produce
and strengthening alliances for the future. Combatant        plans that are more timely, adaptive, and responsive
Commands successfully executed the first generation          to the current security environment, providing
of theater security cooperation plans. A detailed            relevant options to the President and Secretary of
assessment of completed FY 2004 strategies was               Defense. Our long-term goal is to have a networked
used as a point of departure for updating FY 2005            capability to produce plans on demand via the global
plans. The most important result from FY 2004’s              information grid by 2008.
theater security cooperation efforts is that the             Adaptive planning will be implemented in three
Services, functional and Combatant Commands, and             phases. The initiation phase (now through FY 2006)
defense agencies are coordinating their security
                                                             will deploy new tools and exercise portions of the
cooperation efforts. This has created a collaborative        adaptive planning construct on select priority plans.
planning environment and improved the quality of             The implementation phase (FY 2006 - 2008) will
the overall security cooperation program.
                                                             produce electronic plans for all contingencies in a
                                                             collaborative joint command and control (JC2)
                                                             environment. The integration phase (beyond
                                                             FY 2008) will produce and continually update
                                                             “living” plans in a collaborative JC2 environment.
                                                             Ongoing Research. The Chairman has established
                                                             an implementation working group to provide
Outcome Goal: Are our forces currently                       direction to adaptive planning activities and
ready?                                                       procedures. We continue to test and refine the web-
                                                             based Collaborative Force Sustainment and
The most basic information the President and                 Transportation (CFAST) tool to build campaign
Secretary of Defense must know about America’s               plans. We are also developing other tools to enable a
Armed Forces is whether they are ready to perform            collaborative planning environment. Adaptive
their next mission.                                          planning efforts continue to be synchronized with
                                                             numerous other Department transformational
To enhance current readiness reporting, four metrics         initiatives such as Global Force Management, the
are currently under development in support of this           Standing Joint Force Headquarters, and the Defense
outcome goal. One helps leadership assess our                Readiness Reporting System.
ability to produce plans that are more timely,
adaptive, and responsive to the current security             Timeline for Completion. Implementation plan,
environment. One helps create a foundation for               initial tools assessment, and CFAST version 3.0
strategic analyses. Another tells us how well we are         should be complete by FY 2005. CFAST version 3.0
learning lessons from current operations, and another        is a key component to successful testing of adaptive
fundamentally changes the way force readiness issues         planning in its initiation phase.
are measured, reported, and resolved.


DoD Performance and Accountability Report               81                               Part 2: Performance Information
Performance Results for FY 2004. The Department                          Operation-1 (MCO-1), “Swiftly Defeat the Effort,”
made significant progress advancing the adaptive                         and the Baseline Security Posture (BSP).
planning concept. The Secretary approved the                             Additionally, other MCO and small-scale
concept and we established a team to ensure                              contingency studies will use the OA-05-developed
successful implementation throughout the                                 BSP baseline for analysis.
Department. The U.S. Joint Forces Command
                                                                         Timeline for Completion. A current-year baseline
conducted a formal test and evaluation of CFAST
                                                                         is under development with a final report due early
that resulted in modifications, improvements, and
                                                                         FY 2005. In mid-FY 2005, a second current-year
corrections to identified flaws. The Joint Staff used
                                                                         baseline is tentatively scheduled to support the
adaptive planning to construct force flows for the
                                                                         development of a Combatant Commander’s Concept
Operational Availability FY 2004 simulation models
                                                                         of Operations Plan (CONPLAN). The OA-05 study
(THUNDER, Integrated Theater Engagement Model,
                                                                         will develop two future-year baselines, with the final
and Joint Integrated Contingency Model). CFAST
                                                                         report due December 2005.
significantly decreased the planning time, increased
the force flow accuracy and prototyped the                               Performance Results for FY 2004. Two Combatant
collaborative planning environment.                                      Commanders developed current-year baselines in
                                                                         FY 2004 to support development of their contingency
                                                                         plans. The OA-04 study produced future-year
                                                                         analytic baselines for two separate “Swiftly Defeat
Activity Metric: Analytic Baselines                                      the Effort” campaigns.

                         FY        FY
    End-state Metric    2001      2002     FY 2003     FY 2004a

Number and               No historical   Developed    Developed          Activity Metric: Operational Lessons
quality of analytic       data: new      two future   two current
baselines used to           metric       baselines.   and two
                                                                         Learned
support the                                           future
Quadrennial                                           baselines.
Defense Review                                                                 End-state
                                                                                                FY 2001      FY 2002    FY 2003     FY 2004a
and other major                                                                 Metric
department
studies.                                                                  Percentage of            No        Released   Released    Approved
                                                                          lessons-              historical    lessons     DoD       enhanced
a
    The FY 2004 data are final.                                           learned                 data:       learned   Training       Joint
                                                                          captured,                new       develop-   Transfor-    Lessons
Metric Description. In his annual planning                                analyzed, and          metric.        ment     mation      Learned
                                                                          implemented                        concept.   Impleme      Program
guidance, the Secretary of Defense directed that we                       to improve joint                               n-tation     Study.
create a foundation for strategic analyses that relied                    warfighting                                     Plan.
on common scenarios and data. These analytic                              capabilities.
                                                                          a
baselines are intended to provide senior staff                                The FY 2004 data are final.
responsive and analytically sound insights to help                       Metric Description. The Secretary of Defense and
them make decisions on joint warfighting issues and                      the Chairman of the Joint Chiefs of Staff have both
policy. Analytic baselines support readily available                     highlighted the importance of an effective joint
and collaboratively generated analyses,                                  lessons-learned program. The DoD Training
documentation, and results for use throughout the                        Transformation Plan (June 2003) identifies the need
Department. They are a common starting point for                         to ensure that lessons-learned are integrated into the
the Department’s most important studies. The                             development of new training processes and systems
current-year baselines accelerate the deliberate                         (see www.t2net.org). To do this, lessons-learned
planning process and are based on existing                               from operational missions must be systematically
Combatant Commander war planning efforts and                             captured and injected into the full range of
concepts of operation; future-year baselines are                         preparatory and planning activities, ongoing
primarily developed for use in Department-wide                           experimentation, concept development, doctrine, and
studies such as Operational Availability FY 2005.                        joint tactics, techniques, and procedures
Ongoing Research. The Joint Staff is currently                           development. To be effective, lessons-learned must
conducting Operational Availability FY 2005 (OA                          be implemented at the lowest organizational level.
05). To support this study, we will develop two                          When mature, this metric will monitor our progress
future-year analytic baselines: Major Combat                             toward effectively enhancing joint warfighting


DoD Performance and Accountability Report                           82                               Part 2: Performance Information
capability by quickly distributing and incorporating            Activity Metric: DoD Readiness
relevant operational lessons-learned.                           Reporting System (DRRS)
Ongoing Research. The Joint Staff finalized                     Implementation
lessons-learned from Operation Iraqi Freedom and
introduced the first five, priority lessons-learned into         End-state Metric
                                                                                       FY       FY
                                                                                      2001     2002     FY 2003        FY 2004 a
the Joint Capabilities Integration and Development                (New Baseline)
System. The Chairman directed the U.S. Joint Forces             A new DoD-wide         No historical    Awarded     Reached Initial
                                                                readiness               data: new       develop     operating
Command (USJFCOM) to expand the lessons-                        reporting system          metric        ment        capability.
learned program by collecting and analyzing lessons-                                                    contract.
                                                                                                                    Conducted
learned data collected by Combatant Commands,                                                                       technical
                                                                                                                    capability
Services, and defense agencies.                                                                                     review.

Performance Results for FY 2004. During                                                                             Provided an
                                                                                                                    operational
FY 2004, the Enhanced Joint Lessons Learned                                                                         version.
Program (JLLP) Study was completed; this initiative             a
                                                                    The FY 2004 data are preliminary.
analyzes existing capabilities to capture lessons-
learned and develop alternative courses of action.              Metric Description. The 2001 Quadrennial Defense
USJFCOM established the Joint Center for                        Review directed us to fundamentally change the way
Operational Analysis–Lessons Learned; joint lessons-
                                                                force readiness issues are measured, reported, and
learned specialists were placed in the individual               resolved. DoD Directive 7730.65, DoD Readiness
Services’ lessons-learned centers to assist with the            Reporting System (DRRS), signed on June 3, 2002,
collection, analysis, and distribution processes. The           launched a series of important changes to policy and
Joint Staff began updating the Joint Lessons-Learned            procedures that will allow us to develop and field a
Program instruction to reflect the changes in the               new readiness reporting and assessment system. The
collection, analysis, implementation and follow-up              Secretary of Defense receives periodic updates on
procedures to include the replacement of the                    progress toward fully implementing DRRS across the
Remedial Action Program with the institutionalized              Department.
Doctrine, Organization, Training, Material,
Leadership, Personnel and Facilities (DOTMLPF)                  When mature, DRRS will provide a capabilities-
change processes. The Joint Staff and USJFCOM                   based, adaptive, near-real-time readiness reporting
sponsored the Worldwide Joint Lessons-Learned                   system for all military units. Readiness will be
Conference in July 2004 to shape evolving policies,             assessed from the perspective of the Combatant
demonstrate success stories already impacting
                                                                Commanders. This is important because Combatant
warfighters, receive input from allies, and promulgate          Commanders first describe their roles and
changes to the overall lessons-learned program.                 responsibilities in terms of mission essential tasks
                                                                (METs), assigned missions, and core tasks, and then
                                                                they assess their ability to conduct these tasks.

                                                                Ongoing Research. The Under Secretary of Defense
                                                                for Personnel and Readiness is managing a
                                                                comprehensive research effort being conducted by
                                                                several development teams:
                                                                       •    Booz Allen Hamilton (development team)
                                                                       •    Camber Corporation (training readiness
                                                                            development team)
                                                                       •    Dynamics Research Corporation (plan-to-
                                                                            task study team)
                                                                       •    Alion Science and Technology
                                                                            (development team)




DoD Performance and Accountability Report                  83                              Part 2: Performance Information
    •    Computer Sciences Corporation (functional            Activity Metric: Joint Concepts
         architecture)
                                                                                       FY        FY
    •    Northrop Grumman (munitions                              End-state Metric    2001      2002    FY 2003       FY 2004a
         requirements)
                                                              Number of                No historical   Joint        Endorsed 2 of
Timeline for Completion. DRRS achieved initial                concepts                  data: new      Operations   4 Joint
operational capability at the end of FY 2004; full            approved to link            metric       Concepts     Operating
                                                              strategic guidance                       construct    Concepts.
operational capability is expected by the end of 2007.        to warfighting                           approved.
                                                              capabilities
Performance Results for FY 2004. The Under                                                                          Approved 5
Secretary of Defense for Personnel and Readiness is                                                                 functional
                                                                                                                    concepts.
managing a comprehensive research effort being
conducted by several development teams. In                    a
                                                                  The FY 2004 data are final.
FY 2004, a project office and development team was
                                                              Metric Description. Joint concepts guide the
identified and employed; the team has successfully
                                                              transformation of the joint force so that it is prepared
demonstrated that DRRS 1.0 is operational. They
                                                              to operate successfully over the next 10-20 years.
also completed concept of operations, project
                                                              The Joint Operations Concepts (JOpsC) document
management, and strategic plans; conducted an initial
                                                              describes how the future military will operate as we
DRRS functionality test; established an initial DRRS
                                                              transition from a threat-based to a capabilities-based
network infrastructure; and developed a readiness
                                                              force. It provides the operational context for the
markup language (RML) specification. An initial
                                                              transformation of the U.S. Armed Forces by bridging
scenario-to-unit METs methodology was completed
                                                              the gap between strategic guidance and the
and the Enhanced Status of Resources and Training
                                                              Department’s resourcing strategy for capabilities.
System (ESORTS) prototype was fielded. The team
                                                              JOpsC also assists in structuring joint force
also successfully conducted a technical capability
                                                              experimentation and assessment activities that we use
review of the “Build MET,” “Assess MET,”
                                                              to validate capabilities-based requirements. It is the
“TurboMET,” and “Portal” applications. Finally, a
                                                              overarching framework that defines the construct for
DRRS Support Center was established at U.S. Pacific
                                                              the development of subordinate Joint Operating
Command.
                                                              Concepts, Joint Functional Concepts, and Joint
                                                              Integrating Concepts.
                                                              Joint Operating Concepts (JOCs):
                                                                  • major combat operations,
                                                                  • stability operations,
                                                                  • homeland security, and
                                                                  • strategic deterrence...
Outcome Goal: Are our forces employed                             …describe how a Joint Force Commander will
                                                                  plan, prepare, deploy, employ, and sustain a joint
consistent with our strategic priorities?
                                                                  force to accomplish a strategic objective for a
                                                                  given operation. Each concept identifies broad
As our defense strategy changes, it is important to               principles and essential capabilities and provides
update our operation and contingency plans                        the operational context for JFC and JIC
accordingly. When there are large changes, such as                development and experimentation.
the Department’s decision to leverage joint training
and operations, it means new concepts and tools must          Joint Functional Concepts (JFCs):
be developed to enhance the planning process.                      • joint command and control,
                                                                   • battlespace awareness,
The following measures are designed to help us                     • force application,
gauge our success at achieving this goal.                          • focused logistics, and
                                                                   • protection...
                                                              …describe how a Joint Force Commander will
                                                              integrate a set of related military tasks to attain
                                                              required capabilities.



DoD Performance and Accountability Report                84                               Part 2: Performance Information
Finally, the Joint Integrating Concepts (JICs):              Activity Metric: Enhanced Planning
    • undersea superiority,                                  Process (EPP)
    • joint forcible entry,
    • joint urban operations,
                                                                 End-state Metric      FY       FY       FY
    • global strike,                                                                  2001     2002     2003       FY 2004
                                                                 (New baseline)
    • sea basing,
                                                             An annual                No historical data: new   • EPP
    • joint command and control,                             assessment of                    metric              chartered by
    • integrated air and missile defense, and                issues and                                           Secretary of
                                                             alternatives for                                     Defense.
    • joint logistics…                                       providing the
    …describe how a Joint Force Commander                    Department’s                                       • Resource
                                                             highest priority joint                               guidance
    integrates functional means to achieve                   capabilities.                                        captures EPP
    operational objectives. They integrate essential                                                              results.
    battlespace effects with concepts of operation to
                                                             Metric Description. For the first time in FY 2004,
    transition from what needs to be done—to how
                                                             major planning and resource issues presented for
    to actually do it.
                                                             decision to the Secretary of Defense were formulated
Ongoing Research. The Joint Staff is revising the            and assessed using an improved collaborative joint
JOpsC with stakeholders from across the Department.          planning process—called the Enhanced Planning
The JOCs, JFCs, and JICs are being developed or              Process or EPP. By considering needs and costs
revised by various working groups. The Joint Staff           simultaneously, the EPP was able to propose cost-
and U.S. Joint Forces Command are introducing a              effective programmatic options for achieving the
process to schedule experimentation on approved              Department’s strategic policy objectives.
JICs.                                                        Accordingly, the EPP underpins the framework of
                                                             executable Joint Programming Guidance (JPG). The
Timeline For Completion. The JOpsC, JOCs, and
                                                             JPG provides shared planning and resource
JFCs are planned to be on a two-year update cycle.
                                                             assumptions used in annual updates to the defense
The Chairman approved a plan to revise the JOpsC
                                                             program and budget.
for Secretary of Defense approval by March 2005,
and to revise the JOCs by early FY 2006. The                 An analytic baseline is being developed in concert
current JFCs and three new JFCs (net-centric                 with the Chairman of the Joint Chiefs of Staff and the
warfare, force management, and training                      Under Secretary of Defense for Policy. This baseline
management) are scheduled to be complete by early            will establish common planning assumptions to be
FY 2005, with an update scheduled by the end of              used in warfighting models, acquisition analysis, and
FY 2006. The JICs are in various stages of                   other shared analysis tools.
development.
                                                             Ongoing Research. An analytic baseline is being
Performance Results for FY 2004. During                      developed in concert with the Chairman of the Joint
FY 2004, two of four JOCs (homeland security and             Chiefs of Staff and the Under Secretary of Defense
strategic deterrence) were endorsed by the Chairman          for Policy. This baseline will establish common
and forwarded to the Secretary for approval. The             planning assumptions to be used in warfighting
remaining two JOCs (major combat operations,                 models, acquisition analysis, and other shared
stability operations) are being staffed for the              analysis tools.
Chairman’s endorsement. The Joint Requirements
                                                             Timeline for Completion. The first EPP was
Oversight Council approved all five JFCs. Work
                                                             completed in May 2004 as a proof-of-concept. The
began on the eight JICs in FY 2004.
                                                             full test of the EPP will occur during the next
                                                             quadrennial defense review cycle, scheduled to begin
                                                             during FY 2005.
                                                             Performance Results for FY 2004. The EPP
                                                             supported the FY 2005 combined program and
                                                             budget review. Twelve major issues,6 plus 15 issues
                                                             consolidated from the Combatant Commanders
                                                             Integrated Priority Lists (IPLs), were examined by

                                                             6
                                                                 Defined as program changes of interest.

DoD Performance and Accountability Report               85                             Part 2: Performance Information
means of the new process. Given the timeline and              status of technology objectives. The activities in this
scope of the major issues, only two of the 12 were            quadrant focus on developing new facility baselines
resolved in the FY 2005 President’s Budget; the               and new management tools.
remainder have been carried over to the FY 2006
cycle. However, all IPL issues were resolved and
solutions directed in the JPG.



                                                              Outcome Goal: Streamline the decision
                                                              process, improve financial management,
                                                              and drive acquisition excellence.

                                                              We know that we must transform the way the
                                                              Department works and on what it works. This means
              Institutional Risk                              taking clear, specific action to streamline our
                                                              decision process—our leaders cannot act wisely
                                                              unless they can get the information they need, when
                                                              they need it.
Institutional risk stems from the management
practices and controls that affect the efficiency with        The Secretary’s performance priorities for
which resources are used and that shape the                   institutional excellence are to…
effectiveness of the Defense establishment.                       •    Streamline DoD processes,
                                                                  •    Optimize intelligence capabilities, and
Just as we must transform America's military                      •    Enhance the Interagency process, focus, and
capability to meet changing threats, we must                           integration.
transform the way the Department works and what it
works on. A new idea ignored may be the next threat           We know that the technology revolution has not yet
overlooked. Every dollar squandered on waste is one           fully taken hold in the defense economy, and that
denied to the warfighter.                                     financial systems are decades old and incompatible
.                                                             with one another. We know from the 1998 BRAC
We have the ability—and, therefore, the                       that we have 25 percent more installation and
responsibility—to reduce waste and improve                    facilities capacity than we need, costing an
operational efficiency on our own.                            unnecessary $3 billion to $4 billion dollars annually.
                             Secretary Rumsfeld
                             September 10, 2001               The President’s Management Agenda – has set
                                                              targets for the Department of Defense in each of five
                                                              government-wide initiatives to improve management
The four outcome goals for this risk management               and service to our citizens.
quadrant are:                                                      • Human Capital
    • Streamlined decision process, improved                       • Improved Financial Performance—BMMP
         financial management, and acquisition                     • Competitive Sourcing
         excellence.                                               • E-Government
    • Overhead and direct costs are managed.                       • Budget and Performance and Performance
    • Readiness and quality of key facilities are                       Integration
         improved.
    • Realigned support to the warfighter.                    This means we must…
                                                                  • Drive change from the top.
Just over half the metrics in the institutional risk              • Set measurable goals.
management quadrant are performance metrics.                      • Standardize and integrate business processes
They track improvements in facility quality and                       and financial management systems agency
recapitalization rates, cost growth for major                         wide.
acquisition programs, logistics response time, and the            • Achieve Acquisition Excellence.

DoD Performance and Accountability Report                86                        Part 2: Performance Information
The next four measures will help lead the way.                                     We are working to achieve three primary outcomes:
                                                                                   •   Leveling the playing field for all contractors,
                                                                                       giving us greater exposure to new ideas.
Performance Metric: Support Acquisition                                            •   Invigorating the fiscal well being of the defense
Excellence Goals                                                                       industry by rewarding good performance.
                                                                                   •   Encouraging the strong competition vital to
       Metric
                                                                                       maintaining a healthy industrial base.
                      FY        FY            FY
     (Excellence                                          FY 2004a
        Goal)
                     2001      2002          2003                                  Performance Results for FY 2004. Our results for
                                                                                   this fiscal year include:
 Acquisition        Progress demonstrated in the following DoD
 Excellence         scorecard metrics: Major Defense Acquisition
 with Integrity     Program (MDAP) Cycle Time, MDAP Acquisition                          1.   Acquisition Excellence with Integrity – Our
                    Cost Growth, and MDAP operations and
                    sustainment (O&S) Cost Growth.
                                                                                              long-term objective is to shorten the
 Logistics:         Progress demonstrated in the following DoD
                                                                                              system acquisition cycle by using
 Integrated         scorecard metric: Customer Wait Time.                                     evolutionary acquisition and spiral
 and Efficient                                                                                development, maximizing the use of
                                                                                              mature and commercial technology, and
 Systems            No historical data for          • Established senior-                     expanding the use of technology
 Integration        FY 2001-2002;                     level forum.
 &                  established goal but did
                                                                                              demonstrations. At the same time, we are
 Engineering        not measure data for            • Established                             striving to increase the accuracy and
 for Mission        FY 2003.                          framework and
                                                      formal plan.                            credibility of cost estimates and thus fund
 Success
                                                    • Developed 3                             all Major Defense Acquisition Programs
                                                      continuous-                             (MDAPs) at the Cost Analysis
                                                      learning courses.
                                                                                              Improvement Group (CAIG) estimate, if
 Technology         No historical data for FY 2001-2002. Progress                             appropriate. We plan to bring a joint
 Dominance          FY 2003 to present demonstrated via the following
                    DoD scorecard metrics: Balanced and Focused                               capabilities perspective to acquisition, and
                    Science and Technology and Status of Defense                              will conduct senior leadership reviews of
                    Technology Objectives.
                                                                                              each functional capability area.7 Next, we
 Resources          No historical data for FY 2001-2002. Progress
 Rationalized       FY 2003 to present demonstrated via the following
                                                                                              will enforce the results of senior leadership
                    DoD scorecard metric: Base Realignment and                                reviews in the resource process as we
                    Closure 2005.                                                             transition from “systems-focused” to
 Industrial         No historical data for          • Identified industrial                   “capabilities-based” Defense Acquisition
 Base               FY 2001-2002. In                  base issues in
 Strengthen-        FY 2003, increased                battle space                            Executive Summary reviews. The metrics
 ed                 competition by relieving          awareness and                           we are using to measure progress against
                    contractors from covering         command and
                    government shortfalls in          control.
                                                                                              this goal are MDAP Cycle Time, MDAP
                    research and                                                              Acquisition Cost Growth, and MDAP
                    development.                    • Published
                                                      roadmap for                             Operations and Support (O&S) Cost
                                                      Transforming the                        Growth. They are described in detail later.
                                                      Industrial Base.
 Motivated,         No historical data for          Transitioned from the
 Agile              FY 2001-2002. In                AcqDemo Project to
                                                                                         2.   Logistics: Integrated and Efficient – The
 Workforce          FY 2003, supported              the National Security                     Department is striving for integrated and
                    Civilian Acquisition            Personnel System.                         efficient logistics. We will adopt
                    Workforce Personnel
                    Demonstration                                                             initiatives that reduce logistics handoffs
                    (AcqDemo) Project.                                                        and ensure reliable delivery of products
 a
     The FY 2004 information is preliminary.                                                  and services; develop weapon-system
                                                                                              support strategies based on performance-
Metric Description. The focus of the Department in
                                                                                              based logistics; design logistics
the area of acquisition, technology and logistics has
                                                                                              requirements using high-reliability
changed from one of “reform” to “excellence.”
                                                                                              systems; reduce the deployable logistics
“Excellence” stresses making the current system
                                                                                              footprint of operational and support forces;
function better, and then institutionalizing the
improved process. The Department faces many                                        7
challenges in identifying, retailoring, and                                          Force protection, battle space awareness, command &
institutionalizing the system’s strengths to perform                               control, focused logistics, network-centric warfare, force
                                                                                   management, joint training, and force application make up
better.
                                                                                   the eight functional area capabilities.

DoD Performance and Accountability Report                                     87                         Part 2: Performance Information
          and reduce logistics costs of operations.                      The result will be a re-sized and
          The Customer Wait Time metric is used to                       reconfigured facilities footprint. BRAC
          measure progress against this goal; it is                      2005 will help us measure our progress
          described in detail later.                                     toward this goal. The BRAC is described
                                                                         in detail later in this report.
     3.   Systems Integration and Engineering for
          Mission Success – We need to focus our                    6.   Industrial Base Strengthened – One of our
          systems integration and engineering                            enduring goals is to ensure a defense
          activities on mission success. To do this,                     industrial base that is focused on and
          we need to employ integrated                                   capable of supporting 21st century
          architectures, plans, and roadmaps, and                        warfighting. To do this, we are
          establish a clear mission context for                          establishing cross-feed mechanisms for
          Defense Acquisition Board reviews. It is                       major industrial base assessments,
          important that we continue to foster                           evaluating industrial sufficiency for key
          interoperability, enhancements to joint and                    capabilities, developing industrial policy
          coalition capabilities, and improve the                        that creates and retains surge capacity for
          systems engineering environment. We                            essential materials, and accessing
          need to sustain a professional systems                         emerging suppliers for innovative
          engineering workforce, and give them the                       solutions. The metric for this goal has not
          policies and analytic tools they need to                       yet been established.
          assess system readiness. We must continue
          to conduct high-standard operational tests                7.   Motivated, Agile Workforce – We are
          and evaluations. Finally, we need to                           continuing the Congressionally mandated
          aggressively work to reduce life-cycle                         DoD Civilian Acquisition Workforce
          costs. The metric we will use to measure                       Personnel Demonstration (AcqDemo)
          progress for this goal has not yet been                        project. AcqDemo is designed to give
          established.                                                   employees a flexible, responsive personnel
                                                                         system that rewards contributions and
     4.   Technology Dominance – To dominate in                          provides line managers with greater
          future conflicts, we must have                                 authority over personnel actions. Key
          technologically superior military systems.                     features of the demonstration project
          To achieve this dominance, we will                             include streamlined hiring, broad banding,8
          employ activities such as fully leveraging                     a simplified classification system, and a
          Advanced Concept Technology                                    personnel system that links compensation
          Demonstrations, closely linking high pay                       to employees’ contributions to the mission
          off science and technology efforts to                          through annual performance appraisals.
          enhance joint warfighting capabilities and                     The Department will be transitioning
          align with strategic defense initiatives. We                   personnel from the AcqDemo Project into
          need to establish a new science and                            the National Security Personnel System
          technology career field to better focus                        (NSPS) in FY 2005. During this
          human capital resources. The metrics used                      transition, we will be integrating best
          to measure progress against this goal are                      practices from the AcqDemo into the
          Maintain a Balanced and Focused Science                        NSPS. Additional information on the
          and Technology Program and Monitor the                         AcqDemo initiatives is at
          Status of Defense Technology Objectives.                       www.acq.osd.mil/acqdemo.

     5.   Resources Rationalized – We are working
          to enhance our joint warfighting
          capabilities by funding key programs
                                                              Activity Metric: Improve the
          sufficiently, rationalizing infrastructure,
          and pursuing fundamental business process           Transparency of Component Submissions
          improvements. These improvements
          include business process streamlining,
                                                              8
          outsourcing, and competitive sourcing.                Broad banding collapses a number of salary ranges within
                                                              a traditional salary structure into a few broad bands.

DoD Performance and Accountability Report                88                         Part 2: Performance Information
for Alignment of Program Review to                                              To determine how accurate our resource data are, we
Strategic Trades                                                                will rely on fiscal and budgetary controls, combined
                                                                                with assessments of whether the data comply with
                                                                                strategic guidance. Where possible, we have
                        FY        FY
End-state Metric       2001      2002         FY 2003           FY 2004a
                                                                                established business rules to ensure existing data
                                                                                structures are used appropriately. We also will
A DoD-wide            No historical data   Established        Established
transactional            new metric        initial database   single
                                                                                validate data by having analysts and subject-matter
data collection                            integration        collection        experts monitor particular groups of resources or
process                                    criteria.          point for         programs. A major tenet of the Streamlined
                                                              operation and
                                                              maintenance       Planning, Programming, Budgeting, and Execution
                                                              data.             process is the disciplined review of component
Streamlined                                • Streamlined      Continued         programs to ensure resource compliance with
Planning,                                    and              with
Programming,                                 combined         streamlining
                                                                                strategic guidance.
Budgeting and                                the program      effort, placing
Execution                                    and budget       more              Ongoing Research. Refining the submission of
(PPBE) process                               review.          emphasis on       programming and budgeting data are tasks in
                                                              planning and
                                           • Instituted       less on           progress with the Services, defense agencies, and the
                                             streamlined      resourcing        DoD Comptroller. Streamlining the data flow to
                                             process for      decisions.
                                             developing                         eliminate dual submissions between budget and
                                             the FY 2005                        programming systems will reduce workload and
                                             budget.
a
                                                                                improve data quality. Requirements will be
    The FY 2004 information is final.
                                                                                standardized and reduced. PDR data requirements
Metric Description. Improving the transparency of                               have been reduced from 139 distinct formats in
component program and budget submissions will                                   FY 2000 to 39 distinct formats in the FY 2003 cycle.
help ensure our resource plans comply with the                                  This degree of reduction needs to be achieved in
Secretary’s strategic guidance. It will provide our                             other areas as permitted by legal and external agency
senior-level decision makers with the insight they                              reporting requirements.
need to make better-informed decisions. This is                                 Evaluating, validating, and improving the current
because transparency fosters an agreement of facts.                             program and budget data structures will significantly
Accordingly, alternatives and the associated trade                              contribute to the alignment of programming and
space can be bounded by the agreed-upon facts.                                  budgeting activities. The data structures must
This, in turn, provides a consistent baseline that                              facilitate compliance with reporting requirements;
serves as a common point of departure for making                                better support business and policy decisions; allow
resource trades.                                                                for easier management of the structures to ensure
To achieve a consistent baseline, we must first                                 validity of the data; and support the overlay of
streamline the flow of data. Each data element                                  taxonomies for specific analytic purposes in support
should be collected only once by a single                                       of strategic reviews.
authoritative source collection system and reused as                            Connections to the lower-level, component-
needed. The agreement of all parties on data                                    maintained source data would provide further
accuracy, validity, and source authority facilitates                            transparency as issues arise. The solution should
this “collect-once” capability                                                  provide the ability for analysts supporting a decision
                                                                                maker to find data at a finer level of detail maintained
Our efforts to improve transparency have been under                             by the components.
way for several years. However, we have never                                   The criteria that we will use to measure improvement
documented or quantified metrics we can use to                                  in transparency might include:
monitor our progress. Accordingly, evidence of our
success to date is mostly anecdotal. However, one                                   •    Data requirements: the reduction in the
area where we can measure progress is in our                                             number of distinct data requirements
Programming Data Requirements (PDR) data                                                 requested at each point in the cycle.
collection and reuse initiative, which we hope will                                 •    Data structure management: the level of
serve as the pilot for the development of measures to                                    human effort required annually to keep the
be applied more broadly.                                                                 structure accurate; the amount of time and
                                                                                         effort to create a new element.


DoD Performance and Accountability Report                                 89                         Part 2: Performance Information
       •     Consistency of program reporting: the                            agencies to apply explicit criteria for risk
             degree to which resource plans provide a                         management, and to align their resource plans
             non-ambiguous result when viewed from                            accordingly. Then, during the annual program and
             different perspectives; the time to create new                   budget review, any resource proposal that varied
             mappings and the accuracy of the mappings                        from guidance was corrected in the President’s
             to emerging requirements.                                        Budget.
                                                                              During the next planning cycle, we further
Timeline for Completion. The DoD Business                                     strengthened the guidance as a resource decision tool
Management Modernization Program (BMMP) has                                   by adding more details on how Services and defense
set a target of full deployment of the systems                                agencies were expected to meet the Secretary’s intent
supporting this metric by 2010; a unified information                         within fiscal constraints. The guidance—renamed
architecture will be implemented by FY 2008.                                  Strategic Planning Guidance or SPG—marked the
Performance Results for FY 2004. Database                                     first attempt to estimate the direct cost of program
integration efforts are ongoing. For example, we                              priorities with the context of the overall defense
now have a single collection system for operations                            program. However, shortfalls still exist. It is still
and maintenance data that feeds decisions for both                            difficult to develop a truly independent cost estimate
the program and budget development.                                           of planning priorities, or to accurately assess all the
                                                                              variables associated with estimating the potential
                                                                              trade space created by accepting increased risk in
                                                                              some areas of the defense program. The SPG
                                                                              replaces the policy and strategy sections of the old
Activity Metric: Increase Visibility of
                                                                              consolidated defense guidance.
Trade Space
                                                                              The newly initiated Enhanced Planning Process
                                                                              (EPP) will provide a continuous, open and
    End-state
     Metric       FY 2001     FY 2002       FY 2003          FY 2004 a        collaborative analytic forum to closely examine
                                                                              issues of greatest interest to the Secretary. The EPP is
Estimates of        No historical data:   Conducted      •   Published
the cost of            new metric.        Joint              strategic        intended to produce programmatic recommendations
trade                                     Defense            planning         that will be documented in a new annual
guidance                                  Capabilities       guidance.
within the                                Study.                              publication—the Joint Programming Guidance (JPG).
context of the                                           •   Initiated        The JPG replaces the programmatic elements of the
overall                                                      enhanced
Defense                                                      planning         old consolidated defense guidance.
Program.                                                     process.
                                                         •   Issued joint
                                                                              Ongoing Research. The Department continues to
                                                             programming      improve this performance metric but several factors
                                                             guidance         will influence progress:
                                                             using initial
                                                             analytical
                                                             findings.        •   Defining “visibility” and its gradations. We
a
    The FY 2004 data are final.
                                                                                  need the ability to accurately estimate the costs
                                                                                  associated with programmatic and budget trades.
Metric Description. The annual planning guidance                                  We must be able to frame the trade space
of the Secretary of Defense is the primary tool for                               discussion within the context of the overall
directing how defense programs and budgets will be                                defense program. We must also ensure we are
shaped. Previous guidance provided a list of projects                             clear about the impact of making trades within
of interest, and it set priorities across the defense                             and among the four risk management areas of the
program. However, it did so with little fidelity. The                             defense strategy.
result was fiscally unsound and unclear planning
guidance. This made it difficult to ensure                                    •   Developing an index for measuring compliance.
compliance.                                                                       One approach to measuring increased visibility is
                                                                                  measuring its effect (output)—that is, the degree
In FY 2003, we dramatically increased the
                                                                                  of compliance. This metric might be measured
Secretary’s ability to influence Service and agency
                                                                                  in dollars failing to conform to guidance or in the
programs and budgets directly by restructuring the
                                                                                  number of issues of noncompliance that are
annual guidance update to clarify where more risk or
                                                                                  raised in the program and budget review. Either
less risk should be taken across the defense program.
This revised structure directed the Services and

DoD Performance and Accountability Report                                90                        Part 2: Performance Information
    index can provide a trend to show progress in              Activity Metric: Provide Explicit
    achieving visibility of the trade space.                   Guidance for Program and Budget
                                                               Development
•   Classification and the pre-decisional nature of
    document. The Secretary’s planning guidance is
    pre-decisional, and thus not releasable. In                End-state Metric     FY      FY
                                                               (New Baseline)      2001    2002      FY 2003              FY 2004 a
    addition, much of the guidance is classified. It is
    likely that some or portions of any trade-space                                                                  •   Combined the
                                                                                                                         program/budget
    metric would also be subject to these restrictions.                                                                  review process.

Timeline for Completion. Proposed metrics are                         Revised                                        •   Implemented
                                                                                                     Conducted
                                                                     planning,                                           new joint
expected to be developed by December 31, 2004.                     programming,
                                                                                    No historical    DoD-wide
                                                                                                                         perspective in
                                                                                     data: new      study of joint
                                                                   and budgeting                                         planning and
Performance Results for FY2004. The inaugural                                         metric.         defense
                                                                      decision                                           program
                                                                                                    capabilities.
SPG dramatically improved the Secretary’s ability to                  process                                            guidance.
shape the investment choices made by the Services                                                                    •   Added execution
                                                                                                                         reviews to
and defense agencies by assigning specific priorities                                                                    formal process.
that have to be achieved within fiscal constraints. It         a
                                                                   The FY 2004 data are final.
identified areas for accepting increased risk or
divesture in order to stay within those constraints. It        Metric Description. Section 113 of Title 10, U.S.
also directed several analytic efforts be undertaken           Code, requires the Secretary of Defense to give the
during the remainder of FY 2004 and in FY 2005 to              heads of the Military Departments and defense
gain insight into how programs must be structured to           agencies the resource levels projected to be available
achieve synergy in joint operations, and how                   for the period of time for which national security
performance metrics can be better defined to help              objectives, policies, and military missions established
evaluate programs in a joint context. The JPG used             as priorities under the defense strategy are to be
the initial findings of the EPP studies to describe            effective. In March 2003, the Secretary of Defense
specific program changes and priorities to guide the           chartered a broad review of our planning and
FY 2006 President’s Budget and FY 2006- 2011                   resource decision process. A study team chaired by
Future Years Defense Program.                                  the Honorable E.C. "Pete" Aldridge, former Under
                                                               Secretary of Defense, explored ways to make the
                                                               existing defense decision process less cumbersome,
                                                               more responsive, and more helpful to the Secretary’s
                                                               attempt to focus on managing and enhancing joint
                                                               capabilities.
                                                               The Joint Defense Capabilities Study was completed
                                                               in November 2003. It recommended focusing the
                                                               Secretary’s annual planning and programming
                                                               guidance on high-level strategic issues, and framing
                                                               resource alternatives as capabilities rather than
                                                               programs. The study also recommended that actual
                                                               results become a formal part of the overall
                                                               assessment process. Accordingly, the DoD Planning,
                                                               Programming, and Budgeting System (PPBS) added
                                                               a final “Execution” phase to the overall process to
                                                               become the PPBES.
                                                               Ongoing Research. We have enhanced our planning
                                                               process to focus on issues that are strategic and joint,
                                                               and address core military capabilities. Our goal is to
                                                               use disciplined, joint analysis to propose
                                                               programmatic alternatives and subsequently
                                                               formulate joint program and budget guidance.




DoD Performance and Accountability Report                 91                               Part 2: Performance Information
Timeline for Completion. The revised process will             •     Link Defense resources to key performance
have its first full proof-of-concept for the next                   goals. Closely related to the first metric, this
quadrennial defense review cycle, which will begin                  metric gauges our progress toward the use of
in FY 2005.                                                         automated techniques for transforming vast
                                                                    amounts of data into usable resource allocation
Performance Results for FY 2004. During
                                                                    information.
FY 2004, we published our revised planning
guidance—the Strategic Planning Guidance, which
documented key resource planning assumptions for
formulating resource plans. We also released the first
Joint Programming Guidance, which described                   Performance Metric: Reduce Percentage
program areas where planners should either accept or          of DoD Budget Spent on Infrastructure
reduce risk. Finally, we combined the program and
budget review, and increased our emphasis on                      Metric       FY 2001    FY 2002         FY 2003         FY 2004
integrating lessons-learned into the overall decision                           Actual     Actual       Target/Actual      Target
process. For example, Services and defense agencies           Percentage          46          44           42/42             41
could not make major changes from the approved                of DoD
                                                              budget
FY 2004 defense baseline for FY 2005 absent an                spent on
explicit rationale that considered actual performance         infrastructure
results.                                                      Note: This is a lagged indicator. Projections are based on the FY 2005
                                                              President’s Budget Future Years Defense Program.

                                                              Metric Description. The share of the defense budget
                                                              devoted to infrastructure is one of the principal
                                                              measures the Department uses to gauge progress
                                                              toward achieving its infrastructure reduction goals.
                                                              A downward trend in this lagged metric indicates that
                                                              the balance is shifting toward less infrastructure and
Outcome Goal: Manage overhead and                             more mission programs. In tracking annual resource
direct costs.                                                 allocations, we use mission and infrastructure
                                                              definitions that support macro-level comparisons of
By carefully managing overhead and direct costs, the          DoD resources. The definitions are based on the
Department ensures resources are directed to                  2001 Quadrennial Defense Review (QDR), the Future
accomplishing its mission, and conducting its most            Years Defense Program (FYDP), and an Institute for
important core functions. The following metrics help          Defense Analyses report (DoD Force and
us monitor achievement of this outcome goal.                  Infrastructure Categories: A FYDP-Based
                                                              Conceptual Model of Department of Defense
                                                              Programs and Resources, September 2002) prepared
  Fully half our resources go to infrastructure               for the Office of the Secretary of Defense. The
  and overhead, and in addition to draining                   definitions are consistent with the Goldwater-Nichols
  resources from warfighting, these costly and                Department of Defense Reorganization Act of 1986
  outdated systems, procedures and programs                   (P.L. 99-433). This act requires that combat units,
  stifle innovation as well.                                  and their organic support, be routinely assigned to the
                                                              Combatant Commanders and that the Military
           Secretary Rumsfeld, September 10, 2001             Departments retain the activities that create and
                                                              sustain those forces. This feature of U.S. law
                                                              provides the demarcation line between forces
                                                              (military units assigned to Combatant Commanders)
The Department manages this outcome goal with the             and infrastructure (activities retained by the Military
help of two important metrics:                                Departments). In addition to more precisely
• Reduce the percentage of the DoD budget spent               distinguishing forces from infrastructure, the force
    of infrastructure. By doing so, the Department            subcategories have been updated to reflect current
    ensures maximum resources are allocated to our            operational concepts. The infrastructure
    mission, core competencies, and critical                  subcategories, likewise, have been updated and
    functions.                                                streamlined.


DoD Performance and Accountability Report                92                              Part 2: Performance Information
Performance Results for FY 2003. FY 2004
accomplishments will be available by the second
quarter of FY 2005. In FY 2003, we allocated about
                                                                                        Department of Defense
42 percent of total obligational authority to
infrastructure activities, down from about 44 percent                         TOA by Force and Infrastructure Category
in the preceding year. The reduction in percentage                                    Constant FY 2005 $ (Billions)
terms stems from two sources. First, the Department
continued to increase its allocation of resources to
forces in fighting the global war on terror and                                                      FY 2000 FY 2001 FY 2002 FY 2003
meeting other operational requirements. Second,
efficiencies have resulted from QDR and defense                                           Mission Categories

reform initiatives, including savings from previous
                                                               Expeditionary Forces                    135     141    151     197
base realignment and closure rounds, strategic and
competitive sourcing initiatives, and privatization and        Deterrence & Protection Forces           8       9     13       14
reengineering efforts. We expect a continued                   Other Forces                            30       32    34       49
reduction in expenditures on infrastructure as a share
                                                               Defense Emergency Response
of the defense budget in FY 2004 and FY 2005.                  Fund
                                                                                                        0       0     14       1

                                                                Forces Total                           173     183    213     261
The following tables illustrate, by mission and
infrastructure categories, their relative share of DoD                                  Infrastructure Categories
Total Obligation Authority (TOA).
                                                               Force Installations                     24       24    27       34

                                                               Communications & Information             5       5      6       8

                                                               Science & Technology Program             9       9     10       11

                                                               Acquisition                              9       9      9       9

                                                               Central Logistics                       21       19    20       27

                                                               Defense Health Program                  20       18    26       23

                                                               Central Personnel Administration        11       11     8       12
                                                               Central Personnel Benefits
                                                                                                        8       8      9       9
                                                               Programs
                                                               Central Training                        27       27    30       34

                                                               Departmental Management                 15       16    17       20

                                                               Other Infrastructure                     3       8      3       4

                                                                Infrastructure Total                   151     154    166     190



                                                                Grand Total                            324     337    379     451

                                                                Infrastructure as a
                                                                                                      47%      46%    44%    42%
                                                                Percentage of Total


                                                               Source: FY 2005 President's Budget and associated FYDP with Institute
                                                               for Defense Analyses FYDP normalization adjustments.

                                                               Note: TOA = Total Obligational Authority




DoD Performance and Accountability Report                 93                                Part 2: Performance Information
                                                                                   Other infrastructure. Programs that do not fit well into other categories.
                                                                                   They include programs that (1) provide management, basing, and
Mission and Infrastructure Categories Used for Tracking                            operating support for DoD intelligence activities; (2) conduct navigation,
                                                                                   meteorological, and oceanographic activities; (3) manage and upgrade
the Portion of the DoD Budget Spent on Infrastructure
                                                                                   DoD-operated air traffic control activities; (4) support warfighting, war-
                           Mission Categories                                      gaming, battle centers, and major modeling and simulation programs;
                                                                                   (5) conduct medical contingency preparedness activities not part of the
Expeditionary forces. Operating forces designed primarily for non-                 defense health program; and (6) fund joint exercises sponsored by the
nuclear operations outside the United States. Includes combat units                Combatant Commanders (COCOMs) or JCS directed. Also included in
(and their organic support) such as divisions, tactical aircraft                   this category are centralized resource adjustments that are not
squadrons, and aircraft carriers.                                                  allocated among the programs affected (e.g., foreign currency
Deterrence and Protection Forces. Operating forces designed primarily              fluctuations, commissary resale stocks, and force structure deviations).
to deter or defeat direct attacks on the United States and its territories.
Also includes agencies engaged in U.S. international policy activities
under the direct supervision of the Office of the Secretary of Defense.
Other forces. Includes most intelligence, space, and combat-related
command, control, and communications programs, such as cryptologic
activities, satellite communications, and airborne command posts.
                        Infrastructure Categories                                  Activity Metric: Link Defense Resources
Force installations. Installations at which combat units are based.                to Key Performance Goals
Includes the Services and organizations at these installations
necessary to house and sustain the units and support their daily
operations. Also includes programs to sustain, restore, and modernize                  End-state Metric    FY 2001     FY 2002   FY 2003        FY 2004 a
buildings at the installations and protect the environment.
Communications and information infrastructure. Programs that provide               Common resource          No historical data: new metric    Developed draft
secure information distribution, processing, storage, and display. Major           data lexicon                                               data framework
elements include long-haul communication systems, base computing                                                                              and common
systems, Defense Enterprise Computing Centers and detachments,                                                                                business rules.
and information assurance programs.                                                a
                                                                                       The FY 2004 information is final.
Science and technology program. The program of scientific research
and experimentation within the Department of Defense that seeks to                 Metric Description. In FY 2003 we opened a
advance fundamental science relevant to military needs and determine
if the results can successfully be applied to military use.
                                                                                   program office dedicated to combining or aligning
                                                                                   program and budget databases that previously had
Acquisition. Activities that develop, test, evaluate, and manage the
acquisition of military equipment and supporting systems. These                    been managed separately. We are now engaged in a
activities also provide technical oversight throughout a system’s useful           major review of the Department’s program and
life.
                                                                                   budget data structure. This review, to be completed
Central logistics. Programs that provide supplies, depot-level
maintenance of military equipment and supporting systems,
                                                                                   during FY 2005, will ensure our common resource
transportation of material, and other products and services to                     management database:
customers throughout DoD.
                                                                                           •     More directly aligns with Congressional and
Defense health program. Medical infrastructure and systems, managed
by the Assistant Secretary of Defense for Health Affairs, that provide                           other external reporting requirements,
health care to military personnel, dependents, and retirees.
Central personnel administration. Programs that acquire and administer                     •     Better supports internal business and policy
the DoD workforce. Includes acquisition of new DoD personnel, station                            decisions by allowing an overlay of issue
assignments, provisions of the appropriate number of skilled people for
each career field, and miscellaneous personnel management support                                taxonomies that support strategy
functions, such as personnel transient and holding accounts.                                     development and reviews, and,
Central personnel benefit programs. Programs that provide benefits to
service members. Includes family housing programs; commissaries and
military exchanges; dependent schools in the United States and
                                                                                           •     More easily manages data structures and
abroad; community, youth, and family centers; child development                                  improves our ability to validate data.
activities; off-duty and voluntary education programs; and a variety of
ceremonial and morale-boosting activities.
                                                                                   This review covers almost 4,000 areas. We will
Central training. Programs that provide formal training to personnel at            modernize or replace outdated activity definitions,
central locations away from their duty stations (non-unit training).
Includes training of new personnel, officer training and service                   and consolidate or create others. Already we are
academies, aviation and flight training, and military professional and             seeing that today’s new strategic approach is merging
skill training. Also includes miscellaneous other training-related support
functions.                                                                         and blurring the traditional lines between tooth
Departmental management. Headquarters whose primary mission is to
                                                                                   (deployable operational units) and tail (non-
manage the overall programs and operations of DoD and its                          deploying units and central support). When the study
components. Includes administrative, force, and international                      is complete, we will have a more flexible analysis
management headquarters, and defense-wide support activities that
are centrally managed. Excludes headquarters elements exercising                   interface with defense data, allowing us to build
operational command (which are assigned to the “other forces”                      alternative ways of mapping our programming data
category) and management headquarters associated with other
infrastructure categories.                                                         structure and making it easier to crosswalk
                                                                                   performance results to resource investments.


DoD Performance and Accountability Report                                     94                                Part 2: Performance Information
Ongoing Research. Two working groups
comprising representatives from each Service, a lead
policy office, and select defense agencies are
reviewing the data structures and definitions for
                                                              Activity Metric: Base Realignment and
DoD’s program data and acquisition resource data.
                                                              Closure (BRAC) in FY2005
Timeline for Completion. By the end of FY 2006,
we will develop standard data definitions to be used          End-state Metric
                                                              (New Baseline)         FY 2001        FY 2002         FY 2003        FY 2004a
throughout the Department and implement a revised
data framework that allows a unified program and              A new DoD             BRAC            Legislative   • 2005 BRAC • Final
                                                              facility              cited as a      authority       initiated   selection
budget data architecture.                                     footprint             key             for BRAC        by the      criteria
                                                                                    element of      establish-      Secretary   establish-
Performance Results for FY 2004. During                                             DoD             ed.             of Defense. ed.
                                                                                    transforma
FY 2004, we conducted extensive line-by-line                                        -tion.                        • Manage-      • Data
                                                                                                                    ment           collection
reviews of the existing data structure, and developed:                                                              structure      and
                                                                                                                    and seven      certifica-
    •    A draft programming and budget framework                                                                   joint cross-   tion
         based upon the four quadrants of the DoD                                                                   service        begun.
         risk management framework,                                                                                 groups
                                                                                                                    established.
    •    Draft business rules for using the program           a
                                                                  The FY 2004 data are final.
         and budget framework, and,
    •    A common set of DoD business definitions.            Metric Description. An early priority of the
                                                              Secretary of Defense was to transform America's
                                                              defense for the 21st century by shifting defense
                                                              planning from the "threat-based" model that had
                                                              dominated thinking to a "capabilities-based" model
                                                              for the future. Our transformation charter reinforced
                                                              our long-standing commitment to streamlining and
                                                              upgrading of defense infrastructure by explicitly
                                                              calling for “…another round of infrastructure
Outcome Goal: Improve the readiness                           reductions to reduce unneeded facilities.”
                                                              Accordingly, we were able to persuade Congress to
and quality of key facilities.                                grant authority in the FY 2002 National Defense
                                                              Authorization Act for a Base Realignment and
For too long, we neglected our facilities, postponing         Closure (BRAC) round in 2005.
all but the most urgent repairs and upgrades until the
                                                              On November 15, 2002, the Secretary signed a
long term health of our entire support infrastructure
                                                              memorandum entitled, “Transformation Through
was in jeopardy. Therefore, over the past several
                                                              Base Realignment and Closure,” that officially
years, we’ve invested substantial sums in sustaining,
                                                              initiated the process for BRAC 2005. The document
restoring, and modernizing—cutting the previous
                                                              outlines the expectations and importance of reshaping
recapitalization rate by almost a third and improving
                                                              DoD’s infrastructure to better support future force
our sustainment rate.
                                                              structure. It established two senior level groups to
                                                              manage and oversee the process, provided for the
The Secretary’s mandate to transform America’s
                                                              analysis of common business-oriented functions
defense for the 21st century will be impossible unless
                                                              separate from service-unique functions, and required
we shed unneeded infrastructure now on our books,
                                                              specific delineation of functions to receive joint
and streamline operations at remaining facilities. On
                                                              analysis within 150 days.
15 November 2002, Secretary Rumsfeld signed a
memorandum establishing the process for                       An Infrastructure Executive Council, headed by the
recommending base closures and realignments in                Deputy Secretary of Defense, provide policy and
2005. The goal is to present recommendations to               oversight. A lower-level Infrastructure Steering
Congress by May 2005.                                         Group, headed by the Under Secretary of Defense for
                                                              Acquisition, Technology and Logistics, oversees the
Four metrics are designed to help the Department              joint analysis of common business-oriented support
achieve this outcome goal.                                    functions and ensures those efforts are coordinated

DoD Performance and Accountability Report                95                                     Part 2: Performance Information
with Service reviews of service specific operation             Performance Metric: Eliminate
functions.                                                     Inadequate Family Housing by 2007
Each of the Services and defense agencies have
established procedures and designated appropriate                                  FY 2001     FY 2002     FY 2003       FY 2004
                                                                     Metric         Actual      Actual      Actualc    Targetb/Actual
personnel to certify that data and information
collected for use in the BRAC 2005 analyses are                Number of            170,314     143,608     119,980      93,294/NAd
                                                               inadequate family
accurate and complete. This certification process is           housing units
subject to audit by the Government Accountability              Percentage of           59          53         47             NAd
Office and DoD auditors.                                       total family
                                                               housing unitsa
Ongoing Research. The Secretary, in his memo                   a
                                                                 Targets are not established for the percentage of total family housing
kicking off the 2005 BRAC process, directed that               units.
                                                               b
                                                                 Targets were based on Service military construction and family
joint teams be created to review common business-              housing budget estimates for FY 2005.
                                                               c
oriented functions. Subsequently, the Secretary                d
                                                                 Changes reported reflect final budget numbers.
                                                                 FY 2004 results not available until after the FY 2006 President’s
approved seven Joint Cross-Service Groups and                  Budget is submitted.
associated functions for joint review.
                                                               Metric Description. Our goal is to eliminate all
Timeline for Completion. We will provide any                   inadequate family housing in the continental United
needed revisions to the 20-year force structure plan to        States by the end of FY 2007 (and by FY 2009 for
Congress not later than March 15, 2005. By May 16,             overseas bases). In general, inadequate housing is
2005, we will send closure and realignment                     any unit that requires a major repair, component
recommendations to the BRAC Commission and                     upgrade, component replacement, or total upgrade.
congressional defense committees.                              Each Service has evaluated its housing and identified
Performance Results for FY 2004. We met our                    inadequate units. Each Service has then developed a
milestones for the fiscal year by providing the final          plan to eliminate inadequate housing through a
BRAC base selection criteria to Congress in                    combination of traditional military construction,
February 2004; we also began collecting and                    operations and maintenance support, and
certifying facility data. Our projection of the                privatization. The plans are updated annually with
Department’s 20-year force structure and the                   the President’s Budget.
necessary associated infrastructure and excess                 Performance Results for FY 2004. Through the
capacity was provided to Congress with the FY 2005             end of FY 2003, we reduced inadequate family
President’s Budget. This report also certified the             housing by 23,628 units through revitalization,
need for BRAC 2005 and that an additional round of             demolition, and privatization. The total number of
BRAC would result in annual net savings for each               inadequate housing eliminated through privatization
Military Department no later than FY 2011.                     from the start of the program through FY 2003 is
We also developed an Internal Control Plan and a               44,961. Results for FY 2004 will not be available
data certification process to satisfy statutory                until the President’s Budget for FY 2006 is submitted
requirements for use of certified data in developing           to Congress in February 2005.
closure and realignment recommendations. The
Military Departments and Joint Cross-Service Groups
also completed development of their respective
Internal Control Plans. Military Department auditors
and auditors from the DoD Inspector General
reviewed these plans.




DoD Performance and Accountability Report                 96                                Part 2: Performance Information
Performance Metric: Fund to a 67-year                                   facilities represented by each benchmark, is 67 years.
Recapitalization Rate by 2007                                           Weighting is required to normalize the ESL. For
                                                                        example, without weighting, 50 years is the ESL of a
                                                                        hypothetical inventory consisting of administrative
                   FY 2001   FY 2002     FY 2003     FY 2004 a,c
    Metrics         Actual    Actual      Actual       Actual
                                                                        buildings (75-year ESL) and fences (25-year ESL).
                                                                        But fences are insignificant compared to
Facilities           192        101         149          111
recapitalization
                                                                        administrative buildings—DoD has $22 billion worth
metric–FRM                                                              of administrative buildings, but only $3 billion worth
(years)                                                                 of fences and related structures—and should not have
Facilities          70%b       89%b        93%          94%             equal weight. The ESL of this hypothetical inventory
sustainment
model–FSM                                                               when weighted by plant replacement value is 68
a
  Three defense agencies (Defense Logistics Agency, DoD                 years, not 50 years.
Education Activity, and Tri-Care Medical Activity) were included
beginning in FY 2004, but excluded in previous years.                   For evaluating planned performance, both metrics
b
  Estimated (FSM was first fielded in FY 2003)                          (FSM and FRM) are converted to dollars (annual
c
  The FY 2004 data are as of the FY 2005 President’s Budget.            funding requirements) and compared to funded
Metric Description. The facilities recapitalization                     programs in the DoD Future Years Defense Program
metric (FRM) measures the rate at which an                              (FYDP). The sustainment rate can be measured
inventory of facilities is being recapitalized. The term                through execution; the recapitalization rate, which is
“recapitalization” means to restore or modernize                        primarily—but not exclusively—a function of multi-
facilities. Recapitalization may (or may not) involve                   year military construction appropriations, is not
total replacement of individual facilities;                             tracked for execution on an annual basis.
recapitalization often occurs incrementally over time                   Performance Results for FY 2004. These metrics
without a complete replacement.                                         do not capture “actual” expenditures, as the term
The performance goal for FRM equals the average                         “actual” is normally understood. For recapitalization,
expected service life (ESL) of the facilities inventory                 there is no reporting process for determining the
(estimated to be 67 years, based on benchmarks                          “actual” (i.e., executed) recapitalization rate in a
developed by a panel of Defense engineers – see the                     given year, and there is little reason to do so.
installations portion of the 1997 Quadrennial                           Appropriations for military construction projects—
Defense Review). The ESL, in turn, is a function of                     which make up the bulk of the recapitalization
facilities sustainment. “Sustainment” means routine                     investment—are good for five years, and are
maintenance and repair necessary to achieve the ESL.                    typically executed over more than one year.
To compute a normal ESL, full sustainment levels                        Additionally, Congressional additions, rescissions,
must be assumed. Less than full sustainment results                     reprogrammings, and late project adjustments all alter
in a reduced ESL. For this reason, the metrics for                      the “actual” recapitalization rate. There is no system
facilities recapitalization and facilities sustainment                  as yet to capture these changes at the DoD level, and
are unavoidably linked and should be considered                         an annual rate of execution for military construction
together.                                                               appropriations has little meaning.

Sustainment levels required to achieve a normal ESL                     For sustainment, a system is in place to capture the
are benchmarked to commercial per unit costs; for                       “actual” sustainment expenditure at the DoD level.
example, $1.94 per square foot annually is needed to                    However, FY 2003 was the first year for the system
properly sustain the aircraft maintenance hangar                        and the initial results are unreliable. In FY 2003, and
inventory for a 50-year life cycle. The facilities                      continuing into FY 2004, the global war on terror has
sustainment model (FSM) adjusts these costs to local                    skewed execution results such that they are presently
areas and assigns the costs to DoD components and                       not useful. The DoD execution tracking system, as
funding sources.                                                        currently used, is unable to properly distinguish
                                                                        sustainment expenses for the normal DoD facilities
The recapitalization rate—measured by FRM in                            inventory from sustainment expenses strictly related
years—is compared to service life benchmarks for                        to contingency operations. For example, the system
various types of facilities. For example, the ESL of a                  cannot tell the difference between sustaining facilities
pier is 75 years, and the ESL of a dental clinic is 50                  at Langley Air Force Base (AFB) and sustaining
years (again, provided the facilities are fully                         contingency facilities in Iraq. The facilities at
sustained during that time). The average of all the                     Langley AFB are part of the computed DoD
ESL benchmarks, weighted by the value of the                            sustainment requirement, but the palaces in Iraq are

DoD Performance and Accountability Report                          97                        Part 2: Performance Information
not; hence, the reported execution totals cannot be            sustainment in FY 2004 cannot be offset with 6
properly compared to the budgeted or targeted rates.           percent overage in FY 2005. The interim goal for
This issue has impacted heavily on the Air Force. On           recapitalization remains 67 years, even though past
the other hand, the war has also drawn off                     performance has already reduced the service life of
sustainment funding for other non-sustainment                  the facilities inventory. The direct effect of under-
purposes, making the estimated execution rate                  sustainment and under-recapitalization is captured in
somewhat unusual. This issue has impacted the                  an accelerated—and more costly—recapitalization
Army most heavily. All these issues are presently              rate required to restore readiness to adequate levels
being addressed so that in the future, perhaps as early        by 2010.
as FY 2005 or 2006, execution results for
sustainment will be more reliable. For this report, the
table above continues to show budgeted rates, not
executed rates.
                                                               Activity Metric: Restore Readiness of
The results shown for FY 2004—111-year                         Key Facilities by 2010
recapitalization rate and 94 percent sustainment
rate—demonstrate continuing improvement from FY
                                                                   End-state     FY        FY
2003. However, these results are projected based on                 Metric      2001      2002         FY 2003        FY 2004 a
budget values—actual execution may be different.
                                                               Percentage         No historical   Chartered       Implemented
Final execution results will be as of the FY 2006              of DoD              data: new      effort to       revised condition
President’s Budget. One of the most notable                    facilities           metric.       standardize     reporting process.
                                                               restored to                        facility
accomplishments, which is not visible in the table, is         a high state                       records and
that all the military Services and major defense               of military                        improve         Began IRR re-
                                                               readiness                          Installations   engineering.
agencies are funded equally at 95 percent of standard,                                            Readiness
DoD-wide benchmarks. The only exception remains                                                   Report (IRR)
the Defense Logistics Agency (DLA), which is                                                      summaries.      Conducted a
                                                                                                                  special study to
funded via working capital funds. Special studies are                                                             determine
underway to determine a solution for DLA,                                                                         whether the
                                                                                                                  FY 2010 goal is
especially for the fuels infrastructure that is under                                                             still achievable.
DLA’s purview.                                                 a
                                                                   The FY 2004 data are preliminary.
Although performance, as measured by the budgeted
                                                               Metric Description. Our goal, first articulated with
recapitalization and sustainment rates, continued to
                                                               the 1997 update to the defense strategy, is to restore
improve from FY 2001 levels, the targets (67-year
                                                               facilities readiness as currently measured by the
recapitalization rate and full sustainment) were not
                                                               Installations Readiness Report (IRR) to a readiness
achieved in either budget. As a result of not
                                                               rating of at least C-2 (defined as adequate condition),
achieving full sustainment levels, the estimated
                                                               such that the sum of all necessary restoration and
service life of the inventories (67 years) suffered
                                                               modernization costs is >10 percent but ≤20 percent of
another incremental reduction. As a result of not
                                                               the average replacement value of the facility by the
achieving a 67-year recapitalization rate,
                                                               end of FY 2010.
obsolescence in the facilities inventories increased
incrementally. The cumulative and compounding                  The existing IRR is a summary of ratings by facility
effect of these shortfalls is measured by the number           class. While serving as a good indicator of general
of deteriorated, obsolete, or otherwise inadequate             conditions, the IRR does not itself provide a way to
facilities (referred to as C-3 or C-4 facilities in DoD        determine appropriate investment levels or to target
readiness terminology) reported in the Department’s            investments. There is no relationship between the
readiness reports. Two thirds of facility classes are          official real property inventories and the IRR, which
reported as having serious deficiencies that adversely         limits confidence in the IRR ratings. In addition, the
impact mission performance.                                    IRR, with its emphasis on readiness rather than just
Because of the way these metrics are constructed, the          condition, may skew the costs needed to restore
underperforming results in earlier years do not                facilities to adequate conditions. The goal is to
directly affect the sustainment and recapitalization           eliminate deteriorated, obsolete, or otherwise
performance targets for FY 2005 and FY 2006. The               inadequate facilities by accelerating recapitalization
goal for sustainment remains full sustainment. For             and restoring key facilities to at least an adequate
example, a 6 percent shortfall in programmed                   condition (C-2). An earlier estimate based only on


DoD Performance and Accountability Report                 98                               Part 2: Performance Information
summary IRR ratings indicates that the FY 2010 goal             We began reporting Q-ratings for Navy and Marine
might be achievable for most of the military Services           Corps inventories; the first reports are expected at the
if resources are made available for a full sustainment          close of the fiscal year. The Army and Air Force are
program coupled with accelerated recapitalization.              re-designing their systems during FY 2004 to
However, a more precise and auditable condition                 accommodate Q-ratings and will report to the Office
assessment mechanism is needed to assess overall                of Secretary of Defense within 12 months following
funding requirements and to track progress.                     the close of the fiscal year.
Ongoing Research. The Office of the Under                       We also awarded a contract to upgrade the facilities
Secretary of Defense for Installations and                      recapitalization metric, which assists in forecasting
Environment is conducting a special study of                    funding requirements to restore readiness from a
facilities restoration. A revised condition reporting           simple metric to a more robust web-based model.
process, similar to a facilities condition index                New benchmarks are under development that may
commonly found in other government agencies, has                impact the timeline for achieving the FY 2010 goal.
been developed by a cross-Department working
                                                                Finally, we re-initiated a DoD-level facilities
group under the Installations Policy Board, and is in
                                                                demolition and disposal program, which will assist in
the process of being implemented. However, this
                                                                accelerating achievement of the C-2 equivalency
will require coding of more than 500,000 individual
                                                                goal.
facility records and will be addressed in phases over
about two years. This process will standardize
reporting by individual facility record in real property
inventories, which will provide improved data quality
and better support readiness ratings. Draft policy has
been developed in financial management regulations
and in an updated DoD Instruction 4165.14 on real               Outcome Goal: Realign support to the
property reporting. The first round of new data is              warfighter.
expected to be available in October 2004 from the
Department of the Navy. Additional data will follow
                                                                The Department continues to transform its business
from the Departments of the Army and Air Force.
                                                                processes and infrastructure to both enhance the
Timeline for Completion. A standard for common                  capabilities and creativity of its employees and free
condition reporting was completed in November                   up resources to support the warfighter.
2002. The first common condition reports are to be              Transformation of our military forces hinges on being
released in October 2004. During 2005, we will                  able to reduce redundancy, focus organizations on
develop a concept for mission-impact rating (M-                 executive goals, flatten hierarchies, and cut cycle
ratings), and complete an initial validation and                times in the decision and delivery processes. Finding
verification of the new condition factor (Q-rating). A          ways to make real progress in these areas will result
complete submission of common conditions reports                in gains in technology transfer and drive more
is scheduled for October 2005. The first report under           effective operational performance.
the new system is planned for January 2006.
Performance Results for FY 2004. During                         Three current metrics and one metric under
FY 2004, we began adding a mission impact factor                development will help us support the warfighter.
(M-rating) to the new condition factor (Q-rating), so
that the readiness of facilities to support various
missions at specific locations can be computed in a
less subjective and more standardized, auditable, and
automated way.
We also began incorporating facilities and
installation information into the Defense Readiness
Reporting System (which is simultaneously being re-
engineered), such that facilities will be more closely
integrated with other readiness reporting
methodologies.



DoD Performance and Accountability Report                  99                        Part 2: Performance Information
Performance Metric: Reduce Customer                                               and previous-year budgets. A dollar-weighted
Wait Time (Days)                                                                  average is calculated for the common MDAPs and
                                                                                  adjusted for inflation and changes in quantity.
                                                                                  Acquisition cost growth can occur for various
                                                                FY 2004           reasons, including technical risk, schedule slips,
                         FY 2001      FY 2002      FY 2003       Target/
          Metric          Actual       Actual       Actual      Actual a          programmatic changes, or overly optimistic cost
Customer wait time           18          16           19          15/24
                                                                                  estimates. The Department’s reform initiatives seek
(in days)                                                                         to reduce cost growth from all sources, providing an
a
    The FY 2004 data are as of the 2nd quarter.                                   output target for procurement managers of individual
                                                                                  systems, as well as for the aggregate procurement
Metric Description. Customer wait time (CWT)                                      programs of the individual Services. The objective is
measures the elapsed time from when a customer                                    to be on a downward trend toward the ultimate goal
orders an item of material to its receipt. The                                    of no (0 percent) acquisition cost growth. Managerial
customer’s order may be filled from assets on hand at                             responses are expected to include both specific cost-
the customer’s military installation or naval vessel, or                          control initiatives and process changes.
through the DoD wholesale logistics system. For
purposes of this enterprise-level metric, CWT data                                Performance Results for FY 2004. Results for
includes orders for spare and repair parts ordered by                             FY 2004 will be available with the release of the
organizational maintenance activities. CWT data                                   SARs in April 2005.
captured for orders below enterprise level are
maintained by each of the military Services and the
Defense Logistics Agency.
Performance Results for FY 2004. Through the                                      Performance Metric: Reduce Major
second quarter of FY 2004, we experienced an                                      Defense Acquisition Program (MDAP)
average CWT of 24 days. We do not expect to                                       Acquisition Cycle Time
realize much reduction in CWT until the conclusion
of Operation Iraqi Freedom.                                                                                         FY 2001    FY 2002    FY 2003   FY 2004
                                                                                           Metric (months)           Actual     Actual     Actual   Targeta

                                                                                   Acquisition cycle time
                                                                                   (for new starts from                102        103         102     <99
                                                                                   FY 1992 through FY 2001)
Performance Metric: Reduce Major                                                   Acquisition cycle time
Defense Acquisition Program (MDAP)                                                 (for new starts after
                                                                                   FY 2001)
                                                                                                                       Not applicable         76      <66

Annual Rate of Acquisition Cost Growth                                             a
                                                                                       Results for FY 2004 will be available in April 2005.

                                                                                  Metric Description. Acquisition cycle time is the
                       FY 2001      FY 2002       FY 2003         FY 2004
        Metric          Actual       Actual        Actual         Targetb         elapsed time, in months, from program initiation—
                                                                                  when the Department makes a commitment to
    Percentage                                               Downward trend
                        +13.9a        +6.4         +5.0                           develop and produce a weapon system—until the
    annual growth                                            toward 0%
    a
      The December Selected Acquisition Report (SAR), which reflects the          system attains initial operational capability (IOC).
    President’s budget, is used for calculating acquisition cost growth. There    This metric measures the average cycle time across
    were no December 2000 SARs, because a Future Years Defense                    all Major Defense Acquisition Programs (MDAPs).
    Program was not included in the FY 2002 President’s Budget. Thus, the
    FY 2001 actual reflects acquisition cost growth for a two-year period         During the 1960s, a typical defense acquisition took
    (FY 2000 and FY 2001).
    c
                                                                                  seven years (84 months) to complete. By 1996, a
      Results for FY 2004 will be available in April 2005.
                                                                                  similar acquisition required 11 years (132 months) to
Metric Description. Acquisition cost growth                                       complete. To reverse this trend, the Department
measures the amount that acquisition costs grow from                              established an objective to reduce the average
year to year. It is computed by taking the difference                             acquisition cycle time for MDAPs started since 1992
between the acquisition costs in the current-year’s                               to less than 99 months, a reduction of 25 percent.
President’s Budget and the previous-year’s budget,                                DoD achieved that initial objective through rapid
divided by the acquisition costs for the previous-                                acquisition with demonstrated technology, time-
year’s budget, expressed as a percentage. The                                     phased requirements and evolutionary development,
population is all Major Defense Acquisition                                       and integrated test and evaluation. To continue to
Programs (MDAPs) common to both current-year                                      improve, the Department now seeks to reduce the


DoD Performance and Accountability Report                                   100                                Part 2: Performance Information
average cycle time to less than 66 months for all                               are expected to include both specific cost-control
MDAPs started after FY 2001. To achieve that                                    initiatives and process changes.
objective, the Department is introducing
                                                                                Ongoing Research. Data on MDAP O&S cost
improvements to development and production
                                                                                growth estimates are collected from SARs submitted
schedules similar to those it initiated for managing
                                                                                by the Department to the Congress pursuant to
system performance and cost. Rapid development
                                                                                Section 2432, Title 10, U.S. Code. SARs summarize
and fielding of weapon systems—leveraging new
                                                                                the latest estimates of cost, schedule, and technical
technologies faster—will enable U.S. forces to stay
                                                                                status. Subsequent quarterly exception reports are
ahead of potential adversaries.
                                                                                required only for those programs experiencing unit
Performance Results for FY 2004. FY 2004 results                                cost increases of at least 15 percent or schedule
will not be available until the release of the SARs                             delays of at least six months. Quarterly SARs are also
with the FY 2006 President’s Budget in April of                                 submitted for initial reports, final reports, and for
2005.                                                                           programs that are re-baselined at major milestone
                                                                                decisions.
                                                                                To further develop this metric, the Consolidated
                                                                                Acquisition Reporting System (CARS) was modified
Activity Metric: Reduce Major Defense                                           to produce a new data table in the SAR. This new
Acquisition Program (MDAP) Operating                                            table contains the data needed to measure the O&S
& Support (O&S) Cost Growth                                                     cost growth metric.
                                                                                Timeline for Development. The data to populate
                        FY        FY                                            this table is collected from the December SARs.
    End-state Metric   2001      2002       FY 2003         FY 2004a
                                                                                Performance Results for FY 2004. FY 2004 results
Percentage of                             Established     Collecting
annual cost                               metric          data to
                                                                                will not be available until the release of SARs in
growth                                    baseline by     establish the         April 2005.
                         No historical    collecting      second data
                       data: new metric   data to         point on
                                          establish the   which to
                                          first data      determine
                                          point.          growth.
a
    The FY 2004 data are preliminary.

Metric Description. Operating and support (O&S)
costs are those resources required to operate and
support a system, subsystem, or major component
during its useful life in the operational inventory.
This metric measures the amount that O&S costs for
Major Defense Acquisition Programs grow from year
to year. It is computed by taking the difference
between the total O&S cost estimates reported in the
current-year Selected Acquisition Report (SAR)
against the previous-year’s SAR, then dividing by the
total O&S cost estimates reported in the previous-
year SAR, expressed as a percentage. The population
is all MDAPs common to both current-year and
previous-year budgets that report O&S cost estimates
in the SAR. A dollar-weighted average is calculated
for the common MDAPs.
Estimated O&S cost growth can occur for various
reasons, including technical or programmatic
changes, changes in the support strategy/concept, or
overly optimistic cost estimates. The objective is no
(0 percent) O&S cost growth. Managerial responses



DoD Performance and Accountability Report                                 101                       Part 2: Performance Information
                                                                technology investments, training transformation, and
                                                                technology development.
         Future Challenges Risk


Future challenges risk derives from issues affecting            Outcome Goal: Drive Innovative Joint
the ability to invest in new capabilities and develop
new operational concepts needed to dissuade or                  Operations.
defeat mid- to long-term military challenges.
                                                                The Department continues to develop the ability to
By definition, transformation is the enduring process           integrate combat organizations with forces capable of
of change. It is not about change for its own sake, nor         responding rapidly to events that occur with little or
is it about canceling the pursuit of one technology for         no warning. These joint forces are scalable and task-
another. Accordingly, static measures of success can            organized into modular units to allow the Combatant
mislead or misinform—today’s “right” solution may               Commanders to draw on the appropriate forces to
as easily be a barrier as a gateway to tomorrow’s               deter or defeat an adversary.
innovation. How then do we know if we are, in fact,
“transforming” to meet the future? The most reliable            The development and incorporation of joint operating
barometer of transformation in the defense                      concepts is our leading priority for transformation.
community is to observe how the culture is changing.            Joint forces, which are lighter, more lethal and
How and why are things done differently than in the             maneuverable, survivable, and more readily deployed
past? How are those changes redefining what we                  and employed in an integrated fashion, are ripe with
believe we need to accomplish next?                             opportunities for concept innovation.

                                                                Measuring our progress towards these goals, as well
  We are working to promote a culture that                      as measuring how the military Services’ budget
  rewards unconventional thinking—a climate                     proposals demonstrate innovation and
  where people have freedom and flexibility to                  experimentation, helps advance innovative joint
  take risks and try new things…one that does not               operations.
  wait for threats to emerge and be "validated,"
  but rather anticipates them before they
  emerge—and develops and deploys new
  capabilities quickly, to dissuade and deter those             Activity Metric: Experiment with New
  threats.                                                      Warfare Concepts
                                 Secretary Rumsfeld
                                                                     End-state
                                   February 5, 2003                   Metric        FY 2001         FY 2002     FY 2003         FY 2004a

                                                                 Percentage             No         Developed   Released    • Conducted four
                                                                 of goals met       historical     guidance.   guidance.     major
                                                                                      data:                                  experimentation
The four outcome goals we are pursuing in this risk                                    new
                                                                                     metric
                                                                                                                             exercises.

management quadrant are:                                                                                                   • Submitted joint
                                                                                                                             experimentation
    • Drive innovative joint operations.                                                                                     plan for approval.

    • Develop more effective organizations                                                                                 • Fielded Standing
                                                                                                                             Joint Force
    • Define and develop transformational                                                                                    Headquarters
                                                                                                                             prototypes.
         capabilities                                            a
                                                                     The FY 2004 data are final.
    • Define skills and competencies for the future
                                                                Metric Description. The goal of the Department’s
The majority of the measures in this risk management            experimentation program is to rapidly convert
quadrant are activity metrics that focus on developing          innovative warfighting concepts to prototypes to
new measurement tools for intelligence, networked               fielded capabilities. Accordingly, the April 2003
information, and new warfare concepts. The                      Transformation Planning Guidance directed the
remaining performance metrics monitor science and               development of the Joint Concept Development and

DoD Performance and Accountability Report                 102                                      Part 2: Performance Information
Experimentation (JCDE) Campaign Plan to describe                Commands and inter-agency representatives.
the role of joint experimentation as a major generator          Standing Joint Force Headquarters prototypes were
of transformational change.                                     introduced at each of the regional Combatant
                                                                Commands; the exception is the U.S. Central
JCDE follows two paths: joint concept development
                                                                Command, where participation has been delayed due
and joint prototyping.
                                                                to ongoing contingency operations. The results from
  •   The joint concept development program                     Unified Course 04, Thor’s Hammer, Multinational
      explores innovative concepts for improving                Experiment 3, and Unified Engagement 04 exercises
      future joint warfighting. These concepts result           will be incorporated into developing concepts, further
      from an iterative experimentation program that            experiments, or introduced as prototypes.
      relies on frequent, small-scale sets of
      experiments conducted in a joint wargaming
      environment. Once concepts prove viable,
      they are transferred to the prototype team.               Performance Metric: Maintain Balanced
  •   The joint prototype program improves current              and Focused Science and Technology
      warfighting capabilities and matures new
      capabilities through continuous                                    Metric         FY 2001    FY 2002      FY 2003       FY 2004a
      experimentation as part of Combatant
      Command joint exercise programs. JCDE will                                                   Percentage of S&T budget
      identify capabilities proposals for rapid
                                                                    Basic research          16%     14.8%         14%          12.8%
      prototyping and provide actionable                            Applied research      42.7%      42%          38%          35.9%
      recommendations for future resource                           Advanced
      investments based on experimentation results.                 technology
                                                                    development           41.3%     43.2%         48%          51.3%
                                                                    a
Ongoing Research. The Joint Operations Concept is                     The FY 2004 data are final

the overarching concept of how the joint force                  Metric Description. The DoD science and
intends to operate in the next 10-20 years; it is               technology (S&T) program consists of research and
currently being developed with associated functional            development investments in Basic Research, Applied
and integrating concepts. The primary prototype                 Research, and Advanced Technology Development.9
under development is the Standing Joint Force                   This metric is designed to ensure a balanced and
Headquarters, with associated prototypes for a                  focused investment by funding these at 15 percent, 35
collaborative information environment, an                       percent, and 50 percent, respectively, of the total
operational net assessment, effects-based operations,           annual S&T budget.
a Joint Interagency Coordination Group, a joint fires
initiative, and a common relevant operating picture.            Determining the right level of investment is not a
Other prototype efforts include the joint deployment            precise science; rather it is a strategic decision. Our
process and joint intelligence, surveillance, and               ultimate objective is to fund S&T at a level adequate
reconnaissance.                                                 to ensure our technological superiority—specifically,
                                                                sufficient to provide the technology foundation we
Timeline for Completion. The Secretary is                       need to modernize our forces, and to develop the
expected to sign the JCDE Campaign Plan in                      “leap ahead” technologies that produce
FY 2005. The concepts development schedule is                   transformational capabilities. Accordingly, we must
contained in the Joint Operations Concepts activity             continue to invest broadly in defense-relevant
metric description. Prototypes are at various stages            technologies, because it is not possible to predict in
of development.                                                 which areas the next breakthroughs will occur or
Performance Results for FY 2004. The JCDE                       what specific capabilities will be required to meet the
Campaign Plan was approved by the Chairman of the               challenges of the uncertain future.
Joint Chiefs of Staff and submitted to the Secretary of
Defense. As of the end of the 3rd quarter of                    Performance Results for FY 2004. The balance
FY 2004, the U.S. Joint Forces Command co-                      achieved between the funding levels for FY 2005 in
sponsored four major exercises with each of the
Services that included multi-national partners. We
                                                                9
have substantially improved experimentation results              Basic Research falls under Budget Activity (BA) 1,
by increasing the participation of Combatant                    Applied Research under BA 2, and Advanced Technology
                                                                Development under BA 3.

DoD Performance and Accountability Report                 103                              Part 2: Performance Information
     Basic Research, Applied Research, and Advanced                                          incidents or manage the consequences of
     Technology Development is sufficiently close to the                                     attack or disaster (homeland security).
     DoD goals.
                                                                                        •    Enhance contributions of domestic and
                                                                                             foreign partners to homeland security and
                                                                                             homeland defense.
                                                                                    Ongoing Research. To guide our efforts to meet the
                                                                                    challenges of the post-9/11 threat environment, the
     Outcome Goal: Develop more effective                                           Secretary of Defense directed the development of the
     organizations.                                                                 first comprehensive, defense-wide strategy for
                                                                                    homeland defense and civil support. This new
     Being ready and capable of changing our                                        strategy will rely on an integrated threat assessment
     organizations to meet current and future challenges is                         to define DoD’s strategic goals, key objectives, and
     the hallmark of an agile Department. These metrics                             core capabilities for homeland defense and civil
     are designed to measure that capability and guide                              support. The strategy also will describe associated
     improvements.                                                                  force structure, technology, and resource
                                                                                    implications.
                                                                                    By providing an overarching suite of strategic goals
                                                                                    aligned with resource and technology plans, we will
     Activity Metric: Enhance Homeland                                              add coherence and direction to the disparate activities
                                                                                    across the Department that currently deter and
     Defense and Consequence Management                                             prevent attacks, protect critical defense and
                                                                                    designated civilian infrastructure, provide situational
  End-state                                                                         understanding, and prepare for and respond to
   Metric            FY       FY
(New baseline)      2001     2002       FY 2003            FY 2004a                 incidents.
Strategy and an      No historical   • Established     •   Began                    The completed strategy will articulate a number of
associated            data: new        an Assistant        developing
resource and           metric          Secretary for       first homeland
                                                                                    actions for immediate implementation to transform
technology                             Homeland            defense                  DoD’s capabilities for homeland defense and civil
roadmap.                               Defense.            strategy.                support in each of the core capability areas:
                                     • Established     •   Developed                     • Maximum threat awareness,
                                       U.S.                initial resource
                                       Northern            and                           • Interdiction and defeat of threats at safe
                                       Command.            technology                         distance,
                                                           roadmaps.
a
                                                                                         • Mission assurance,
    The FY 2004 data are final.
                                                                                         • Improved interagency and international
     Metric Description. Our highest priority is                                              capabilities, and
     protecting the U.S. homeland from attack—we must                                    • Consequence management (managing the
     be able to succeed at the full range of tasks associated                                 consequences of a chemical, biological,
     with an active defense-in-depth that includes military                                   radiological, nuclear or explosive incident).
     operations in forward regions, the U.S. approaches,                             Timeline for Completion. We expect to complete
     the U.S. homeland, and the global commons.                                     the strategy by the first quarter of FY 2005.
     Specifically, we must be able to:
                                                                                    Performance Results for FY 2004. The initial
          •     Conduct military missions to prevent, deter,                        research and writing of a comprehensive homeland
                defend, and defeat attacks on the United                            defense strategy is ongoing. Real world events such
                States, our population, and our defense                             as the G-8 Summit at Sea Island, Georgia, the
                critical infrastructure (homeland defense).                         national political conventions, and the period of
                                                                                    heightened threat during August 2004 have delayed
          •     Support civil authorities directed by the                           coordination of the document. The completion of the
                President or Secretary of Defense as part of                        strategy is set for the early part of FY 2005.
                a comprehensive national response to
                prevent and protect against terrorist



     DoD Performance and Accountability Report                                104                        Part 2: Performance Information
Activity Metric: Establish a Standing                                                  deliver the first operational set to U.S. Pacific
Joint Force Headquarters                                                               Command in FY 2005. USJFCOM also developed
                                                                                       draft Standard Operating Procedures and Tactics,
                                                                                       Techniques, and Procedures for the 58-person core
   End-state
     Metric
                                                                                       element.
 (New baseline)          FY 2001          FY 2002       FY 2003           FY 2004a

The ability to        Development of     Concept     • Experiments       SJFHQ
rapidly execute       Standing Joint     released.     conducted         established
transformational      Force                                              and staffed
                                                     • Implementa-
command and
control functions
                      Headquarters
                      (SJFHQ)                          tion guidelines                 Performance Metric: Transform DoD
                                                       developed
for joint force
operations.
                      directed in 2001
                      Quadrennial                                                      Training
                      Defense Review
 a
     The FY 2004 data are final.
                                                                                                                       FY       FY         FY       FY 2004
                                                                                                                      2001     2002       2003   Target/Actual a
Metric Description. In 2003, the Secretary of                                                      Metric
Defense directed Geographic Combatant Commands                                          Percentage of military                                     50% / 52%
                                                                                        officers in critical          No historical data: new
(GCC) to establish Standing Joint Force                                                 positions certified as        metric.
Headquarters (SJFHQ) by FY 2005. These SJFHQs                                           joint-trained or educated
reflect standards established by U.S. Joint Forces                                      a
                                                                                            The FY 2004 data are as of the 3rd quarter.
Command (USJFCOM) and incorporate the lessons
learned from the Millennium Challenge ’02 joint                                        Metric Description. Our vision for training
exercises. Each GCC has a 58-person core SJFHQ                                         transformation is to provide dynamic, capabilities-
that serves as a planning staff during day-to-day                                      based training in support of national security
operations. In the event of a crisis, the in-place                                     requirements across the full spectrum of service,
SJFHQ is immediately prepared to execute command                                       joint, interagency, intergovernmental, and
and control functions for the integrated employment                                    multinational operations. In 2003, the Secretary of
of air, land, maritime, and information forces. The                                    Defense tasked the Under Secretary of Defense for
SJFHQ is made up of joint-trained personnel skilled                                    Personnel and Readiness with overseeing the
in using computer-based analysis tools and joint                                       initiative across the Department. When the initiative
information and processes. To operate in the field,                                    was launched in FY 2003, our metrics were activity-
each deployable SJFHQ must have a Deployable                                           based and measured progress toward milestone tasks.
Joint Command and Control (DJC2) capability.                                           Starting in FY 2004, we began transitioning to
                                                                                       outcome-based measures.
Timeline For Completion. All the regional
Combatant Commands will have SJFHQ                                                     Our long-term goal is to be able to measure training
organizations established in FY 2005; the exception                                    “value” by evaluating (1) throughput, (2) innovation,
is the U.S. Central Command, where participation                                       and (3) transparency of training. These three
has been delayed by the ongoing contingency. As an                                     performance indicators align with the Department’s
operational reserve to the GCCs, USJFCOM will                                          risk management scorecard, and provide a framework
establish a deployable surge-capable SJFHQ during                                      for possible DoD-wide reporting.
FY 2005.                                                                               One of the leading indicators of training
Performance Results for FY 2004. The Secretary                                         transformation is the overall percentage of the force
of Defense approved an exemption to the 15 percent                                     that have received joint-certified training or had joint
major headquarters personnel reduction for the GCCs                                    education. A higher percentage correlates to
that allowed them to retain 58 personnel to man their                                  increased performance in jobs that require knowledge
SJFHQ organization. Subsequently, the Department                                       of joint capabilities, such as joint or combined
approved $1.6M per GCC for the operations and                                          command and control and tactics. Although the
maintenance of their SJFHQs. The GCCs conducted                                        entire force is not measurable at this time, the critical
initial training, procured appropriate facilities, and                                 positions filled by officers at Combatant Command
installed garrison equipment for their SJFHQs. The                                     staffs are currently being measured.
GCCs have completed plans to conduct a full-scale                                      To be joint-certified, an officer must complete a two-
joint training event in FY 2005 that will serve as the                                 year joint duty assignment. An officer is considered
“graduation” event for their new joint command and                                     to have received joint education if he or she graduates
control capability. The DJC2 program delivered an                                      from a course certified as Joint Professional Military
initial concept and procedures development set to                                      Education Phase 2.
USJFCOM in September 2004 and is on schedule to

DoD Performance and Accountability Report                                        105                                Part 2: Performance Information
Our goal for FY 2009 is to ensure that all deployable            The JNTC is on track to achieve initial operating
units are trained at Joint National Training Center-             capability by October 2004. At that time, the U.S.
certified events, and that all individual personnel              Joint Forces Command will have certified that the
receive relevant and certified joint education. We               types of training we are doing are appropriate and
also are developing specific outcome measures of                 responsive to the needs of the Combatant
training value to assess the efficiency and                      Commanders. In the long term, after the JNTC has
effectiveness of primary sources of joint education              achieved its initial operating capability and we have a
and training for both individual and unit based                  validated ability to provide an appropriate level of
training evolutions. Measures are being developed for            joint context, The Joint Warfighting Center will work
each of the three leading initiatives of training                with the Combatant Commands and Services to
transformation:                                                  identify and qualify organizations that can conduct
                                                                 JNTC-accredited events. This effort will require the
    •    Joint Knowledge Development and                         continued close cooperation between JNTC-
         Distribution Capability (JKDDC) metrics                 accreditation representatives at Joint Warfighting
         will focus on the ability to think intuitively          Center and their Combatant Command and Service
         joint and to create a “reach back” capability,          counterparts. The JNTC accreditation process is
         and subsequently to assess the associated               expected to continue through full operational
         effect on the forces’ readiness.                        capability in FY 2009.
    •    Joint National Training Center (JNTC)
         measures will evaluate the live, virtual, and
         constructive joint training environment and
         its ability to increase unit readiness prior to
         arrival at the Combatant Commands.
    •    Joint Assessment and Enabling Capability
         (JAEC) metrics will consider the overall
         outputs of the JNTC, JKDDC, and
         transformation as a whole. They will use
         the JAEC architecture to assess throughput,
         innovation, and transparency of training,
         education, and experience in individual and
         unit categories.
Performance Results for FY 2004. The JAEC had
planned on shifting exclusively toward outcome-
based metrics in 2004, but the policies and
infrastructure required to measure outcomes against
their associated standards do not yet exist. By the
end of FY 2005, the JAEC will have performed its
first block assessment of training transformation, and
expects to have a complete set of outcome-based
measures and assessments by that time. Currently,
the JAEC is using a combination of activity-based
measures (milestones) and outcome-based measures
where they are available. The completion of the
Defense Integrated Manpower and Human Resources
System and Defense Readiness Reporting System
databases will be the primary data sources for JAEC
assessments.
The JKDDC is on track to receive initial operating
capability by January 2005. During FY 2004, we
verified the JKDDC requirement and created a
distribution federation.



DoD Performance and Accountability Report                  106                        Part 2: Performance Information
Outcome Goal: Define and develop                                                          the horizontal integration of defense intelligence
                                                                                          activities – that is, the communication among and
transformational capabilities.                                                            within agencies – promotes increased information
                                                                                          sharing; (3) aligning counterintelligence plans and
The metrics that will help us achieve the ability to                                      architectures with the goals of military operations and
know whether we are transforming along the right                                          overall national security; and (4) supporting the
path are all under development. Nevertheless,                                             warfighter in the most efficient and effective manner
achieving this goal is one that must be pursued                                           possible.
despite the challenges of foreseeing future threats.
                                                                                          Our horizontal integration roadmap attempts to
                                                                                          rationalize all these activities within a single
                                                                                          framework. Specifically, horizontal integration
                                                                                          describes the processes and capabilities to acquire,
Activity Metric: Deny Enemy Advantages                                                    synchronize, correlate, and deliver to the National
and Exploit Weaknesses                                                                    Security Community (defense, intelligence, and
                                                                                          homeland security) the kind of timely,
End-state Metric        FY 2002              FY 2003                FY 2004a
                                                                                          comprehensive, and integrated information needed to
                                                                                          improve decision-making and subsequently
Explicit strategic   Established the      Established an  • Developed, managed
outcomes and         Defense              Under Secretary   and executed the              operational effectiveness. The kinds of data
effectiveness        Counter-             of Defense for    polygraph program in
measures for         intelligence Field   Intelligence      support of Joint Task
                                                                                          integrated within the horizontal integration
DoD counter-         Activity                               Force Guantánamo              framework extend across all missions, all disciplines,
intelligence                                                Bay, Cuba.
activities                                                                                and all domains. However, the full effect and
                                                           • Identified 22 directives
                                                             and instructions related     potential of such integration will be realized only
                                                             to counterintelligence
                                                             for revision.
                                                                                          when there is a mission-centric construct focused on
                                                           • Implemented common           outcomes, and data “usability” maximizes value to
                                                             DoD policy for special       consumers across the national security enterprise.
                                                             access programs,
                                                             industrial security, and     We also must ensure all consumable data meet
                                                             safeguarding of
                                                             biological select agents     network-centric standards and are broadly available
                                                             and toxins.                  to all users. This means providing end-to-end
                                                           • Developed standards
                                                             for horizontal integration
                                                                                          management and integration of information and
                                                             activities.                  intelligence functions.
                                                           • Established an
                                                             Intelligence Campaign        The centerpiece of our ongoing initiative to remodel
                                                             Plan concept and
                                                             timeline for
                                                                                          defense intelligence is a new intelligence concept
                                                             implementation.              known as Intelligence Campaign Planning or ICP.
a
    The FY 2004 data are final.                                                           ICP is a comprehensive methodology for integrating
                                                                                          intelligence into a Combatant Commander’s adaptive
Metric Description. Denying enemy advantages and                                          planning and operations process. The ICP will make
exploiting weaknesses is at the core of the work by                                       intelligence an operational and shaping tool for the
the Under Secretary of Defense for Intelligence. Our                                      commander, not just a supporting staff function.
long-term goal is to establish strategic outcomes and                                     Accordingly, this approach will help integrate
efficiency measures to help us gauge the                                                  intelligence into the commander’s adaptive planning
effectiveness of our intelligence activities, and thus                                    process by:
improve our training and associated program
structures. However, intelligence is a vast enterprise.                                       •    Producing a complete ICP that can be used
Many domestic, international, and organizational                                                   by a Theater Director of Intelligence (J2) for
variables contribute to the success of the overall                                                 campaign design, operational plan(s),
program. Thus, the task of developing enduring                                                     operational sequencing, and operational
outcome goals and measures involves a significant                                                  synchronization.
amount of developmental research and analysis.                                                •    Enabling intelligence estimates to flow
There are four fundamental areas that contribute to                                                dynamically and continuously throughout all
the success of any counterintelligence program: (1)                                                phases of an operation;
ensuring that the defense intelligence security,                                              •    Creating a global ISR (intelligence,
strategy, policy and processes are aligned for                                                     surveillance, and reconnaissance) process
maximum effectiveness and efficiency; (2) ensuring

DoD Performance and Accountability Report                                           107                       Part 2: Performance Information
         that is adaptable, agile, and flexible enough                and Exercise Project designed to champion or
         to support commanders at every echelon.                      sponsor Advanced Technology Demonstrations
                                                                      that could enhance intelligence horizontal
    •    Establishing a network-centric approach to                   integration. A series of tabletop “war games”
         collection, analysis, and dissemination.                     were conducted to identify issues and explore
Ongoing Research: The cornerstone of horizontal                       cross-functional insights and innovative ideas.
integration efforts is a common lexicon and
                                                               •      Aligning counterintelligence plans and
understanding of the problem. Therefore, the first
                                                                      architectures with the goals of military
priority for this overall suite of activities is to
                                                                      operations and overall national security. During
complete a definitive review of all existing policies
                                                                      the past fiscal year, we began a study of
or directives relating to counterintelligence. The
                                                                      Pentagon counterintelligence needs, and we are
review is being conducted within the collaborative
                                                                      working closely with Pentagon security officials
framework for intelligence activities provided by our
                                                                      to complete the study and resolve any shortfalls.
recently established horizontal integration roadmap.
                                                                      The early findings of another study of the DoD
Timeline for Completion: The policy review and                        counterintelligence polygraph program provided
final approval of the horizontal integration roadmap                  insights when we were asked to develop,
will be completed by the end of FY 2005.                              manage, and execute the polygraph program in
                                                                      support of the Joint Task Force Guantánamo
Performance Results for 2004: Progress is
                                                                      Bay.
underway in each of our four main areas of
counterintelligence activity:                                  •      Support to the warfighter. During FY 2004, we
                                                                      directed the U.S. Joint Forces Command to
•   Ensuring that the defense intelligence security,
                                                                      provide a fielded ICP capability within 2 years.
    strategy, policy, and processes are aligned.                      We also developed the Joint Intelligence
    Over the last year, we identified 22 directives                   Operations Center organizational concept, which
    and instructions related to counterintelligence
                                                                      is designed to integrate the intelligence function
    that need to be revised or rewritten. We also                     of the Combatant Commander’s intelligence and
    worked with various agencies to address policy                    operations staffs. Finally, we initiated a study of
    shortfalls and develop consistent, defense-wide                   insider threats, using a model developed by one
    intelligence policy for special access programs,                  of the national labs.
    industrial security, and for safeguarding select
    biological agents and toxins. The goals and
    standards for successful horizontal integration
    were reflected in the Secretary’s annual planning
    guidance, in our national space policy for space           Activity Metric: Make Information
    support missions, and in the strategic plans and           Available on a Network that People
    architectures of the combat support agencies.              Depend On and Trust
    Through the end of this fiscal year, we will
    extend these goals and standards into other
                                                                                         FY       FY      FY
    policy documents, including personnel                          End-state Metric     2001     2002    2003         FY2004 a
    evaluations and congressional responses.
                                                               • Number of
•   Ensuring the horizontal integration of defense               systems that
                                                                 support the
    intelligence activities. During FY 2004, and in                                                             Began transition of
                                                                 Internet Protocol
                                                                                          No historical data:   selected systems
    response to a Congressionally directed action, we            Version 6 (IPv6)
                                                                                             new metric         and weapons to
    developed an ISR Roadmap. The ISR Roadmap                  • Number of                                      IPv6.
                                                                 systems that meet
    is now in mid-level coordination, and should be              information
    issued in early FY 2005. This roadmap cuts                   assurance
                                                                 standards
    across the defense intelligence community and
                                                               a
    synchronizes a large number of ISR platforms                   The FY 2004 data are final.

    and capabilities that require integration. In
                                                               Metric Description. Moving information securely,
    addition, the Under Secretary for Intelligence
                                                               quickly, and accurately, is a vital combat multiplier.
    now chairs the ISR Integration Council that
                                                               Our ability to build a worldwide information net,
    oversees integration policy for defense ISR
                                                               populate it with information needed by military
    activities. We also launched the Demonstration
                                                               commanders, and then use the network for command

DoD Performance and Accountability Report                108                              Part 2: Performance Information
and control has been limited by the amount of                 Performance Metric: Monitor the Status
information that can flow through the network and be          of Defense Technology Objectives
processed at any given time. In response, we have
set a goal to build a Global Information Grid (GIG)
                                                                                                 FY 2001     FY 2002     FY 2003        FY 2004
to allow us to:                                                             Metric                Actual      Actual      Actual      Target/Actuale
     • Achieve a ubiquitous, secure, and robust               Percentage of defense                  96         97           96              >70/94
         network.                                             technology objectives (DTOs)
                                                              evaluated as progressing
     • Eliminate bandwidth, frequency, and                    satisfactorily toward goalsa
         computing capability limitations.                    DTO evaluated in biannual             180         149c        163c              180
                                                              reviewb
     • Deploy collaborative capabilities and other
                                                              Total number of DTOsb,c,d             326         401         386               404
         performance support tools.                           a
                                                                  “Progressing satisfactorily” includes DTOs rated as “green” or “yellow.”
     • Secure and assure the network and the                  b
                                                                The number of DTOs evaluated and the total number of DTOs are provided for
         information.                                         information only; no targets are established.
                                                              c
                                                               The numbers for DTOs evaluated in FY 2002 and FY 2003 were transposed in the
                                                              FY 2003 PAR.
Ongoing Research. The Director, Strategic                     d
                                                                The total number of DTOs is the sum of all DTOs contained in the Joint
Resource Planning for the Assistant Secretary of              Warfighting Science and Technology Plan and the Defense Technology Area Plan,
Defense for Networks and Information Integration is           dated February of the calendar year prior to the fiscal year the reviews are
                                                              conducted.
currently working with the Deputy CIO and the                 e
                                                                The FY 2004 data are final.
MITRE Corporation to develop outcome and output
metrics to measure progress toward achieving the              Metric Description. Technological superiority has
strategic planning goals of DoD’s Information                 been, and continues to be, a cornerstone of our
Technology (IT) Plan.                                         national military strategy. Technologies such as
                                                              radar, jet engines, nuclear weapons, night vision,
Timeline for Completion. Metric development                   smart weapons, stealth, the Global Positioning
should be complete by the end of FY 2005.                     System, and vastly more capable information
Performance Results for FY 2004. In March 2004,               management systems have changed warfare
the Secretary of Defense issued guidance for the              dramatically. Today’s technological edge allows us to
implementation of measures for building the GIG               decisively prevail across a broad spectrum of
transport. Components were directed to use the                conflicts and with relatively few casualties.
Internet Protocol Version 6 (IPv6) Transition Plan to         Maintaining this technological edge has become even
ensure IPv6 is implemented on appropriate IT,                 more important as the size of U.S. forces decreases
C4ISR (command, control, communications,                      and high-technology weapons are now readily
computers and intelligence, surveillance, and                 available on the world market. Future warfighting
reconnaissance), and weapons systems, with a goal of          capabilities will be substantially determined by
transitioning all defense systems to IPv6 by CY 2008.         today’s investment in science and technology (S&T).
                                                              Our S&T investments are focused and guided
                                                              through a series of defense technology objectives
                                                              (DTOs) developed by senior planners working for the
                                                              Secretary of Defense, the Chairman of the Joint
                                                              Chiefs of Staff, the Military Departments, and
                                                              defense agencies. Each of these objectives highlights
                                                              a specific technological advancement that will be
                                                              developed or demonstrated, the anticipated date the
                                                              technology will be available, the specific benefits that
                                                              should result from the technological advance, and the
                                                              funding required (and funding sources) to achieve the
                                                              new capability. These objectives also specify
                                                              milestones to be reached and approaches to be used,
                                                              quantitative metrics that will indicate progress, and
                                                              the customers who will benefit when the new
                                                              technology is eventually fielded. This metric
                                                              measures the percentage of DTOs that are
                                                              progressing satisfactorily toward the goals
                                                              established for them.

DoD Performance and Accountability Report               109                                    Part 2: Performance Information
Technology Area Review and Assessment (TARA)                              Metric Description: Our military commanders use
teams—independent peer review panels composed of                          information of all kinds—not only intelligence
approximately six experts in relevant technical fields                    data—to “see” the battle space, and thus outwit and
from U.S. government agencies, private industry, and                      overcome our adversaries. The net-centric enterprise
academia—assess the DTOs for each program every                           architecture we are building will allow commanders
two years. The reviews are conducted openly;                              to engage the network at anytime from anywhere
observation by stakeholders (typically, senior S&T                        using a military version of the Internet search engine,
officials, members of the joint staff, and technology                     without needing cumbersome base support. Data will
customers) is welcomed.                                                   be posted and ready for download and analysis as
                                                                          soon as it arrives, anywhere on the network. The
The TARA teams assess the objectives in terms of
                                                                          metric being developed will ultimately measure
three factors—budget, schedule, and technical
                                                                          progress toward this goal.
performance—and rate the programs as follows:
                                                                          The mission of DoD’s Chief Information Officer
•      Green—progressing satisfactorily toward goals.                     (CIO) is to support the Secretary’s transformation
•      Yellow—generally progressing satisfactorily, but                   goals by advancing net-centric operation through
       some aspects of the program are proceeding                         policies, program oversight, and resource allocations.
       more slowly than expected.                                         The key attributes of the CIO’s strategy are:
•      Red—doubtful that any of the goals will be                             •    Ensuring data are visible, available, and
       attained.                                                                   usable—when and where needed—to
The benefits of these ratings are many. Not only do                                accelerate decision-making.
they reflect the opinions of independent experts, but
                                                                              •    “Tagging” all data (intelligence, non-
also they are accepted and endorsed by stakeholders.
                                                                                   intelligence, raw, and processed) with
These reviews result in near real-time adjustments
                                                                                   metadata to enable discovery of data by
being made to program plans and budgets based on
                                                                                   users.
the ratings awarded.
                                                                              •    Posting all data to shared spaces to provide
The TARA Chairman’s findings are briefed to the
                                                                                   access to all users except when limited by
Defense S&T Advisory Group (DSTAG) for further
                                                                                   security, policy, or regulations.
resolution of programmatic and technical issues.
Adjustments are made to program plans and budgets                             •    Advancing interoperability from point-to-
based on the ratings and recommendations from the                                  point interfaces to “many-to-many”
DSTAG. The DTO ratings are semi-quantitative                                       exchanges typical of a modern network
metrics.                                                                           environment.
Performance Results for FY 2004. The Department                           Ongoing Research. The CIO for the Department is
met its performance target and no shortfall is                            the Assistant Secretary for Network Information and
projected for FY 2005. Although actual performance                        Integration. The CIO heads a defense-wide effort to
continues well above target, the target will be                           define processes for assessing a program’s transition
maintained at 70 percent due to the inherent high risk                    to a net-centric environment. The CIO also helps
of failure in technology development.                                     Services, defense agencies, and program managers
                                                                          incorporate net-centric attributes, implement data
                                                                          information assurance strategies, and align programs
Activity Metric: Populate the Network                                     with the Joint Technical Architecture and the Net-
with New, Dynamic Sources of                                              Centric Operations Warfare Reference Model. This
                                                                          will ensure priorities and transition plans of all
Information to Defeat the Enemy                                           defense activities are in line with Global Information
                                                                          Grid (GIG) enterprise services within their respective
    End-state Metric   FY 2001 FY 2002 FY 2003           FY2004 a         programs. The Director, Strategic Resource Planning
Percentage of DoD                                    •   Published        is responsible for developing this metric, working
information
                           No historical data: new
                                                         net-centric      with the Deputy CIO and the MITRE Corporation.
available via net-                                       checklist.
                                   metric.
centric solutions.
                                                     •   Began            Timeline for Completion. This metric will be
                                                         portfolio        completed in FY 2005.
                                                         management.
a
    The FY 2004 data are final.


DoD Performance and Accountability Report                           110                       Part 2: Performance Information
Performance Results for FY 2004. The July 2003                 These efforts and others will be measured by the
CIO memorandum, “Joint Net Centric Capabilities,”              following metrics.
directed the review of any C4ISR (command, control,
communication, computers, intelligence, surveillance
and reconnaissance) programs affecting one of 13
specific activities.
                                                               Activity Metric: Attract, Recruit, Retain,
In February 2004, the Net-Centric Checklist was                and Reward High Quality People from
issued to assist program managers in understanding             Government, Industry, and Academia
net-centric attributes required for programs to move
into the GIG’s net-centric environment.
                                                                   End-state Metric    FY 2001 FY 2002 FY 2003          FY 2004 a
In March 2004, the Secretary of Defense approved               •     Recruiting and                                • Designated the
DoD-wide guidance for populating the GIG with                        retention                                       Office of the USD
data, and directed compliance with the CIO net-                      targets for                                     for Intelligence as
                                                                     specific skills                                 a Defense Civilian
centric data strategy, the GIG architecture, and the                                                                 Intelligence
                                                               •     Percentage fill
Net-Centric Operations and Warfare Reference                         by skill
                                                                                                                     Personnel System
                                                                                                                     organization.
Model. Services and defense agencies were directed                   category            No historical data: new
                                                                                                 metric            • Developed an
to apply the business rules established by the                                                                       interim policy for
Department’s common enterprise domains, and to                                                                       common human
integrate Net-Centric Enterprise Services to avoid                                                                   resources system
                                                                                                                     for DoD
duplicating capabilities.                                                                                            intelligence
                                                                                                                     community.
That same month, the Deputy Secretary issued                   a
                                                                   The FY 2004 data are preliminary.
“Information Technology Portfolio Management,”
which institutionalized portfolio management for
information technology. This will ensure information           Metric Description. To accomplish our ambitious
technology solutions are analyzed, selected,                   goals, the defense intelligence community needs the
controlled, and evaluated consistent with the GIG              best people we can find. We need people with broad
Integrated Architecture.                                       and varied experiences who are agile problem
                                                               solvers, who can operate in an environment that
                                                               changes as the threat changes.

                                                               Legislation such as the National Security Personnel
                                                               System (NSPS) will give us the ability to hire the
                                                               people we need. Accordingly, on May 2, 2004, the
Outcome Goal: Define skills and                                Deputy Secretary of Defense designated the Under
competencies for the future.                                   Secretary of Defense for Intelligence (USD(I)) as a
                                                               Defense Civilian Intelligence Personnel System
The Department has launched a two-phase research               (DCIPS) organization, dedicated to attracting the best
initiative to define a conceptual framework for the            and brightest to careers in defense intelligence. The
development of skills, knowledge, and competencies             authorities granted by the NSPS and DCIPS will
necessary for a networked organization employing               allow us to tie performance to the defense
mature information age capabilities. Paramount to              intelligence strategy, and strive to improve job
the research objectives is understanding key aspects           satisfaction by providing clear direction and
of human and organizational behaviors. Basic                   quantitative objectives against which an employee
research completed in Phase I highlighted the key              can measure his or her progress.
relationships between the Physical, Information, and           A key first step – and an ongoing effort – is the
Cognitive Domains for Network Centric Operations               development of an overarching directive establishing
(NCO). Phase II research, which is ongoing, is                 a common human resources system for the DoD
expected to identify a series of behavioral trends and         intelligence community.
key competencies that can then be incorporated
within the Universal Joint Task List and the Joint             Ongoing Research. Develop community goals and
Training Master Plan.                                          standards for subcomponents of the DCIPS common
                                                               human resource program.



DoD Performance and Accountability Report                111                               Part 2: Performance Information
Timeline for Completion. Development work will                                      transformational change within the force.
continue through the end of FY 2005, with initial                                   Additionally, they articulate the Service and defense
fielding slated for FY 2006.                                                        agency strategies for implementing and managing the
                                                                                    “risk” embodied in transformation.
Performance Results for 2004. The DCIPS covers
the Department of Defense, the National Security                                    Performance Results for FY 2004. The Office of
Agency, the Defense Intelligence Agency, the                                        Force Transformation completed its first Strategic
National Geospatial Agency, the National                                            Transformation Appraisal in January 2004. The
Reconnaissance Office, the Military departments, the                                appraisal assesses defense-wide trends in
Office of the Under Secretary of Defense for                                        transformation and recommends plan or resource
Intelligence, the Counterintelligence Field Activity,                               adjustments to maintain progress toward the
and the General Counsel. During FY 2004, a                                          Secretary’s transformation priorities. The January
working group from all of these agencies and                                        2004 appraisal showed where information-age trends
components completed 11 subchapters of an                                           are taking the Department:
overarching policy plan. This plan will serve as
interim authority to implement the process pending                                         FY 2003 versus FY 2004 Strategic Appraisal
formal coordination and publishing of the subsequent
chapters.                                                                                      FY 2003                               FY 2004

                                                                                    •   More expeditionary              • Lighter, more agile, easily
                                                                                    •   More networked                    deployable units
                                                                                    •   Designed to leverage the        • Knowledge-enabled warfare
                                                                                        exterior positions              • Improve vertical / horizontal
Performance Metric: Strategic                                                       •   Leverage increasingly             intelligence distribution
                                                                                        persistent intelligence,        • Strengthen intelligence
Transformation Appraisal                                                                surveillance, and                 capabilities for the 21st
                                                                                        reconnaissance                    century
                       FY      FY                                                   •   Tighter sensor-shooter          • Joint force synergy
        Metric        2001    2002        FY 2003             FY 2004 a                 timelines                       • Demand-centered intelligence
                                                                                    •   Value information               • Jointness to the lowest
Assessment of          No historical   Published first      Completed first             superiority
“gaps” or               data: new      Transformational     strategic                                                     appropriate level
adjustments              metric        Planning             transformation          •   Joint interoperability at the   • Substitution of capital for labor
needed to remain                       Guidance             appraisal                   operational level
on track                                                                            •   Focus on unmanned
a                                                                                       capabilities
    The FY 2004 data are as of the 4th Quarter (estimate)
                                                                                    Beginning in FY 2005, the appraisal will be
                                                                                    submitted each November to the Secretary of
Metric Description. The Department’s overall                                        Defense.
transformation roadmaps address activities,
processes, resources, and incentives to foster and
promote innovation and transformational activities,
including concept-based experimentation processes,
education and training programs, and the use of
operational prototypes. Each Service also prepares
an individual roadmap, which is updated annually.
Defense agencies submit their annual roadmap
updates to the U.S. Joint Forces Command, which
develops a consolidated “joint” roadmap. Each year,
the Office of Force Transformation evaluates the
progress and plans reported in the individual and
joint roadmaps, and produces an assessment of
“gaps” or adjustments indicated for future action.
These roadmaps point to a shared future vision and
provide actionable language for implementation.
They complement the program and budget process,
ensuring coherence between resource allocation
decisions and future concept development and
experimentation, and provide a baseline for managing

DoD Performance and Accountability Report                                     112                               Part 2: Performance Information
                                       Page intentionally left blank.




DoD Performance and Accountability Report                               Part 2: Performance Information
                     Part 3:
              Financial Information




DoD Performance and Accountability Report
                                     Page intentionally left blank.




DoD Performance and Accountability Report
Message from the Chief Financial Officer

        November 15, 2004

        The past year has been an important and challenging year for the Department of Defense. We
        have continued to vigorously fight the global war on terror, while simultaneously transforming the
        Department to accomplish our mission with ever greater effectiveness.

        Our ability to defend our citizens and allies is heavily dependent on being able to obtain and
        supply the proper resources to our warfighters. Every dollar is important and the way we manage
        those dollars makes a difference in how successfully we accomplish our mission.

        I realize the important responsibility that the Department’s financial community has in supplying
        financial information to those who make decisions about how best to equip and deploy our troops.
        For this reason, I am committed to transforming the Department’s financial community. We have
        a long way to go, but we are well on the way.

        During the past year, the Department made progress on many fronts. We improved the timeliness
        of our reporting by preparing quarterly financial statements in 21 days and by completing the year-
        end reporting process in 45 days. During this time, we improved the quality of financial statement
        data, as evidenced by an increasing number of favorable audit results.

        Looking ahead, I see a need for action that is both immediate and long term. Through the
        Business Management Modernization Program, the Department is overhauling the processes and
        tools that are used to conduct business. This is an enormous effort that will take time, but will
        yield tremendous benefits across the entire Department.

        Our long term modernization, however, does not stop us from taking immediate action. Each
        major component within DoD has prepared improvement plans to identify major challenges in
        financial management and reporting. These plans are key tools for identifying targets of
        opportunity as we move into a transformed business environment.

        I am fully committed to improving the Department’s financial management. I will ensure we
        continue to build on the accomplishments in achieving an unqualified audit opinion on our
        financial statements and ultimately providing timely, accurate, and reliable financial information
        to our decision makers.




DoD Performance and Accountability Report              113                            Part 3: Financial Information
Principal Financial Statements and Notes
The principal financial statements included in this              obligation of budgetary resources for the years ended
report have been prepared in accordance with the                 September 30, 2004 and 2003.
requirements of the Chief Financial Officers Act of
1990 (P.L. 101-576), the Government Management                   The Consolidated Statement of Custodial Activity,
Reform Act of 1994 and the Office of Management                  which present the sources and disposition of
and Budget's (OMB) Bulletin 01-09, "Form and                     nonexchange revenues collected or accrued by DoD
Content of Agency Financial Statements." The                     on behalf of other recipient entities for the years
responsibility for the integrity of the financial                ended September 30, 2004 and 2003.
information included in these statements rests with
management of the U.S. Department of Defense. The                Limitations of Financial Statements. The
Department’s fiscal years 2004 and 2003 principal                following limitations apply to the preparation of the
financial statements were audited by the Office of               fiscal year 2004 financial statements:
Inspector General. The auditors' report accompanies
the principal statements.                                        The principal financial statements have been
                                                                 prepared to report the financial position and results of
The Department's principal financial statements for              operations of the Department of Defense, pursuant to
fiscal years 2004 and 2003 consisted of the                      the requirements of 31 U.S.C. 3515 (b). The
following:                                                       statements are prepared from the books and records
                                                                 of the Department in accordance with OMB Bulletin
The Consolidated Balance Sheet, which present as                 01-09 and to the extent possible generally accepted
of September 30, 2004 and 2003 those resources                   accounting principles. The statements are in addition
owned or managed by DoD which are available to                   to the financial reports used to monitor and control
provide future economic benefits (assets); amounts               budgetary resources which are prepared from the
owed by DoD that will require payments from those                same books and records.
resources or future resources (liabilities) and residual
amounts retained by DoD, comprising the difference               The statements should be read with the realization
(net position).                                                  that they are for a component of the U.S.
                                                                 Government, a sovereign entity.
The Consolidated Statement of Net Cost, which
present the net cost of DoD operations for the years
ended September 30, 2004 and 2003. DoD's net cost
of operations includes the gross costs incurred by
DoD less any exchange revenue earned from DoD
activities.

The Consolidated Statement of Changes in Net
Position, which present the change in DoD's net
position resulting from the net cost of DoD
operations, budgetary financing sources other than
exchange revenues and other financing sources for
the years ended September 30, 2004 and 2003.

The Combined Statement of Budgetary Resources,
which present the budgetary resources available to
DoD during FY 2004 and 2003, the status of these
resources at September 30, 2004 and 2003, and the
outlay of budgetary resources for the years ended
September 30, 2004 and 2003.

The Combined Statement of Financing, which
reconcile the net cost of operations with the




 DoD Performance and Accountability Report                 114                           Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATED BALANCE SHEET
As of September 30, 2004 and 2003
   ($ in Millions)
                                                                        2004 Consolidated                      2003 Consolidated
                                                                                                                   Restated

 ASSETS (Note 2)
     Intragovernmental:
        Fund Balance with Treasury (Note 3)
        Entity                                                      $              287,685.5              $                  251,544.1
        Non-Entity Seized Iraqi Cash                                                   113.4                                       278.1
        Non-Entity-Other                                                              1,800.0                                      239.8
        Investments (Note 4)                                                       231,069.7                                 205,376.0
        Accounts Receivable (Note 5)                                                  1,118.3                                     1,066.6
        Other Assets (Note 6)                                                         1,011.9                                      105.0
        Total Intragovernmental Assets                              $              522,798.8              $                  458,609.6


      Cash and Other Monetary Assets (Note 7)                       $                 2,178.1             $                       1,534.9
      Accounts Receivable (Note 5)                                                    7,427.8                                     7,299.9
      Loans Receivable (Note 8)                                                          70.7                                       64.0
      Inventory and Related Property (Note 9)                                      213,219.4                                 205,544.6
      General Property, Plant and Equipment (Note 10)                              440,898.6                                 446,308.9
      Investments (Note 4)                                                             406.5                                       217.8
      Other Assets (Note 6)                                                          21,486.3                                 21,729.6
 TOTAL ASSETS                                                       $             1,208,486.2             $                1,141,309.3


 LIABILITIES (Note 11)
      Intragovernmental:
         Accounts Payable (Note 12)                                 $                 1,888.4             $                        101.4
        Debt (Note 13)                                                                 591.8                                       698.2
        Environmental Liabilities (Note 14)                                                 0.0                                       0.0
        Other Liabilities (Note 15 & Note 16)                                        10,726.9                                     9,739.1
        Total Intragovernmental Liabilities                         $                13,207.1             $                   10,538.7


      Accounts Payable (Note 12)                                    $                28,309.0             $                   27,863.8
      Military Retirement Benefits and Other Employment-Related                   1,569,704.7                              1,429,565.5
      Actuarial Liabilities (Note 17)
      Environmental Liabilities (Note 14)                                            64,367.2                                 61,490.6
      Loan Guarantee Liability (Note 8)                                                  34.4                                       25.9
      Other Liabilities (Note 15 and Note 16)                                        34,491.2                                 30,154.0
      Debt Held by Public                                                                   0.0                                       0.0
 TOTAL LIABILITIES                                                  $             1,710,113.6             $                1,559,638.5


 NET POSITION
    Unexpended Appropriations (Note 18)                             $              243,813.9              $                  218,869.5
     Cumulative Results of Operations                                             (745,441.3)                              (637,198.7)
 TOTAL NET POSITION                                                 $             (501,627.4)             $                (418,329.2)
 TOTAL LIABILITIES AND NET POSITION                                 $             1,208,486.2             $               1,141,309.3


      DoD Performance and Accountability Report                   115                             Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATED STATEMENT OF NET COST
For the periods ended September 30, 2004 and 2003
    ($ in Millions)
                                                             2004 Consolidated                      2003 Consolidated



 Program Costs
      Intragovernmental Gross Costs                      $                23,574.5             $                   11,748.3
      (Less: Intragovernmental Earned Revenue)                          (15,429.0)                                (13,239.0)
      Intragovernmental Net Costs                        $                 8,145.5             $                   (1,490.7)
      Gross Costs With the Public                                       619,573.8                                 526,288.4
      (Less: Earned Revenue From the Public)                            (22,354.4)                                (12,507.1)
      Net Costs With the Public                          $              597,219.4              $                  513,781.3
      Total Net Cost                                     $              605,364.9              $                  512,290.6
 Cost Not Assigned to Programs                                                   0.0                                    0.0
 (Less: Earned Revenue Not Attributable to Programs)                             0.0                                    0.0
 Net Cost of Operations                                  $              605,364.9              $                  512,290.6




      DoD Performance and Accountability Report        116                             Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2004 and 2003
    ($ in Millions)
                                                               2004 Consolidated                      2003 Consolidated
                                                                                                          Restated

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                         $             (621,610.7)             $                (946,947.7)
Prior period adjustments (+/-)
Prior Period Adjustments - Restated (+/-)                                 (15,588.0)                                 10,534.8
Beginning Balance, Restated                                              (637,198.7)                              (936,412.9)
Prior Period Adjustments - Not Restated (+/-)                                 699.5                                 383,074.9
Beginning Balances, as adjusted                                          (636,499.2)                              (553,338.0)
Budgetary Financing Sources:
Appropriations received                                                            0.0                                       0.0
Appropriations transferred-in/out (+/-)                                            0.0                                       0.0
Other adjustments (rescissions, etc) (+/-)                                         0.0                                    (13.0)
Appropriations used                                                       478,621.1                                 431,548.0
Nonexchange revenue                                                          1,469.7                                      931.2
Donations and forfeitures of cash and cash equivalents                             7.0                                     24.4
Transfers-in/out without reimbursement (+/-)                                10,568.6                                     1,329.2
Other budgetary financing sources (+/-)                                      4,511.5                                 (2,867.4)
Other Financing Sources:
Donations and forfeitures of property                                              0.4                                       4.6
Transfers-in/out without reimbursement (+/-)                               (2,848.6)                                 (6,702.1)
Imputed financing from costs absorbed by others                              4,092.5                                     3,866.9
Other (+/-)                                                                        0.6                                    308.1
Total Financing Sources                                                   496,422.8                                 428,429.9
Net Cost of Operations (+/-)                                              605,364.9                                 512,290.6
Ending Balances                                            $             (745,441.3)             $                (637,198.7)




        DoD Performance and Accountability Report        117                             Part 3: Financial Information
Department of Defense
Agency Wide
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2004 and 2003
    ($ in Millions)
                                                                        2004 Consolidated                      2003 Consolidated
                                                                                                                   Restated

UNEXPENDED APPROPRIATIONS
  Beginning Balances                                                $              192,955.8              $                  177,282.6
 Prior period adjustments (+/-)
       Prior Period Adjustments - Restated (+/-)                                     25,913.7                                         0.0
         Beginning Balance, Restated                                               218,869.5                                 177,282.6
         Prior Period Adjustments - Not Restated (+/-)                                      0.0                                       0.0
 Beginning Balances, as adjusted                                                   218,869.5                                 177,282.6
 Budgetary Financing Sources:
     Appropriations received                                                       512,194.5                                 477,036.7
         Appropriations transferred-in/out (+/-)                                       485.6                                      1,217.8
         Other adjustments (rescissions, etc) (+/-)                                 (9,114.6)                                 (5,137.1)
         Appropriations used                                                      (478,621.1)                              (431,530.5)
         Nonexchange revenue                                                                0.0                                       0.0
         Donations and forfeitures of cash and cash equivalents                             0.0                                       0.0
         Transfers-in/out without reimbursement (+/-)                                       0.0                                       0.0
         Other budgetary financing sources (+/-)                                            0.0                                       0.0
 Other Financing Sources:
      Donations and forfeitures of property                                                 0.0                                       0.0
         Transfers-in/out without reimbursement (+/-)                                       0.0                                       0.0
         Imputed financing from costs absorbed by others                                    0.0                                       0.0
         Other (+/-)                                                                        0.0                                       0.0
  Total Financing Sources                                                            24,944.4                                 41,586.9
  Net Cost of Operations (+/-)
  Ending Balances                                                   $              243,813.9              $                  218,869.5




         DoD Performance and Accountability Report                118                             Part 3: Financial Information


     .
Department of Defense
Agency Wide
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2004 and 2003
    ($ in Millions)
                                                                2004 Combined                         2003 Combined



BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
  Budget Authority:
     Appropriations received                                $            582,010.7              $                  546,761.4
     Borrowing authority                                                          0.1                                       0.0
     Contract authority                                                   34,855.8                                  28,109.0
     Net transfers (+/-)                                                    (519.3)                                     1,000.3
     Other                                                                        0.0                                       0.0
  Unobligated balance:
     Beginning of period                                                 256,659.0                                 217,722.3
     Net transfers, actual (+/-)                                                782.0                                    204.3
       Anticipated Transfers Balances                                             0.0                                       0.0
  Spending authority from offsetting collections:
     Earned                                                                       0.0                                       0.0
       Collected                                                         146,274.3                                 135,587.2
       Receivable from Federal sources                                       (79.7)                                     (714.6)
     Change in unfilled customer orders                                           0.0                                       0.0
       Advance received                                                         360.5                                    (30.6)
       Without advance from Federal sources                                     980.0                               11,000.9
     Anticipated for the rest of year, without advances                           0.0                                       0.0
     Transfers from trust funds                                                   0.0                                       0.0
     Subtotal                                                            147,535.1                                 145,842.9
  Recoveries of prior year obligations                                    33,681.9                                  22,841.9
  Temporarily not available pursuant to Public Law                           (10.0)                                         0.0
  Permanently not available                                              (40,338.0)                                (33,730.4)
  Total Budgetary Resources                                 $           1,014,657.3             $                  928,751.7




       DoD Performance and Accountability Report          119                           Part 3: Financial Information
Department of Defense
Agency Wide
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2004 and 2003
    ($ in Millions)
                                                           2004 Combined                       2003 Combined



STATUS OF BUDGETARY RESOURCES
  Obligations incurred:
      Direct                                           $            568,053.7            $                  522,562.4
      Reimbursable                                                  152,658.9                               147,147.8
      Subtotal                                                      720,712.6                               669,710.2
   Unobligated balance:
      Apportioned                                                    58,631.0                                55,052.0
      Exempt from apportionment                                     183,488.1                               180,704.3
      Other available                                                      0.3                                    (0.1)
   Unobligated Balances Not Available                                51,825.3                                23,285.3
   Total, Status of Budgetary Resources                $           1,014,657.3           $                  928,751.7
Relationship of Obligations to Outlays:
  Obligated Balance, Net - beginning of period         $            214,371.9            $                  181,919.4
   Obligated Balance transferred, net (+/-)                             (14.1)                                   (23.9)
   Obligated Balance, Net - end of period:
       Accounts receivable                                          (10,136.8)                              (10,216.4)
      Unfilled customer order from Federal sources                  (39,402.0)                              (38,422.1)
      Undelivered orders                                            228,801.3                               213,597.8
      Accounts payable                                               53,470.6                                49,412.6
   Outlays:
      Disbursements                                                 667,755.1                               604,105.8
      Collections                                                  (146,634.7)                            (135,556.8)
      Subtotal                                                      521,120.4                               468,549.0
   Less: Offsetting receipts                                        (46,546.4)                              (43,294.0)
   Net Outlays                                         $            474,574.0            $                  425,255.0




        DoD Performance and Accountability Report    120                         Part 3: Financial Information
Department of Defense
Agency Wide
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2004 and 2003
    ($ in Millions)
                                                                2004 Combined                         2003 Combined



NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
  Budget Authority:
     Appropriations received                                $                     0.0           $                         0.0
     Borrowing authority                                                        114.6                                    50.5
     Contract authority                                                           0.0                                     0.0
     Net transfers (+/-)                                                          0.0                                     0.0
     Other                                                                        0.0                                     0.0
  Unobligated balance:
     Beginning of period                                                         21.8                                   104.0
     Net transfers, actual (+/-)                                                  0.0                                     0.0
       Anticipated Transfers Balances                                             0.0                                     0.0
  Spending authority from offsetting collections:
     Earned                                                                       0.0                                     0.0
       Collected                                                                 17.4                                    56.2
       Receivable from Federal sources                                          (0.6)                                   (90.0)
     Change in unfilled customer orders                                           0.0                                     0.0
       Advance received                                                           0.0                                     0.0
       Without advance from Federal sources                                      47.2                                    35.8
     Anticipated for the rest of year, without advances                           0.0                                     0.0
     Transfers from trust funds                                                   0.0                                     0.0
     Subtotal                                                                    64.0                                     2.0
  Recoveries of prior year obligations                                            0.0                                     1.9
  Temporarily not available pursuant to Public Law                                0.0                                     0.0
  Permanently not available                                                      20.7                                    (0.2)
  Total Budgetary Resources                                 $                   221.1           $                       158.2




       DoD Performance and Accountability Report          121                           Part 3: Financial Information
Department of Defense
Agency Wide
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2004 and 2003
    ($ in Millions)
                                                           2004 Combined                         2003 Combined



STATUS OF BUDGETARY RESOURCES
  Obligations incurred:
      Direct                                           $                   196.6           $                       136.4
      Reimbursable                                                           0.0                                     0.0
      Subtotal                                                             196.6                                   136.4
   Unobligated balance:
      Apportioned                                                            1.4                                     1.3
      Exempt from apportionment                                              0.0                                     0.0
      Other available                                                        0.0                                    (0.1)
   Unobligated Balances Not Available                                       23.1                                    20.6
   Total, Status of Budgetary Resources                $                   221.1           $                       158.2
Relationship of Obligations to Outlays:
   Obligated Balance, Net - beginning of period        $                    29.9           $                       (95.1)
   Obligated Balance transferred, net (+/-)                                  0.0                                     0.0
   Obligated Balance, Net - end of period:
       Accounts receivable                                                   0.0                                    (0.6)
      Unfilled customer order from Federal sources                     (83.1)                                      (35.8)
      Undelivered orders                                                   238.8                                    66.3
      Accounts payable                                                       0.0                                     0.0
   Outlays:
      Disbursements                                                         24.1                                    63.6
      Collections                                                      (17.4)                                      (56.2)
      Subtotal                                                               6.7                                     7.4
   Less: Offsetting receipts                                                 0.0                                     0.0
   Net Outlays                                         $                     6.7           $                         7.4




        DoD Performance and Accountability Report    122                           Part 3: Financial Information
Department of Defense
Agency Wide
COMBINED STATEMENT OF FINANCING
For the periods ended September 30, 2004 and 2003
    ($ in Millions)
                                                                       2004 Combined                       2003 Combined



Resources Used to Finance Activities:
Budgetary Resources Obligated
 Obligations incurred                                              $            720,909.2            $                  669,846.5
 Less: Spending authority from offsetting collections                          (181,281.0)                            (168,688.6)
 and recoveries (-)
 Obligations net of offsetting collections and recoveries                       539,628.2                               501,157.9
 Less: Offsetting receipts (-)                                                  (46,546.4)                              (43,294.0)
 Net obligations                                                                493,081.8                               457,863.9
Other Resources
 Donations and forfeitures of property                                                 0.4                                       4.6
 Transfers in/out without reimbursement (+/-)                                    (2,848.6)                               (6,702.1)
 Imputed financing from costs absorbed by others                                  4,092.5                                    3,866.9
 Other (+/-)                                                                           0.6                                    308.1
 Net other resources used to finance activities                                   1,244.9                                (2,522.5)
 Total resources used to finance activities                                     494,326.7                               455,341.4
Resources Used to Finance Items not Part
of the Net Cost of Operations
  Change in budgetary resources obligated for goods,
  services and benefits ordered but not yet provided
       Undelivered Orders (-)                                                   (13,925.6)                              (37,435.1)
      Unfilled Customer Orders                                                    1,387.4                                11,006.1
 Resources that fund expenses recognized in prior periods                        (2,637.4)                                   (686.3)
 Budgetary offsetting collections and receipts that                               2,645.4                                     929.3
 do not affect net cost of operations
 Resources that finance the acquisition of assets                               (86,943.6)                              (72,984.9)
 Other resources or adjustments to net obligated resources
 that do not affect net cost of operations
      Less: Trust or Special Fund Receipts Related to Exchange                      (10.0)                                       0.0
      Other (+/-)                                                                 2,855.5                                    6,623.6
 Total resources used to finance items not                                      (96,628.3)                              (92,547.3)
 part of the net cost of operations
 Total resources used to finance the net cost of                                397,698.4                               362,794.1
 operations




        DoD Performance and Accountability Report                123                         Part 3: Financial Information
Department of Defense
Agency Wide
COMBINED STATEMENT OF FINANCING
For the periods ended September 30, 2004 and 2003
    ($ in Millions)
                                                                     2004 Combined                       2003 Combined



Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future
Period:
 Increase in annual leave liability                                                  514.8                                  662.7
 Increase in environmental and disposal liability                               3,864.6                                   2,033.6
 Upward/Downward reestimates of credit subsidy expense (+/-)                          14.9                                    0.0
 Increase in exchange revenue receivable from the public (-)                      (73.8)                                     (6.6)
 Other (+/-)                                                                  139,064.9                                  95,403.2
 Total components of Net Cost of Operations that                              143,385.4                                  98,092.9
 will require or generate resources in future periods
Components not Requiring or Generating Resources:
 Depreciation and amortization                                                 42,249.2                                  55,274.7
 Revaluation of assets or liabilities (+/-)                                    (5,712.6)                                  6,299.4
 Other (+/-)
     Trust Fund Exchange Revenue                                              (24,285.4)                                (23,792.5)
      Cost of Goods Sold                                                       41,421.8                                       0.0
      Operating Material & Supplies Used                                        4,655.9                                       0.0
      Other                                                                     5,952.2                                  13,622.0
 Total components of Net Cost of Operations that                               64,281.1                                  51,403.6
  will not require or generate resources
 Total components of net cost of operations that                              207,666.5                                 149,496.5
 will not require or generate resources in the current
 period
Net Cost of Operations                                                        605,364.9                                 512,290.6




               DoD Performance and Accountability Report       124                      Part 3: Financial Information
Department of Defense
Agency Wide
COMBINED STATEMENT OF CUSTODIAL ACTIVITY
For the periods ended September 30, 2004 and 2003
    ($ in Millions)
                                                                         2004 Combined                       2003 Combined



 SOURCE OF COLLECTIONS
    Deposits by Foreign Governments                                  $             11,237.5           $                      9,971.6
      Seized Iraqi Cash                                                                  118.3                                808.9
      Other Collections                                                                    0.0                                   0.0
      Total Cash Collections                                         $             11,355.8           $                     10,780.5
      Accrual Adjustments (+/-)                                      $                     0.9        $                          0.7
      Total Custodial Collections                                    $             11,356.7           $                     10,781.2
 DISPOSITION OF COLLECTIONS
     Disbursed on Behalf of Foreign Governments and                  $              9,998.8           $                     10,118.8
International Organizations
      Seized Assets Disbursed on behalf of Iraqi People                                  283.1                                530.8
      Increase (Decrease) in Amounts to be Transferred                              1,239.5                                  (146.5)
      Collections Used for Refunds and Other Payments                                      0.0                                   0.0
      Retained by The Reporting Entity                                                     0.0                                   0.0
      Seized Assets Retained for Support of the Iraqi People                        (164.7)                                   278.1
      Total Disposition of Collections                               $             11,356.7           $                     10,781.2
 NET CUSTODIAL COLLECTION ACTIVITY                                   $                     0.0        $                          0.0




             DoD Performance and Accountability Report         125                          Part 3: Financial Information
 Note 1.        Significant Accounting Policies


1.A. Basis of Presentation

These financial statements have been prepared to report the financial position and results of operations of the
Department of Defense (DoD), as required by the “Chief Financial Officers Act of 1990,” expanded by the
“Government Management Reform Act of 1994,” and other appropriate legislation. The financial statements have
been prepared from the books and records of the Department in accordance with the “DoD Financial Management
Regulation,” Office of Management and Budget Bulletin No. 01-09, “Form and Content of Agency Financial
Statements,” and to the extent possible generally accepted accounting principles (GAAP). The accompanying
financial statements account for all resources for which the Department is responsible. Information relative to
classified assets, programs, and operations has been excluded from the statements or otherwise aggregated and
reported in such a manner that it is no longer classified.

The Department is unable to fully implement all elements of GAAP and Office of Management and Budget Bulletin
No. 01-09 due to limitations of its financial management processes and systems, including nonfinancial systems and
processes that feed into the financial statements. The Department derives its reported values and information for
major asset and liability categories largely from nonfinancial systems, known as feeder systems, such as inventory
systems and logistic systems. These systems were designed to support reporting requirements that focus on
maintaining accountability over assets and reporting the status of federal appropriations rather than preparing
financial statements in accordance with GAAP. The Department continues to implement process and system
improvements addressing these limitations.


1.B. Mission of the Reporting Entity

The National Security Act of 1947 established the Department of Defense. The Department’s mission is to
organize, train, and equip armed forces to deter aggression and, if necessary, defeat aggressors against the United
States and its allies. Fiscal Year (FY) 2004 is the ninth year that the Department has prepared audited DOD
Agency-wide financial statements as required by the Chief Financial Officers Act and Government Management
Reform Act. Auditors are required to audit the financial statements of the following stand-alone reporting entities:
(1) Army General Fund, (2) Army Working Capital Fund, (3) Navy General Fund, (4) Navy Working Capital Fund,
(5) Air Force General Fund, (6) Air Force Working Capital Fund, (7) Military Retirement Fund, (8) DoD Medicare-
Eligible Retiree Health Care Fund, and (9) U.S. Army Corps of Engineers (Civil Works).

In addition to the nine stand-alone reporting entities, separate columns in the combining/consolidating statements are
included with the financial information of the “Other Defense Organizations General Funds” and “Other Defense
Organizations Working Capital Funds.” The Office of the Inspector General will not issue separate audit opinions
on the statements of the Other Defense Organizations; instead, the financial statements and records of those
organizations will be included in the audit performed to support the opinion issued on the DoD Agency-wide
financial statements.

Also, the Department requires the following Defense Agencies to prepare internal stand-alone annual financial
statements to be audited by certified public accounting firms: (1) Defense Logistics Agency, (2) Defense Finance
and Accounting Service, (3) Defense Information Systems Agency, (4) Defense Contract Audit Agency, (5) Defense
Commissary Agency, (6) Defense Security Service, and (7) Defense Threat Reduction Agency.


1.C. Appropriations and Funds

The Department receives its appropriations and funds as general, working capital (revolving funds), trust, special,
and deposit funds. The Components use these appropriations and funds to execute their missions and report on
resource usage.


DoD Performance and Accountability Report           126                                 Part 3: Financial Information
General funds are used for financial transactions funded by congressional appropriations, including personnel,
operation and maintenance, research and development, procurement, and military construction accounts.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out
specific purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

Special fund accounts are used to process government receipts earmarked for a specific purpose.

Deposit funds are used to record amounts held temporarily until ownership is determined. The Department is acting
as an agent or a custodian for funds awaiting distribution, for example payroll taxes.

Working capital funds (WCF) receive their initial funding through an appropriation or a transfer of resources from
existing appropriations or funds and use those capital resources to finance the initial cost of products and services.
The activities provide goods and services on a reimbursable basis. Receipts derived from operations generally are
available in their entirety for use without further congressional action.


1.D. Basis of Accounting

For FY 2004, the Department’s financial management systems are unable to meet all of the requirements for full
accrual accounting. Many of the Department’s financial and nonfinancial feeder systems and processes were
designed and implemented prior to the issuance of GAAP for federal agencies and, therefore, were not designed to
collect and record financial information on the full accrual accounting basis as required by GAAP. Most of the
Department’s legacy systems were designed to record information on a budgetary basis.

The Department has undertaken efforts to determine the actions required to bring its financial and nonfinancial
feeder systems and processes into compliance with all elements of GAAP. One such action is the current revision of
its accounting systems to record transactions based on the United States Government Standard General Ledger
(USSGL). Until all of the Department’s financial and nonfinancial feeder systems and processes are updated to
collect and report financial information as required by GAAP, the DoD’s financial data will be based on budgetary
transactions (obligations, disbursements, and collections), transactions from nonfinancial feeder systems, and
adjusted for known accruals of major items such as payroll expenses, accounts payable, and environmental
liabilities.

In addition, the Department identifies program costs based upon the major appropriation groups provided by the
Congress. The Department is in the process of reviewing available data and attempting to develop a cost reporting
methodology that balances the need for cost information required by the Statement of Federal Financial Accounting
Standards (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government,” with
the need to keep the financial statements from being overly voluminous.


1.E. Revenues and Other Financing Sources

The Department receives congressional appropriations as financing sources for general funds (annual and a multi-
year basis). When authorized, these appropriations are supplemented by revenues generated by sales of goods or
services. The Department recognizes revenue as a result of costs incurred or services performed on behalf of other
federal agencies and the public. The Department recognizes revenue when earned where systems allow for it. In
other instances, revenue is recognized when bills are issued.

The Department does not include non-monetary support provided by U.S. allies for common defense and mutual
security in its list of other financing sources that appears in the Statement of Financing. The U.S. has cost-sharing
agreements with other countries. Examples include countries where there is a mutual or reciprocal defense
agreement, where U.S. troops are stationed, or where the U.S. fleet is in a port.




DoD Performance and Accountability Report            127                                 Part 3: Financial Information
1.F. Recognition of Expenses

For financial reporting purposes, the DoD policy requires the recognition of operating expenses in the period
incurred. However, because the Department’s financial and nonfinancial feeder systems were not designed to
collect and record financial information on the full accrual accounting basis, accrual adjustments are made for major
items such as payroll expenses, accounts payable, environmental liabilities and unbilled revenue. The Department’s
expenditures for capital and other long-term assets are recognized as operating expenses based on depreciation. In
the case of Operating Materials and Supplies (OM&S), operating expenses are generally recognized when items are
either purchased or issued to users. Efforts are underway to migrate towards the consumption method for
recognizing OM&S expenses. Net increases or decreases in unexpended appropriations are recognized as a change
in the net position. Certain expenses, such as annual and military leave earned but not taken, are expensed in the
period that payment is made. The Department adjusts operating expenses as a result of the elimination of balances
between DoD Components.


1.G. Accounting for Intragovernmental Activities

The Department, as an agency of the federal government, interacts with and is dependent upon the financial
activities of the federal government as a whole. Therefore, these financial statements do not reflect the results of all
financial decisions applicable to the Department.

Public Debt

The Department’s proportionate share of public debt and related expenses of the federal government are not
included. The federal government does not apportion debts and its related costs to federal agencies. The DoD’s
financial statements, therefore, do not report any portion of the public debt or interest thereon, nor do the statements
report the source of public financing whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since
the Department of the Treasury does not allocate such interest costs to the benefiting agencies.

Inter/Intra Governmental Elimination

Preparation of reliable financial statements requires the elimination of transactions occurring among entities within
the Department or between two or more federal agencies. However, the Department cannot accurately identify most
of its intragovernmental transactions by customer because DoD’s systems do not track buyer and seller data needed
to match related transactions. For FY 1999 and beyond, seller entities within the Department provided summary
seller-side balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal DoD
accounting offices. In most cases, the buyer-side records have been adjusted to recognize unrecorded costs and
accounts payable. Intra-DoD intragovernmental balances were then eliminated. The Department is to develop long-
term systems improvements that will include sufficient up-front edits and controls to eliminate the need for after-
the-fact reconciliations. The volume of intragovernmental transactions is so large that after-the-fact reconciliation
cannot be accomplished effectively with the existing or foreseeable resources.

The Department of the Treasury Financial Management Service (FMS) is responsible for eliminating transactions
between the Department and other federal agencies. In May 2004, the FMS issued the Treasury Financial Manual
Part 2 – Chapter 4700 “Agency Reporting Requirements for the Financial Report of the United States Government.”
The Department is not able to fully implement the policies and procedures in this manual related to reconciling
intragovernmental assets, liabilities, revenues, and expenses for nonfiduciary transactions. The Department,
however, is able to implement the policies and procedures contained in the “Intragovernmental Fiduciary
Transactions Accounting Guide,” as updated by the “Federal Intragovernmental Transactions Accounting Policies
and Procedures Guide,” which has been updated and reissued on September 24, 2004. Both documents provide
guidance for reconciling Intragovernmental transactions pertaining to investments in federal securities, borrowings
from the U.S. Treasury and the Federal Financing Bank, Federal Employees’ Compensation Act transactions with
the Department of Labor (DoL), and benefit program transactions with the OPM.


DoD Performance and Accountability Report            128                                  Part 3: Financial Information
1.H. Transactions with Foreign Governments and International Organizations

Each year, the DoD Components sell defense articles and services to foreign governments and international
organizations, primarily under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of
the Act, the Department has authority to sell defense articles and services to foreign countries and international
organizations, generally at no profit or loss to the U.S. Government. Customers are required to make payments in
advance.


1.I. Funds with the U.S. Treasury

The Department’s monetary financial resources are maintained in U.S. Treasury accounts. The Defense Finance and
Accounting Service (DFAS), the Military Services, the U.S. Army Corps of Engineers (USACE) disbursing stations,
and the Department of State financial service centers process the majority of cash collections, disbursements, and
adjustments worldwide. Each disbursing station prepares monthly reports that provide information to the U.S.
Treasury on check issues, electronic fund transfers, and interagency transfers and deposits.

In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury, by
appropriation, on interagency transfers, collections received, and disbursements issued. The Department of the
Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account. Differences
between the Department’s recorded balance in the FBWT accounts and the Treasury’s FBWT accounts sometimes
result and are subsequently reconciled.


1.J. Foreign Currency

Cash is the total of cash resources under the control of the Department of Defense, which includes coin, paper
currency, negotiable instruments, and amounts held for deposit in banks and other financial institutions. Cash
available for agency use includes petty cash funds and cash held in revolving funds, which will not be transferred
into the U.S. Government General Fund. Foreign currency consists of the total U.S. dollar equivalent of both
purchased and non-purchased foreign currencies held in foreign currency fund accounts. The majority of cash and
all foreign currency is classified as non-entity and, therefore, restricted.

The amounts for cash and foreign currency reported consist primarily of cash held by Disbursing Officers to carry
out their paying, collecting and foreign currency accommodation exchange missions. Cash seized during Operation
Iraqi Freedom is restricted for use to assist the Iraqi people and support the reconstruction of Iraq.

The Department conducts a significant portion of its operations overseas. The Congress established a special
account to handle the gains and losses from foreign currency transactions for five general fund appropriations
(operation and maintenance, military personnel, military construction, family housing operation and maintenance,
and family housing construction). The gains and losses are computed as the variance between the exchange rate at
the date of payment and a budget rate established at the beginning of each fiscal year. Foreign currency fluctuations
related to other appropriations require adjustments to the original obligation amount at the time of payment. The
Department does not separately identify currency fluctuations.


1.K. Accounts Receivable

As presented in the Balance Sheet statement, accounts receivable includes accounts, claims, and refunds receivable
from other Federal entities or from the public. Allowances for uncollectible accounts due from the public are based
upon analysis of collection experience by fund type. The Department does not recognize an allowance for estimated
uncollectible amounts from other Federal agencies. Claims against other Federal agencies are to be resolved
between the agencies (per Code of Federal Regulations 4CFR 101.)




DoD Performance and Accountability Report           129                                Part 3: Financial Information
DoD Components use a variety of techniques for estimating the Allowance for Uncollectible Accounts Receivable
from the public. While the exact details differ among the Components, estimates are usually based on either a
percentage of actual prior-year write-offs or a percentage of aged receivables from the public.


1.L. Loans Receivable

The Department operates a loan guarantee program authorized by the National Defense Authorization Act for
FY 1996 Public Law 104-106, Statute 186, Section 2801. The Act includes a series of authorities that allow the
Department to work with the private sector to renovate military housing. The Department’s goals are to obtain
private capital to leverage government dollars, make efficient use of limited resources, and use a variety of private
sector approaches to build and renovate military housing faster and at a lower cost to American taxpayers.

The Act also provides the Department with a variety of authorities to obtain private sector financing and expertise to
improve military housing. The Department uses these authorities individually or in combination. They include
guarantees, both loan and rental; conveyance/leasing of existing property and facilities; differential lease payments;
investments, both limited partnerships and stock/bond ownership; and direct loans. In addition, the “Federal Credit
Reform Act of 1990” governs all amended direct loan obligations and loan guarantee commitments made after
FY 1991 resulting in direct loans or loan guarantees.


1.M. Inventories and Related Property

Most of the Department’s inventories are currently reported at an approximation of historical cost using latest
acquisition cost adjusted for holding gains and losses. The latest acquisition cost method is used because legacy
inventory systems were designed for materiel management rather than accounting. Although these systems provide
visibility and accountability over inventory items, they do not maintain historical cost data necessary to comply with
SFFAS No. 3, “Accounting for Inventory and Related Property.” Additionally, these systems cannot produce
financial transactions using the USSGL, as required by the Federal Financial Management Improvement Act of
1996 (P.L. 104-208). By utilizing new systems development processes, the DoD Components have transitioned, and
are continuing to transition, their inventory to the moving average cost method. Upon full implementation, the
Department will be compliant with SFFAS No. 3. Approximately 5 percent of inventories are now reported at
moving average cost.

The Department manages only military or government-specific materiel under normal conditions. Items commonly
used in and available from the commercial sector are not managed in the DoD materiel management activities.
Operational cycles are irregular, and the military risks associated with stock-out positions have no commercial
parallel. The Department holds materiel based on military need and support for contingencies. Therefore, the
Department does not attempt to account separately for “Inventory held for sale” and “Inventory held in reserve for
future sale” based on SFFAS No. 3 definitions.

Related property includes OM&S and stockpile materials. OM&S, including munitions not held for sale, are valued
at standard purchase price. The Department uses both the consumption method and the purchase method of
accounting for OM&S. Items that are centrally managed and stored, and procured by general fund appropriations
such as ammunition and engines, are generally accounted by the consumption method and reported on the balance
sheet as OM&S. When current systems cannot fully support the consumption method, the Department uses the
purchase method - that is, materials and supplies are expensed when purchased. For FY 2004, the Department
expensed significant amounts using the purchase method either because the systems could not support the
consumption method or because management deemed that the item is in the hands of the end user.

The Department determined that the recurring high dollar value of Operating Materials & Supplies in need of repair
is material to the financial statements and requires a separate reporting category. Many high dollar items managed,
such as aircraft engines, are categorized as OM&S rather than military equipment by DoD activities.

The Department implemented new policy in FY 2002 to account for condemned materiel only, as “Excess, Obsolete,
and Unserviceable.” The net value of condemned materiel is zero, because the costs of disposal are greater than the


DoD Performance and Accountability Report            130                                 Part 3: Financial Information
potential scrap value. Potentially redistributable materiel, presented in previous years as “Excess, Obsolete, and
Unserviceable,” is included in “Held for Use” or “Held for Repair” categories according to its condition.

Past audit results identified uncertainties about the completeness and existence of quantities used to produce the
reported values of inventory. Inventory available and purchased for resale includes consumable spare and repair
parts and repairable items owned and managed by the Department. This inventory is retained to support military or
national contingencies. Inventory held for repair is damaged inventory that requires repair to make suitable for sale.
It is more economical to repair than to procure these inventory items. Because the Department often relies on
weapon systems and machinery no longer in production, the Department supports a process that encourages the
repair and rebuilding of certain items. This repair cycle is essential to maintaining a ready, mobile, and armed
military force. Finally, work in process balances include costs related to the production or servicing of items,
including direct material, direct labor, applied overhead and other direct costs. Work in process also includes the
value of finished products or completed services pending the submission of bills to the customer. The work in
process designation may also be used to accumulate the amount paid to a contractor under cost reimbursable
contracts, including the amount withheld from payment to ensure performance, and the amount paid to other
government plants for accrued costs of end items of materiel ordered but not delivered. Work in process includes
munitions in production and depot maintenance work with its associated labor, applied overhead, and supplies used
in the delivery of maintenance services.


1.N. Investments in U.S. Treasury Securities

The Department reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts.
Premiums or discounts are amortized into interest income over the term of the investment using the effective interest
rate method or another method obtaining similar results. The Department’s intent is to hold investments to maturity,
unless they are needed to finance claims or otherwise sustain operations. Consequently, a provision is not made for
unrealized gains or losses on these securities.

The Department invests in both marketable and non-marketable securities. Marketable securities are investments
trading on a public market. The two types of non-marketable securities are par value and market-based
intragovernmental securities. The Bureau of Public Debt issues non-marketable par value intragovernmental
securities. Non-marketable, market-based intragovernmental securities mimic marketable securities, but are not
traded publicly.

The Department’s Net Investments are supported by various Trust Funds in each of the reporting entities. These
Trust Funds are comprised of Military Retirement Trust Fund (MRF), Medicare-Eligible Retiree Health Care Fund
(MERHCF), Other Defense Organizations General Fund (ODO GF), donations (Gift Funds), and the United States
Army Corps of Engineers (USACE).


1.O. General Property, Plant and Equipment

SFFAS No. 23 establishes new generally accepted accounting principles for valuing and reporting military
equipment (e.g., ships, aircraft, combat vehicles, weapons) in Federal financial statements. The standard requires
the capitalization and depreciation of the cost of military equipment, including the cost of modifications and
upgrades for accounting periods beginning after September 30, 2002. The Department uses data from the Bureau of
Economic Analysis to calculate a value for military equipment.

General PP&E assets are capitalized at historical acquisition cost plus capitalized improvements when an asset has a
useful life of 2 or more years, and when the acquisition cost equals or exceeds the DoD capitalization threshold of
$100,000. Also, DoD requires capitalization of improvement costs over the DoD capitalization threshold of
$100,000 for General PP&E. The Department depreciates all General PP&E, other than land, on a straight-line
basis.

Prior to FY 1996, General PP&E was capitalized if it had an acquisition cost of $15,000, $25,000, and $50,000 for
FYs 1993, 1994, and 1995, respectively, and an estimated useful life of 2 or more years. These assets remain


DoD Performance and Accountability Report           131                                 Part 3: Financial Information
capitalized and reported on WCF financial statements. General PP&E previously capitalized at amounts below
$100,000 were written off General Fund financial statements in FY 1998.

The USACE Civil Works General PP&E assets are capitalized at historical acquisition cost plus capitalized
improvements when an asset has a useful life of 2 or more years, and when the acquisition cost exceeds $25,000.
One exception is all buildings and structures related to hydropower projects are capitalized regardless of cost.
During 2003, the Corps increased its buildings and structures threshold from $0 to $25K for all Civil Works
appropriations with the exception of Revolving Fund and Power Marketing Agency (PMA) assets. All Civil Works
buildings and structures currently capitalized under $25,000 (excluding Revolving Fund and PMA) were expensed
in FY 2003 and removed from the Corps of Engineers Financial Management System (CEFMS). Beginning in
FY 2004 all Civil Works Buildings and Structures under $25,000 are expensed except for PMA assets.

When it is in the best interest of the government, the Department provides government property necessary to
contractors to complete contract work. The Department either owns or leases such property, or it is purchased
directly by the contractor for the government based on contract terms. When the value of contractor-procured
General PP&E exceeds the DoD capitalization threshold, it must be reported on the Department’s Balance Sheet.

Regardless, the Department is developing new policies and a contractor reporting process that will provide
appropriate General PP&E information for future financial statement reporting purposes. Accordingly, the
Department reports only the government property in the possession of contractors that is maintained in the DoD’s
property systems. Currently the Department does not plan to show contractor-held property as a separate line-item
in Note 10.

To bring the DoD into fuller compliance with federal accounting standards, the Department has issued new property
accountability and reporting regulations that require the DoD Components to maintain, in their property systems,
information on all property furnished to contractors. This action and other DoD proposed actions are structured to
capture and report the information necessary for compliance with federal accounting standards.


1.P. Advances and Prepayments

The Department records payments in advance of the receipt of goods and services as advances or prepayments and
reports them as assets on the Balance Sheet. In addition, when the Department receives the related goods and
services, it recognizes advances and prepayments as expenses.


1.Q. Leases

Generally, lease payments are for the rental of equipment and operating facilities and are classified as either capital
or operating leases. When a lease is essentially equivalent to an installment purchase of property (a capital lease),
the Department records the applicable asset and liability if the value equals or exceeds the current DoD
capitalization threshold. The Department records the amounts as the lesser of the present value of the rental and
other lease payments during the lease term (excluding portions representing executory costs paid to the lessor) or the
asset’s fair market value. The discount rate for the present value calculation is either the lessor’s implicit interest
rate or the governmental incremental borrowing rate at the inception of the lease. DoD as the lessee receives the use
and possession of leased property, for example real estate or equipment, from a lessor in exchange for a payment of
funds. An operating lease does not substantially transfer all the benefits and risk of ownership. Payments for
operating leases are charged to expense over the lease term as it becomes payable.

Office space is the largest component of operating leases. These costs were gathered from existing leases, General
Service Administration (GSA) bills, and Inter-service Support Agreements. Future year projections use the
Consumer Price Index (CPI), rather than the DoD inflation factor. The CPI impacts increases to the leases,
especially those at commercial lease sites. Equipment leases have a variety of lease terms, which are not expected to
be renewed upon expiration. Other operating leases are generally one-year leases. The Department expects to
continue to reduce the level of owned assets while increasing the number of leased assets. The Department will
strive to displace commercial leases with more economical GSA leases.


DoD Performance and Accountability Report            132                                Part 3: Financial Information
1.R. Other Assets

The Department conducts business with commercial contractors under two primary types of contracts: fixed price
and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can
cause, the Department provides financing payments. One type of financing payment that the Department makes for
real property is based upon a percentage of completion. In accordance with SFFAS No. 1, “Accounting for Selected
Assets and Liabilities,” such payments are treated as construction in process and are reported on the General PP&E
line and in General PP&E, Net.

The Federal Acquisition Regulation allows the Department to make financing payments, under fixed price contracts,
that are not based on a percentage of completion. The Department reports these financing payments as advances or
prepayments in the “Other Assets” line item. The Department treats these payments as advances or prepayments
because the Department becomes liable only after the contractor delivers the goods in conformance with the contract
terms. If the contractor does not deliver a satisfactory product, the Department is not obligated to reimburse the
contractor for its costs and the contractor is liable to repay the Department for the full amount of the advance.


1.S. Contingencies and Other Liabilities

The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” defines a contingency as an existing
condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The uncertainty
will be resolved when one or more future events occur or fail to occur. The DoD recognizes contingencies as
liabilities when past events or exchange transactions occur, a future loss is probable and the loss amount can be
reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there
is at least a reasonable possibility of incurring a loss or additional losses. Examples of loss contingencies include
the collectibility of receivables, pending or threatened litigation, and possible claims and assessments. The
Department’s loss contingencies arise as a result of pending or threatened litigation or claims and assessments occur
due to events such as aircraft, ship and vehicle accidents, medical malpractice, property or environmental damages,
and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for the Department's assets. This type of liability has
two components: nonenvironmental and environmental. Consistent with SFFAS No. 6, “Accounting for Property,
Plant, and Equipment,” recognition of an anticipated environmental disposal liability begins when the asset is placed
into service. Nonenvironmental disposal liabilities are recognized for assets when management decides to dispose
of an asset based upon the Department's policy, which is consistent with SFFAS No. 5, “Accounting for Liabilities
of the Federal Government.” The Department recognizes nonenvironmental disposal liabilities for National Defense
PP&E nuclear-powered assets when placed into service. Such amounts are developed in conjunction with, and not
easily separately identifiable from, environmental disposal costs.


1.T. Accrued Leave

The Department reports as liabilities civilian annual leave and military leave that has been accrued and not used as
of the balance sheet date. The liability reported at the end of the accounting period reflects the current pay rates.


1.U. Net Position

Net position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations represent amounts of authority that are unobligated and have not been rescinded or
withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments
have not been incurred.


DoD Performance and Accountability Report             133                                 Part 3: Financial Information
Cumulative Results of Operations represents the difference, since inception of an activity, between expenses and
losses and financing sources (including appropriations, revenue, and gains). Beginning with FY1998, these results
included the cumulative amount of donations and transfers of assets in and out without reimbursement.


1.V. Treaties for Use of Foreign Bases

The DoD Components have the use of land, buildings, and other overseas facilities that are obtained through various
international treaties and agreements negotiated by the Department of State. DoD purchases capital assets overseas
with appropriated funds; however, the host country retains title to land and improvements. Generally, treaty terms
allow the DoD Components continued use of these properties until the treaties expire. The DoD’s fixed assets
decrease by not renewing a treaty or not reaching agreements. In the event treaties or other agreements are
terminated, whereby use of the foreign bases is prohibited, losses are recorded for the value of any non-retrievable
capital assets. This takes place after negotiations between the U.S. and the host country have determined the amount
to be paid to the U.S. for such capital investments.


1.W. Comparative Data

Financial statement fluctuations greater than 10 percent are generally explained within the Notes to the Financial
Statements.


1.X. Unexpended Obligations

The Department obligates funds to provide goods and services for outstanding orders not yet delivered. The
financial statements do not reflect this liability for payment for goods and services not yet delivered.


1.Y. Problem Disbursements and Collections

Undistributed disbursements and collections represent the difference between disbursements and collections
matched at the transaction level to a specific obligation, payable, or receivable in the activity field records as
opposed to those reported by the U.S. Treasury. These amounts should agree with the undistributed amounts
reported on the departmental accounting reports. Intransit payments are payments that have been made for other
agencies or entities that have not been recorded in their accounting records. These payments are applied to the
entities’ outstanding accounts payable balance.

The Department of Defense policy is to allocate supported undistributed disbursements between federal and
nonfederal categories based on the percentage of Federal and nonfederal accounts payable. The majority of the DoD
Components reported following this allocation procedure. Unsupported undistributed disbursements are recorded in
accounts payable. Unsupported undistributed collections are recorded in other liabilities.




DoD Performance and Accountability Report           134                                 Part 3: Financial Information
Note 2.            Nonentity Assets




As of September 30                                              2004                           2003
(Amounts in millions)

1. Intragovernmental Assets
   A. Fund Balance with Treasury                      $                 1,913.5    $                      517.9
   B. Accounts Receivable                                                   8.2                             2.0
   C. Total Intragovernmental Assets                  $                 1,921.7    $                      519.9

2. Nonfederal Assets
   A. Cash and Other Monetary Assets                  $                 2,079.6    $                    1,393.0
   B. Accounts Receivable                                               5,107.7                         5,063.4
   C. Other Assets                                                          0.6                           126.0
   D. Total Non-Federal Assets                        $                 7,187.9    $                    6,582.4

3. Total Nonentity Assets                             $                 9,109.6    $                    7,102.3

4. Total Entity Assets                                $            1,199,376.6     $               1,134,207.0

5. Total Assets                                       $            1,208,486.2     $               1,141,309.3


Nonentity assets are assets for which the Department maintains stewardship accountability and responsibility to
report, but are not available for use in the operations.

Fluctuations

Nonentity Fund Balance with Treasury (FBWT) increased $1.4 billion (269 percent). The majority of this increase
is attributable to collections exceeding disbursements by $1.2 billion for Foreign Military Sales (FMS). The FMS
Trust Fund receives funds in advance from foreign customers based on future requirement forecasts. The FMS
collections from the foreign customers are based on initial deposit requirements and the quarterly billing statement
that forecasts advance cash requirements.

Nonentity intragovernmental accounts receivable increased $6.2 million (310 percent). The fluctuation is
attributable to the partial resolution of abnormal account receivable balances. These balances were created by cross-
walk problems during the implementation of the Air Force General Funds’ General Accounting and Finance
System-Rehost (GAFS-R) in FY 2004. Research is on-going to resolve these cross-walk issues.

Cash and other monetary assets increased a net $686.6 million (49 percent). This increase is primarily due to
increased support to the Operation Iraqi Freedom and Operation Enduring Freedom.




DoD Performance and Accountability Report           135                                Part 3: Financial Information
Intragovernmental Assets

Fund Balance with Treasury

The Nonentity Fund Balance with Treasury is comprised of three elements: Iraqi Custodial Fund, the FMS Trust
Fund, and deposit and suspense accounts. The Iraqi Custodial Fund represents Iraqi cash seized by coalition forces
during Operation Iraqi Freedom. These funds will be used to support the Iraqi people. Under authority of the Arms
Export and Control Act, the FMS Trust Fund receives collections from foreign governments that are dedicated
specifically to FMS purchases. The deposit and suspense accounts represent income tax withholding not yet
disbursed to the Treasury or to state or local authorities.

Accounts Receivable

This amount represents receivables from cancelled year appropriations. The receivables will be returned to the
Treasury as miscellaneous receipts once collected.

Non-Federal Assets

Cash and Other Monetary Assets

Cash and other monetary assets consist of cash held by Disbursing Officers to carry out their paying, collecting, and
foreign currency accommodation exchange missions. Foreign currency is valued using the Department of Treasury
Prevailing Rate of Exchange.

Accounts Receivable

Receivables are primarily related to Navy General Fund advance payments made to contractors and the associated
accrued interest, which remains in litigation. In addition, the USACE reports that its non-federal nonentity accounts
receivable include long-term receivables due from state and local municipalities for water storage contracts,
hydraulic mining, and the leasing of land for flood control purposes. The balance of the amounts reported as
nonentity non-federal accounts receivable represents accrued interest, penalties, fines and administrative fees
receivable, accounts receivable due from active duty members, and accounts receivable due to appropriation
accounts which are in a closed status. The Department neither derives nor receives any benefit from these
collections, but incurs the cost of administering them. The receivables will be returned to the Treasury as
miscellaneous receipts once collected.

Other Assets

Other nonentity assets primarily represent outstanding travel advances for the Air Force General Fund.




DoD Performance and Accountability Report           136                                Part 3: Financial Information
Note 3.            Fund Balance with Treasury



As of September 30                                                     2004                          2003
(Amounts in millions)

1. Fund Balances
   A. Appropriated Funds                                     $             267,067.5     $                238,052.2
   B. Revolving Funds                                                        9,036.3                       11,131.1
   C. Trust Funds                                                            1,955.5                          559.0
   D. Other Fund Types                                                      11,539.6                        2,319.7
   E. Total Fund Balances                                    $             289,598.9     $                252,062.0


2. Fund Balances Per Treasury Versus Agency
   A. Fund Balance per Treasury                              $             293,082.2     $                251,682.0
   B. Fund Balance per Department of Defense                               289,598.9                      252,062.0

3. Reconciling Amount                                        $                3,483.3    $                  ( 380.0)


                               Fund Balance          Fund Balance per               Reconciling       Reconciling
Reporting Entity               with Treasury             Entity Books                  Amount            Amount
(Amounts in millions)                FY 2004                  FY 2004                  FY 2004           FY 2003
Navy GF                      $        83,080        $           82,094        $            986        $
Air Force GF                          61,498                    60,601                     897
Army GF                               89,549                    89,549
ODO GF                                50,263                    49,207                       1,056            (314)
Corps of Engineers                     2,907                     2,387                         520             (66)
MERHCF                                     5                         5
MRF                                       21                        21
Air Force WCF                          1,704                     1,051                        653             1,742
Army WCF                                 948                       948
ODO WCF                                2,246                     2,875                       (629)          (1,742)
Navy WCF                                 861                       861
Total                        $       293,082        $         289,599         $              3,483    $       (380)


Analysis of Reconciling Amounts
For the Defense Agencies, the Department of Defense reconciles at the agency-wide level, since Defense Treasury
Index 97 funds allotted at limit level complicate the Department’s ability to reconcile at the defense agency level.
The Department continues to improve internal methodology to properly account for their funds at the entity level.
The Department of Defense shows a reconciling net difference of $3.5 billion with the Department of the Treasury,
which is comprised of:
•   $986 million, for the Navy General Fund, that represents receipt account transactions unavailable to the
    Department of the Navy and canceling appropriated authority withdrawn by the Department of the Treasury at
    the end of the fiscal year;

•   $897 million, for the Air Force General Fund, that represents the preclosing amount of Miscellaneous Receipt
    Accounts and Canceling Account balances on the entity records and not on the Treasury Trial Balance;


DoD Performance and Accountability Report           137                                 Part 3: Financial Information
    •    $1.1billion, for the Other Defense Organizations (ODO) - General Fund, that includes a negative balance of
         $373.3 million in unsupported undistributed disbursements and collections reported at the departmental
         level but not yet recorded by the applicable agency. The remaining reconciling balance represents
         canceling appropriation authority withdrawn by the Department of the Treasury at the end of the fiscal
         year;

    •    $520 million that represents receipt accounts closed by the U.S. Army Corps of Engineers. The closure is
         not yet reflected on the Department of the Treasury report;

    •    $653 million, for the United States Transportation Command, that is recorded as Fund Balance with
         Treasury in the Air Force Working Capital Fund. The accounting for these funds is actually performed
         within the entity books of the ODO Working Capital Fund. For financial reporting, the Fund Balance with
         Treasury for the ODO Working Capital Fund is adjusted downward to reconcile with the Air Force
         Working Capital Fund;

    •    ($629) million which is primarily due to the downward adjustment to the Fund Balance with Treasury for
         the ODO Working Capital Fund to reflect that the cash reporting to the Department of the Treasury for the
         United States Transportation Command is done through the Air Force Working Capital Fund.


Other Information Related to Fund Balance with Treasury

Total Fund Balance

Total Fund Balance with Treasury increased approximately $37.5 billion (15 percent). Funding from appropriations
increased by approximately $29 billion (12 percent). The increase is primarily attributable to an increase of $25.7
billion in the Army General Fund and $3.5 billion in the Navy General Fund for various purposes such as Operation
Enduring Freedom and Operation Iraqi Freedom.

The Army General Fund increase also includes approximately $38.3 million in Vested Iraqi Cash. This cash
represents frozen Iraqi deposits in the United States and is vested in accordance with the International Emergency
Economic Powers Act, Section 1701, and is used in support of the Iraqi people. Since the beginning of the war,
Army has collected $1.7 billion in Vested Iraqi Cash and has disbursed $1.7 billion benefiting the Iraqi people as
follows:


                                                                                            Disbursed
                                                                                          ($ in millions)
         Iraqi Salaries                                                                       $1,184.9
         Repair/Reconstruction/Humanitarian Assistance                                           140.9
         Iraqi Ministry Operations (Ministry of Finance, Defense, etc.)                          360.0
         Total Disbursed                                                                      $1,685.8



The Trust Funds increased approximately $1.4 billion (250 percent) due primarily to an increase in the
ODO - General Fund as a result of Foreign Military Sales Trust Fund Collections exceeding Foreign Military Sales
Trust Fund Disbursements.
The Other Fund Types increased approximately $9.2 billion (396 percent) principally due to an $8.9 billion increase
in the Iraqi Relief and Reconstruction Fund.




DoD Performance and Accountability Report           138                                Part 3: Financial Information
 Disclosures Related to Suspense/Budget Clearing Accounts


                                                                                                  (Decrease)/
                                2002                   2003                    2004            Increase from FY
As of September 30                                                                                2003 - 2004
(Amounts in millions)
 Account
  F3875               $               (490.1) $               (628.8) $                (608.5) $               20.3
  F3880                                 (3.8)                   (6.0)                    (1.4)                  4.6
  F3882                                (37.3)                  (21.6)                   (59.5)               (37.9)
  F3885                               (185.0)                 (399.5)                  (118.2)               281.3
  F3886                                   5.1                     0.2                      0.2                  0.0
 Total                $              ( 711.1) $             (1,055.7) $               ( 787.4) $             268.3


 A description of the suspense and budget clearing accounts and their respective balances follows:

 The F3875 and F3885 suspense clearing accounts represent the primary sources of the overall negative balance.
 Account F3875 reported a negative balance of approximately $608.5 million that represents the Disbursing Officer’s
 (DO) suspense. Account F3885, that includes the Interfund/Intragovermental Paying and Collection (IPAC)
 suspenses, reported a negative balance of approximately $118.2 million. Account F3886 has a positive balance of
 approximately $0.2 million represented by the Thrift Savings Plan suspense. These three suspense accounts
 temporarily hold collections or disbursements until they can be assigned or identified to a valid appropriation.

 The F3880 suspense account reported a negative balance of approximately $1.4 million. This amount represents the
 balance of Treasury checks that (1) have either been lost by the payee and need to be reissued, (2) have never been
 cashed by the payee, or (3) have been cancelled by the Treasury and need to be transferred to the original
 appropriation.

 The F3882 suspense account reported a negative balance of approximately $59.5 million. This account was
 established for the Uniformed Services Thrift Savings Plan in FY 2002. The amounts in this account represent a
 timing difference between the posting of the Thrift Savings Plan deductions by the National Finance Center and the
 posting of these same amounts in the military accounting systems in the following month.

 On September 30 of each fiscal year, most of the uncleared suspense/budget clearing account balances are reduced
 to zero (as required by the Department of the Treasury) by transferring the balances to appropriation accounts. On
 October 1 of the following fiscal year, the uncleared suspense/clearing account balances are reestablished.

 Under the authority of Section 1009 of Public Law 107-314, “Clearance of Certain Transactions Recorded in
 Treasury Suspense Accounts and Resolution of Certain Check Issue Discrepancies,” the Department of Defense
 cancelled $414.1 million net and $625.5 million absolute from suspense accounts. The impact on the financial
 statements of canceling this amount was that this net amount was no longer in suspense and, therefore, was not
 transferred to appropriation accounts.




 DoD Performance and Accountability Report          139                                 Part 3: Financial Information
Problem Disbursements and In-Transit Disbursements

                                                                                                       (Decrease)/
 (Amounts in millions)               September              September            September            Increase from
                                       2002                   2003                 2004               2003 to 2004
     1. Total Problem
         Disbursements
   A. Absolute
       Unmatched
       Disbursements           $            858.0     $            854.3     $          734.6    $              -119.7
   B. Negative
       Unliquidated                         122.0                  124.9                 94.8                    -30.1
       Obligations

     2. Total In-Transit       $          4,550.0     $          4,675.5     $        5,197.8    $               522.3
     Disbursements, Net


The DoD reported $734.6 million (absolute value) in Unmatched Disbursements (UMD), which is a decrease of
$119.7 million. A UMD occurs when a payment is not matched to a corresponding obligation in the accounting
system. Absolute value is the sum of the positive values of debit and credit transactions without regard to the sign
(plus or minus).

The DoD reported $94.8 million (absolute value) in Negative Unliquidated Obligations (NULOs), which is a
decrease of $30.1 million. A NULO occurs when a payment is made against a valid obligation, but the payment is
greater than the amount of the obligation recorded in the official accounting system. These problem disbursements
represent the absolute value of disbursements of DoD funds that have been reported by a disbursing station to the
Department of the Treasury. However, these problem disbursements have not yet been precisely matched against
the specific source obligation that gave rise to the disbursements. These payments have been made using available
funds and are based on valid receiving reports for goods and services delivered under valid contracts.

The DoD reported $5.2 billion (net) for In-Transits, which is an increase of $522.3 million. The In-Transits
represent the net value of disbursements and collections made by a DoD disbursing activity on behalf of an
accountable activity and have not been posted to the accounting system.

The elimination of both problem disbursements and aged In-Transits is one of the highest financial management
priorities of the Under Secretary of Defense (Comptroller). The DFAS has efforts underway to improve the
systems, resolve all previous problem disbursements, and to process all in-transit disbursements in a timely manner.




DoD Performance and Accountability Report           140                                 Part 3: Financial Information
Note 4.         Investments and Related Interest



As of September 30                                                             2004                               2003
                                               Amorti-      Amortized            Invest-        Market
                                                                                                             Investments,
                                Cost           zation       (Premium/            ments,          Value
                                                                                                                 Net
                                               Method        Discount)             Net         Disclosure
(Amounts in millions)
1. Intra-
    governmental
    Securities:
   A. Non-
       Marketable,                              Effective
       Market-Based             242,578.3       Interest          (15,508.8)       227,069.5     238,639.5       201,741.0

   B. Subtotal              $ 242,578.3                     $ (15,508.8) $ 227,069.5 $ 238,639.5 $ 201,741.0
   C. Accrued
      Interest              $     4,000.2                                      $     4,000.2 $     4,000.2 $        3,635.0
   D. Total Intra-
      governmental          $ 246,578.5                     $ (15,508.8) $ 231,069.7 $ 242,639.7 $ 205,376.0
      Securities
2. Other
   Investments:             $          406.5                            0.0 $         406.5            N/A $          217.8

The amortization method used for non-marketable, market-based securities is effective interest. The Other
Investments represent limited partnerships, entered into on behalf of the U.S. Government by the Army and Navy in
support of the Military Housing Privatization Initiative authorized by Public Law 104-106, Stat. 186, on
February 11, 1996. These investments do not require Market Value Disclosure.

Intragovernmental Securities

Net Investments increased by $25.7 billion (13 percent) in Non-Marketable, Market-Based securities. The
increase is primarily due to positive cash flows of $20.1 billion for the Medicare-Eligible Retiree Health Care
Fund and $5.4 billion for the Military Retirement Fund.

Other Investments

Other Investments increased $188.7 million (87 percent) due to new investments in limited partnerships by the
Army ($93.0 million) and Navy ($95.7 million) to support military housing. A summary of the Department’s total
investments in these limited partnerships follow:
Installation                                                 Amount Invested              Month Invested
Beaufort/Paris ISL/Quantico                                  $ 97.2                       October 2003
Ft. Campbell, Kentucky                                          52.2                      January 2004
Ft. Hood, Texas                                                 52.0                      November 2001
Ft. Bragg, North Carolina                                       49.4                      December 2003
Ft. Stewart, Georgia                                            37.4                      February 2004
South Texas, Texas                                              29.4                      February 2002
Honolulu, Hawaii                                                25.0                      May       2004
New Orleans Naval Complex, Louisiana                            23.1                      October 2001
San Diego, California                                           20.9                      June      2003
Everett NAS, Washington                                         12.2                      December 2000
Kingsville NAS, Texas                                            4.3                      December 2000
Ft. Hamilton, New York                                           2.2                      May       2004
Ft. Detrick, Maryland                                            1.3                      September 2004
                                                               406.5


DoD Performance and Accountability Report                   141                                  Part 3: Financial Information
Note 5.         Accounts Receivable



As of September 30                                  2004                                          2003
                                                Allowance
                               Gross                                     Accounts             Accounts
                                                    For
                              Amount                                    Receivable,          Receivable,
                                                Estimated
                                Due                                        Net                  Net
                                               Uncollectibles
(Amounts in millions)
1. Intra-
   governmental
   Receivables:          $          1,118.3                N/A     $           1,118.3      $           1,066.6
2. Non-Federal
   Receivables
   (From the
   Public):              $          8,028.3      $     (600.5)     $           7,427.8     $            7,299.9
3. Total Accounts
   Receivable:           $          9,146.6      $     (600.5)     $           8,546.1     $            8,366.5




Note 6.        Other Assets



As of September 30                                               2004                           2003
(Amounts in millions)
1. Intragovernmental Other Assets:
   A. Advances and Prepayments                        $                  1,011.9   $                     105.0
   B. Total Intragovernmental Other Assets            $                  1,011.9   $                     105.0
2. Non-Federal Other Assets:
   A. Outstanding Contract Financing Payments         $                 18,451.6   $                   18,868.7
   B. Other Assets (With the Public)                                     3,034.7                        2,860.9
   C. Total Non-Federal Other Assets                  $                 21,486.3   $                   21,729.6
3. Total Other Assets:                                $                 22,498.2   $                   21,834.6

Fluctuations

Total Intragovernmental Advances and Prepayments increased $906.9 million (864 percent). Improved business
processes allowed the Department in FY 2004 to capture advances to others with other federal agencies.




DoD Performance and Accountability Report       142                                Part 3: Financial Information
Note 7.                    Cash and Other Monetary Assets



As of September 30                                                             2004                       2003
(Amounts in millions)
1. Cash                                                             $               1,811.1     $                 1,290.8
2. Foreign Currency (non-purchased)                                                   367.0                         244.1
3. Total Cash, Foreign Currency, & Other Monetary
    Assets                                                          $               2,178.1     $                 1,534.9

Fluctuations

Total Cash, Foreign Currency and Other Monetary Assets increased $643.2 million (42 percent) primarily resulting
from increases in cash on hand to support Operation Iraqi Freedom and Operation Enduring Freedom. Cash
increased by $520.3 million (40 percent). This increase was primarily due to increases of $388.1 million for the
Army General Fund and $166.9 million for the Air Force General Fund.

Overall foreign currency increased by $122.9 million (50 percent). This fluctuation was primarily the result of an
increase of $182.6 million for the Army General Fund due to additional requirements for foreign currency to support
Army military operations. This increase was offset by a decrease of $56.2 million for the Navy General Fund as a
result of the Navy drawdown related to Operation Iraqi Freedom. In addition, the U.S. Army Corps of Engineers
received additional foreign currency from the Republic of Korea for reimbursable work to be performed. The
foreign currency is primarily required to (1) pay foreign vendors, (2) provide cash for agents in support of deployed
tactical units, and (3) provide currency for exchange of U.S. dollars for troops stationed overseas to support
Operation Iraqi Freedom and Operation Enduring Freedom.

Other Information

The majority of cash and all foreign currency is classified as nonentity and its use is, therefore, restricted.
Approximately $1.7 billion in cash and $367 million in foreign currency are restricted.


Note 8.              Direct Loan and/or Loan Guarantee Programs


Direct Loan and/or Loan Guarantee Programs: The entity operates the following direct loan and/or
Loan guarantee program(s):
    Military Housing Privatization Initiative
    Armament Retooling & Manufacturing Support Initiative

The “Federal Credit Reform Act of 1990” (CRA) governs all amended direct loan obligations and loan guarantee
commitments made after FY 1991 resulting in direct loans or loan guarantees. Direct loans are reported at the net
present value of the following cash flows:
    • Loan disbursements;
    • Repayments of principal; and
    • Payments of interest and other payments by or to the Department over the life of the loan after adjusting for
         estimated defaults, prepayments, fees, penalties and other recoveries
Loan guarantee liabilities are reported at the net present value of the following cash flows:
    • Payments by the Department to cover defaults and delinquencies, interest subsidies, or other payments; and
    • Payments to the Department including origination and other fees, penalties, and recoveries.


DoD Performance and Accountability Report             143                                  Part 3: Financial Information
Military Housing Privatization Initiative

The Military Housing Privatization Initiative (MHPI) includes both Direct Loan and Loan Guarantee Programs. The
Department obtains private sector capital to leverage government dollars. The Department provides protection
against specific risks, such as base closure or member deployment, for the private sector partner. The Loan
Guarantee Program is authorized by the National Defense Authorization Act for FY 1996, Public Law (P.L.) 104-
106 Statute 186, Section 2801.

Armament Retooling and Manufacturing Support Initiative

The Armament Retooling and Manufacturing Support Initiative (ARMS), authorized by Title 10 USC 4551-4555, is
a Loan Guarantee Program. The program is designed to encourage commercial use of the Army's Inactive
Ammunition Plants through many incentives for businesses willing to locate to a government ammunition
production facility. The production capacity of these facilities is greater than current military requirements;
however, this capacity may be needed by the military in the future. The revenues from the property rental are used
to pay for the operation, maintenance and environmental clean up at the facilities. The resulting savings in overhead
costs lower the production cost of the goods manufactured and fund environmental clean up at no cost to the
government.

The US Department of Agriculture Rural Business-Cooperative Service (RBS) and the Department of the Army
established a Memorandum of Understanding (MOU) to furnish services to the Army in connection with the ARMS
Initiative Loan Guarantee Program (AILG) pursuant to Section 193 of the Armament Retooling and Manufacturing
Support Act of 1992 (P.L. 102-484), as amended (10 USC 2501 note). The National Defense Authorization Act for
Fiscal Year 1995 (P.L. 103-337) authorized the Army to enter into this MOU with RBS pursuant to 31 USC 1535.
The RBS has the necessary programmatic and administrative services and provides other services required to
administer the AILG Program. Therefore, to ensure service to the public and for protection of the federal interests
and rights, it was necessary for the Army to obtain service from the RBS.

Direct Loans Obligated After FY 1991

As of September 30                                               2004                             2003
(Amounts in millions)
Military Housing Privatization Initiative:
A. Loans Receivable Gross                            $                       141.5    $                     129.1
B. Allowance for Subsidy Cost (Present
    Value)                                                                   (70.8)                         (65.1)
C. Value of Assets Related to Direct Loans           $                         70.7   $                       64.0
Total Loans Receivable:                              $                         70.7   $                       64.0

Subsidy costs are recognized when direct loans are disbursed to borrowers and are re-estimated each year as of the
date of the financial statements. The allowance for subsidy cost is the difference between the outstanding principal
of the loans and the present value of their net cash flows. New loans in the amount of $12.4 million were disbursed
relating to housing at Camp Pendleton, California. The increase in the allowance for subsidy for new loans was
proportionate to the increase in new loans receivable. The allowance was also adjusted for subsidy re-estimates and
subsidy amortization totaling $2.6 million. Subsidy amortization is the net of interest revenue and interest expense.
FY 2004 subsidy amortization represents the difference between net borrowing from the Treasury and loans
receivable.




DoD Performance and Accountability Report           144                                Part 3: Financial Information
Gross direct loans disbursed for the MHPI program from inception consists of the following:

                                                                                  (in millions)
        Dyess Air Force Base, Texas                                   $                    28.9
        Elmendorf Air Force Base, Alaska                                                   48.0
        Lackland Air Force Base, Texas                                                     10.6
        Warner-Robins Air Force Base, Georgia                                              22.3
        Camp Pendleton Marine Corps Base, California                                       29.4
        Kingsville Air Force Base, Texas                                                    2.5
        Total                                                                           141.7
        Less: Previous Principal Repayments                                               (0.2)
        Loans Receivable Gross                                        $                 141.5


Total Amount of Direct Loans Disbursed


As of September 30                                                   2004                         202003
(Amounts in millions)
Direct Loan Program
Military Housing Privatization Initiative:                 $                     12.4     $                     36.7
Total                                                      $                     12.4     $                     36.7

New direct loans disbursed had a decrease of $24.3 million (66 percent). This change is due to the reduced number
of direct loans issued. The demand for direct loans by private developers varies from year to year depending upon
the progression of planned construction and renovation and upon economic factors unrelated to the operations of the
Department of Defense.

Total direct loans disbursed in FY 2004 for the MHPI program are:

                                                                                                (in millions)
                     Camp Pendleton Marine Corps Base, California                 $                      12.4
                     Total Direct Loans Disbursed                                 $                      12.4




DoD Performance and Accountability Report          145                                  Part 3: Financial Information
Subsidy Expense for Post-1991 Direct Loans

As of September 30
(Amounts in millions)
              2004                        Interest             Defaults             Fees             Other            Total
                                         Differential
1.Subsidy Expense for New
  Direct Loans Disbursed:
    MilitaryHousing
    Privatization Initiative         $             7.7    $           0.5     $        0.0       $      0.0     $             8.2
    Total                            $             7.7    $           0.5     $        0.0       $      0.0     $             8.2
              2003                        Interest             Defaults             Fees             Other            Total
                                         Differential
2.Subsidy Expense for New
  Direct Loans Disbursed:
    Military Housing
    Privatization Initiative         $        19.2        $         4.1 $      0.0               $     0.0 $              23.3
    Total                            $        19.2        $         4.1 $      0.0               $     0.0 $              23.3
              2004                   Modifications        Interest Rate  Technical               Total Re-            Total
                                                          Reestimates Reestimates                estimates
3.Direct Loan Modifications
  and Reestimates:
   Military Housing                  $           (0.7)    $          (2.0)    $        0.1       $     (1.9)    $         (2.6)
    Privatization Initiative
   Total                             $           (0.7)    $          (2.0)    $        0.1       $     (1.9)    $         (2.6)


                                                                             2004                              2003
4Total Direct Loan Subsidy Expense:
  Military Housing Privatization Initiative                     $                          5.6   $                        23.3
   Total                                                        $                          5.6    $                       23.3


The interest rate and default cost values represent the amounts for the loans disbursed in FY 2004. These rates are
established for each individual loan. The interest rate re-estimate for subsidy cost is an adjustment to subsidy cost
from the assumed interest rates used in the budget preparations to the interest rates that are applicable to the periods
in which the loans are disbursed. Technical/default re-estimate is an adjustment to subsidy cost based on the latest
projections of defaults, delinquencies, recoveries, prepayments or other cash flow components.

The decline in the reporting of Interest Rate Differential Costs and Default Costs is proportional to the number of
loans disbursed. The $17.7 million decrease in the direct loan subsidy expense primarily resulted from the reduction
in loans disbursed. Additionally, subsidy expense was impacted by a downward re-estimate of subsidy for loans
disbursed in prior fiscal years and subsidy allowance amortization. The subsidy rate differs for each project, from
66 percent for Camp Pendleton Marine Corps Base, California to 43 percent for Elmendorf Air Force Base, Alaska.
This difference has a direct impact on the variance from FY 2003 to FY 2004.




DoD Performance and Accountability Report                146                                     Part 3: Financial Information
Subsidy Rate for Direct Loans

                                                    Interest       Default
                                                   Differential                 Fees        Other         Total
                                                                     s
 Military Housing Privatization Initiative             24.26%       9.96%       0.00%        0.00%        34.22%

Subsidy rates pertain to the loan agreements contracted during the current fiscal year. These rates cannot be applied
to the direct loans disbursed during the current reporting year to yield the subsidy expense. The subsidy expense for
new loans disbursed in the current year could result from disbursement of loans from both current and prior-year
loan agreements.

Subsidy rates for FY 2004 are included in the FY 2005 Presidential Budget Federal Credit Supplement and are
published at the following website:

http://www.whitehouse.gov/omb/budget/fy2005/pdf/cr_supp.pdf


Schedule for Reconciling Subsidy Cost Allowance Balances for
Post-1991 Direct Loans

  Beginning Balance, Changes and Ending                           2004                        2003
                 Balance
 (Amounts in millions)
 1. Beginning Balance of the Subsidy Cost
     Allowance                                         $                     65.1   $                     41.8
  2. Add: Subsidy Expense for Direct
     Loans Disbursed during the Reporting
     Years by Component
     A. Interest Rate Differential Costs               $                      7.7   $                     19.2
     B. Default Costs (Net of Recoveries)                                     0.5                          4.1
     C. Total of the above Subsidy Expense
        Components                                     $                      8.2   $                     23.3
 3. Adjustments
     A. Subsidy Allowance Amortization                                     (0.6)                           0.0
     B. Total of the above Adjustment
        Components                                     $                   (0.6)    $                      0.0
 4. Ending Balance of the Subsidy Cost
     Allowance before Re-estimates                     $                     72.7   $                     65.1
 5. Add or Subtract Subsidy Re-estimates
     by Component
     A. Interest Rate Re-estimate                      $                   (2.0)    $                      0.0
     B. Technical/default Re-estimate                  $                     0.1                           0.0
     C. Total of the above Re-estimate
         Components                                    $                   (1.9)    $                      0.0
 6. Ending Balance of the Subsidy Cost
                                                       $                     70.8   $                     65.1
     Allowance




DoD Performance and Accountability Report           147                                 Part 3: Financial Information
Defaulted Guaranteed Loans from Post-1991 Guarantees

As of September 30, 2004, the Department had no defaulted guaranteed loans.


Guaranteed Loans Outstanding

As of September 30                                Outstanding Principal,                Amount of Outstanding
                                                   Guaranteed Loans,                     Principal Guaranteed
                                                       Face Value
Guaranteed Loans Outstanding:
1. Military Housing Privatization
   Initiative                                 $                         389.0       $                          389.0
2. Armament Retooling &
   Manufacturing Support
   Initiative                                 $                          27.1       $                           24.3
3. Total                                      $                         416.1       $                          413.3

Guaranteed Loans Outstanding for the MHPI program as of the end of September 30, 2004 consist of the following:

                                                                                        (in millions)
                    Warner-Robins Air Force Base, Georgia                       $                25.6
                    Fort Carson Army Installation, Colorado                                   147.0
                    Kirtland Air Force Base, New Mexico                                          74.0
                    Wright Patterson Air Force Base, Ohio                                        65.0
                    Elmendorf Air Force Base, Alaska                                             48.0
                    Lackland Air Force Base, Texas                                               29.4
                    Total                                                       $             389.0



Liability for Post-1991 Loan Guarantees, Present Value
As of September 30
(Amounts in millions)                                                    2004                           2003
Loan Guarantee Program Title
1. Military Housing Privatization Initiative                  $                         22.1   $                  24.6
2. Armament Retooling & Manufacturing
Support Initiative                                                                      12.3                       1.3
3. Total                                                      $                         34.4   $                  25.9

MHPI

The $2.5 million (10 percent) decrease is attributable to a technical reestimate of the subsidy. For additional
information, see Note 8.L, Schedule for Reconciling Loan Guarantee Liability Balances for Post-1991 Loan
Guarantees. There were no new guaranteed loans created in FY 2004.

ARMS

Total loan guarantee liabilities increased $11.0 million (846 percent) primarily due to the new FY 2004 loan
obligation and a liability for an impending loss claim. There were no new guaranteed loans created in FY 2004.




DoD Performance and Accountability Report            148                                  Part 3: Financial Information
Subsidy Expense for Post-1991 Loan Guarantees

As of September 30
(Amounts in millions)
                                     Interest
            2004                                          Defaults             Fees                 Other         Total
                                    Differential
1. Subsidy Expense for
    New Loan Guarantees
    Disbursed:
  Armament Retooling and
   Manufacturing Support
   Initiative                   $             0.0                 0.2              (0.1)                    0.0          0.1
    Total                       $             0.0   $             0.2    $         (0.1)        $           0.0   $      0.1
            2003                     Interest             Defaults             Fees                 Other         Total
                                    Differential
2. Subsidy Expense for
    New Loan Guarantees
    Disbursed:
  Military Housing
   Privatization Initiative     $             0.0   $            11.3    $            0.0       $           0.0   $ 11.3
  Armament Retooling and
   Manufacturing Support
   Initiative                   $             0.0                 0.1              (0.0)                    0.0      0.1
    Total                       $             0.0   $            11.4    $           0.0        $           0.0   $ 11.4
            2004                 Modifications       Interest Rate        Technical                Total              Total
                                                     Reestimates         Reestimates            Reestimates
3. Loan Guarantee
   Modifications and
   Reestimates:
  Military Housing              $             1.9   $             0.0    $         (4.4)        $           0.0   $ (2.5)
   Privatization Initiative
  Armament Retooling and                      0.0                 0.0                 7.5                   0.0          7.5
   Manufacturing Support
   Initiative
     Total                      $             1.9   $             0.0    $            3.1       $           0.0   $      5.0

4. Total Loan Guarantee Subsidy Expense                                 2004                           2003
   Military Housing Privatization Initiative                 $                   (2.5)      $                          11.3
   Armament Retooling and Manufacturing
   Support Initiative                                                             7.6                                   0.1
     Total                                                   $                    5.1       $                          11.4

MHPI

The MHPI created no new loan guarantees during FY 2004; however, MHPI had a $2.5 million downward re-
estimate, resulting in the negative subsidy expense.

ARMS

ARMS created no new loan guarantees during FY 2004. The change in ARMS subsidy expense is due primarily to
an upward subsidy re-estimate. For additional information, see Note 8.L, Schedule for Reconciling Loan Guarantee
Liability Balances for Post-1991 Loan Guarantees.

DoD Performance and Accountability Report           149                                     Part 3: Financial Information
Subsidy Rate for Loan Guarantees
                                                                                 Fees and
                                                  Interest
                                                                     Defaults      other       Other      Total
                                                Supplements
                                                                                 Collections
Loan Guarantees:
1. Military Housing Privatization                        0.00%         9.65%         0.00%       0.00     9.65%
   Initiative:                                                                                     %
2. Armament Retooling & Manufacturing                    0.00%         4.97%         -1.60%      0.00     3.37%
   Support Initiative                                                                              %


MHPI

The subsidy rates disclosed pertain only to loan agreements made during the current fiscal year. These rates cannot
be applied to the direct loans disbursed during the current fiscal year to yield the subsidy expense. The subsidy
expense for new loans reported in the current year result from disbursements of loans from both current year loan
agreements and prior year(s) loan agreements. The subsidy expense reported in the current year also includes
modifications and reestimates.

These FY 2004 loan guarantee subsidy rates are published in the FY 2005 Federal Credit Supplement at the
following web site:

http://www.whitehouse.gov/omb/budget/fy2005/pdf/cr_supp.pdf


Schedule for Reconciling Loan Guarantee Liability Balances for
Post-1991 Loan Guarantees

    Beginning Balance, Changes and Ending                                 2004                     2003
    Balance
(Amounts in millions)
1. Beginning Balance of the Loan Guarantee
   Liability                                                     $                 25.9    $                 14.1
2. Add: Subsidy Expense for Guaranteed Loans
   Disbursed during the Reporting Years by
   Component
   A. Default Costs (Net of Recoveries)                                              0.2                     11.4
   B. Fees and Other Collections                                                   (0.1)                      0.0
   C. Total of the above Subsidy Expense
       Components                                                $                  0.1    $                 11.4
3. Adjustments
   A. Fees Received                                              $                  0.0    $                  0.4
   B. Interest Accumulation on the Liability Balance                                5.3                       0.0
   C. Total of the above Adjustments                             $                  5.3    $                  0.4
4. Ending Balance of the Loan Guarantee Liability
   before Re-estimates                                           $                 31.3    $                 25.9
5. Add or Subtract Subsidy Re-estimates by
   Component
   A. Technical/default Re-estimate                              $                  3.1    $                  0.0
   B. Total of the above Re-estimate Components                  $                  3.1    $                  0.0
6. Ending Balance of the Loan Guarantee Liability                $                 34.4    $                 25.9




DoD Performance and Accountability Report          150                                 Part 3: Financial Information
Loan guarantee liabilities are re-estimated each year as of the date of the financial statements. As of result of the re-
estimations for FY 2004, MHPI had a downward subsidy re-estimate of $4.4 million and ARMS had an upward
subsidy re-estimate of $7.5 million. Funding for the upward loan subsidy re-estimate is expected in the next fiscal
year. The downward re-estimate will be returned to the Treasury.


Administrative Expense
Administrative Expense is limited to separately identified expenses administered to direct and guaranteed loans.
DoD does not maintain a separate program to capture the expenses related to direct and guaranteed loans only for
the MHPI.

Administrative Expense for the ARMS is a fee paid to theU.S.Department of Agriculture RBS for administering the
loan guarantees under the ARMS, which is a joint program. Administrative Expense for the ARMS is immaterial to
the DoD financial statements.




DoD Performance and Accountability Report             151                                 Part 3: Financial Information
Note 9.            Inventory and Related Property



As of September 30                                                     2004                            2003
(Amounts in millions)

1.   Inventory, Net                                         $                68,207.9     $                   64,365.4
2.   Operating Materials & Supplies, Net                                    143,489.7                        139,351.2
3.   Stockpile Materials, Net                                                 1,521.8                          1,828.0
4.   Total                                                  $               213,219.4     $                  205,544.6




Inventory, Net


                                                     2004                                2003
                                 Inventory,         Revaluation      Inventory,        Inventory,         Valuation
As of September 30              Gross Value         Allowance           Net               Net              Method
(Amounts in millions)
1. Inventory
   A. Available and
      Purchased for
      Resale                   $     75,931.7     $ (33,557.2)        42,374.5     $      42,216.0     LAC, MAC
   B. Held for Repair                30,027.6        (5,369.7)        24,657.9            20,206.3     LAC, MAC
   C. Excess, Obsolete,
      and
      Unserviceable                   5,368.1          (5,368.1)             0.0                 0.0   NRV
   D. Raw Materials                      21.3                0.0            21.3                 9.8   MAC,SP,LAC
   E. Work in Process
                                 1,154.2             0.0    1,154.2         1,933.3                     AC
   F. Total                $ 112,502.9 $ (44,295.0)        68,207.9 $      64,365.4
Legend for Valuation Methods:
Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for  NRV = Net Realizable Value
   holding gains and losses                           MAC = Moving Average Cost
SP = Standard Price                                   AC = Actual Cost


Generally, there are no restrictions on the use, sale, or disposition of inventory except in the following situations:

     •   Distributions without reimbursement are made when authorized by Department of Defense directives.
     •   War reserve materiel includes fuels and subsistence items that are considered restricted.
     •   Inventory, with the exception of safety stocks, may be sold to foreign, state and local governments, private
         parties, and contractors in accordance with current policies and guidance or at the direction of the President.



DoD Performance and Accountability Report             152                                  Part 3: Financial Information
General Composition of Inventory

Inventory includes spare and repair parts, clothing and textiles, and fuels held for sale by the Defense Working
Capital Funds. Inventory is tangible personal property that is:

    •    Held for sale, or held for repair for eventual sale.
    •    In the process of production for sale.
    •    To be consumed in the production of goods for sale or in the provision of services for a fee.


Restatement of Prior Year Balance

Inventory, Net and Total Inventory and Related Property include a prior-year adjustment and restatement of $11.4
billion for fiscal year 2003. The restatement of the 2003 comparative balances is due to Inventory valuation changes
and errors recorded by the Air Force. Refer to Note 20 – Statement of Changes in Net Position for additional
information.



Operating Materials and Supplies, Net


                                                        2004                                2003
As of September 30              OM&S Gross          Revaluation                                             Valuation
                                                                      OM&S, Net         OM&S, Net
                                  Value             Allowance                                                Method
(Amounts in millions)

1. OM&S Categories:


   A. Held for Use              $   127,765.1     $            0.0   $ 127,765.1       $ 122,732.3          SP, LAC
   B. Held for Repair                 18,035.4          (2,310.8)         15,724.6           16,618.9       SP, LAC
   C. Excess, Obsolete,
      and Unserviceable                3,128.9          (3,128.9)                0.0                  0.0   NRV
   D. Total                     $   148,929.4     $     (5,439.7)    $ 143,489.7       $ 139,351.2

Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost                 NRV = Net Realizable Value
   adjusted for holding gains and losses               SP = Standard Price



Generally, there are no restrictions on the use or disposition of operating materials and supplies.

General Composition of Operating Materials and Supplies

Operating Materials and Supplies includes spare and repair parts, ammunition, tactical missiles, aircraft
configuration pods, and centrally managed aircraft engines held for consumption by General Funds. Generally,
there are no restrictions on the use or disposition of operating materials and supplies.




DoD Performance and Accountability Report             153                                 Part 3: Financial Information
Fluctuations

OM&S increased by $4.1 billion (3 percent). The primary factors are as follows:

The Army General Fund reported its OM&S increased by $5.1 billion. The net increase is attributable to an increase
in Missile Procurement, Army OM&S reported by the U. S. Army Aviation and Missile Command and an increase
being reported in the Worldwide Ammunition Reporting System (WARS). The Missile Procurement’s increase is
the result of movement of funding from Procurement, Defense-wide to Missile Procurement, Army for the Patriot
Advance Capability 3 in support of the global war on terror. The WARS increase is the result of Operation Iraqi
Freedom, movement to uses other than basic load and training, retrograde and asset movement from troops to
ammunition storage points, and Central Command inventory reconciliation.

The Air Force General Fund reported a decrease of $1.1 billion because of a change in methodology for valuing its
OM&S. In FY 2003, uninstalled motors were valued at Latest Acquisition Cost while in FY 2004, they were valued
at Moving Average Cost. Many of the old uninstalled missile motors reported in FY 2003 as excess have been
refurbished and are now being reported as “held for use,” and some motors have been destroyed.




DoD Performance and Accountability Report         154                                Part 3: Financial Information
Stockpile Materials, Net


                                                         2004                          2003
As of September 30                      Stockpile    Allowance        Stockpile      Stockpile        Valuation
                                        Materials    for Gains        Materials,     Materials,        Method
                                        Amount        (Losses)           Net            Net
(Amounts in millions)((
(((m(
1. Stockpile Materials
    Categories:
    A. Held for Sale                $      1,427.7   $        0.0   $    1,427.7     $ 1,691.8        AC,LCM
    B. Held in Reserve for                                                                            AC,LCM
       Future Sale                            94.1            0.0            94.1          136.2

   C. Total                         $      1,521.8   $        0.0   $    1,521.8     $ 1,828.0

Legend for Valuation Methods:
AC = Actual Cost              LCM = Lower of Cost or Market




Fluctuations

Stockpile, Net decreased $306.2 million (16.7 percent). The National Stockpile Fund reported the decrease of
$42.1 million in its inventory held in reserve for future use is due to a systemic programming error in 2003 which
was subsequently corrected. The decrease of $264.1 million in inventory held for sale is the result of material sales
in FY 2004. Since the National Stockpile mission does not call for replenishing inventories, there will always be an
annual decline of inventory.

General Composition of Stockpile Materials

Stockpile materials are strategic and critical materials held due to statutory requirements, for use in national defense,
conservation or national emergencies. All materials held by the Defense National Stockpile (DNS) are classified as
Materials Held in Reserve until congressional action declares the materials are no longer required to be stockpiled,
and are available for sale on the open market. When DNS receives authorization to offer materials for sale, DNS
removes the materials from Material Held in Reserve and reclassifies them as Material Held for Sale. Disposals
cannot be made from the stockpile except under the following situations: (1) necessary upgrading, refining, or
processing; (2) necessary rotation to prevent deterioration; (3) determination as excess with potential financial loss if
retained; and (4) as authorized by law.




DoD Performance and Accountability Report            155                                  Part 3: Financial Information
Note 10.         General PP&E, Net


As of September 30                                           2004                                          2003
                         Depreciation                                   (Accumulated
                              /       Service           Acquisition     Depreciation/      Net Book Prior FY Net
                         Amortization Life                Value         Amortization)       Value   Book Value
                           Method
(Amounts in millions)
1. Major Asset
   Classes:
   A. Land                    N/A          N/A     $         10,103.0             N/A $     10,103.0 $       9,663.4
   B. Buildings,
      Structures,
      and Facilities                     20 Or
                              S/L          40            159,446.9 $       (91,463.2)       67,983.7       76,388.0
    C. Leasehold                         lease
       Improvements           S/L         term                 139.1            (96.3)           42.8           96.2
                                         2-5 Or
    D. Software               S/L          10                 6,051.9       (3,555.9)         2,496.0        2,392.7
    E. General
       Equipment              S/L        5 or 10             45,285.8      (29,314.0)       15,971.8      338,054.2
    F. Military
       Equipment              S/L       Various         1,147,340.0       (822,900.0)      324,440.0              0.0
    G. Assets Under
       Capital                            lease
       Lease1                 S/L          term                585.9           (379.2)          206.7          233.6
    H. Construction-
        in- Progress          N/A          N/A               19,574.6             N/A       19,574.6       19,388.3
    I. Other                                                     83.1            (3.1)          80.0           92.5
    J. Total General
       PP&E                                        $ 1,388,610.3 $        (947,711.7) $ 440,898.6 $ 446,308.9
1
 See Note 15 on Capital Lease Liability for additional information
Legend for Valuation Methods:
S/L = Straight Line    N/A = Not Applicable


Fluctuations

General Property, Plant and Equipment (PP&E) decreased $5.4 billion (1 percent). The significant changes are
summarized below:

Buildings, Structures and Facilities decreased 8.4 billion (11 percent). The majority of this decrease was the result
of an error in Navy General Fund data captured for FY 2003 accumulated depreciation. This error was corrected in
FY 2004.

Leasehold Improvements reflected a net decrease of $53.4 million (56 percent). The decrease is primarily
attributable to the DFAS Working Capital Fund’s one-time reclassification of $48.3 million from Buildings,
Structures and Facilities to Leasehold Improvements in FY 2003.



DoD Performance and Accountability Report              156                               Part 3: Financial Information
In FY 2004, the Department elected to display Military Equipment and General Equipment on separate lines for
reporting purposes. The breakdown of the FY 2003 balance is a net book value of $13 billion for General
Equipment and $325.1 billion for Military Equipment, therefore the true increase in General Equipment is $3 billion.
This increase is the result of the procurement of new equipment and better recognition of existing equipment.




Assets Under Capital Lease


As of September 30                                                      2004                      2003
(Amounts in millions)
1. Entity as Lessee, Assets Under Capital Lease:
   A. Land and Buildings                                     $                   574.6 $                   574.6
   B. Equipment                                                                   11.3                       2.6
   C. Accumulated Amortization                                                 (379.2)                   (343.6)
   D. Total Capital Leases                                   $                   206.7 $                   233.6



Assets Under Capital Lease consist primarily of leases for the Section 801 Family Housing Program.

Fluctuations

Assets Under Capital Lease decreased $26.9 million (12 percent). This change is due to normal depreciation
expense in FY 2004.

Other Disclosures

Imputed interest was necessary to reduce net minimum lease payments to the present value calculated at the
incremental borrowing rate at the inception of the leases.




DoD Performance and Accountability Report          157                                Part 3: Financial Information
Note 11.          Liabilities Not Covered by Budgetary Resources



As of September 30                                              2004                             2003
(Amounts in millions)

1. Intragovernmental Liabilities
   A. Accounts Payable                              $                         9.2   $                         0.0
   B. Debt                                                                   15.0                            18.2
   C. Other                                                               5,303.1                         4,814.5
   D. Total Intragovernmental Liabilities           $                     5,327.3   $                     4,832.7

2. Non-Federal Liabilities
   A. Accounts Payable                              $                       695.8   $                          0.0
   B. Military Retirement Benefits and
      Other Employment-Related
      Actuarial Liabilities                                          1,348,776.0                     1,233,557.2
   C. Environmental Liabilities                                         60,979.4                        58,047.6
   D. Other Liabilities                                                 15,158.0                        12,552.1
   E. Total Non-Federal Liabilities                 $                1,425,609.2    $                1,304,156.9

3. Total Liabilities Not Covered by
   Budgetary Resources                              $                1,430,936.5    $                1,308,989.6

4. Total Liabilities Covered by Budgetary
   Resources                                        $                  279,177.1    $                   250,648.9

5. Total Liabilities                                $                1,710,113.6    $                1,559,638.5



Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered covered by realized
budgetary resources as of the Balance Sheet date. For additional disclosures see Note 17 for Military Retirement
Benefits and Other Employment Related Actuarial Liabilities, and Note 14 for Environmental Liabilities.

Fluctuations

Intragovernmental Accounts Payable

Intragovernmental Accounts Payable increased $9.2 million. In accordance with Treasury guidance Accounts
Payable from Cancelled Appropriations moved from Intragovernmental Other Liabilities to Accounts Payable. This
change became effective in FY 2004.

Intragovernmental Debt

Debt decreased $3.2 million (17.6 percent) as a result of debt reduction payments by the U.S. Army Corps of
Engineers and U.S. Transportation Command of $2.0 million and $1.2 million, respectively.




DoD Performance and Accountability Report          158                                  Part 3: Financial Information
Intragovernmental – Other

Intragovernmental Liabilities-Other (not covered by budgetary resources) increased $488.6 million (10 percent) and
consist primarily of contractor debt and associated accrued interest receivable, workmen’s compensation, judgment
fund liabilities, and other custodial liabilities.

Other liabilities reported by the U.S. Army Corps of Engineers increased because Uncollected Custodial Liability
totaling $65.2 million is reported with Liabilities Not Covered by Budgetary Resources. The liability was
previously reported with Liabilities Covered by Budgetary Resources.

Federal Employees Compensation Act and Unemployment Compensation liabilities increased $153 million and
$69 million respectively, due to the increase in personnel supporting the war in Iraq. The Navy GF increase of
$53.0 million resulted from interest recorded and due to the Treasury from pending litigation on the A-12 program.
Additionally, Navy GF liabilities increased $66 million because of improved processes for recording receipt of
funds from cancelled appropriations that are due to the Treasury.


Non-Federal Accounts Payable

Non-Federal Accounts Payable increased $695.8 million. In accordance with Treasury guidance, Accounts Payable
from Cancelled Appropriations were moved from Non-Federal Other Liabilities to Accounts Payable.


Military Retirement Benefits and Other Employment-Related Actuarial Liabilities

Military Retirement Benefits and Other Employment Related Actuarial Liabilities increased by
$115.2 billion (9 percent). This is related to an increase in the actuarial liability of $140.1 billion that is offset by an
increase of $24.9 billion in the value of assets available to pay benefits.


Non-Federal Other

Non-Federal Other Liabilities (not covered by budgetary resources) increased $2.6 billion (21 percent).

The Defense Health Program (DHP) reports an increase in the amount of $1.3 billion. The increase is attributable to
the Incurred But Not Reported (IBNR) Liability. This liability is an estimated liability for medical claims incurred
by the Defense Health Plan, but not yet reported. The DoD Office of the Actuary developed this estimate based on
historical data showing medical claims by incurred date and paid date. This estimate also included factors such as
administrative costs associated with the incurred but not reported claims, medical inflation, and the rate of
beneficiary utilization of Defense medical services. The population base of this estimate is non-Medicare-eligible
beneficiaries of the DHP. This includes non-Medicare-eligible active duty military personnel and family members,
as well as non-Medicare-eligible military retirees, dependents and survivors. The remaining change relates to
multiple entities that individually do not comprise 10 percent of the total change.

The Defense Security Cooperation Agency Foreign Military Sales (FMS) Trust Fund reported an increase of
$1.2 billion in custodial liability. This increase is related to the change in the net custodial cash balance. The
liability represents net advances received from the foreign customers less the funds expensed on their behalf. When
the cash balance increases, a corresponding liability is created. However, the FMS customer retains ownership of
the cash. Until the funds are expended, a liability is created to anticipate the possible refund of the money to the
customers. Fluctuations of this nature are due to normal business practices and are not uncommon for the FMS
program. The remaining change relates to multiple entities that individually do not comprise 10 percent of the total
change.




DoD Performance and Accountability Report              159                                   Part 3: Financial Information
Other Information Related to Liabilities Not Covered By Budgetary Resources

Non-Federal Other Liabilities (not covered by budgetary resources) consist primarily of the following:

                                                                         (in millions)
                 Unfunded Annual Leave                                     $ 7,991.5
                 Non-environmental Disposal Liabilities                      2,443.7
                 Contingent Liabilities                                      1,456.3
                 Other Unfunded Employment-Related Liabilities               1,793.6
                 Custodial Liability                                         1,352.2
                 Other                                                         130.7
                 Total                                                     $15,158.0


Total Liabilities Covered by Budgetary Resources

Prior period had been adjusted upward for $1 billion (reference to Note 20). In December 1994, the Office of the
Under Secretary of Defense (Comptroller), OUSD(C), decentralized cash management responsibilities. In this
decentralization, the Navy Working Capital Fund received over $1.0 billion in undistributed disbursements. DoD
reclassified this amount from Other Liabilities to Cumulative Results. Specifically, the adjustment takes into
consideration the guidance provided by SFAS 16, APB 20, and SFFAS No.21, all of which address the treatment of
errors and disclosure of prior period adjustments.




DoD Performance and Accountability Report          160                                   Part 3: Financial Information
Note 12.                 Accounts Payable


As of September 30

                                                        2004                                        2003
                                                      Interest,
                                  Accounts          Penalties, and            Total                 Total
                                  Payable           Administrative
                                                        Fees
(Amounts in millions)
1. Intragovernmental
   Payables:                 $          1,888.4               N/A         $       1,888.4    $              101.4
2. Non-Federal
   Payables (to the
   Public):                  $         28,307.2    $                1.8   $     28,309.0     $         27,863.8

3. Total                     $         30,195.6    $                1.8   $     30,197.4     $         27,965.2


Intragovernmental accounts payable consist of amounts owed to other federal agencies for goods or services ordered
and received but not paid. Interest, penalties, and administrative fees are not applicable to intragovernmental
payables. Nonfederal payables (to the public) are payments to nonfederal entities.


Fluctuations

Intragovernmental Accounts Payable

Intragovernmental accounts payable increased $1.8 billion, (1,762 percent).

Improved business processes and implementation of estimating methodologies allowed DoD agencies to record
accounts payable with agencies outside DoD. These new processes resulted in an increase of intragovernmental
accounts payable for the following entities:

        Army General Fund                    $738.7 million
        Navy General Fund                    $396.6 million
        Navy Working Capital Fund            $43.7 million
        Air Force General Fund               $542.4 million




DoD Performance and Accountability Report          161                                Part 3: Financial Information
Note 13.                 Debt


 As of September 30
                                                               2004                                   2003
 (Amounts in millions)               Beginning                Net               Ending              Ending
                                      Balance               Borrowings          Balance             Balance
1. Public Debt:
   A. Held by Government
      Accounts                           N/A                   N/A                 N/A                  N/A
   B. Held by the Public                 N/A                   N/A                 N/A                  N/A
   C. Total Public Debt                  N/A                   N/A                 N/A                  N/A

2. Agency Debt:
   A. Debt to the Treasury
                                 $             81.3    $              4.2   $            85.5   $             81.3
   B. Debt to the Federal
      Financing Bank                         616.9              (110.6)               506.3                616.9
   C. Total Agency Debt          $           698.2     $        (106.4)     $         591.8     $          698.2

3. Total Debt:                   $           698.2     $        (106.4)     $         591.8     $          698.2

4. Classification of Debt:
   A. Intragovernmental
       Debt                                                                 $        591.8      $          698.2
   B. Non-Federal Debt                                                             N/A                  N/A
   C. Total Debt                                                            $        591.8      $          698.2


Fluctuations

Debt to the Treasury

The outstanding debt consists of interest and principal payments due to the Treasury. The $4.2 million (5 percent)
increase in Debt to the Treasury consists of a $6.2 million increase to a loan subsidy program related to the Family
Housing Improvement Fund’s Military Housing Privatization Initiative (MHPI), offset by a $2.0 million decrease to
the U.S. Army Corps of Engineers promissory notes with the Treasury Fund Capital Improvements to the
Washington Aqueduct.

The MHPI combines funds borrowed from the Treasury with appropriated funds (direct loan subsidy appropriation)
to provide direct loans to private developers to build or renovate military family housing. A $6.2 million
(10 percent) increase in Debt to the Treasury is primarily due to borrowing money from the Treasury to cover direct
loans related to military family housing at Camp Pendleton Marine Corps Base and six Air Force bases. See Note 8
for additional information regarding direct loans for the MHPI.

During FY’s 1997, 1998, and 1999, the U.S. Army Corps of Engineers executed three promissory notes totaling
$75.0 million with the Department of the Treasury. The funds provided by these notes were used for capital
improvements to the Washington Aqueduct. Arlington County; Falls Church, Virginia; and the District of Columbia
provide funding to repay the debt. There was a net decrease in debt of $2.0 million (12 percent) resulting in a
balance due to the Treasury of $15.4 million.



DoD Performance and Accountability Report             162                              Part 3: Financial Information
Debt to the Federal Financing Bank

Debt owed to the Federal Financing Bank (FFB) decreased by $110.6 million (18 percent). This decrease is
primarily due to the payments made to reduce the outstanding debt principal amount for the Department of the Navy
Transportation Activity Group ($109.3 million) and the U.S. Transportation Command ($1.3 million).

As part of the Afloat Prepositioning Force program, the Department of the Navy makes loan repayments to the FFB
on behalf of ship owners in lieu of capital lease payments to the ship owners. The FFB is reporting a debt in the
amount of $506.3 million for the Transportation Activity, which represents an outstanding principal balance of
$498.6 million and accrued interest payable of $7.7 million.

The debt on the part of U.S. Transportation Command consists of the principal and accrued interest balances left on
the Military Sealift Command’s (MSC) T-5 program that provides ships for time charter to the MSC to meet
requirements not available in the marketplace. The ships were financed with approximately 30 percent equity
investments and 70 percent debt borrowings. The debt is in the form of loans from the FFB to the vessel owners. In
order to simplify the payments, the FFB transfers funds from the Navy Working Capital fund to itself and applies
these funds to the vessel owners’ loans. This is done semi-annually. The MSC records the equity payments upon
receipt of invoices. The balance due to the FFB ($1.3 million) was paid in full in July 2004. The MSC purchased
all but the Darnell class T-5 ships.




DoD Performance and Accountability Report          163                                Part 3: Financial Information
Note 14.        Environmental Liabilities and Disposal Liabilities


As of September 30                                               2004                        2003
                                            Current           Noncurrent    Total            Total
                                            Liability          Liability
(Amounts in millions)
1. Environmental Liabilities – Non
   Federal
  A. Accrued Environmental
      Restoration (DERP funded)
      Costs:
    1. Active Installations--                 $1,752.0           $9,116.2   $10,868.2       $11,833.8
       Environmental Restoration
       (ER)
    2. Active Installations--ER for                63.3           7,645.7     7,709.0          4,362.1
       Closed Ranges
    3. Formerly Used Defense Sites                341.0           3,980.3     4,321.3          4,239.4
       (FUDS) -- ER
    4. FUDS--ER for Transferred                   149.3          13,935.0    14,084.3         13,624.4
       Ranges
  B. Other Accrued Environmental
      Costs (Non-DERP funds)
    1. Active Installations--                      52.3             517.3       569.6            561.0
       Environmental Corrective
       Action
    2. Active Installations--
       Environmental Closure
       Requirements                                16.0             162.5       178.5            103.6
    3. Active Installations--Environ.              62.5             217.1       279.6            276.3
       Response at Active Ranges
    4. Other                                            0.4           8.8           9.2            50.0
  C. Base Realignment and Closure
     (BRAC)
    1. BRAC Installations--                       670.6           2,450.3     3,120.9          3,616.6
       Environmental Restoration
       (ER)
    2. BRAC Installations--ER for
       Transferring Ranges                         11.3             524.6       535.9            511.6
    3. BRAC Installations--                        15.3             152.5       167.8            187.9
       Environmental Corrective
       Action
    4. Other                                      209.3               0.0       209.3            190.4




DoD Performance and Accountability Report        164                         Part 3: Financial Information
 D. Environmental Disposal for
    Weapons Systems Programs
  1. Nuclear Powered Aircraft                   0.0             5,693.0            5,693.0          5,565.0
      Carriers
  2. Nuclear Powered Submarines                42.4             5,146.3            5,188.7          4,888.9
  3. Other Nuclear Powered Ships               86.5               201.0              287.5            269.1
  4. Other National Defense                     5.8               266.1              271.9            297.1
      Weapons Systems
  5. Chemical Weapons Disposal              1,096.9             9,672.6           10,769.5         10,810.3
      Program
  6. Other                                    103.0                 0.0              103.0            103.1

2. Total Environmental Liabilities:    $    4,677.9    $       59,689.3    $      64,367.2     $   61,490.6



 Service Component – Environmental Restoration          Army         Navy          Air Force        ODO
              (Clean up) Liabilities and
         Environmental Disposal Liabilities
                (Amounts in millions)
1. Environmental Liabilities:
A. Non-Federal:
 1. Accrued Environmental Restoration (Defense
     Environmental Restoration Program (DERP)
     funded) Costs:
   a. Active Installations-Environmental              $ 3,520.4     $ 2,841.5       $ 4,225.2      $ 281.1
      Restoration (ER)
   b. Active Installations--ER for Closed Ranges        5,781.1           583.0       1,344.9
   c. Formerly Used Defense Sites (FUDS) –ER            4,321.3
   d. FUDS--ER for Transferred Ranges                  14,084.3
 2. Other Accrued Environmental Costs (Non-
    DERP funds)
   a. Active Installations--Environmental
      Corrective Action                                    259.0                        182.4         128.2
   b. Active Installations--Environmental Closure
      Requirements                                          51.2                        112.3           15.0
   c. Active Installations--Environ. Response at
      Active Ranges                                        267.6                                        12.0
   d. Other                                                                                              9.2
 3. Base Realignment and Closure (BRAC)
   a. BRAC Installations--Environmental
      Restoration (ER)                                     597.4      1,110.7         1,379.7           33.1
   b. BRAC Installations--ER for Transferring
      Ranges                                               480.1           55.8
   c. BRAC Installations--Environmental
      Corrective Action                                     25.0                        142.8
   d. Other                                                209.3
 4. Environmental Disposal for Weapon Systems
    Programs
   a. Nuclear Powered Aircraft Carriers
                                                                      5,693.0
   b. Nuclear Powered Submarines
                                                                      5,188.7
   c. Other Nuclear Powered Ships                                       287.5
   d. Other National Defense Weapon Systems                             271.9

DoD Performance and Accountability Report    165                                  Part 3: Financial Information
                                                                               271.9
   e. Chemical Weapons Disposal Program                      10,769.5
   f. Other                                                                                                  103.0
 5. Total Non-Federal Environmental Liabilities:           $ 40,366.2     $16,032.1      $ 7,387.3       $   581.6




Others Category Disclosure Comparative Table

                                        Types                                              September 30, 2004
                                                                                                  (in millions)
Other Accrued Environmental Costs (Non-DERP funds)
Defense Commissary Agency
                                                                                                     $         9.2

Base Realignment and Closure
Army’s prior BRAC unliquidated obligations that cannot be identified to a                            $       209.3
   specific program

Environmental Disposal for Weapons Systems Programs-Other
DoD Component Level Accounts                                                                         $       103.0
   National Defense Stockpile - ODO

The Department of Defense (DoD) is required to clean up contamination resulting from past waste disposal
practices, leaks, spills and other past activity, which have created a public health or environmental risk. The
department accomplishes this effort in coordination with regulatory agencies, and if applicable, with other
responsible parties, and current property owners. The Department is also required to recognize closure and post-
closure costs for its General Property, Plant, and Equipment (PP&E) and environmental corrective action costs for
current operations. Each of the Department’s major reporting entities is responsible for tracking and reporting all
required environmental information related to environmental restoration costs, other accrued environmental costs,
disposal costs of weapons systems, and environmental costs related to the base realignment and closures (BRAC)
actions that have taken place in prior years.

The Department is currently using two independently validated estimating models in addition to engineering
estimates. Validation of the models was performed in accordance with DoD Instruction 5000.61. The models are
the Remedial Action Cost Engineering Requirements (RACER) model and the Department of Navy Cost-to-
Complete (CTC) module of the Navy Normalization of Data System (NORM). Additionally, cost estimates are
based on the following: (1) historic comparable project, (2) a specific bid or independent government cost estimate
for the project, (3) site level data, and (4) annual cost-to-complete estimate. The cost-to-complete estimate is
prepared in the Defense Environmental Restoration Program (DERP).

The DoD has clean up requirements for the DERP sites at active and BRAC installations and formerly used defense
sites (FUDS), non-DERP at active installations, weapon systems programs, and chemical weapons disposal
programs. The DoD follows the Comprehensive Environmental Response, Compensation Liability Act (CERCLA)
and the Superfund Amendment and Reauthorization Act (SARA) to clean up DERP-eligible contamination. Non-
DERP eligible contamination cleanup is performed in accordance with the Resource Conservation and Recovery Act
(RCRA). The Army is the DoD Executive Agent for cleaning up contamination at sites formerly used by DoD. The
CERCLA and RCRA require DoD to clean up contamination in coordination with regulatory agencies, other
responsible parties, and current property owners. Failure to comply with agreements and legal mandates can put
DoD at risk of fines and penalties.

The Chemical Weapons Disposal Program is based on the FY 1986 National Defense Authorization Act (PL 99-145,
as amended by subsequent acts) that directed the DoD to destroy the unitary chemical stockpile by April 29, 2004.
The current guidelines for destruction are based on the Chemical Weapons Convention (CWC) treaty. The United


DoD Performance and Accountability Report           166                                Part 3: Financial Information
States ratified the treaty in April 1997 and, according to the terms outlined, the United States must destroy its
declared stockpile of chemical weapons by April 2007. The Army, as Executive Agent within the DoD, provides
policy, direction, and oversight for both the Chemical Stockpile Program and the Non-Stockpile Chemical Materiel
Project. As such, the Army is responsible for the safe and economical disposal of the U.S. stockpile of lethal and
incapacitating chemical warfare agents and munitions. The program objective is to destroy the U.S. stockpile of
unitary chemical agents and munitions in accordance with the public law and the schedules approved by the Defense
Acquisition Decision Memorandum dated September 26, 2001, and updated in the April 2003 Acquisition Program
Baseline.

The clean up requirements for nuclear-powered aircraft carriers, submarines, and other nuclear ships are based on
several significant laws, which affect the Department’s conduct of environmental policy and regulations. The
Atomic Energy Act of 1954, as amended, assures the proper management of source, special nuclear, and byproduct
material. As in all cases with nuclear power, the Department coordinates actions with the Department of Energy.
The Nuclear Waste Policy Act of 1982 required all owners and generators of high-level nuclear waste and spent
nuclear fuel, to pay their respective shares of the full cost of the program. Finally, the Low Level Radioactive Waste
Policy Amendments Act of 1986 provides for the safe and efficient management of low-level radioactive waste.

The estimated total clean up cost for the current operating period is assigned based on the amount of the current year
appropriation and unliquidated obligations that will be expended within 12 months from the Balance Sheet date.
The noncurrent clean up cost is the portion of the clean up cost that will be expended more than 12 months from the
Balance Sheet date.

The DoD has not identified any unamortized portion of the estimated total clean up cost associated with General
Property, Plant and Equipment (PP&E). The Department’s Financial Management Regulation requires the
unamortized clean up cost associated with PP&E to be recognized. The Department is working with the Military
Departments to ensure the regulation is properly implemented.

The Department had changes in estimation resulting from overlooked or previously unknown contaminants, better
site characterization with sampling, cost avoidance rerun, re-estimation based on different assumptions and/or
escalation, and re-estimation of costs based on lessons learned. Regulatory related changes include addition of
range rule/munitions requirements, additional or extended long-term monitoring requirements or 5 year reviews, no
further action agreement with the regulator, and risk-based corrective action. Technology related changes include
additional contamination level sampling, additional or extended remedial action operation, additional sites and
incomplete site data, and technical solution changes.

The Active Installations – ER for Closed Ranges increased $3.3 billion (77 percent). The Department of Army
reported an increase of $2.6 billion that resulted from additional site level data collected from the Army range
inventory. The Department of Navy reported an increase of $241.7 million due to adding 10 new sites at Concord
and Seal Beach, California, an estimate increase for Vieques, Puerto Rico, escalation of cost estimates, and cost
growth in preliminary findings. The Department of Air Force also reported an increase of $506.7 million that
resulted from the identification of 20 additional sites.

Active Installations – Environmental Closure Requirements increased $74.9 million (72 percent). The variance is
primarily due to an increase of $45.8 million in the Department of Air Force, $15.0 million in DoD Component
Level Accounts, and a $14.1 million increase in the Department of Army. The increase for the Department of Air
Force is attributable to a change in the amortization calculation that is now amortizing amounts over the life of an
asset rather than assessing the liability in the year of disposal. The increase for the DoD Component Level Accounts
is attributable to a reclassification from Other Accrued Environmental Costs (Non-DERP funds) – Other to Active
Installations Environmental Closure Requirements. The increase for the Department of the Army is attributable to
receipt of an updated Environmental Program Requirements (EPR) report with improved cost estimates and site
changes, as well as the addition of previously omitted Class Zero estimates.

Other Accrued Environmental Costs (Non-DERP funds) - Other decreased $40.8 million (81 percent). A decrease
of $35 million is attributable to a reclassification from Non-DERP Other to Active Installations-Environmental
Restoration and Active Installations-Environmental Closure Requirements within a DoD Component Level


DoD Performance and Accountability Report           167                                 Part 3: Financial Information
Account. An additional decrease of $1.5 million is also attributable to a reclassification from Non-DERP Other to
Active Installations- Environmental Corrective Action within the Defense Threat Reduction Agency (DTRA). The
remaining decrease of $4.4 million for the Defense Commissary Agency (DeCA) Surcharge entity is the result of a
revised estimate used to calculate the noncurrent environmental clean up costs.

The BRAC Installations – Environmental Restoration (ER) decreased $495.7 million (14 percent). The decrease is
primarily due to a $78.6 million increase reported by the Department of Army and a $529.4 million decrease
reported by the Department of Air Force. The increase reported by the Department of the Army is due to the
increased remediation efforts required. The decrease reported by the Department of Air Force resulted from
implementation of a new cost estimating and reporting policy that limits the liability to 25 years of remediation
action operations along with five years of long term monitoring.

The BRAC Installations – Environmental Corrective Action liability decreased $20.1 million (11 percent). The
variance is primarily due to a decrease of $23.1 million reported by the Department of Army. This decrease reflects
changes in cleanup actions required at a site.

Base Realignment and Closure (BRAC) – Other increased $18.9 million (10 percent). The variance is attributable to
the Department of Army and reflects additional estimates previously omitted.




DoD Performance and Accountability Report          168                                Part 3: Financial Information
Note 15.        Other Liabilities


As of September 30                                                     2004                                    2003
(Amounts in millions)                       Current                 Noncurrent
                                            Liability                Liability             Total               Total
1. Intragovernmental:
 A. Advances from Others            $             749.6         $               0.0    $       749.6       $      272.5
 B. Deposit Funds and
     Suspense Account
       Liabilities                                561.6                         0.0            561.6              372.3
 C. Disbursing Officer Cash                     2,071.8                         0.0          2,071.8            1,509.4
 D. Accounts Payable--
     Cancelled Appropriations                       0.0                        0.0               0.0                7.0
 E . Judgement Fund Liabilities                   278.1                      101.7             379.8              591.4
 F. FECA Reimbursement to the
     Department of Labor                          600.5                       831.7          1,432.2            1,420.8
 G. Other Liabilities                           3,794.8                     1,737.1          5,531.9            5,565.7
 H. Total Intragovernmental
     Other Liabilities              $           8,056.4         $           2,670.5    $    10,726.9       $    9,739.1

As of September 30                                                        2004                                 2003
(Amounts in millions)                         Current                   Noncurrent         Total               Total
                                              Liability                  Liability
2. Non-Federal:
  A. Accrued Funded Payroll and
     Benefits                           $         9,581.2           $        1,290.6   $    10,871.8       $    9,118.0
  B. Advances from Others                         1,741.4                        0.2         1,741.6            1,167.3
  C. Deferred Credits                                 4.2                        0.0             4.2                9.7
  D. Deposit Funds and Suspense
     Accounts                                       322.6                        0.0               322.6          105.3
  E. Temporary Early Retirement
     Authority                                            1.0                    1.1                 2.1               8.5
  F. Nonenvironmental Disposal
     Liabilities:
   (1) National Defense PP&E
       (Nonnuclear)                                      0.0                  565.8                565.8          574.9
   (2) Excess/Obsolete Structures                       84.0                  351.3                435.3          394.9
   (3) Conventional Munitions
       Disposal                                           0.0                1,325.9          1,325.9           1,198.8
   (4) Other                                              0.0                    0.0              0.0               0.0
  G. Accounts Payable
      Cancelled Appropriations                            0.0                    0.0                 0.0          602.3
  H. Accrued Unfunded Annual
     Leave                                        7,991.5                        0.0          7,991.5           7,645.3
  I. Capital Lease Liability                         50.5                      249.4           299.9              336.4
  J. Other Liabilities                            9,365.2                    1,565.3        10,930.5            8,992.6
  K. Total Non-Federal Other
     Liabilities                        $        29,141.6           $        5,349.6   $    34,491.2       $   30,154.0
3. Total Other Liabilities:             $        37,198.0           $        8,020.1   $    45,218.1       $   39,893.1




DoD Performance and Accountability Report           169                                     Part 3: Financial Information
Fluctuations - Federal

Intragovernmental Other Liabilities Fluctuation Analysis

Intragovernmental Other Liabilities increased $987.8 million (10 percent). The following items contributed to the
majority of the overall change:

Advances from Others (Line 1.A.)
Advances from Others increased $477.1 million (175 percent). The Air Force General Fund (GF) increased
$478.3 million and is the principal reason for the overall increase. The Air Force increase is due to the timing of the
receipt and execution of orders in the Research, Test, Development, and Evaluation (RDT&E) classified program,
causing variations in the year-end balances.

Deposit Funds and Suspense Account Liabilities (Line 1.B.)

Deposit Funds and Suspense Account Liabilities increased $189.3 million (51 percent). The following items
contributed to the majority of the overall change:

•   Navy GF increased $33.6 million. The increase is due to the reclassification of unsupported undistributed
    collections from accounts payable to other liabilities.
•   Army GF increased $69.9 million. The majority is attributable to an increase in the miscellaneous suspense and
    deposit funds for the following reasons:
    • Increase in Army Member Savings Deposits as a result of an increase in deployed soldiers who are drawing
         imminent danger pay. The soldiers are authorized to deposit funds and later withdraw the funds with
         interest.
    • Withheld State Income Taxes
    • Small Escrow Accounts due to the increase of soldiers using the post office and the Army Air Force
         Exchange Service in Kuwait and Iraq.
•   Other Defense Organizations (ODO) GF increased $98.5 million. The increase occurred in the following
    activities:
    • Thrift Savings Plan Clearing Account: Increase of $43.1 million is related to normal business practices.
         The government acts in a fiduciary capacity by collecting money from civilian pay, providing matching
         funds, and disbursing the funds to the plan administrator. The balance in this account is predicated on
         collections (i.e., the amount of employee participation in a given pay period).
    • Small Escrow Deposit Fund: Increase of $55.4 million is related to normal business practices of the
         Defense Reutilization Management Office (DRMO). The DRMO is responsible for the disposition of
         government property. Any remuneration is deposited in the Small Escrow Deposit Fund until transferred to
         the appropriate organization.

Disbursing Officer Cash (Line 1.C)

Disbursing Officer Cash increased $562.4 million (37 percent). The following items contributed to the majority of
the overall change:

•   Army GF increased $573.0 million to support Operation Iraqi Freedom and Operation Enduring Freedom.
•   Air Force GF increased $37.8 million. The increase is to support Operation Iraqi Freedom.
•   Navy GF decreased $48.1 million. The decrease is the result of the Navy drawdown from Operation Iraqi
    Freedom and subsequent events. The expansion of the ATM at Sea and Navy Cash programs in FY 2004 also
    contributed to the decrease of Disbursing Officer Cash because Disbursing Officers do not need as much cash
    on hand.

Accounts Payable - Cancelled Appropriations (Line 1. D)

ODO GF decreased $7.0 million. During FY 2003, Missile Defense Agency’s cancelled year unearned revenue was
reclassified to accounts payables.


DoD Performance and Accountability Report            170                                 Part 3: Financial Information
Judgment Fund Liabilities (Line 1.E.)

Judgment Fund Liabilities decreased $211.6 million (36 percent). The majority of the decrease is due to the
settlement of claims in litigation as follows:

•   Air Force GF decreased $150.3 million because the Air Force reimbursed the Treasury for amounts paid on their
    behalf.
•   Army GF decreased $61.3 million and is based on judgment fund liabilities guidance for the Notification and
    Federal Employment Antidiscrimination and Retention Act of 2002.
•   Navy GF decreased $7.3 million due to aggressive efforts to identify outstanding judgments.


Fluctuations - Non-Federal

Total Non-Federal Fluctuation Analysis

Non-Federal Other Liabilities increased $4.3 billion (14 percent). The following items contributed to the majority of
the overall change:

Accrued Funded Payroll and Benefits (Line 2. A.)

Accrued Funded Payroll and Benefits increased $1.8 billion (19 percent). The following items contributed to the
majority of the overall change:

•   ODO GF increased $1.3 billion. The majority of the change is associated with the increase of “Incurred but not
    Reported Liability” for the Defense Health Program (DHP). This amount is an estimated liability for medical
    claims incurred by the DHP, but not reported. The DoD Office of the Actuary developed this estimate based on
    historical data showing medical claims by incurred date and paid date. This estimate also included factors such
    as administrative costs associated with the incurred but not reported claims, medical inflation, and the rate of
    beneficiary utilization of medical services.
•   Air Force GF increased $299.6 million. The change is attributable to the increase in the number of military
    personnel activated in support of the war.

Advances from Others (Line 2.B.)

Advances from Others increased $574.3 million (49 percent). The following items contributed to the majority of the
overall change:

•   Army GF increased $160.5 million. The increase is due to military construction in South Korea. The U.S.Army
    Corps of Engineers (USACE) Pacific Ocean Division received these advances that are for various construction
    projects.
•   Navy Working Capital Fund (WCF) increased $282.6 million. The increase is primarily attributable to a
    reclassification in the component business area in order to adjust for trading partner differences.
•   USACE increased $28.9 million. The increase is due to an increase in customer orders from the public. A large
    percent of the increase in customer orders occurred in the New York and Honolulu districts. The New York
    district received an advance for the assessment of security of New York City’s public water supply and the
    Honolulu district received advances for a variety of local projects.

Deferred Credits (Line 2.C.)

Deferred Credits decreased $5.5 million (57 percent). The decrease is attributable to the National Defense Stockpile
Trust Fund. Deferred credits represent customer payments received for materials that have not yet been shipped.
During FY 2004, customers required accelerated deliveries, which resulted in a reduction of deferred credits.



DoD Performance and Accountability Report           171                                Part 3: Financial Information
Deposit Funds and Suspense Accounts (Line 2.D.)

Deposit Funds and Suspense Accounts increased $217.3 million (206 percent). The majority of the increase is
attributed to the reclassification of unsupported undistributed collections to deposit funds and suspense accounts.

Temporary Early Retirement Authority (Line 2.E.)

Temporary Early Retirement Authority decreased $6.4 million (75 percent). The following items contributed to the
majority of the overall change:

•   Air Force GF decreased $3.6 million. The decrease is due to the termination of the program.
•   Army GF decreased $.3 million. The decrease is due to the termination of the program.
•   Navy GF decreased $2.2 million.

Nonenvironmental Disposal Liabilities - Excess/Obsolete Structures (Line 2.F.2.)

Excess/Obsolete Structures increased $40.4 million (10 percent).

•   Air Force GF increased $21.3 million. The increase is attributable to the recently completed housing market
    analysis that better defined the Air Force’s surplus of inadequate housing inventory. Modifications in future
    year demolition strategy account for the change in disposal liability.
•   Navy GF increased $19.0 million. The change is a result of additional buildings and facilities/utilities identified
    for disposal.


Nonenvironmental Disposal Liabilities - Conventional Munitions Disposal (Line 2.F.3.)

Conventional Munitions Disposal decreased $127.1 million (11 percent). The following items contributed to the
majority of the overall change:

•   Army GF increased $133.0 million due to a stockpile expansion of 7,258 tons.
•   Air Force GF decreased $5.9 million. The decrease is due to a policy change during FY 2004 that transferred
    accounting responsibility for all disposal costs to the Department of the Army for inclusion in its financial
    statements. The Air Force no longer reports this activity.

Accounts Payable – Cancelled Appropriations (Line 2.G.)

Accounts Payable – Cancelled Appropriations decreased $602.3 million to $0. Cancelled accounts payable was
correctly reported as part of other liabilities in FY 2003. Treasury mapping changes implemented in June 2004
required all entities to report cancelled accounts payable as part of accounts payable beginning in the 3rd Quarter of
FY 2004.



Capital Lease Liability (Line 2.I)

Capital Lease Liability decreased $36.5 million (11 percent). The following items contributed to the majority of the
overall change:

•   Air Force GF decreased $28.2 million. The change is the result of a decrease in leases held by the Air Force in
    FY 2004.
•   Army GF decreased $11.7 million. The change is a result of normal payments made against the lease liability.
•   ODO GF increased $3.3 million. The change is a result of the increase in leased equipment.

Other Liabilities (Line 2.J.)


DoD Performance and Accountability Report            172                                 Part 3: Financial Information
Other Liabilities increased $1.9 billion (22 percent). The following items contributed to the majority of the overall
change:

•   Navy WCF increased $1.1 billion. The majority of the change is due to the reclassification of an abnormal
    balance and an increase in depot level reparable carcass returns.
•   ODO GF increased $1.6 billion. The majority of the change occurred in the Foreign Military Sales (FMS) Trust
    Fund due to a change in the net custodial cash balance. The custodial liability represents net collections
    received from the foreign customers less the funds disbursed on their behalf.
•   Army GF decreased $712.7 million. The majority of the decrease was attributable to a NATO program, which
    Army incorrectly reported in FY 2003. For FY 2004, the Other Defense Organizations correctly reported this
    liability, which resulted in a decrease for Army GF.
•   Air Force WCF decreased $278.7 million. The decrease is primarily attributable to the Depot Maintenance
    Activity Group (DMAG). The phase-out of contracts in the DMAG has resulted in a decline in material, labor,
    and overhead accruals.

Other Disclosures

In FY 2004 the DoD made a prior period adjustment to reclassify $1.0 billion of undistributed disbursements from
other liabilities to cumulative results of operations. See Note 20 for further information.


Intragovernmental Other Liabilities by Entity

       Intragovernmental Other Liabilities (Line 1.K) for 4th Quarter, FY 2004 ($millions)
      Entity          Current Liability        Non Current Liability          Total Liability
AF GF                                 317.6                                                   317.6
AF WCF                                   8.6                                                    8.6
Army GF                               276.8                                                   276.8
Army WCF                                 6.6                                                    6.6
MRF                                                                 0.9                         0.9
Navy GF                            2,885.0                                                  2,885.0
Navy WCF                                42.6                                                   42.6
ODO GF                                112.9                        10.3                       123.2
ODO WCF                                 20.9                                                   20.9
USACE                                 123.8                     1,725.9                     1,849.7

Total                                         3,794.8                        1,737.1                         5,531.9




Non-Federal Other Liabilities by Entity


       Non-Federal Other Liabilities (Line 2.M.) for 4th Quarter, FY 2004                      ($millions)
      Entity          Current Liability          Non Current Liability                        Total Liability
AF GF                                     0.9                      308.8                                       309.7
AF WCF                                1,446.5                                                                1,446.5
Army GF                               1,051.6                      742.2                                     1,793.8
Army WCF                                 42.5                                                                   42.5
MRF                                       0.2                                                                    0.2


DoD Performance and Accountability Report            173                                Part 3: Financial Information
Navy GF                                       150.6                           81.4                            232.0
Navy WCF                                    4,113.7                            0.0                          4,113.7
ODO GF                                      2,238.5                          429.2                          2,667.7
ODO WCF                                       181.5                            3.7                            185.2
USACE                                         139.2                                                           139.2


Total                                       9,365.2                         1,565.3                        10,930.5




Capital Lease Liability


                                                          2004                                         2003
As of September 30                                    Asset Category
                               Land and
(Amounts in millions)                         Equipment            Other              Total            Total
                               Buildings
1. Future Payments
   Due:
    A. 2004                $         66.2    $           0.2   $           0.0   $        66.4    $          67.4
    B. 2005                          65.9                0.1               0.0            66.0               66.4
    C. 2006                          60.1                1.0               0.0            61.1               66.1
    D. 2007                          47.5                3.5               0.0            51.0               60.2
    E. 2008                          43.9                0.0               0.0            43.9               47.5
   F. After 5 Years                 129.3                0.0               0.0           129.3              184.4
    G. Total Future
       Lease
        Payments Due       $        412.9    $           4.8   $           0.0   $       417.7    $         492.0
    H. Less: Imputed
       Interest
        Executory Costs             117.8                0.0               0.0           117.8              155.6
    I. Net Capital Lease
       Liability           $        295.1    $           4.8   $           0.0   $       299.9    $         336.4

2. Capital Lease Liabilities Covered by Budgetary Resources:
                                                                                 $       219.4    $         326.1

3. Capital Lease Liabilities Not Covered by Budgetary Resources:                 $        80.5    $         127.2




DoD Performance and Accountability Report        174                                    Part 3: Financial Information
              Comparison of Capital Leases between Year-end FY 2003 and FY 2004
                                      ($ amounts in millions)
                                                YE 2004         YE 2003     Increase/  %
Future Payments Due                                                         Decrease Change
  A. 2004                                                  66.4        67.4      (1.0)   1.5
  B. 2005                                                  66.0        66.4      (0.4)   0.6
  C. 2006                                                  61.1        66.1      (5.0)   7.6
  D. 2007                                                  51.0        60.2      (9.2)  15.3
  E. 2008                                                  43.9        47.5      (3.6)   7.6
  F. After 5 Years                                        129.3       184.3     (55.0)  29.8
  G. Total Future Lease Payments Due                      417.8       492.0     (74.2)  15.1
  H. Less Imputed Interest Executory Costs                117.9       155.6     (37.7)  24.2
  I. Net Capital Lease Liability                          299.8       336.4     (36.6)  10.9

Capital Lease Liability Covered by Budgetary                       219.4              326.1     (106.7)         32.7
Resources
Capital Lease Liability Not Covered by                              80.5              127.2       (46.7)        36.7
Budgetary Resources


For the Department of Defense, all leases prior to FY 1992 are funded on an annual basis and subject to the
availability of funds. Non-current amounts for these leases are shown as Not Covered by Budgetary Resources.

Leases originating after FY 1992 are required to be fully funded in the year of their inception. Therefore, budgetary
resources show the present value of those lease payments as “covered.”




DoD Performance and Accountability Report           175                                Part 3: Financial Information
Note 16.          Commitments and Contingencies


Legal Contingencies:


The Department is a party in various administrative proceedings and legal actions which may ultimately result in
settlements or decisions adverse to the Federal Government. These proceedings and actions arise in the normal
course of operations and their ultimate disposition is unknown. In the event of an adverse judgment against the
Government, some of the liabilities may be payable from the Judgment Fund. Others may be payable from the
Department’s resources, either directly or by reimbursement to the Judgment Fund. Based on information currently
available, however, it is management’s opinion that the expected outcome of these matters, individually or in the
aggregate, will not have a material adverse effect on the Department.

For FY 2003, the materiality threshold for reporting litigation, claims, or assessments was $73.4 million and for
FY 2004 the threshold was $100.7 million. Cases, meeting this threshold, were reported on the Department’s legal
representation letter. The amounts reported in the legal representation letter represent the maximum amounts of any
potential liability of the Government based on the amounts claimed. Management does not consider it to be at all
likely that the Government will be liable for such maximum amounts.

The Department is aggressively contesting the claimed liability of the Government in each of the litigation, claims
or assessments in its legal representation letter. Except as indicated below, the Department is unable to predict the
likely outcome or the amount of liability because most of the litigation, claims, or assessments are in the preliminary
stage. For the case identified below, a loss to the Government is probable. It is likely that the United States will
have to pay some amount of damages. It is impossible to predict the outcome of the litigation on the question of
damages with any degree of certainty. Therefore, the ultimate liability of the Government on this case and the other
reported legal representation letter cases cannot be reasonably estimated at this time.

A contractor filed an appeal with the Armed Services Board of Contract Appeals (ASBCA) in August 1998, of the
Contracting Officer's denial of its agency-level claim. The contractor is seeking a total of $279 million
($164 million damages for "value of service" and $115 million damages for "loss of revenues") for government
noncompliance on the license agreement during November 1994 through September 1997. A hearing on entitlement
was held before the ASBCA in May 2000. The ASBCA issued its decision on March 2001, finding that the
Government had breached the terms of the license agreement. The burden is now on the contractor to prove its
claimed damages. A hearing on damages has not been scheduled nor has the Defense Contract Audit Agency
audited the contractor’s claim.


Other Commitments and Contingencies

In addition, the Department has other contingent liabilities primarily consisting of the Chemical Demilitarization
Non-Stockpile Disposal of $9 billion (the estimated cost of destroying buried chemical munitions) and
Environmental Restoration of $846.7 million. These liabilities are not accrued in the Department's financial
statements.




DoD Performance and Accountability Report            176                                 Part 3: Financial Information
  Note 17.       Military Retirement Benefits and Other Employment Related Actuarial
                 Liabilities



                                                                   2004                                               2003
As of September 30
                               Actuarial Present         Assumed       (Less: Assets           Unfunded             Unfunded
                               Value of Projected       Interest      Available to Pay         Actuarial            Actuarial
                                 Plan Benefits          Rate (%)         Benefits)              Liability            Liability
 (Amounts in millions)
1. Pension and Health
   Benefits:
   A. Military Retirement
      Pensions                   $        834,582.1       6.25%       $    (181,133.1)     $      653,449.0     $     560,032.7
   B. Military Retirement
      Health Benefits                     221,242.0       6.25%                      0.0          221,242.0           206,839.4
   C. Medicare-Eligible
      Retiree Benefits                    504,073.8       6.25%              (38,085.9)           465,987.9           457,987.8
   D. Total Pension and
      Health Benefits            $      1,559,897.9                   $    (219,219.0)     $    1,340,678.9     $ 1,224,859.9
2. Other:
   A. FECA                       $           6,958.7                  $              0.0   $        6,958.7     $        7,596.1
   B. Voluntary
      Separation
      Incentive
      Programs                               1,593.6      4.0%                  (701.6)                892.0                930.1
   C. DoD Education
      Benefits Fund                          1,254.5      5.3%                (1,008.1)                246.4                171.1


   D. Total Other               $            9,806.8                  $       (1,709.7)    $        8,097.1     $        8,697.3
3. Total Military
   Retirement Benefits
   and Other
   Employment Related
   Actuarial Liabilities:        $      1,569,704.7                   $    (220,928.7)     $    1,348,776.0     $ 1,233,557.2



  Fluctuations

  The unfunded liability for Military Retirement Benefits and Other Employment Related Actuarial Liabilities
  increased $115.2 billion (9 percent). The net increase resulted from an increase in the actuarial liability of
  $140.1 billion that is offset by an increase of $24.9 billion in the value of assets available to pay benefits.

  The unfunded actuarial liability for Military Retirement Pensions increased $93.4 billion (17 percent). The variance
  is attributable to an increase of $98.5 billion in the overall liability for the Military Retirement Fund (MRF) that is
  offset by an increase of $5.1 billion in the value of assets available to pay benefits. Additional information is
  contained in the Military Retirement paragraph.




  DoD Performance and Accountability Report            177                                 Part 3: Financial Information
The unfunded actuarial liability for the DoD Education Benefits Fund increased $75.2 million (44 percent). The
increase is the result of an increase in the actuarial liability that is offset by an increase in the value of the assets
available to pay benefits. Additional information is discussed in the DoD Education Benefits Fund paragraph.

Other Disclosures

In December 2003, the estimate of the actuarial liabilities as of October 1, 2002, for the covered benefits for the
U.S. Coast Guard participants in the Medicare-Eligible Retiree Health Care Fund was revised from $5 billion to $7.8
billion. The increase in the transfer from the U.S. Coast Guard to the Medicare-Eligible Retiree Health Care Fund
(MERHCF) of $2.8 billion is recorded on the financial statements as a decrease to the Gross Costs with the Public.

Military Retirement

The increase in the actuarial liability is primarily the result of an amendment to the MRF Plan established by the
National Defense Authorization Act for FY 2004 for new concurrent receipt benefits.

The Military Retirement System is a single-employer, defined benefit plan. Administrative costs of the Fund are not
ascertainable. Projected revenues into the Fund, authorized by PL 98-94, come from three sources: Interest earnings
on Fund assets, monthly DoD contributions, and annual contributions from the Treasury Department. The monthly
DoD contributions are determined as a percentage (approved by the DoD Retirement Board of Actuaries) of basic
pay. The contribution from the Treasury is paid into the Fund at the beginning of each fiscal year, and represents the
amortization of the unfunded liability for service performed prior to October 1, 1984, as well as the amortization of
actuarial gains and losses that have arisen since then. Beginning with FY 2005, the Treasury will also make an
annual contribution to the Fund that represents the normal cost amount for the new concurrent receipt provisions of
the 2004 National Defense Authorization Act. The Board determines the Treasury’s contribution and the Secretary
of Defense directs the Secretary of Treasury to make the payment.

The long-term economic assumptions for each valuation are set by the DoD Retirement Board of Actuaries. The
long-term assumptions for the FY 2003 valuation were 6.25 percent interest, 3.0 percent Consumer Price Index, and
3.75 percent salary increase. The long-term economic assumptions did not change for the FY 2004 valuation. Other
assumptions used to calculate the actuarial liabilities, such as mortality and retirement rates, were based on actual
experience. Because of reporting deadlines, the current year actuarial present value of projected plan benefits is
rolled forward, using accepted actuarial methods, from the prior year valuation results as reported in the DoD office
of Actuary Valuation of the Military Retirement System. In calculating the FY 2004 roll-forward amount, the
following assumptions were used:

                             Inflation                    Salary                                Interest
Fiscal Year 2004             2.1 percent (actual)         3.7 percent (actual)                  6.25 percent
Fiscal Year 2005             2.4 percent (estimated)      3.5 percent (estimated)               6.25 percent
Long-Term                    3.0 percent                  3.75 percent                          6.25 percent

For purposes of the Fund’s financial reporting, this roll-forward process is applied annually.

Actuarial Cost Method Used: Aggregate entry-age normal method.
Market Value of Investments in Market-Based and Marketable Securities: $199.2 billion




DoD Performance and Accountability Report               178                                  Part 3: Financial Information
                                                                                          Amounts
                                                                                        (in millions)

                                                                             FY 04                      FY 03

A.    Beginning of Year Accrued Liability                                $736,061.6                 726,915.4
B.    Normal Cost Liability                                                12,857.2                  13,719.4
C.    Plan Amendment Liability                                             81,062.7                     880.3
D.    Assumption Change Liability                                             (32.5)                 (4,626.3)
E.    Benefit Outlays                                                     (36,623.5)                (35,716.8)
F.    Interest on Pension Liability                                        45,272.4                  44,755.2
G.    Actuarial Loss (Gain)                                                (4,015.8)                 (9,865.7)
H.    End-of-Year Accrued Liability (A+B+C+D+E+F+G)                      $834,582.1                $736,061.6
I.    Net Change in Actuarial Liabilities (B+C+D+E+F+G)                   $98,520.5                  $9,146.2



Military Retirement Health Benefits (MRHB)

The unfunded actuarial liability for the Military Retirement Health Benefits increased $14.4 billion. The increase is
attributable to an increase in the overall actuarial liability.


Change in Defense Health Program MRHB Actuarial Liability
                                                                                                          Amounts
                                                                                                        (in millions)

Actuarial Liability as of 09/30/03 (DoD pre-Medicare + all uniformed services Medicare
  cost-basis effect)                                                                                     $206,839.4
Expected Normal Cost for FY04                                                                                7,421.8
Expected Benefit Payments for FY04                                                                          (6,939.3)
Interest Cost for FY04                                                                                     12,942.3
Actuarial (gains)/losses due to other factors                                                              11,564.9
Actuarial (gains)/losses due to changes in trend assumptions                                              (10,587.1)
Actuarial Liability as of 09/30/04 (DoD pre-Medicare + all uniformed services Medicare
  cost-basis effect)                                                                                     $221,242.0

Assumptions in Calculation of DHP Liability:
Interest Rate:           6.25%


Medical Trend

Medicare Inpatient:                                    5.1% from FY03 to FY04, ultimate rate of 6.25% in 2028.
Medicare Outpatient:                                   6.8% from FY03 to FY04, ultimate rate of 6.25% in 2028.
Medicare Prescriptions (Direct Care):                  9.7% from FY03 to FY04, ultimate rate of 6.25% in 2028.
Medicare Prescriptions (Purchased Care):              14.6% from FY03 to FY04, ultimate rate of 6.25% in 2028.
Non-Medicare Inpatient:                                5.9% from FY03 to FY04, ultimate rate of 6.25% in 2028.
Non-Medicare Outpatient:                               8.4% from FY03 to FY04, ultimate rate of 6.25% in 2028.
Non-Medicare Prescriptions:                           11.3% from FY03 to FY04, ultimate rate of 6.25% in 2028.




DoD Performance and Accountability Report           179                                 Part 3: Financial Information
Other Information

The “DHP” liability includes pre-Medicare liabilities for the Department of Defense, plus a cost-basis effect related
to the direct care portion of Medicare liabilities for all Uniformed Services. The approximate breakout of the
September 30, 2004 liability is:

                                                                      Amounts
                                                                     (in millions)
         DoD                                                          $220,865.0
         Coast Guard                                                        334.0
         Public Health Service                                               40.0
         NOAA                                                                 3.0
         Total                                                        $ 221,242.0


Liabilities for direct care in the Military Retirement Health Benefits are valued at a higher cost basis as established
by the Governmental Accountability Office (GAO). As a result, the Medicare portion of the Military Retirement
Health Benefits liability is approximately $16.9 billion higher than the corresponding liability for the MERHCF.
This $16.9 billion amount is included in the DHP liability.

Actuarial gains/losses due to other factors include new population data, other actuarial experience being different
from assumed, and actuarial assumption changes other than the change in trend assumptions.

Actuarial Cost Method Used for DHP Actuarial Liability. Aggregate Entry-Age Normal


Medicare-Eligible Retiree Benefits

The unfunded actuarial liability increased $8 billion. The increase is attributable to an increase of $27.9 billion in
the actuarial liability that is offset by an increase of $19.9 billion in the value of assets available to pay benefits.


Changes in MERHCF Actuarial Liability

                                                                                             Amounts
                                                                                           (in millions)

Actuarial Liability as of 09/30/03 (all uniformed services Medicare)                       $476,170.3
Expected Normal Cost for FY04                                                                 10,187.8
Expected Benefit Payments for FY04                                                             (5,911.8)
Interest Cost for FY04                                                                        29,892.2
Actuarial (gains)/losses due to other factors                                                  (1,430.6)
Actuarial (gains)/losses due to changes in trend assumptions                                   (4,834.1)
Actuarial Liability as of 09/30/04 (all uniformed services Medicare)                         504,073.8
Change in Actuarial Liability                                                                  27,903.5


Assumptions in Calculation of MERHCF Liability
Interest Rate:           6.25%




DoD Performance and Accountability Report             180                                  Part 3: Financial Information
Medical Trend

Medicare Inpatient:                                     5.1% from FY03 to FY04, ultimate rate of 6.25% in 2028.
Medicare Outpatient:                                    6.8% from FY03 to FY04, ultimate rate of 6.25% in 2028.
Medicare Prescriptions (Direct Care):                   9.7% from FY03 to FY04, ultimate rate of 6.25% in 2028.
Medicare Prescriptions (Purchased Care):               14.6% from FY03 to FY04, ultimate rate of 6.25% in 2028.

The MERHCF liability includes Medicare liabilities for all Uniformed Services. The approximate breakout of the
September 30, 2004, liability is:

                                                                     Amounts
                                                                   (in millions)

         DoD                                                        $493,717.0
         Coast Guard                                                    9,263.7
         Public Health Service                                          1,024.9
         NOAA                                                              68.2
         Total                                                      $ 504,073.8



FY 2003 Service contributions to the MERHCF were:

                                                                      Amounts
                                                                    (in millions)

         DoD                                                            $7,918.8
         Coast Guard                                                       192.3
         Public Health Service                                              27.4
         NOAA                                                                1.2
         Total                                                          $8,139.7


Assumptions used to calculate the actuarial liabilities, such as mortality and retirement rates, were based on actual
experience. Claims cost assumptions for direct care were based on actual experience; assumptions for purchased
care were developed from industry-based cost estimates adjusted to approximate the military retired population.

Projected revenues into the Medicare Eligible Retiree Health Care Fund, authorized by Chapter 56 of Title 10,
United States Code, come from three sources: interest earnings on Fund assets, monthly Uniformed Services
contributions, and annual contributions from the Treasury Department. The monthly contributions are determined
as a per capita amount (approved by the DoD Medicare Eligible Retiree Health Care Board of Actuaries) times end
strength. The contribution from the Treasury is paid into the Fund at the beginning of each fiscal year and
represents the amortization of the unfunded liability for service performed prior to October 1, 2002, as well as the
amortization of actuarial gains and losses that have arisen since then. The Board determines the Treasury’s
contribution, and the Secretary of Defense directs the Secretary of Treasury to make the payment.

The actuarial liability reported above does not include $491.3 million in incurred but not reported liabilities as of
September 30, 2004. These liabilities are disclosed in the Liabilities Not Covered and Covered by Budgetary
Resources note, and the Other Liabilities note.

Because of reporting deadlines, the current year actuarial present value of projected plan benefits is rolled forward,
using accepted actuarial methods, from the prior year's results. For purposes of the Fund's financial reporting, this
process is applied annually.




DoD Performance and Accountability Report            181                                  Part 3: Financial Information
Actuarial Cost Method Used for MERHCF Liability: Aggregate Entry-Age Normal
Market Value of Investments in Market-Based and Marketable Securities: $39.2 billion


Federal Employees Compensation Act (FECA)

The unfunded liability for FECA decreased 8 percent.

Assumptions

The actuarial liability for workers’ compensation benefits is developed by the Department of Labor and provided to
the DoD at the end of each fiscal year. The liability includes the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases. The liability is determined by using historical benefit
payment patterns to predict the future payments. Cost-of-living adjustments and medical inflation factors are also
included in the calculation of projected future benefits. Consistent with past practices, these projected annual
benefit payments are then discounted to present value using the Office of Management and Budget’s economic
assumptions for 10-year Treasury notes and bonds. Interest rate assumptions utilized for discounting were as
follows:

                  Year 1                                3.84%
                  Year 2                                4.35%
                  Year 3 and thereafter                 4.35%

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits,
wage inflation factors (cost-of-living adjustments or COLAs) and medical inflation factors (consumer price index-
medical, or CPIMs) were applied to the calculation of projected future benefits. These factors were also used to
adjust historical payments to current year constant dollars.


The compensation COLAs and CPIMs used in the projections for various charge back years (CBY) were as follows:

                  CBY                COLA               CPIM
                  2004               2.30%              3.21%
                  2005               2.00%              3.54%
                  2006               1.83%              3.64%
                  2007               1.97%              3.80%
                  2008+              2.17%              3.92%

The model’s resulting projections were critically analyzed to insure that the estimates were reliable. The analysis
was primarily based on two tests: (1) a comparison of the percentage change in the liability amount by agency to the
percentage change in the actual payments, and (2) a comparison of the ratio of the estimated liability to the actual
payment of the beginning year, as calculated for the current projection to the liability-payment ratio calculated for
the prior projection.


Voluntary Separation Incentive Programs (VSI)

The unfunded actuarial liability decreased $38.1 million. The decrease is the net result of a decrease of
$96.5 million in the actuarial liability, and a decrease of $58.4 million in the value of assets available to pay
benefits.

The VSI program was established by Public Law 102-190. The intent of this program was to reduce the number of
military personnel on active duty. This plan was offered to personnel with a minimum of six years of service who
did not qualify for retirement. The incentive payments are spread over a period equivalent to twice the years of
active service. The annual payment is based on 2.5 percent of the person's basic pay at the time they left service



DoD Performance and Accountability Report             182                                  Part 3: Financial Information
multiplied by the number of years of service. The September 30, 2004, VSI Actuarial Present Value of Projected
Plan Benefits (Actuarial Liability) was calculated at an assumed annual interest rate of 4 percent.

Since the VSI program is discontinued for new takers, each year the Actuarial Liability is expected to decrease with
benefit outlays, and increase with interest cost. In the absence of (1) actuarial gains and losses, and (2) assumption
changes, a decrease of $91.2 million in the Actuarial Liability was expected during FY 2004. The
September 30, 2004, Actuarial Liability includes changes due to experience, which resulted in a net gain of $5.3
million. This reflects the new population on which the September 30, 2004, Actuarial Liability is based, as well as
other economic experience being different than assumed.

The Present Value of Projected Plan Benefits (Actuarial Liability) for the VSI Fund, as of September 30, 2004, is
$1.6 billion. It has been calculated as in prior years; namely, as the present value, as of September 30, 2004, of all
remaining VSI payments.

Market Value of Investments in Market-based and Marketable Securities:              $731.2 million.


DoD Education Benefits Fund

The 44 percent increase in the DoD Education Benefits unfunded actuarial liability is the combined result of an
increase of $46.4 million in the actuarial present value of the plan benefits, and a decrease of $28.7 million in the
value of the assets available to pay benefits. The modified estimate of the present value of benefits (PVB) for the
DoD Education includes more complete experience. The increase in the actuarial liability is the result of an increase
of $64 million due to an additional year of new entrants and calculating the present value of the stream of projected
future benefits as of a year later, and a PVB decrease of $18 million related to a higher interest rate assumption (5.3
percent versus 4.4 percent).

The Education Benefits Fund was established by Public Law 98-525. The program is designed to accumulate funds
for the Educational Assistance program to promote the recruitment and retention of members for the All-Volunteer
Forces program and the Total Force Concept of the Armed Forces and aid in the readjustment of members of the
Armed Forces to civilian life after separation from military service.

Market Value of Investments in Market-based and Marketable Securities: $1 billion




DoD Performance and Accountability Report             183                                 Part 3: Financial Information
 Note 18.          Unexpended Appropriations

 As of September 30
                                                                    2004                             2003
 (Amounts in millions)
 1. Unexpended Appropriations:
    A. Unobligated, Available                        $                      45,234.9     $                   56,764.8
    B. Unobligated, Unavailable                                             14,434.3                          5,069.9
    C. Unexpended Obligations                                              184,144.7                        157,034.8
    D. Total Unexpended Appropriations               $                     243,813.9     $                  218,869.5


Unexpended appropriations represent the amount of budget authority remaining for disbursement against current or
future obligations. Unobligated balances represent the cumulative amount of budgetary authority that has not been
set aside to cover outstanding commitments and obligations. Unobligated balances are classified as available or
unavailable. Unobligated balances associated with appropriations expiring at fiscal year-end remain available only
for obligation adjustments until the account is closed. Unexpended obligations represent funds that have been
obligated for goods that have not been received or services that have not been performed.

Unexpended Obligations reported as a component of Unexpended Appropriations include both Undelivered Orders-
Unpaid and Undelivered Orders-Paid for direct appropriated funds only. This amount is distinct from line 12,
Change in Budgetary Resources Obligated for Goods, Services, and Benefits Ordered but Not Yet Provided, on the
Statement of Financing. Line 12 includes the change during the fiscal year in Unexpended Obligations against
budget authority from all Military Services.

Fluctuations

Unexpended Appropriations increased $24.9 billion (11 percent). This increase is primary the result of a 6 percent
increase in Appropriations Received by the Department of Defense.

Unobligated, Available decreased $11.5 billion (20 percent) and evidenced an emphasis on obligating available
funds. This decrease directly impacted the Unexpended Obligations which increased $27.1 billion (17 percent).
The $15.6 billion difference between the two accounts is shown in Undelivered Orders reported on the Statement of
Budgetary Resources.

Unobligated, Unavailable increased $9.4 billion (185 percent). An increase of $6.4 billion is mainly attributable to
Title IX of the Department of Defense Appropriations Act that provided additional funding for FY 2004 and
FY 2005. The additional funding is to support antiterrorism base operations and force protection needs, training,
recruiting, and security requirements. The $6.4 billion of Unavailable balances will become available for obligation
in FY 2005. The remaining increase of $1.3 billion is attributable to appropriation authority that is canceled 5 years
after the funds are in an expired status.




DoD Performance and Accountability Report           184                                 Part 3: Financial Information
Note 19.        Statement of Net Cost

This statement provides gross and net cost information that can be related to the amount of output or outcome for a
given program and/or organization administered by a responsible reporting entity.

For General Funds, the amounts presented in the Statement of Net Cost (SoNC) are based on obligations and
disbursements and therefore may not, in all cases, reflect actual accrued costs. While the Department’s Working
Capital Funds (WCFs) generally record transactions on an accrual basis, the systems do not always capture actual
costs in a timely manner. As such, information presented in the SoNC is based on budgetary obligation,
disbursement, and collection transactions, as well as non-financial feeder systems, adjusted to record known accruals
for major items such as payroll expenses, accounts payable, and environmental liabilities.

Fluctuations

Intragovernmental Gross Costs increased $11.8 billion (101 percent).

The Army GF increased by $5.4 billion as a result of the Presidential approval of the Emergency Wartime
Supplemental Appropriations Act (PL 108-11). Congressional funding for the global war on terror was received
through appropriated and supplemental funding in FY 2004. An increase in Operation and Maintenance
appropriations funded approximately one-third of antiterrorism base operations and force protection needs.

The Air Force GF and Navy GF increased $2.7 billion and $4.1 billion respectively, resulting from recognizing
expenses from the Intragovernmental Reporting and Analysis System (IRAS) that were not recognized in prior
years. The IRAS allows the military services to better compare trading partner activity with other Federal agencies.
As a result, the Air Force GF and Navy GF were able to identify and record expenses with these agencies in
FY 2004.

Intragovernmental Earned Revenue increased $2.2 billion (17 percent).

The Medicare-Eligible Retiree Health Care and the Military Retirement Funds increased $768.6 million and
$126.3 million, respectively. These increases resulted from increased interest and investment balances during
FY 2004.

The Air Force GF increased $626.3 million due to larger spending authority earned in the O&M and RDT&E
appropriations. The O&M increase was due to a concerted effort in August and September 2004, at the Major
Command level to properly code the reimbursable transactions in the accounting system to better reflect the total
amount of goods and services provided to other DoD organizations.

USACE’s $128.5 million increase is attributed to improvements to its process of identifying trading partner
elimination data for other Corps revenue in the revolving fund. The Corps developed system queries to identify
trading partners for labor and other transactions reimbursed from military and other civil appropriations. Revenue
had previously been included as intra-entity eliminations.

Gross Costs with the Public increased $93.3 billion (18 percent).

The Army GF increased by $24.1 billion as a result of the Presidential approval of the Emergency Wartime
Supplemental Appropriations Act (PL 108-11). Congressional funding for the global war on terror was received
through appropriated and supplemental funding in FY 2004. The increase supports the incremental costs of Reserve
forces on active duty in a war zone versus peacetime training. Additionally, the military pay appropriations received
a 3.7 percent pay increase for all soldiers and a pay raise of up to 6.25 percent for selected military pay grades.

Medicare Eligible Retiree Health Care Fund decreased $38.2 billion. During FY 2003, a one-time charge was
incurred to cumulatively include reservists’ benefits in the actuarial liability that had previously been omitted. The

DoD Performance and Accountability Report            185                                 Part 3: Financial Information
expense caused a sharp increase in FY 2003, which resulted in a negative variance when compared to FY 2004
expenses.

Military Retirement Fund increased $91.1 billion because of amendments by the 2004 National Defense
Authorization Act for the new concurrent receipt benefits resulting in a substantial plan amendment liability increase
in FY 2004.

The Navy GF increased $15.7 billion. This is a result of an increase in depreciation costs from recognizing Military
Equipment in FY 2003 and continuing into FY 2004 and an increase in depreciation costs for buildings, structures,
and utilities resulting from changes to the depreciation model used.

Earned Revenue from the Public increased $9.8 billion (79 percent).

The re-mapping of the USSGL Account 7190, Other Gains, from the Gross Cost with the Public line to the Earned
Revenue from the Public line during FY 2004 has caused an increase. In prior years, these gains were not included
with Earned Revenue from the Public. This re-mapping caused increases in the Army WCF of $4.5 billion, the
Navy GF of $1.4 billion, and Air Force GF of $995.4 million. Defense Logistics Agency GF had an increase of
$853.0 million related to increased energy cost and additional requirements for supplies for increased troop support.




DoD Performance and Accountability Report           186                                 Part 3: Financial Information
Gross Cost and Earned Revenue by Budget Functional Classification
As of September 30
                                                     2004                                  2003
(Amounts in millions)                               (Less:
    Budget Functional            Gross Cost         Earned             Net Cost          Net Cost
       Classification                              Revenue)
1. Department of Defense     $      468,482.6    $   (25,481.7)    $     443,000.9   $      401,028.9
   Military (051)
2. Water Resources by                 9,427.1            (977.5)           8,449.6             9,308.0
   U.S. Army Corps
   of Engineers (301)
3. Pollution Control and                124.9               0.0              124.9                140.2
   Abatement by
   US. Army Corps of
   Engineers (304)
4. Federal Employees                135,662.9         (10,124.7)         125,538.2            34,547.5
   Retirement and
   Disability, Department
   of Defense
   Military Retirement
   Fund (602)
5. Veterans Education,                  317.1             (35.8)             281.3                285.4
   Training, and
   Rehabilitation by
   Department of
   Defense Education
   Benefits
   Trust Fund (702)
6. Medicare Eligible                 29,133.7          (1,163.7)          27,970.0            66,980.6
   Retiree Health Care
   Fund (551)
7. Total                     $      643,148.3    $    (37,783.4)   $     605,364.9   $      512,290.6




DoD Performance and Accountability Report       187                          Part 3: Financial Information
Gross Cost to Generate Intragovernmental Revenue and Earned Revenue
(Transactions with Other Federal—Non-DoD—Entities) by Budget Functional
Classification
As of September 30
                                                              2004                                     2003
                                     Gross Cost to
                                     Generate Intra-      (Less: Earned
(Amounts in millions)                governmental           Revenue)                                  Net Cost
                                                                                 Net Cost
                                       Revenue
       Budget Functional
          Classification
1.   Department of Defense           $      22,410.5      $     (3,495.2)    $      18,915.3      $       8,409.5
     Military (051)
2.   Water Resources by U.S.                    890.8             (609.6)               281.2              277.4
     Army Corps of Engineers
     (301)
3.   Pollution Control and                        2.5                 0.0                   2.5                  2.4
     Abatement by US. Army
     Corps of Engineers (304)
4.   Federal Employees                            0.0         (10,124.7)          (10,124.7)            (9,998.4)
     Retirement and Disability
     Department of Defense
     Military Retirement Trust
     Fund (602)
5.   Veterans Education,                        270.7              (35.8)               234.9              213.5
     Training, and
     Rehabilitation by
     Department of
     Defense Education
     Benefits Trust
     Fund (702)
6.   Medicare Eligible Retiree                    0.0           (1,163.7)           (1,163.7)             (395.1)
     Health Care Fund (551)
7.   Total                           $      23,574.5      $   (15,429.0)     $        8,145.5     $     (1,490.7)




The Department’s accounting systems do not capture cost data in a manner that enables the Department to determine
if the cost was incurred to generate intragovernmental revenue. Therefore, the Department was unable to complete
this note. The Department is in the process of upgrading its financial and feeder systems and will be addressing this
issue.




DoD Performance and Accountability Report           188                                Part 3: Financial Information
Benefit Program Expenses

(Amounts in millions)                                          2004                             2003

1. Service Cost                                   $                     30,466.8   $                    28,100.2
2. Period Interest on the Benefit Liability                             88,107.0                        82,253.8
3. Prior (or past) Service Cost                                         81,062.7                           880.3
4. Period Actuarial Gains or (Losses)                                    6,086.0                        20,509.8
5. Gains/Losses Due to Changes in                                     (15,421.2)                         9,206.0
   Medical Inflation Rate Assumption
6. Total Benefit Program Expense                  $                   190,301.3    $                   140,950.1




Amounts for Foreign Military Sales (FMS) Program Procurements from
Contractors
Revenue and expense amounts pertaining to FMS items provided by DoD contractors are not reported in the
Statement of Net Cost. However, we estimate the amount of such revenue and expense to be $8 billion (80 percent
of $10 billion CFY Trust Funds Disbursed). A Statement of Custodial Activity is provided which reports the
amounts of cash collections and disbursements of the FMS Trust Fund through the 4th Quarter FY 2004.




Stewardship Assets
Stewardship assets include Heritage Assets, Stewardship Land, Non-Federal Physical Property, and Investments in
Research and Development. The current-year cost of acquiring, constructing, improving, reconstructing or
renovating stewardship assets are included in the SoNC. Material yearly investment amounts related to stewardship
assets are provided in the Required Supplemental Stewardship Information section of this financial statement.




Suborganization Program Costs

The Department of Defense (DoD) is in the process of reviewing available data and attempting to develop a cost
reporting methodology that fulfills the need for cost information required by SFFAS No. 4. Until cost-allocating
processes and expanded intra-DoD eliminating capabilities are incorporated into the accounting processes, the
usefulness of further sub-organization-reported (major command) net costs is limited. Therefore, no additional
statements of sub-organization cost at lower levels are presented with these statements.




DoD Performance and Accountability Report          189                                 Part 3: Financial Information
Note 20.         Statement of Changes in Net Position




                                   Cumulative                               Cumulative
                                   Results of          Unexpended           Results of       Unexpended
                                   Operations         Appropriations        Operations      Appropriations
As of September 30                   2004                 2004                2003              2003
(Amounts in millions)
1. Prior Period
   Adjustments
   Increases
   (Decreases) to Net
   Position
Beginning Balance:

    A. Changes in
       Accounting
       Standards               $          699.5   $               0.0   $      383,130.0    $             0.0
    B. Errors and
       Omissions in Prior
       Year
       Accounting
       Reports                       (14,543.3)             25,913.7            11,524.4                  0.0
    C. Other Prior Period
       Adjustments                    (1,044.7)                   0.0           (1,044.7)                 0.0
    D. Total Prior Period
       Adjustments             $     (14,888.5)   $         25,913.7    $      393,609.7    $             0.0

2. Imputed Financing:
   A. Civilian
      CSRS/FERS
      Retirement               $        1,658.6   $               0.0   $        1,717.2    $             0.0
   B. Civilian Health                   2,248.7                   0.0            1,948.4                  0.0
   C. Civilian Life
      Insurance                            22.4                   0.0               20.9                  0.0
   D. Judgment Fund                       162.8                   0.0              180.4                  0.0
   E. Total Imputed
      Financing                $        4,092.5   $               0.0   $        3,866.9    $             0.0



Prior Period Adjustments

The Department of Defense recorded $14.8 billion (net) in prior period adjustments to Cumulative Results of
Operations (CRO) and $25.9 billion to Unexpended Appropriations. These adjustments consist of the following:

During FY 2003, the Navy General Fund overstated Appropriations Used by $25.9 billion, resulting in an
overstatement of CRO and an understatement of Unexpended Appropriations. In FY 2004, the Navy General Fund


DoD Performance and Accountability Report         190                              Part 3: Financial Information
recorded a prior period adjustment (restated) to the beginning CRO and Unexpended Appropriations balances,
moving the $25.9 billion from CRO to Unexpended Appropriations.

In FY 2004, the Air Force Working Capital Fund continued to change its inventory valuation method from Latest
Acquisition Cost to Moving Average Cost. The result of these changes were a prior period adjustment (restated) of
$0.7 billion to clear the Inventory-Allowance account, and a prior period adjustment (restated) of $11.3 billion that
was posted to resolve accumulated errors from previous years.

In December 1994, the Office of the Under Secretary of Defense (Comptroller), OUSD(C), decentralized cash
management responsibilities. In this decentralization, the Navy Working Capital Fund received $1.0 billion in
undistributed disbursements. During FY 2004, DoD reclassified this amount from Other Liabilities to Cumulative
Results.

All adjustments comply with guidance provided by SFAS 16, APB 20, and SFFAS No.21, all of which address the
treatment of errors and disclosure of prior period adjustments.

Imputed Financing

The amounts remitted to the Office of Personnel Management (OPM) by and for employees covered by the Civil
Service Retirement System (CSRS), the Federal Employees' Retirement System (FERS), the Federal Employees'
Health Benefits (FEHB) program, and the Federal Employees' Group Life Insurance (FEGLI) program do not fully
cover the government's cost to provide these benefits. An imputed cost is recognized as the difference between the
government's cost of providing these benefits to employees and contributions made by and for them. The OPM
provides the cost factors to the Defense Finance and Accounting Service (DFAS) for computation of imputed
financing cost. The DFAS provides the costs to the Office of the Under Secretary of Defense (Personnel and
Readiness) for validation. Approved imputed costs are provided to the reporting components for inclusion in their
financial statements.


Fluctuations

Cumulative Results of Operations

There were no rescissions or Other Adjustments (Line 4.C.) impacting Budgetary Financing Sources.

Budgetary Financing Sources, Appropriations Used (Line 4.D.) increased $47.1 billion due to the recognition of
Iraqi transfer accounts that do not require budgetary entries because the budgetary impact of the transfer accounts is
reported by the transferring entity. The United States Army Corps of Engineers (USACE) will use these funds for
reconstruction in Iraq.

Budgetary Financing Sources, Nonexchange Revenue (Line 4.E.) increased $0.5 billion due to the collection of
taxes and interest into the USACE Trust Fund.

Budgetary Financing Sources, Donations and Forfeitures of Cash and Cash Equivalents (Line 4.F.) decreased
$.02 billion due to a reduction in donations.

Budgetary Financing Sources, Transfers-in/out Without Reimbursement (Line 4.G.) increased $9.2 billion due
largely to the transfer in of funds from the Executive Office of the President for Iraqi Relief and Reconstruction
Fund.

Budgetary Financing Sources, Other Budgetary Financing Sources (Line 4.H.) increased $7.9 billion. The increase
represents adjustments to bring the proprietary accounts into agreement with the budgetary accounts. Due to system
deficiencies, there are unreconciled differences between the budgetary and proprietary trial balances. The net effect
of these adjustments is reflected in Other Budgetary Financing Sources on the Statement of Net Position.




DoD Performance and Accountability Report            191                                 Part 3: Financial Information
Other Financing Sources, Donations and Forfeitures of Property (Line 5.A.) decreased $4.0 million as a result of an
overall decrease in donations and forfeitures of property.

Other Financing Sources, Transfers-in/out without reimbursement (Line 5.B.) increased by $3.9 billion. The
majority of the difference was attributable to the Medicare-Eligible Retiree Health Care Fund (MERHCF). In
December 2003, the estimate of the actuarial liabilities as of October 1, 2002 for the covered benefits for the U.S.
Coast Guard participants in the MERHCF was revised from $5.0 billion to $7.8 billion. The increase in the transfer
from the U.S. Coast Guard to the MERHCF of $2.8 billion was recognized in the 1st Quarter, FY 2004.

Other Financing Sources, Other (Line 5.D.) decreased by $0.3 billion due to a change in the accounting treatment
for collections in the General Fund Proprietary Interest Receipt Account. Due to the change, a contra revenue
account was established.

Unexpended Appropriations

Overall, Budgetary Financing Sources have increased due to the global war on terror (GWOT). Since March 2003,
Congress has approved supplemental funding and increased the Department’s FY 2004 appropriations to support
these efforts in addition to the war in Iraq. This increased funding supports war-fighting readiness, force protection,
procurement of helicopters, development of future combat systems, and war reserves. The additional funding also
supports the incremental costs of Reserve forces on active duty in a war zone versus peacetime training. The
increased appropriations also support antiterrorism base operations, training, recruiting, and security.




DoD Performance and Accountability Report            192                                 Part 3: Financial Information
Note 21.            Statement of Budgetary Resources



As of September 30                                                2004                            2003
(Amounts in millions)
1. Net Amount of Budgetary Resources
    Obligated for Undelivered Orders at the
    End of the Period                                $                   233,505.4     $                215,000.2
2. Available Borrowing and Contract
    Authority at the End of the Period                                     25,314.3                      21,150.6


Fluctuations

The Net Amount of Budgetary Resources Obligated for Undelivered Orders increased $18.5 billion
(8.6 percent). This increase was mainly due to an increase in FY 2004 budget authority. This increase was directly
influenced by the Emergency Wartime Supplemental Appropriations Act that was approved in FY 2003, and the
congressional funding for the global war on terror (GWOT) received in FY 2004.

Available Borrowing and Contract Authority at the End of the Period increased a net of $4.1 billion
(19.7 percent). This increase was mainly attributable to the increased authority to buy spares to support increased
maintenance efforts in support of the contingency missions Operations Enduring Freedom, Iraqi Freedom, and
Noble Eagle and to incur obligations for foreign military sales administrative expenses.

Before the war in Iraq began in March 2003, the Department of Defense (DoD) had been supporting the GWOT.
Since March 2003, the Congress has approved supplemental funding and increased the Department’s FY 2004
appropriations to support the GWOT in addition to the war in Iraq. Accordingly, most of the Statement of
Budgetary Resources (SBR) line items changed substantially due to funding provided for the GWOT which
includes, but is not limited to, Operations Enduring Freedom, Iraqi Freedom, and Noble Eagle. This increased
funding supports war-fighting readiness, force protection, procurement of helicopters, development of future combat
systems, and war reserves. The additional funding also supports the incremental costs of Reserve forces serving on
active duty in a war zone rather than during peacetime training. The military members received an across-the-board
3.7 percent base pay increase plus a pay raise of up to 6.25 percent for certain military pay grades. The Congress
also increased the rates for incentive pay, family separation allowance, and special pay for duty subject to hostile
fire or imminent danger. These increased appropriations also support antiterrorism base operations and force
protection needs, training, recruiting, and security requirements.

The SBR also reflects an increase in borrowing authority. This authority is used for capital improvements to the
Washington DC Aqueduct. Local jurisdictions provide funding to repay the debt. The borrowing authority that was
converted to cash was not correctly recorded for FYs 2000 and 2001. The Department made an adjustment in the
4th Quarter, FY 2004 to reflect this correction.

The Department reported a significant increase in net transfers of budget authority, net transfers of unobligated
balances, advances received, funds permanently not available, and unobligated balances not available. The majority
of the net transfers of budget authority represent transfers for the operating expenses of the Coalition Provisional
Authority in Iraq, first reported during 4th Quarter, FY 2003, and increased activity due to the increased funding
received in support of Operations Enduring Freedom, Iraqi Freedom, Noble Eagle, and Army Transformation. The
majority of the net transfers of unobligated balances represent funds that were transferred to Operation and
Maintenance from the Operation Iraqi Freedom Fund and the Iraqi Relief and Reconstruction Fund. The advances
received represent the increase in reimbursable authority related to the support of land force readiness, including
environmental conservation, pollution prevention, and base communications. The funds permanently not available



DoD Performance and Accountability Report           193                                 Part 3: Financial Information
represent the enacted rescissions of prior-year funds from the Operation Iraqi Freedom Fund. The increase in
unobligated balances not available is attributable to both the Iraqi Freedom Fund and the classified components.

The nonbudgetary section of the SBR, which reports activity for the Military Housing Privatization Initiative,
reflected significant variances regarding borrowing authority, net transfers of unobligated balances, receivables and
collections related to spending authority from offsetting collections, and funds permanently not available. Those
variances were due to the authority to borrow from the Treasury for new direct loans that did not exist in FY 2003;
accounting errors made in FY 2003, but corrected in FY 2004; and the obligation, but not liquidation, of these new
direct loans.

Other Information Related to the Statement of Budgetary Resources

Permanent Indefinite Appropriations

The Department of Defense received the following permanent indefinite appropriations:

    •    Department of the Army General Gift Fund (10 USC 2601(b)(1))
    •    Department of the Navy General Gift Fund (10 USC 2601(b)(2))
    •    Department of the Air Force General Gift Fund (10 USC 2601 (b)(3))
    •    Foreign National Employees Separation Pay Account, Defense (10 USC 1581)
    •    United States Naval Academy Gift and Museum Fund (10 USC 6973-4)
    •    Ship Stores Profits, Navy (10 USC 7220, 31 USC 1321)
    •    Midshipmen’s Store (10 USC 2665)
    •    Burdensharing Contributions Account (10 USC 2350j)
    •    Forest Program (10 USC 2665)
    •    Department of Defense Base Closure Account (10 USC 2687 note)
    •    Medicare Eligible Retiree Health Care Fund (10 USC 1111)
    •    Military Retirement Fund (10 USC 1461)
    •    Education Benefits Fund (10 USD 2006)
    •    Reserve Mobilization Income Insurance Fund (RII) (10 USC 12528)
    •    Host Nation Support for U.S. Relocation Activities (10 USD 2350k)
    •    National Defense Sealift Fund (10 USC 2218)
    •    Environmental Restoration, Navy (10 USD 2702)
    •    Hydraulic Mining Debris Reservoir (33 USC 683)
    •    Maintenance and Operation of Dams and Other Improvements of Navigable Waters (16 USC 810(a))
    •    Payments to States (33 USC 701c-3)
    •    Wildlife Conservation (16 USC 670-670f)
    •    Ainsworth Bequest (IAW 31 USC 1321)

Reconciliation Differences

There is a difference of $4.7 billion between undelivered orders (UDOs) reported on line 1 above ($233.5 billion)
and the amount of UDOs reported on line 14C, Undelivered Orders, on the SBR ($228.8 billion). This difference is
mainly attributable to the process of reporting UDOs with advances. Line 1 reports UDOs with advances, but the
SBR does not. Both lines include upward and downward adjustments of prior-year UDOs. In addition, the SBR
reports transferred obligations for UDOs without advances, but line 1 above does not.

There is a difference of $69.8 billion between appropriations received that are reported on the SBR
($582.0 billion) and appropriations received that are reported on the Statement of Changes in Net Position ($512.2
billion). This difference is attributable to the process used by the Trust Funds in accounting for their receipts in
USSGL account 4114, Appropriated Trust or Special Fund Receipts. Generally, Trust Funds do not receive
appropriations.




DoD Performance and Accountability Report           194                                 Part 3: Financial Information
The Department of the Treasury issues annual warrants to pay amortized amounts for the unfunded actuarial
liabilities for the Military Retirement Trust Fund (MRF) and the Medicare-Eligible Retiree Health Care Fund
(MERHCF). These amounts are credited to the Other Defense Organizations (ODO) - General Funds and expended
from this General Fund to the MRF and MERHCF in accordance with the Office of Management and Budget
(OMB) guidance.

Amounts recorded as Appropriations Received, excluding interest earned, on the Statement of Budgetary Resources
for the Medicare Eligible Retiree Health Care Fund, the Military Retirement Fund, the Education Benefits Fund, and
the Voluntary Separation Incentive Program are also reported as Appropriations Received by the Army, Navy, Air
Force, and Other Defense Organizations General Funds, because of the way the funds are received from the
Department of the Treasury. The Office of Management and Budget is aware and approves of this duplicate
reporting. Ongoing discussions with OMB and the Department of the Treasury have resulted in a change for
MERHCF so that this duplication will not occur in future reporting periods. However, there is no planned resolution
for MRF.

Intra-entity Transactions

The SBR includes intra-entity transactions because the statements are presented as combined and combining.




DoD Performance and Accountability Report          195                               Part 3: Financial Information
Apportionment Categories

                             Direct Obligations – Apportionment Categories

             Reporting Entity                   Category A         Category B          Exempt from
                                                ($millions)        ($millions)        Apportionment
                                                                                        ($millions)
Army General Fund                                   148,242.2            4,348.7
Navy General Fund - see disclosure                  132,268.5
Air Force General Fund                               74,410.9           55,500.3                    2.1
Air Force Working Capital Fund – see                      2.0
disclosure
US Army Corps of Engineers                            5,571.0                                      44.2
Military Retirement Fund                             37,152.6
Medicare-Eligible Retiree Health Care Fund            5,196.8
Other Defense Organizations – General               103,590.3                814.6
Fund
Other Defense Organizations – Working                 1,106.1
Capital Fund
Totals                                              507,540.4           60,663.6                   46.3




                         Reimbursable Obligations – Apportionment Categories

             Reporting Entity                   Category A         Category B          Exempt from
                                                ($millions)        ($millions)        Apportionment
                                                                                        ($millions)
Army General Fund                                    23,475.0
Navy General Fund - see disclosure                    8,886.3
Air Force General Fund                                1,101.0            3,346.4
Army Working Capital Fund                            14,006.2
Navy Working Capital Fund                                               24,316.4
Air Force Working Capital Fund – see                 17,272.0
disclosure
US Army Corps of Engineers                            5,456.3                                       1.5
Other Defense Organizations – General                 3,992.4
Fund – see disclosure
Other Defense Organizations – Working                50,805.5
Capital Fund
Totals                                              124,994.7           27,662.8                    1.5




DoD Performance and Accountability Report    196                             Part 3: Financial Information
Note 22.             Statement of Financing


Statement of Financing Adjustments


Due to the Department’s financial system limitations, budgetary data is not in agreement with proprietary expenses
and assets capitalized. Differences between budgetary and proprietary data are a previously identified deficiency.
To bring the Statement of Financing into balance with the Statement of Net Cost, the following adjustments
(absolute value) were made:
                                                                                    (in millions)
Resources That Finance the Acquisition of Assets                                      $ 7,723.3
Other Components Not Requiring or Generating Resources                                $ 1,838.7
Revaluation of Assets or Liabilities                                                  $ 498.6
Statement of Net Cost*                                                                $     11.1

*The U.S. Army Corps of Engineers adjusted the Statement of Net Cost instead of the Statement of Financing.

Fluctuations

Transfers In/Out Without Reimbursement decreased by $3.9 billion primarily due to the reduction of transfer-in
amounts from other federal agencies. In FY 2003 the U.S. Coast Guard and National Oceanic and Atmospheric
Administration (NOAA) transferred $6.6 billion in actuarial liabilities to the Medicare-Eligible Retiree Health Care
Fund. In FY 2004 the U.S. Coast Guard revised their estimate and transferred an additional $2.8 billion to the fund.

Resources That Fund Expenses Recognized in Prior Period relates to the reduction in the estimates for unfunded
liabilities. The $2.0 billion decrease in unfunded liabilities is due primarily to the reduction in environmental
liabilities by the Department of Air Force, contingent liabilities by the Department of the Army, and FECA
liabilities by the Department of Navy. For further disclosure, see Note 14 for environmental liabilities, Note 15 for
contingent liabilities and Note 17 for FECA unfunded liabilities. Corrections to properly classify decreases in
unfunded liabilities also contributed to the variance.

Resources That Finance the Acquisition of Assets increased by $14.0 billion due to $ 2.2 billion of new acquisitions
by U.S. Special Operations Command (SOCOM), and actions to correctly report expenses within the statement. In
FY 2004 actions were taken to discontinue the netting of cost of goods sold against inventory purchases, resulting in
a $ 40.0 billion increase in inventory acquisition. This increase was partially offset by the $32.4 billion decrease in
acquisition of military equipment by Army, Navy, and Air Force General Funds. U.S. Army Corps of Engineers
corrected the reporting of asset transfers and revaluation, resulting in an additional $3.1 billion increase. Increases
in acquisitions appear as a negative amount on the Statement of Financing because budgetary expenditures for assets
that are capitalized on the Balance Sheet are subtracted from total obligations in order to reconcile budgetary
obligations with the net cost of operations.

Other Resources That Do Not Offset Net Cost of Operations – Other consists primarily of a $2.8 billion liability
transferred in from the U.S. Coast Guard to the Medicare-Eligible Retiree Health Care Fund. Other Resources or
Adjustments to Net Obligated Resources That Do Not Affect Net Cost of Operations are primarily an offset to
Transfers-In/Out Without Reimbursement.

Components Requiring Resources in Future Periods – Other consists of unfunded expenses relating to contingent
liabilities, actuarial and other unfunded employment-related liabilities. The $43.7 billion increase resulted primarily
from changes in actuarial liabilities for the Military Retirement Fund, Medicare-Eligible Retiree Health Care Fund,
and the Defense Health Program.




DoD Performance and Accountability Report            197                                 Part 3: Financial Information
The $13.0 billion decrease in depreciation and amortization was due primarily to decreases in depreciation reported
by the Department of the Army, the Department of the Air Force, and U.S. Special Operations Command.

Revaluation of Assets or Liabilities decreased $12.0 billion, primarily due to the implementation of the General
Accounting and Finance System – Rehost (GAFS-R) by the Air Force General Fund. The implementation resulted in
a decrease of $2.6 billion in reporting gains and losses on inventory valuation. The Air Force Working Capital Fund
reported a decrease of $5.7 billion that resulted from correctly reporting gains and losses on inventory valuation.
The Navy General Fund reported a decrease of $2.1 billion primarily due to a decrease in the amount of operating
materials and supplies used for Operations Enduring Freedom and Iraqi Freedom in FY 2004.

 Components Not Requiring Resources in Future Periods – Other consists of expenses not requiring budgetary
resources reported by the Department of the Army for the Iraqi Relief and Reconstruction Fund, the adjustment by
the Other Defense Organization General Fund to bring the Statement of Financing into balance with the Statement
of Net Cost, write-off of capitalized non-federal cost share projects by the U.S. Army Corps of Engineers, and the
Air Force Working Capital Funds’ adjustment to correctly report cost of good sold in the statements.




DoD Performance and Accountability Report          198                                Part 3: Financial Information
Note 23.             Statement of Custodial Activity


During Operation Iraqi Freedom, the U.S. Government seized assets from the Iraqi Government that will be used in
support of the Iraqi people. As of September 30, 2004, $113.4 million of monetary seized assets remain to be
disbursed in support of the Iraqi people. The Statement of Custodial Activity displays only the current year activity.
During FY 2004 Iraqi cash disbursed exceeded the amount seized by $164.7 million. The $690.6 million decrease
in Seized Iraqi Cash, the $247.8 million decrease in Seized Assets Disbursed on behalf of Iraqi People, and the
$442.8 million decrease in Seized Assets Retained for Support of the Iraqi People are due to the Army seizing and
disbursing less Iraqi assets in FY 2004.

Seized Iraqi Cash
                                                                                       (in millions)
                                                                                                 Cumulative
                                                                                 During              from
                                                                                 FY 2004          inception
Source of Collections
  Seized Iraqi Cash                                                        $           118.3     $            927.2

Disposition of Collections
   Iraqi Salaries                                                                         0.7                  30.9
   Repair/Reconstruction/Humanitarian Assistance                                        273.0                 443.6
   Iraqi Ministry Operations (Ministry of Finance, etc.)                                  9.3                 263.9
   Fuel/Supplies                                                                          0.0                  75.4
   Total Disbursed on behalf of the Iraqi People                                        283.0                 813.8
   Retained for Future Support of the Iraqi People                                    (164.7)                 113.4
   Total Disposition of Collections                                                     118.3                 927.2

Net Custodial Collection Activity                                          $              0.0    $                0.0


Fluctuations

The increase in the line for Deposits by Foreign Governments of $1.3 billion (12.7 percent) is primarily due to
increase in cash received for the Foreign Military Sales (FMS) programs.

The increase in the line Increase in Amounts to be Transferred of $1.4 million (946 percent) is primarily due to the
net increase in custodial cash (collection sources less disposition) in FY 2004 for the FMS Trust Fund and represents
a custodial liability. This amount is comprised of collections received from the foreign customers less the funds
disbursed on their behalf.

Under authority of the Arms Export and Control Act, the FMS Trust Fund receives collections from foreign
governments that are dedicated specifically to FMS purchases. Funds collected into the Trust Fund are in advance
of the performance of services or sale of articles. These advance collections constitute a fiduciary relationship with
the countries and are outside the Federal budget.

FMS neither recognizes nor reports revenue. The only exception is cost clearing accounts, which are reflected in all
other components of the Audited Financial Statements except the Statement of Custodial Activity. Since various
DoD Components actually perform the services and sell the articles, recognition of revenue and expense occurs in
the financial statements of the applicable DoD Components.




DoD Performance and Accountability Report            199                                 Part 3: Financial Information
Note 24.              Other Disclosures

Operating Leases – DoD as Lessee

As of September 30
                                                            2004                                        2003
(Amounts in millions)

      Future
       Payments
       Due:                   Land and     Equipment                 Other
         Fiscal Year          Buildings                                                Total              Total
      2005                $        141.6 $       0.2 $                  114.8 $           256.6 $             96.6
      2006                         140.3          0.0                   117.1             257.4               95.5
      2007                         141.6          0.0                   119.5             261.1               97.5
      2008                         139.4          0.0                   121.8             261.2               98.5
      2009                         139.3          0.0                   124.3             263.6               97.4
      After 5 Years
                                     64.1                 0.0                0.0            64.1               73.5
       Total Future
       Lease
       Payments
       Due                $         766.3 $               0.2 $         597.5 $         1,364.0 $            559.0



Fluctuations

The increase of $805 million (144 percent) in total future lease payments due is attributable to two main causes. The
first is an increase in the number of high-cost leases entered into by the Air Force in support of contingency
operations for the war effort as reflected in the Other category. The second cause reflects the Department’s efforts
to establish and refine the estimated cost of the remaining leases and expiration of leases for the Land and Buildings
category.




DoD Performance and Accountability Report           200                                Part 3: Financial Information
Consolidating and Combining
   Financial Statements




DoD Performance and Accountability Report
                                     Page intentionally left blank.




DoD Performance and Accountability Report
DoD Performance and Accountability Report   201   Part 3: Financial Information
DoD Performance and Accountability Report   202   Part 3: Financial Information
DoD Performance and Accountability Report   203   Part 3: Financial Information
DoD Performance and Accountability Report   204   Part 3: Financial Information
DoD Performance and Accountability Report   205   Part 3: Financial Information
DoD Performance and Accountability Report   206   Part 3: Financial Information
DoD Performance and Accountability Report   207   Part 3: Financial Information
DoD Performance and Accountability Report   208   Part 3: Financial Information
DoD Performance and Accountability Report   209   Part 3: Financial Information
DoD Performance and Accountability Report   210   Part 3: Financial Information
DoD Performance and Accountability Report   211   Part 3: Financial Information
DoD Performance and Accountability Report   212   Part 3: Financial Information
DoD Performance and Accountability Report   213   Part 3: Financial Information
DoD Performance and Accountability Report   214   Part 3: Financial Information
DoD Performance and Accountability Report   215   Part 3: Financial Information
DoD Performance and Accountability Report   216   Part 3: Financial Information
DoD Performance and Accountability Report   217   Part 3: Financial Information
DoD Performance and Accountability Report   218   Part 3: Financial Information
DoD Performance and Accountability Report   219   Part 3: Financial Information
DoD Performance and Accountability Report   220   Part 3: Financial Information
DoD Performance and Accountability Report   221   Part 3: Financial Information
DoD Performance and Accountability Report   222   Part 3: Financial Information
DoD Performance and Accountability Report   223   Part 3: Financial Information
DoD Performance and Accountability Report   224   Part 3: Financial Information
DoD Performance and Accountability Report   225   Part 3: Financial Information
DoD Performance and Accountability Report   226   Part 3: Financial Information
DoD Performance and Accountability Report   227   Part 3: Financial Information
DoD Performance and Accountability Report   228   Part 3: Financial Information
DoD Performance and Accountability Report   229   Part 3: Financial Information
DoD Performance and Accountability Report   230   Part 3: Financial Information
DoD Performance and Accountability Report   231   Part 3: Financial Information
DoD Performance and Accountability Report   232   Part 3: Financial Information
DoD Performance and Accountability Report   233   Part 3: Financial Information
DoD Performance and Accountability Report   234   Part 3: Financial Information
DoD Performance and Accountability Report   235   Part 3: Financial Information
DoD Performance and Accountability Report   236   Part 3: Financial Information
DoD Performance and Accountability Report   237   Part 3: Financial Information
DoD Performance and Accountability Report   238   Part 3: Financial Information
DoD Performance and Accountability Report   239   Part 3: Financial Information
DoD Performance and Accountability Report   240   Part 3: Financial Information
DoD Performance and Accountability Report   241   Part 3: Financial Information
DoD Performance and Accountability Report   242   Part 3: Financial Information
Department of Defense
Agency Wide
COMBINING STATEMENT OF CUSTODIAL ACTIVITY
For the perioeds ended September 30, 2004 and 2003 ($ in Millions)

                                                                                               Military         Other Defense
                                                                       Army General
                                                                                           Retirement           Organizations      2004 Combined    2003 Combined
                                                                          Fund
                                                                                                Fund            General Funds

  SOURCE OF COLLECTIONS
          Deposits by Foreign Governments                          $               0.0                    0.0         11,237.5           11,237.5          9,971.6
          Seized Iraqi Cash                                                      118.3                    0.0              0.0              118.3            808.9
          Other Collections                                                        0.0                    0.0              0.0                0.0              0.0
          Total Cash Collections                                   $             118.3                    0.0         11,237.5           11,355.8         10,780.5
          Accrual Adjustments (+/-)                                $               0.0                    0.9              0.0                0.9              0.7
          Total Custodial Collections                              $             118.3                    0.9         11,237.5           11,356.7         10,781.2
  DISPOSITION OF COLLECTIONS
          Disbursed on Behalf of Foreign Governments and           $               0.0                    0.0          9,998.8            9,998.8         10,118.8
International Organizations
          Seized Assets Disbursed on behalf of Iraqi People                    283.1                      0.0              0.0              283.1            530.8
          Increase (Decrease) in Amounts to be Transferred                       0.0                      0.9          1,238.6            1,239.5           -146.5
          Collections Used for Refunds and Other Payments                        0.0                      0.0              0.0                0.0              0.0
          Retained by The Reporting Entity                                       0.0                      0.0              0.0                0.0              0.0
          Seized Assets Retained for Support of the Iraqi People              -164.7                      0.0              0.0             -164.7            278.1
          Total Disposition of Collections                         $           118.4                      0.9         11,237.4           11,356.7         10,781.2
   NET CUSTODIAL COLLECTION ACTIVITY                               $            -0.1                      0.0              0.1                0.0              0.0




DoD Performance and Accountability Report                                                243                                     Part 3: Financial Information
                                     Page intentionally left blank.




DoD Performance and Accountability Report                             Part 3: Financial Information
        Required Supplementary
        Stewardship Information




DoD Performance and Accountability Report
                                     Page intentionally left blank.




DoD Performance and Accountability Report
  Heritage Assets

                                DEPARTMENT OF DEFENSE CONSOLIDATED
                                             HERITAGE ASSETS
                                  For Fiscal Year Ended September 30, 2004

                                                 Unit of        As of                                          As of
Categories                                      Measure        10/01/03       Additions      Deletions        9/30/04

Museums                                           Each              156          10                            166
Monuments & Memorials                             Each            1,543         544                          2,087
Cemeteries & Archeological Sites                  Sites          25,702                           8         25,694
Buildings & Structures                            Each           19,249       4,284                         23,533
Major Collections                                 Each               11           1                             12



Heritage Assets are real and personal property with national importance due to significant historical, natural,
cultural, educational, artistic, or architectural value. Heritage Assets can include buildings on the National Registry
of Historical Buildings, museums and/or their collections, art and other collections, archival records, cemeteries,
monuments and memorials, and archeological sites.
Museums. Buildings that house collection-type items include artwork, archeological artifacts, archival materials,
and other historical artifacts. The primary use of such buildings is the preservation, maintenance and display of
collection-type Heritage Assets.

Monuments and Memorials. Sites and structures built to honor and preserve the memory of significant
individuals, groups, and/or events in history.

Cemeteries and Archeological Sites. Land on which gravesites of prominent historical figures, honored
individuals, and/or items of archeological significance are located.

Buildings and Structures. Includes buildings and structures that are listed on, or are eligible for listing on, the
National Register of Historic Places, including Multi-Use Heritage Assets. For tally purposes, these buildings do
not include museums.

Major Collections. Significant collections that are maintained outside of a museum.

The processes used to establish items as having heritage significance vary among categories and types of assets.
Experts’ opinion, criteria such as listing on the National Register of Historic Places, and Federal statutes, all play a
significant role in characterizing these assets.

The Army museum system, the Navy-wide Heritage Asset Management System, and the Air Force Museums and
Heritage Centers, along with historical property, are registered and displayed in numerous locations. Some of these
entities also contain items of historical interest, while some are specific to the general locality.




DoD Performance and Accountability Report                    244                          Part 3: Financial Information
Stewardship Land
                               DEPARTMENT OF DEFENSE CONSOLIDATED
                                           STEWARDSHIP LAND
                                 For Fiscal Year Ended September 30, 2004
                                            (Acres in Thousands)

                                                          As of                                            As of
             Land Use                                    10/01/03        Additions         Deletions      9/30/04

1. Mission                                                  16,682          --               18          16,664
2. Parks and Historic Sites                                      1         --                 --              1

   Total                                                    16,683                                       16,665



Stewardship Land is land that is not acquired for, or in connection with, items of General Property, Plant and
Equipment. All land, regardless of its use, provided to the Department from the Public Domain, or at no cost, is
classified as Stewardship Land. Stewardship Land is reported in physical units (acres) rather than cost or fair
value.



Nonfederal Physical Property

                              DEPARTMENT OF DEFENSE CONSOLIDATED
                                  NONFEDERAL PHYSICAL PROPERTY
                             Annual Investments in State and Local Governments
                                     For Fiscal Years 2000 through 2004
                                            (In Millions of Dollars)


              Categories                         FY 2000         FY 2001         FY 2002      FY 2003      FY 2004
Transferred Assets:
  National Defense Mission Related                  $5             $95            $7           $85           $54

Funded Assets:
  National Defense Mission Related                  $7             $20       $21               $11           $18


Total                                             $12             $115           $28           $96           $72


The Department incurs investments in Nonfederal Physical Property for the purchase, construction, or major
renovation of physical property owned by state and local governments, including major additions, alterations, and
replacements, and the purchase of major equipment; and the purchase or improvement of other physical assets. In
addition, Nonfederal Physical Property Investments include federally-owned physical property transferred to state
and local governments.

Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures). Outlays
are used because current DoD accounting systems are unable to capture and summarize costs in accordance with
Federal Accounting Standards Advisory Board requirements.


DoD Performance and Accountability Report                  245                         Part 3: Financial Information
Investments in Research and Development

                               DEPARTMENT OF DEFENSE CONSOLIDATED
                            INVESTMENTS IN RESEARCH AND DEVELOPMENT
                              Annual Investments in Research and Development
                                     For Fiscal Years 2000 through 2004
                                            (In Millions of Dollars)


               Categories                    FY 2000       FY 2001       FY 2002        FY 2003        FY 2004

1. Basic Research                                $812         $1,311      $1,356          $1,444        $1,554

2. Applied Research                             3,095          3,843        4,311           4,388         4,639

3. Development
   A. Advanced Technology
      Development                               3,753          4,383        4,604           5,080         6,178
   B. Demonstration and Validation
                                                6,557          8,166      10,525          11,928        14,779
  C. Engineering and Manufacturing
     Development                                8,353          8,831        9,500         11,234        14,633
  D. Research, Development, Test &
     Evaluation Management
     Support                                    2,954          2,946        3,351           3,210         4,188
  E. Operational Systems
     Development                               10,124         11,000      11,804          12,289        14,906

4. Other                                        1,906          --           --              --            --

                                    Total     $37,554      $40,480       $45,451         $49,573       $60,897




Investment values included in this report are based on Research, Development, Test and Evaluation (RDT&E)
outlays (expenditures). Outlays are used because current DoD accounting systems are unable to capture and
summarize costs in accordance with the Federal Accounting Standards Advisory Board requirements.

DoD Research and Development programs are classified in the following categories: Basic Research, Applied
Research, and Development. The following table presents representative program examples for each of the major
R&D categories and highlights outcomes.




DoD Performance and Accountability Report               246                         Part 3: Financial Information
                                          Department of Defense
                                Investment in Research and Development

Basic Research
    Systematic study to gain knowledge or understanding of the fundamental aspects of phenomena and of
    observable facts

           Without specific applications, processes, or products in mind



          Major                                                       Outcomes
      Program Areas
Defense Research Sciences            Provides new technologies for the Army’s Future Force, and fosters innovation
                                      in niche areas where investment is lacking due to limited markets.

University and Industry              Leverages research in the private sector through Collaborative Technology
Research Centers                      Alliances, Centers of Excellence, and the University Affiliated Research
                                      Centers. Partners with academia, entertainment and gaming industries to
                                      leverage innovation research and concepts for training and design.



Converting Waste Heat into           A new discovery in semiconductor technology involving the right combination of
Electricity                           ultra pure lead, antimony, silver, and tellurium for a material (called LAST) that
                                      is significantly more efficient for high temperature power generation than
                                      existing thermoelectric materials.


Improved Semiconductor               Enables improved electronics that can perform in harsh environments.
Devices                               Possible applications include: remote-sensing platforms, light-emitting diodes,
                                      laser diodes for optical data storage, solar-blind shield surveillance systems,
                                      and biological agent detectors.

Human Assisted Neural                Detects and decodes signals in the brain so the brain’s motor signals can
Devices                               control directly a machine; dramatically improves capabilities in prosthetics.


Photonics Research                   A device that combines functionality of a transistor and a laser; this light-
                                      emitting transistor amplifies weak electrical signals and converts electrical
                                      signals to light.




    DoD Performance and Accountability Report             247                       Part 3: Financial Information
Applied Research
       Systematic study to understand the means to meet a recognized specific national security requirement

       •   Systematic application of knowledge to develop useful materials, devices, and system or methods



          Major                                                       Outcomes
      Program Areas
Materials Technology                Matures materials technology for armor and armaments lethality and
                                     survivability capabilities to be fielded in the Future Combat Systems and Future
                                     Force systems.

                                    Translates new nanomaterials concepts into applications to increase
                                     performance and reduce weight of soldier support equipment, armor,
                                     armaments, aircraft, and ground combat vehicles.

Combat Vehicle and                  Improves survivability, mobility, sustainability, and maintainability of Army
Automotive Technology                ground vehicles.

                                    Supports transformation goals by reducing reliance on heavy passive armor
                                     using a layered approach, substituting long-rang situational awareness, multi-
                                     spectral signature reduction, active protection systems and advanced
                                     lightweight armor.

                                    Advanced technologies for critical power, propulsion and electric components,
                                     including energy storage, power distribution and pulse forming networks.


Shallow-depth Phased-array          Develops electronic components and subsystems for use in shallow-depth
Radar                                phased-array radar antennas, at 1/5 the cost of conventional antennas, which
                                     have direct application to advanced unmanned aerial vehicles and fighter
                                     aircraft.


Long Term Storage of Blood          Researches nature’s mechanisms for protecting cells from environmental
Products                             stress, such as dehydration.
                                     • Approaches found that will dramatically increase the storage life of blood
                                         platelets from 5 days of refrigeration to 2 years of dry storage.
                                     • Develops next phase approach for red blood cells, changing the paradigm
                                         of medical care at the front lines.

High Productivity Computing         Provides economically-viable, highly productive computing systems for the
Systems (HPCS)                       national security and industrial user communities.

                                    Demonstrates approximately 100 times more bandwidth than conventional
                                     technologies.




    DoD Performance and Accountability Report             248                      Part 3: Financial Information
  Development
   Takes what has been discovered or learned from basic and applied research and uses it to establish:
      • technological feasibility
      • assessment of operability
      • production capability

                 Development is comprised of five stages:
                  • Advanced technology development
                  • Advanced component development and prototypes
                  • System development and demonstration
                  • RDT&E management support
                  • Operational systems development



          Major                                                     Outcomes
       Program Areas
Test Ranges and Facilities          Sustains the Department’s required developmental test and evaluation
          and                        capability and operates the developmental test activities required by weapons
RDT&E Management Support             systems developers.
                                     • Operates White Sands Missile Range (NM), Aberdeen Test Center (MD),
                                         Yuma Proving Ground (AZ), Aviation Technical Test Center (AL) and
                                         Redstone Arsenal (AL).
                                     • Supports R&D efforts and includes test ranges, military construction,
                                         maintenance support of laboratories, and O&M of test aircraft and ships.
                                     • Funds the planning, improvements and modernization for three national
                                         asset test centers.
                                              o Two efforts utilizing these unique test capabilities are the
                                                  Propulsion Wind Tunnel Upgrade at Arnold Engineering
                                                  Development Center and the Threat Simulator Development/Low
                                                  Radar Cross Section threat modeling and simulation
                                     • Provides resources for test planning and safety verification and
                                         confirmation.
                                     • Achieved successful launches of military satellites, utilizing Titan and Atlas
                                         & Delta.
                                     • Develops the Family of Advanced Beyond Line of Sight Terminals (FAB-T)
                                         to provide robust, secure, strategic and tactical global communications for
                                         nuclear and conventional forces.


Electronic Warfare Advanced         Provides technologies for a secure, mobile, wireless network that operates in
Technology                           diverse and complex terrain.

                                    Also matures:
                                     • Protection technologies for tactical wireless networks
                                     • Smart communication technologies to enable network and control of
                                         unmanned systems shortening the sensor-decider-engagement time to
                                         defeat critical targets.




    DoD Performance and Accountability Report            249                     Part 3: Financial Information
Clearing Antennas                   Tests a concept to reduce the number of antennas used for receiving and
                                     transmitting radio-frequency signals, mitigating interference and reducing costly
                                     support systems.


Missile and Rocket Advanced         Emphasizes smaller, lighter weight, more affordable missiles.
Technology
                                    Demonstrates advanced tactical missiles, real-time hardware-in-the-loop
                                     simulations, and multi-role seeker technology efforts.

                                    Improves target location accuracy in clutter, lightweight missile launchers,
                                     precision guidance, hypervelocity missile flight, and missile communications.


Hybrids on the High Sea: Fuel       Works to bring hybrid electric ships to the high seas by developing innovative
Cells for Future Ships               propulsion systems based on fuel-cell technology for efficient generation of
                                     electrical power and greater design flexibility.


Advanced Component                  Comprises programs of system specific advanced technology integration efforts
Development and Prototypes           in an operational environment.
                                     • Demonstrates Fighter Aircraft Command and Control Enhancement,
                                         providing improved, beyond-line-of-sight command and control line with
                                         fighter aircraft.


Space Based Infrared System         Continues development for the Transformational Satellite Communications
(SBIRS)                              System (TSAT), the next-generation communication satellite.

                                    Delivers the Counter Communications System, now operational, which is a
                                     transportable ground-based system that denies adversary satellite
                                     communications through reversible, non-destructive methods.


System Demonstration and            Further develops projects which have not received approval for full production:
Engineering Development              • Space Based Infrared System Increment 1 Mission Control System (MCS),
(SD&ED)                                  which reduces manpower by 58% and operations and maintenance costs
                                         by 25%
                                     • F/A-22 Raptor program, continuing development of the Air Force’s next-
                                         generation air dominance fighter. Significant accomplishments include:
                                              o Completion of Fatigue Testing through 2.68 lifetimes
                                              o Commencement of Initial Operational Test and Evaluation
                                              o Completion of multiple supersonic AMRAAM and AIM-9 missile
                                                   shots
                                              o Exceeding over 3,100 flight test missions
                                     • F-35 Joint Strike Fighter program, developing a family of strike fighter
                                         aircraft with maximum commonality among the variants to minimize life
                                         cycle costs. Significant accomplishments include:
                                              o Completion of the Air System Design Integration and Maturity
                                                   Review
                                              o Pratt & Whitney F135 First Engine to Test
                                              o General Electric F136 First Engine to Test



    DoD Performance and Accountability Report            250                      Part 3: Financial Information
                                     Page intentionally left blank.




DoD Performance and Accountability Report                             Part 3: Financial Information
        Required Supplementary
              Information




DoD Performance and Accountability Report
                                     Page intentionally left blank.




DoD Performance and Accountability Report
Real Property Deferred Annual Sustainment and Restoration

Sustainment is the maintenance and repair activities necessary to keep the Department’s real property (buildings,
structures, and utilities) in good working order. It includes regularly scheduled adjustments and inspections,
preventive maintenance tasks, and emergency response and service calls for minor repairs. It also includes major
repairs or replacement of facility components (usually accomplished by contract) that are expected to occur
periodically throughout the life cycle of facilities. This work includes regular roof replacement, refinishing of wall
surfaces, repairing and replacement of heating and cooling systems, replacing tile and carpeting, and similar types of
work. It does not include environmental compliance costs, facility leases, or other tasks associated with facilities
operations (such as custodial services, grounds services, waste disposal, and the provision of central utilities). The
Department’s fiscal year 2004 sustainment requirements were $7.8 billion and DoD received $5.7 billion to fund
these requirements leaving a deferred sustainment requirement of $2.1 billion this year. The Department’s deferred
sustainment trend for the past few years is summarized in the table below:



                                 Annual Deferred Sustainment Trend ($ Millions)

                 Property Type                FY 2000*       FY 2001        FY 2002        FY 2003      FY 2004

      Buildings, Structures, and Utilities         $629        $2,036          $1,762         $1,555     $2,127
         * = Army data only

Restoration is the restoration of the Department’s real property (buildings, structures, and utilities) to such a
condition that it may be used for its designated purpose. Restoration includes repair or replacement work to restore
facilities damaged by inadequate sustainment, excessive age, natural disaster, fire, accident, or other causes.
Modernization is the alteration or replacement of facilities solely to implement new or higher standards, to
accommodate new functions, or to replace building components that typically last more than 50 years (such as the
framework or foundation).

The Department’s restoration and modernization requirements have steadily increased over the past few years from
$41.2 billion in fiscal year 2002, to $67.2 billion in fiscal year 2003, to $73.6 billion this year.


                                    Military Equipment Deferred Maintenance

Depot maintenance requirements for military equipment are developed during the annual budget process. The depot
maintenance requirements for individual items are determined by considering numerous factors. Analysis factors
include: changes in the fleet size or in-use inventory; the date of last overhaul or operating hours since last overhaul;
the current maintenance engineering plan expressed as a time interval or as an operational factor; and the planned
operating tempo expressed in miles, flying hours, or steaming hours.

The depot maintenance cost for each major program is determined using costing models. Fiscal constraints
determine requirements that are funded. The deferred maintenance numbers reported in the table below reflect the
difference in funding received versus these requirements.

                                                                    Deferred Maintenance
                             Military Equipment Type
                                                                         ($ Millions)
                        Aircraft                                                        $148.5
                        Ships                                                            $97.6
                        Missiles                                                        $201.2
                        Combat Vehicles                                                $168.8
                        Other Weapon Systems                                           $511.1
                        Total                                                         $1,127.2

DoD Performance and Accountability Report                    251                         Part 3: Financial Information
Intragovernmental Accounts

The intragovernmental amounts displayed in the following schedules, Part A, B, and C represent transactions
between the Department and other federal entities.



Schedule, Part A: DoD Intragovernmental Entity Assets as of September 30, 2004
Balances reflect amounts on the books of DoD Components in regard to transactions with other federal entities
                                                               Treasury Fund Balance      Accounts
(Amounts in Millions)                                                                                    Investments:    Other:
                                                                Index    with Treasury    Receivable
Unidentifiable Federal Agency Entity (Other than DoD entities)    00                               $0.1
Architect of the Capitol                                          01                               $0.2
Library of Congress                                               03                               $0.1                       $0.9
Government Printing Office                                        04                               $1.2                       $0.0
The Judiciary                                                     10                               $0.1
Executive Office of the President                                 11                               $0.7
Department of Agriculture                                         12                               $6.6                       $0.9
Department of Commerce                                            13                               $8.3                      $17.5
Department of the Interior                                        14                             $356.3                     $783.0
Department of Justice                                             15                              $26.7                       $1.8
Department of Labor                                               16                               $5.8                       $0.1
United States Postal Service                                      18                               $0.6
Department of State                                               19                              $50.8
Department of the Treasury                                        20        $289,598.9            $19.6       $231,069.7      $2.2
Nuclear Regulatory Commission                                     31                               $0.4
Smithsonian Institution                                           33                               $1.6                       $0.0
Department of Veterans Affairs                                    36                              $17.2
General Service Administration                                    47                              $36.5
National Science Foundation                                       49                               $7.3                       $2.2
Securities and Exchange Commission                                50                               $0.5
Central Intelligence Agency                                       56                              $15.5
Federal Emergency Management Agency                               58                              $64.3
National Labor Relations Board                                    63                               $0.3
Environmental Protection Agency                                   68                              $31.1                       $6.0
Department of Transportation                                      69                              $90.0                     $145.3
Homeland Security                                                 70                             $207.5                      $17.9
Agency for International Development                              72                               $3.8
Small Business Administration                                     73                               $1.2                       $2.3
Department of Health and Human Services                           75                              $36.2                       $0.2
National Aeronautics and Space Administration                     80                              $52.0                      $21.6
Armed Forces Retirement Home                                      84                               $0.3
Department of Housing and Urban Development                       86                               $0.1
Department of Energy                                              89                              $44.9                      $10.0
Selective Service System                                          90                               $0.2
Department of Education                                           91                               $0.3
Independent Agencies                                              95                              $20.2
The General Fund of the Treasury                                  99                               $9.8
Total                                                                   $     289,598.9 $      1,118.3 $      231,069.7 $ 1,011.9




DoD Performance and Accountability Report                        252                            Part 3: Financial Information
Schedule, Part B: DoD Intragovernmental Entity Liabilities as of September 30, 2004
Balances reflect amounts on the books of DoD Components in regard to transactions with other federal entities
                                                                                                       Debts/Borrowings From Other
(Amounts in Millions)                                          Treasury Index Accounts Payable                                        Other:
                                                                                                                 Agencies
Library of Congress                                                   03                         $1.0
Government Printing Office                                            04                         $7.0
Executive Office of the President                                      11                        $0.0                                    $230.2
Department of Agriculture                                             12                        $14.4                                      $0.1
Department of Commerce                                                13                         $9.9                                     $34.2
Department of the Interior                                            14                        $39.2                                      $1.2
Department of Justice                                                 15                         $3.8                                      $0.2
Department of Labor                                                   16                       $154.5                                  $1,672.7
United States Postal Service                                          18                         $1.2
Department of State                                                   19                        $33.5                                      $2.6
Department of the Treasury                                            20                       $267.5                         $591.8     $459.1
Office of Personnel Management                                        24                        $45.9                                    $262.3
Federal Communications Commission                                     27                         $4.9
Social Security Administration                                        28                         $0.0                                      $1.5
Nuclear Regulatory Commission                                         31                         $0.1
Department of Veterans Affairs                                        36                        $19.8                                      $0.1
General Service Administration                                        47                       $932.8                                     $40.9
National Science Foundation                                            49                        $3.6
Central Intelligence Agency                                           56                         $0.0                                      $0.5
Federal Emergency Management Agency                                   58                         $0.0                                      $0.1
Tennessee Valley Authority                                            64                        $10.1
Environmental Protection Agency                                        68                       $25.6
Department of Transportation                                          69                        $24.2                                      $1.0
Homeland Security                                                     70                        $59.0                                     $74.7
Agency for International Development                                  72                         $7.9                                      $0.3
Small Business Administration                                         73                         $0.2                                      $0.0
Department of Health and Human Services                               75                         $2.7                                     $51.3
National Aeronautics and Space Administration                         80                        $38.8                                    $264.3
Department of Housing and Urban Development                           86                         $0.1                                      $3.1
Department of Energy                                                  89                       $161.5                                     $58.3
Department of Education                                               91                         $0.1                                      $0.6
The General Fund of the Treasury                                      99                        $19.1                                  $7,567.6
Total                                                                            $           1,888.4 $                        591.8 $ 10,726.9




DoD Performance and Accountability Report                               253                               Part 3: Financial Information
Schedule, Part C: DoD Intragovernmental Revenues as of September 30, 2004
Balances reflect amounts on the books of DoD Components in regard to transactions with other federal entities
(Amounts in Millions)                                                                        Treasury Index Earned Revenue
Unidentifiable Federal Agency Entity (Other than DoD entities)                                     00                  $0.1
Architect of the Capitol                                                                           01                  $4.7
Library of Congress                                                                                03                  $1.6
Government Printing Office                                                                         04                  $1.5
General Accounting Office                                                                          05                  $0.5
Other Legislative Branch Agencies                                                                  09
The Judiciary                                                                                      10                  $0.1
Executive Office of the President                                                                  11                $928.3
Department of Agriculture                                                                          12                 $89.5
Department of Commerce                                                                             13                 $52.0
Department of the Interior                                                                         14                 $88.1
Department of Justice                                                                              15                $238.2
Department of Labor                                                                                16                  $9.2
United States Postal Service                                                                       18                  $2.3
Department of State                                                                                19                $193.8
Department of the Treasury                                                                         20             $11,187.6
Office of Personnel Management                                                                     24                  $0.1
Social Security Administration                                                                     28                  $0.2
Federal Trade Commission                                                                           29                  $0.4
Nuclear Regulatory Commission                                                                      31                  $2.5
Smithsonian Institution                                                                            33                 $11.9
Department of Veterans Affairs                                                                     36                 $50.4
Pennsylvania Avenue Development Corp                                                               42                  $0.2
General Service Administration                                                                     47                 $43.3
National Science Foundation                                                                        49                 $82.3
Securities and Exchange Commission                                                                 50                  $0.5
Advisory Commission on Intergovernmental Relations                                                 55                  $0.3
Central Intelligence Agency                                                                        56                 $48.4
Federal Emergency Management Agency                                                                58                 $78.8
Railroad Retirement Board                                                                          60                  $0.1
Tennessee Valley Authority                                                                         64                  $0.8
Environmental Protection Agency                                                                    68                $118.3
Department of Transportation                                                                       69                $388.6
Homeland Security                                                                                  70              $1,074.2
Agency for International Development                                                               72                 $81.9
Small Business Administration                                                                      73                  $0.2
Department of Health and Human Services                                                            75                $153.0
Independent Agencies                                                                               76                  $0.3
National Aeronautics and Space Administration                                                      80                $324.5
Export-Import Bank of the United States                                                            83                  $0.1
Department of Housing and Urban Development                                                        86                  $8.4
National Archives and Records Administration                                                       88                  $0.1
Department of Energy                                                                               89                $113.2
Selective Service System                                                                           90                  $0.1
Department of Education                                                                            91                  $1.5
Independent Agencies                                                                               95                 $46.9
The General Fund of the Treasury                                                                   99              ($146.3)
Total                                                                                                            $15,282.7




DoD Performance and Accountability Report                        254                         Part 3: Financial Information
Schedule, Part D: DoD Intragovernmental Revenues as of
September 30, 2004
(Amounts in Millions)                          Budget Function Code                 Gross Cost
Department of Defense Military                          51                                        $22,410.5
Water Resources by U.S. Army Corps of
Engineers                                                  301                                       $890.8
Pollution Control and Abatement by U.S.
Army Corps of Engineers                                    304                                          $2.5
Veterans Education, Training, and
Rehabilitation by Department of Defense
Education Benefits Trust Fund                              702                                       $270.7
Total                                                                                            $23,574.5




Schedule, Part E: DoD Intragovernmental Nonexchange Revenues as
of September 30, 2004
($Amounts in Millions)                    Treasury Index         Transfers In         Transfers Out
Executive Office of the President               11                    $10,253.6
Department of Agriculture                       12                                                      $0.8
Department of Commerce                          13                                                      $0.1
Department of the Interior                      14                        $69.1                         $0.4
Department of the Treasury                      20                                                      $4.1
General Service Administration                  47                                                      $0.0
Tennessee Valley Authority                      64                                                      $1.9
Department of Transportation                    69                          $2.8
Homeland Security                               70                    ($2,843.3)                        $0.2
Department of Energy                            89                        $246.7
The General Fund of the Treasury                99                        $774.0                     $775.5
Total                                                                  $8,502.9                     $783.0




DoD Performance and Accountability Report            255                       Part 3: Financial Information
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
                                                                                      DoD
                                                                                   Medicare-                   Research,
              DEPARTMENT OF DEFENSE                                  Military
                                                                                     Eligible                 Development,                    Operation and
         YEAR ENDING SEPTEMBER 30, 2004                             Retirement                    Other                        Civil Works
                                                                                     Retiree                     Test &                       Maintenance
                      ($ IN MILLIONS)                                 Fund
                                                                                   Health Care                 Evaluation
                                                                                      Fund
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
     Budget Authority:
           Appropriations received                              $      42,256.8        25,100.3    55,133.3        61,784.4         5,141.2         182,105.8
           Borrowing authority                                              0.0             0.0         0.0             0.0             0.1               0.0
           Contract authority                                               0.0             0.0       496.5             0.0             0.0               0.0
           Net transfers (+/-)                                              0.0             0.0    -3,239.9          -161.7           206.9           4,720.2
           Other                                                            0.0             0.0         0.0             0.0             0.0               0.0
     Unobligated balance:
           Beginning of period                                        176,029.0        18,182.4    11,873.3         6,815.6         1,850.2           4,325.3
           Net transfers, actual (+/-)                                      0.0             0.0    -3,616.7           -27.0            28.5           6,469.6
              Anticipated Transfers Balances                                0.0             0.0         0.0             0.0             0.0               0.0
     Spending authority from offsetting collections:
           Earned                                                           0.0             0.0         0.0             0.0             0.0               0.0
              Collected                                                     0.0             0.0     1,561.4         6,264.0         5,212.1          23,519.8
              Receivable from Federal sources                               0.0             0.0       112.1            11.1            64.1             942.8
           Change in unfilled customer orders                               0.0             0.0         0.0             0.0             0.0               0.0
              Advance received                                              0.0             0.0        13.1           282.0            29.7              32.6
              Without advance from Federal sources                          0.0             0.0        87.2           931.9           272.6             614.8
           Anticipated for the rest of year, without advances               0.0             0.0         0.0             0.0             0.0               0.0
           Transfers from trust funds                                       0.0             0.0         0.0             0.0             0.0               0.0
           Subtotal                                                         0.0             0.0     1,773.8         7,489.0         5,578.5          25,110.0
     Recoveries of prior year obligations                                   0.0             0.0     1,039.3         2,337.9             0.0          14,279.7
     Temporarily not available pursuant to Public Law                       0.0             0.0         0.0             0.0           -10.0               0.0
     Permanently not available                                              0.0             0.0    -3,609.1          -892.1           -29.1          -2,149.6
     Total Budgetary Resources                                  $     218,285.8        43,282.7    59,850.5        77,346.1        12,766.3         234,861.0


     Obligations incurred:                                      $
           Direct                                                      37,152.6         5,196.8    26,230.3        62,366.3         5,615.2         200,759.2
           Reimbursable                                                     0.0             0.0    24,233.7         6,822.1         5,457.8          11,646.5
           Subtotal                                                    37,152.6         5,196.8    50,464.0        69,188.4        11,073.0         212,405.7
     Unobligated balance:
           Apportioned                                                      0.0           206.6     2,754.2         8,717.0         1,234.1          15,722.5
           Exempt from apportionment                                  181,133.1             0.0     1,732.8             0.0           459.1               0.0
           Other available                                                  0.1             0.0         0.0             0.0             0.0               0.0
     Unobligated Balances Not Available                                     0.0        37,879.3     4,899.4          -559.3             0.1           6,732.7
     Total, Status of Budgetary Resources                       $     218,285.8        43,282.7    59,850.4        77,346.1        12,766.3         234,860.9
Relationship of Obligations to Outlays:
     Obligated Balance, Net - beginning of period               $       2,963.0           267.8     9,396.4        25,116.2         1,007.6          68,720.3
     Obligated Balance transferred, net (+/-)                               0.0             0.0         0.0            -1.5             0.0             -12.6
     Obligated Balance, Net - end of period:                                                0.0
           Accounts receivable                                              0.0             0.0      -268.6          -655.6          -224.7          -3,223.1
           Unfilled customer order from Federal sources                     0.0             0.0      -250.6        -2,950.6        -1,907.8          -8,261.1
           Undelivered orders                                               0.0           132.8     2,918.1        29,028.1         2,022.9          67,700.7
           Accounts payable                                             3,120.2           129.2     5,205.5         1,811.5         1,148.3          15,388.5
     Outlays:
           Disbursements                                                36,995.4        5,202.5    51,017.5        63,788.8        10,705.3         193,671.0
           Collections                                                       0.0            0.0    -1,574.5        -6,546.0        -5,241.7         -23,552.4
           Subtotal                                                     36,995.4        5,202.5    49,443.0        57,242.8         5,463.6         170,118.6
     Less:  Offsetting receipts                                        -18,189.0      -25,342.4    -1,307.3             0.0        -1,592.3               0.0
     Net Outlays                                                $       18,806.4      -20,139.9    48,135.7        57,242.8         3,871.3         170,118.6




DoD Performance and Accountability Report                                                256                              Part 3: Financial Information
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES


              DEPARTMENT OF DEFENSE                                                                           Military
                                                                                                                              Working Capital      2004          2003
         YEAR ENDING SEPTEMBER 30, 2004                             Procurement      Military Personnel    Construction/
                                                                                                                                  Funds          Combined      Combined
                      ($ IN MILLIONS)                                                                     Family Housing


BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
     Budget Authority:
           Appropriations received                              $         82,247.4           117,516.5              7,005.4            3,719.5    582,010.7     546,761.4
           Borrowing authority                                                 0.0                 0.0                  0.0                0.0          0.1           0.0
           Contract authority                                                  0.0                 0.0                  0.0           34,359.2     34,855.8      28,109.0
           Net transfers (+/-)                                               709.1            -1,402.1                 96.9           -1,448.6       -519.3       1,000.3
           Other                                                               0.0                 0.0                  0.0                0.0          0.0           0.0
     Unobligated balance:
           Beginning of period                                            21,248.9                966.2             4,533.0           10,835.2    256,659.0     217,722.3
           Net transfers, actual (+/-)                                       857.5               -413.3              -192.7           -2,323.9        782.0         204.3
              Anticipated Transfers Balances                                   0.0                  0.0                 0.0                0.0          0.0           0.0
     Spending authority from offsetting collections:
           Earned                                                              0.0                 0.0                 0.0                 0.0           0.0          0.0
              Collected                                                    2,155.4             1,531.5             4,026.2           102,003.9     146,274.3    135,587.2
              Receivable from Federal sources                               -255.0              -338.8               131.5              -747.3         -79.7       -714.6
           Change in unfilled customer orders                                  0.0                 0.0                 0.0                 0.0           0.0          0.0
              Advance received                                                34.9                 0.0               205.9              -237.7         360.5        -30.6
              Without advance from Federal sources                           296.7                14.8               713.4            -1,951.5         980.0     11,000.9
           Anticipated for the rest of year, without advances                  0.0                 0.0                 0.0                 0.0           0.0          0.0
           Transfers from trust funds                                          0.0                 0.0                 0.0                 0.0           0.0          0.0
           Subtotal                                                        2,232.0             1,207.5             5,077.0            99,067.4     147,535.1    145,842.9
     Recoveries of prior year obligations                                  5,180.5             9,028.7             1,259.6               556.0      33,681.9     22,841.9
     Temporarily not available pursuant to Public Law                          0.0                 0.0                 0.0                 0.0         -10.0          0.0
     Permanently not available                                            -1,450.5              -495.0              -512.2           -31,200.4     -40,338.0    -33,730.4
     Total Budgetary Resources                                  $        111,024.9           126,408.5            17,267.0           113,564.4   1,014,657.3    928,751.7


     Obligations incurred:                                      $
           Direct                                                         94,810.7           128,073.8             6,740.7             1,108.1    568,053.7     522,562.4
           Reimbursable                                                   -3,952.2            -3,829.7             5,880.7           106,400.1    152,658.9     147,147.8
           Subtotal                                                       90,858.5           124,244.1            12,621.4           107,508.2    720,712.6     669,710.2
     Unobligated balance:
           Apportioned                                                    19,137.4               977.0             4,599.7             5,282.5      58,631.0     55,052.1
           Exempt from apportionment                                           0.0                 0.0                 0.0               163.1     183,488.1    180,704.3
           Other available                                                     0.0                 0.0                 0.0                 0.0           0.3         -0.1
     Unobligated Balances Not Available                                    1,029.0             1,187.5                46.0               610.6      51,825.3     23,285.3
     Total, Status of Budgetary Resources                       $        111,024.9           126,408.6            17,267.1           113,564.4   1,014,657.3    928,751.7
Relationship of Obligations to Outlays:
     Obligated Balance, Net - beginning of period               $         74,419.4              7,825.8             7,369.3           17,286.1    214,371.9     181,919.4
     Obligated Balance transferred, net (+/-)                                  0.0                  0.0                 0.0                0.0        -14.1         -23.9
     Obligated Balance, Net - end of period:
           Accounts receivable                                              -328.8               -252.2             -246.1            -4,937.8    -10,136.8     -10,216.4
           Unfilled customer order from Federal sources                   -1,712.9                -13.9           -4,521.6           -19,783.4    -39,402.0     -38,422.1
           Undelivered orders                                             78,721.7              2,617.5           11,262.5            34,396.8    228,801.3     213,597.8
           Accounts payable                                                6,083.2              5,906.1              852.7            13,825.5     53,470.6      49,412.6
     Outlays:
           Disbursements                                                  77,292.3           115,107.6            10,538.7           103,436.1     667,755.1     604,105.8
           Collections                                                    -2,190.3            -1,531.5            -4,232.1          -101,766.2    -146,634.7    -135,556.8
           Subtotal                                                       75,102.0           113,576.1             6,306.6             1,669.9     521,120.4     468,549.0
     Less:  Offsetting receipts                                                0.0              -115.4                 0.0                 0.0     -46,546.4     -43,294.0
     Net Outlays                                                $         75,102.0           113,460.7             6,306.6             1,669.9     474,574.0     425,255.0




DoD Performance and Accountability Report                                                    257                                   Part 3: Financial Information
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
                                                                                         DoD
                                                                                      Medicare-                          Research,
              DEPARTMENT OF DEFENSE                                  Military
                                                                                        Eligible                        Development,                     Operation and
         YEAR ENDING SEPTEMBER 30, 2004                             Retirement                           Other                            Civil Works
                                                                                        Retiree                            Test &                        Maintenance
                      ($ IN MILLIONS)                                 Fund
                                                                                      Health Care                        Evaluation
                                                                                         Fund
NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
     Budget Authority:
           Appropriations received                              $               0.0                0.0        0.0                   0.0            0.0               0.0
           Borrowing authority                                                  0.0                0.0      114.6                   0.0            0.0               0.0
           Contract authority                                                   0.0                0.0        0.0                   0.0            0.0               0.0
           Net transfers (+/-)                                                  0.0                0.0        0.0                   0.0            0.0               0.0
           Other                                                                0.0                0.0        0.0                   0.0            0.0               0.0
     Unobligated balance:
           Beginning of period                                                  0.0                0.0           21.8               0.0            0.0               0.0
           Net transfers, actual (+/-)                                          0.0                0.0            0.0               0.0            0.0               0.0
              Anticipated Transfers Balances                                    0.0                0.0            0.0               0.0            0.0               0.0
     Spending authority from offsetting collections:
           Earned                                                               0.0                0.0        0.0                   0.0            0.0               0.0
              Collected                                                         0.0                0.0       17.4                   0.0            0.0               0.0
              Receivable from Federal sources                                   0.0                0.0       -0.6                   0.0            0.0               0.0
           Change in unfilled customer orders                                   0.0                0.0        0.0                   0.0            0.0               0.0
              Advance received                                                  0.0                0.0        0.0                   0.0            0.0               0.0
              Without advance from Federal sources                              0.0                0.0       47.2                   0.0            0.0               0.0
           Anticipated for the rest of year, without advances                   0.0                0.0        0.0                   0.0            0.0               0.0
           Transfers from trust funds                                           0.0                0.0        0.0                   0.0            0.0               0.0
           Subtotal                                                             0.0                0.0       64.0                   0.0            0.0               0.0
     Recoveries of prior year obligations                                       0.0                0.0        0.0                   0.0            0.0               0.0
     Temporarily not available pursuant to Public Law                           0.0                0.0        0.0                   0.0            0.0               0.0
     Permanently not available                                                  0.0                0.0       20.7                   0.0            0.0               0.0
     Total Budgetary Resources                                  $               0.0                0.0      221.1                   0.0            0.0               0.0


     Obligations incurred:                                      $
           Direct                                                               0.0                0.0      196.6                   0.0            0.0               0.0
           Reimbursable                                                         0.0                0.0        0.0                   0.0            0.0               0.0
           Subtotal                                                             0.0                0.0      196.6                   0.0            0.0               0.0
     Unobligated balance:
           Apportioned                                                          0.0                0.0        1.4                   0.0            0.0               0.0
           Exempt from apportionment                                            0.0                0.0        0.0                   0.0            0.0               0.0
           Other available                                                      0.0                0.0        0.0                   0.0            0.0               0.0
     Unobligated Balances Not Available                                         0.0                0.0       23.1                   0.0            0.0               0.0
     Total, Status of Budgetary Resources                       $               0.0                0.0      221.1                   0.0            0.0               0.0
Relationship of Obligations to Outlays:
     Obligated Balance, Net - beginning of period               $               0.0                0.0           29.9               0.0            0.0               0.0
     Obligated Balance transferred, net (+/-)                                   0.0                0.0            0.0               0.0            0.0               0.0
     Obligated Balance, Net - end of period:
           Accounts receivable                                                  0.0                0.0        0.0                   0.0            0.0               0.0
           Unfilled customer order from Federal sources                         0.0                0.0      -83.1                   0.0            0.0               0.0
           Undelivered orders                                                   0.0                0.0      238.8                   0.0            0.0               0.0
           Accounts payable                                                     0.0                0.0        0.0                   0.0            0.0               0.0
     Outlays:
           Disbursements                                                        0.0                0.0        24.1                  0.0            0.0               0.0
           Collections                                                          0.0                0.0       -17.4                  0.0            0.0               0.0
           Subtotal                                                             0.0                0.0         6.7                  0.0            0.0               0.0
     Less:  Offsetting receipts                                                 0.0                0.0         0.0                  0.0            0.0               0.0
     Net Outlays                                                $               0.0                0.0         6.7                  0.0            0.0               0.0




DoD Performance and Accountability Report                                                   258                                     Part 3: Financial Information
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES


              DEPARTMENT OF DEFENSE                                                                          Military
                                                                                                                              Working Capital      2004            2003
         YEAR ENDING SEPTEMBER 30, 2004                             Procurement     Military Personnel    Construction/
                                                                                                                                  Funds          Combined        Combined
                      ($ IN MILLIONS)                                                                    Family Housing


NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
     Budget Authority:
           Appropriations received                              $             0.0                  0.0                  0.0                0.0          0.0                0.0
           Borrowing authority                                                0.0                  0.0                  0.0                0.0        114.6               50.5
           Contract authority                                                 0.0                  0.0                  0.0                0.0          0.0                0.0
           Net transfers (+/-)                                                0.0                  0.0                  0.0                0.0          0.0                0.0
           Other                                                              0.0                  0.0                  0.0                0.0          0.0                0.0
     Unobligated balance:
           Beginning of period                                                0.0                  0.0                  0.0                0.0            21.8        104.0
           Net transfers, actual (+/-)                                        0.0                  0.0                  0.0                0.0             0.0          0.0
              Anticipated Transfers Balances                                  0.0                  0.0                  0.0                0.0             0.0          0.0
     Spending authority from offsetting collections:
           Earned                                                             0.0                  0.0                  0.0                0.0          0.0             0.0
              Collected                                                       0.0                  0.0                  0.0                0.0         17.4            56.2
              Receivable from Federal sources                                 0.0                  0.0                  0.0                0.0         -0.6           -90.0
           Change in unfilled customer orders                                 0.0                  0.0                  0.0                0.0          0.0             0.0
              Advance received                                                0.0                  0.0                  0.0                0.0          0.0             0.0
              Without advance from Federal sources                            0.0                  0.0                  0.0                0.0         47.2            35.8
           Anticipated for the rest of year, without advances                 0.0                  0.0                  0.0                0.0          0.0             0.0
           Transfers from trust funds                                         0.0                  0.0                  0.0                0.0          0.0             0.0
           Subtotal                                                           0.0                  0.0                  0.0                0.0         64.0             2.0
     Recoveries of prior year obligations                                     0.0                  0.0                  0.0                0.0          0.0             1.9
     Temporarily not available pursuant to Public Law                         0.0                  0.0                  0.0                0.0          0.0             0.0
     Permanently not available                                                0.0                  0.0                  0.0                0.0         20.7            -0.2
     Total Budgetary Resources                                  $             0.0                  0.0                  0.0                0.0        221.1           158.2


     Obligations incurred:                                      $
           Direct                                                             0.0                  0.0                  0.0                0.0        196.6           136.4
           Reimbursable                                                       0.0                  0.0                  0.0                0.0          0.0             0.0
           Subtotal                                                           0.0                  0.0                  0.0                0.0        196.6           136.4
     Unobligated balance:
           Apportioned                                                        0.0                  0.0                  0.0                0.0          1.4             1.3
           Exempt from apportionment                                          0.0                  0.0                  0.0                0.0          0.0             0.0
           Other available                                                    0.0                  0.0                  0.0                0.0          0.0            -0.1
     Unobligated Balances Not Available                                       0.0                  0.0                  0.0                0.0         23.1            20.6
     Total, Status of Budgetary Resources                       $             0.0                  0.0                  0.0                0.0        221.1           158.2
Relationship of Obligations to Outlays:
     Obligated Balance, Net - beginning of period               $             0.0                  0.0                  0.0                0.0            29.9        -95.1
     Obligated Balance transferred, net (+/-)                                 0.0                  0.0                  0.0                0.0             0.0          0.0
     Obligated Balance, Net - end of period:
           Accounts receivable                                                0.0                  0.0                  0.0                0.0          0.0            -0.6
           Unfilled customer order from Federal sources                       0.0                  0.0                  0.0                0.0        -83.1           -35.8
           Undelivered orders                                                 0.0                  0.0                  0.0                0.0        238.8            66.3
           Accounts payable                                                   0.0                  0.0                  0.0                0.0          0.0             0.0
     Outlays:
           Disbursements                                                      0.0                  0.0                  0.0                0.0         24.1            63.6
           Collections                                                        0.0                  0.0                  0.0                0.0        -17.4           -56.2
           Subtotal                                                           0.0                  0.0                  0.0                0.0          6.7             7.4
     Less:  Offsetting receipts                                               0.0                  0.0                  0.0                0.0          0.0             0.0
     Net Outlays                                                $             0.0                  0.0                  0.0                0.0          6.7             7.4




DoD Performance and Accountability Report                                                   259                                    Part 3: Financial Information
                                                                             Required Supplementary Information
                                                                                    Segment Information

                                                                   Defense          Defense                      Defense      Defense       Defense Finance          U.S.
                As of September 30, 2004                                                     Joint Logistics
                                                                 Information      Commissary                     Security     Logistics      & Accounting       Transportation       Total
                      ($ in Millions)                                                        Systems Center
                                                               Systems Agency       Agency                       Service       Agency           Service           Command
                          PART A.
1. Fund Balance                                                           $0.0          $271.9            $0.0      ($24.0)         $0.0                $0.0             $652.7      $900.6
2. Accounts Receivable                                                  $395.1           $49.0            $0.0         $0.3     $1,810.5               $22.4             $823.6     $3,100.9
3. Property Plant and Equipment                                         $350.0           $27.8          $119.5        $24.3     $1,708.3              $841.6            $1,135.9    $4,207.4
4. Other Assets                                                           $3.3          $442.4            $0.0         $0.0    $14,920.4                $0.1               $68.0   $15,434.2
5. TOTAL ASSETS                                                         $748.4          $791.1          $119.5         $0.6    $18,439.2              $864.1            $2,680.2   $23,643.1

6. Liabilities Due and Payable for Goods and Services Receiv            $919.6          $523.8          ($0.6)         $1.5     $2,555.7              $173.7            $1,193.0    $5,366.7
7. Deferred Revenue                                                        $0.0           $0.0            $0.0        $52.8      $128.5                 $0.0                $0.7     $182.0
8. Other Liabilites                                                     ($22.8)         $302.4            $0.4        $29.1      $667.9               $150.1             $197.2     $1,324.3
9. TOTAL LIABILITIES                                                    $896.8          $826.2          ($0.2)        $83.4     $3,352.1              $323.8            $1,390.9    $6,873.0

10. Unexpended Appropriations                                              $0.0           $17.5           $0.0         $0.0         $0.0                $0.0                $0.0       $17.5
11. Cumulative Results of Operations                                   ($148.4)         ($52.6)         $119.7      ($82.9)    $15,087.2              $540.3            $1,289.3   $16,752.6
12. TOTAL NET POSITION                                                 ($148.4)         ($35.1)         $119.7      ($82.9)    $15,087.2              $540.3            $1,289.3   $16,770.1
13. TOTAL LIABILITIES AND NET POSITION                                   $748.4         $791.1          $119.5         $0.5    $18,439.3              $864.1            $2,680.2   $23,643.1

                          PART B.
1. The Full Cost of Goods and Services Provides                        $3,331.7        $6,372.8         ($0.6)       $228.1     $27,271.4            $1,710.4           $8,034.4    $46,948.2
2. The Related Exchange Revenue                                      ($3,362.4)      ($5,263.4)           $0.0     ($221.6)   ($27,453.4)          ($1,728.2)         ($8,026.1)   ($46,055.1)
3. The Excess of Costs Over Exchange Revenue                            ($30.7)        $1,109.4         ($0.6)         $6.5      ($182.0)             ($17.8)               $8.3       $893.1




Narrative Related to Segment Information

•      Defense Information Systems Agency

       The Defense Information Systems Agency (DISA) is a Defense Working Capital Fund (DWCF) entity. The
       Defense Megacenters and the Communications Information Services Activity provide data processing,
       telecommunication, and information systems service and support to the Department and other federal
       government customers under a revolving fund concept. DISA's major customers are the Army, Navy, Air
       Force, DLA, and DFAS.

•      Defense Commissary Agency

       The Commissary Operations Fund finances the cost of operations for retail stores, command and region
       headquarters, and the operations support center. This fund also receives appropriated funds annually.

       The Commissary Resale Stock Fund finances the purchases of inventory for resale items to be sold to
       commissary patrons. Revenues from sales are used to replace inventory sold.

•      Joint Logistics Systems Center

       On August 18, 1997, the Acting Under Secretary of Defense (Comptroller) approved the decision to terminate
       Joint Logistics Systems Center. All of its programs and responsibilities were returned to the individual
       components. FY 2004 is the seventh year JLSC operated as a residual activity. There was minimal financial
       activity during fiscal year 2004.

•      Defense Security Service

       Effective October 1, 1998, Defense Security Service (DSS) was transferred from a direct appropriation to a
       separate activity group in the DWCF. This transfer also reflected a name change from the Defense Investigative
       Service to the DSS. Full implementation of the DSS as a DWCF entity began with fiscal year 2000.

       The DSS was chartered to administer two major programs: Personnel Security Investigations (PSI) and National
       Industrial Security Programs (NISP). The mission of the PSI program is to conduct background investigations
       on individuals assigned to or affiliated with the Department. The purpose of the NISP is to ensure that private
       industry, while performing on government contracts, properly safeguards classified information in its
       possession. The DSS also administers the Key Asset Protection Program and the Arms, Ammunition, and
       Explosives Program.


DoD Performance and Accountability Report                                                         260                                        Part 3: Financial Information
•   Defense Logistics Agency

    The Defense Logistics Agency (DLA) is a combat support agency responsible for worldwide logistics support
    throughout the DoD. The primary focus of DLA is to provide logistics support to the war fighter. In addition,
    DLA provides support to relief efforts during times of national emergency. DLA's major DoD customers are
    the Army, Navy, and Air Force. Other major federal government customers include the Department of
    Agriculture and the Department of Transportation. The DLA organization has active entity sub-organizations
    funded through the DWCF. These sub-organizations are referred to as activity groups and are as follows:

        o   The Supply Management Activity Group (Supply helps carry out its mission by procuring,
            managing and supplying consumable items to Military Departments, other DoD Components,
            federal agencies and selected foreign governments.

        o   The Distribution Depot Activity Group (Distribution receives, stores, and distributes
            commodities, principal end items, and depot level reparables for the Military Departments,
            other DoD Components, federal agencies, and selected foreign governments.

        o   The Defense Reutilization and Marketing Service Activity Group (DRMS provides utilization
            services which include receiving, classifying, segregating, demilitarizing, accounting for, and
            reporting excess material for screening, lotting, merchandising, and sale. They also have the
            mission of hazardous property disposal and the economic recovery of precious metals from
            excess and surplus precious metal-bearing material.

        o   The Information Services Activity Group provides information management support. The
            mission of this information services business is to provide integrated information management
            support by delivering products and services of increasing quality and decreasing cost, on time
            and within budget.

        o   The Defense Automated Printing Service Activity Group (DAPS) is responsible for document
            automation and printing within the DoD, encompassing electronic conversion, retrieval,
            output, and distribution of digital and hardcopy.

•   Defense Finance and Accounting Service

    Defense Finance and Accounting Service (DFAS) was created in 1991. The mission of DFAS is to provide
    responsive, professional finance and accounting service to the Department. DFAS has prepared the annual
    financial statements as required by the CFO Act and the GMRA since 1994.

•   U.S. Transportation Command

    Secretary of Defense memorandum, dated February 14, 1992, prescribed the creation of a consolidated service
    transportation command. United States Transportation Command (USTRANSCOM) represents the single DoD
    financial manager for all common-user transportation. Its components include Headquarters, USTRANSCOM
    (HQTRANS); (Military) Surface Deployment and Distribution Command (SDDC); Military Sealift Command
    (MSC); Air Mobility Command (AMC); and, Defense Courier Service (DCS). The Army and Navy continue to
    manage their own service-unique transportation functions.




DoD Performance and Accountability Report                 261                        Part 3: Financial Information
                                     Page intentionally left blank.




DoD Performance and Accountability Report                             Part 3: Financial Information
               Other Accompanying
                   Information




DoD Performance and Accountability Report
                                     Page intentionally left blank.




DoD Performance and Accountability Report
Department of Defense – Appropriations, Funds, and Accounts

Department of the Army:

21*0390         Chemical Agents and Munitions Destruction, Army
21*0720         Family Housing Construction, Army
21* 0725        Family Housing Operation and Maintenance, Army
21X0810         Environmental Restoration
21*7020         Family Housing, Army Construction
21*7025         Operation & Maintenance, Family Housing
21X1705         National Board for the Promotion of Rifle Practice, Army
21X1805         Salaries and Expenses, Cemeterial Expenses, Army
21*2010         Military Personnel, Army
21*2020         Operation and Maintenance, Army
21*2031         Aircraft Procurement, Army
21*2032         Missile Procurement, Army
21*2033         Procurement of Weapons and Tracked Combat Vehicles, Army
21*2034         Procurement of Ammunition, Army
21*2035         Other Procurement, Army
21*2040         Research, Development, Test, and Evaluation, Army
21*2050         Military Construction, Army
21*2060         National Guard Personnel, Army
21*2065         Operation and Maintenance, Army National Guard
21*2070         Reserve Personnel, Army
21*2080         Operation and Maintenance, Army Reserve
21*2085         Military Construction, Army National Guard
21*2086         Military Construction, Army Reserve
21X4275         Arms Initiative Guaranteed Loan Financing
21X4528         Working Capital Fund, Army Conventional Ammunition
21X5095         Wildlife Conservation, etc., Military Reservations, Army
21X5098         Restoration, Rocky Mountain Arsenal, Army
21X5194         Department of Defense (DoD), 50th Anniversary of World War II
                Commemoration Account, Army
21X5285         DoD, Forest Products Program, Army
21X5286         National Science Center, Army
21X8063         Bequest of Major General Fred C. Ainsworth Library, Walter Reed Army
                Medical Center
21X8927         Department of the Army General Gift Fund
21*6xxx         (Nonentity) Deposit Fund Accounts




DoD Performance and Accountability Report      262                  Part 3: Financial Information
Department of the Navy:

17X0380         Coastal Defense Augmentation, Navy
17*0703         Family Housing, Navy and Marine Corps
17*0730         Family Housing Construction, Navy and Marine Corps
17*0735         Family Housing Operation and Maintenance, Navy and Marine Corps
17X0810         Environmental Restoration, Navy
17*1105         Military Personnel, Marine Corps
17*1106         Operation and Maintenance, Marine Corps
17*1107         Operation and Maintenance, Marine Corps Reserve
17*1108         Reserve Personnel, Marine Corps
17*1109         Procurement, Marine Corps
17*1205         Military Construction, Navy
17*1235         Military Construction, Naval Reserve
17X1236         Payments to Kaho’Olawe Island Conveyance, Remediation, and Environmental
                Restoration Fund, Navy
17*1319         Research, Development, Test, and Evaluation, Navy
17*1405         Reserve Personnel, Navy
17*1453         Military Personnel, Navy
17*1506         Aircraft Procurement, Navy
17*1507         Weapons Procurement, Navy
17*1508         Procurement of Ammunition, Navy and Marine Corps
17*1611         Shipbuilding and Conversion, Navy
17*1804         Operation and Maintenance, Navy
17*1806         Operation and Maintenance, Navy Reserve
17*1810         Other Procurement, Navy
17 3041         Recoveries Under the Foreign Military Sales Program
17 3210         General Fund Proprietary Receipts , Defense Military, Not Otherwise Classified
17*4557         National Defense Sealift Fund, Navy
17X5095         Wildlife Conservation, etc., Military Reservations, Navy
17X5185         KahoOlawe Island Conveyance, Remediation and Environmental Restoration
                Fund, Navy
17X5429         Rossmoor Liquidating Trust Settlement Account
17X8423         Midshipmen’s Store, United States Naval Academy
17X8716         Department of the Navy General Gift Fund
17X8723         Ships Stores Profits, Navy
17X8733         United States Naval Academy General Gift Fund
17*6xxx         (Nonentity) Deposit Fund Accounts




DoD Performance and Accountability Report        263                   Part 3: Financial Information
Department of the Air Force:

57*0704         Family Housing, Air Force
57*0740         Family Housing Construction, Air Force
57*0745         Family Housing Operation and Maintenance, Air Force
57*0810         Environmental Restoration, Air Force
57X1999         Unclassified Receipts and Expenditures, Air Force
57*3010         Aircraft Procurement, Air Force
57*3011         Procurement of Ammunition, Air Force
57*3020         Missile Procurement, Air Force
57*3080         Other Procurement, Air Force
57*3300         Military Construction, Air Force
57*3400         Operation and Maintenance, Air Force
57*3500         Military Personnel, Air Force
57*3600         Research, Development, Test, and Evaluation, Air Force
57*3700         Reserve Personnel, Air Force
57*3730         Military Construction, Air Force Reserve
57*3740         Operation and Maintenance, Air Force Reserve
57*3830         Military Construction, Air National Guard
57*3840         Operation and Maintenance, Air National Guard
57*3850         National Guard Personnel, Air Force
57X5095         Wildlife Conservation, etc., Military Reservations, Air Force
57*6xxx         (Nonentity) Deposit Fund Accounts
57X8418         Air Force Cadet Fund
57X8928         Department of the Air Force General Gift Fund

Department of Defense Working Capital Funds:

97X4930.001             Army Working Capital Fund (WCF)
97X4930.002             Navy WCF
97X4930.003             Air Force WCF
97X4930.005             U.S. Transportation Command (USTRANSCOM) WCF
97X4930.004             Defense Commissary Agency WCF
97X4930.005             Defense Logistics Agency WCF
97X4930.005             Defense Finance and Accounting Service WCF
97X4930.005             Joint Logistics Systems Center WCF
97X4930.005             Management Systems Support Office/Corporate Information Management
97X4930.005             Defense Information Systems Agency WCF
97X4930.005             Defense Technical Information Services Center
97X4930.005             Defense Security Services WCF
97X4930.005             Headquarters Account
97X4930.005             Component Level Adjustment

Note: The USTRANSCOM WCF is included in Other Defense Organizations WCF for
      financial statement purposes.



DoD Performance and Accountability Report         264                    Part 3: Financial Information
Other Defense Organizations:

11X8242         Foreign Military Sales Trust Fund (Cost clearing accounts only)
97*0040         Payments to Military Retirement Fund, Defense
97X0100         Operation and Maintenance, Defense-Wide
97*0100         Operation and Maintenance, Defense-Wide
97*0101         Contingencies, Defense
97*0102         Claims, Defense
97*0103         Base Realignment and Closure Account, Part I, Defense
97*0104         Court of Military Appeals, Defense
97*0105         Drug Interdiction and Counter-Drug Activities, Defense
97*0106         Goodwill Games, Defense
97*0107         Office of the Inspector General
97*0108         Emergency Expenses, Defense Account
97X0110         Persian Gulf Regional Defense Fund, Defense
97*0115         Corporate Information Management (Business Process Reengineering)
97*0116         Summer Olympics, Defense
97*0118         Overseas Contingency Operations Fund
97X0118         Overseas Contingency Operations Fund
97*0130         Defense Health Program, Defense
97*0131         Real Property Maintenance, Defense
97X0132         Claims, Mount Pinatubo, Defense
97*0132         Claims, Mount Pinatubo, Defense
97*0133         Payment to Coast Guard, Defense
97X0134         Former Soviet Union Threat Reduction, Defense
97*0135         Military Training, Equipment and Associated Support Transfer Fund, Defense
97*0136         Depot level Maintenance and Repair Transfer Fund, Defense
97*0137         Spares, Repairs and Associated Logistical Support Transfer Fund, Defense
97*0138         New Horizons Exercise Transfer Fund, Defense
97*0139         Operational Rapid Response Transfer Fund, Defense
97*0140         Military Construction Transfer Fund, Defense
97*0141         Iraq Freedom Fund, Defense
97*0300         Procurement, Defense-Wide
97*0350         National Guard and Reserve Equipment, Defense
97X0360         Defense Production Act Purchases, Defense
97*0360         Defense Production Act Purchases, Defense
97*0370         North Atlantic Treaty Organization Cooperative Defense Fund
97X0390         Chemical Agents and Munitions Destruction, Defense
97*0390         Chemical Agents and Munitions Destruction, Defense
97X0400         Research, Development, Test, and Evaluation, Defense-Wide
97*0400         Research, Development, Test, and Evaluation, Defense-Wide
97*0450         Developmental Test and Evaluation, Defense
97*0460         Operational Test and Evaluation, Defense
97*0500         Military Construction, Defense-Wide
97X0510         Base Realignment and Closure Account, Part II, Defense
97*0706         Family Housing, Defense-Wide

DoD Performance and Accountability Report       265                   Part 3: Financial Information
Other Defense Organizations (Continued):

97*0760         Family Housing Construction, Defense-Wide
97*0765         Family Housing Operation and Maintenance, Defense-Wide
97*0800         Special Foreign Currency Program, Defense
97X0801         Foreign Currency Fluctuations, Defense
97X0803         Foreign Currency Fluctuation, Construction, Defense
97X0804         North Atlantic Treaty Organization Investment Programs Defense
97X0810         Environmental Restoration, Defense
97X0811         Environmental Restoration, Formerly Used Defense Sites, Defense
97X0819         Humanitarian Assistance, Defense
97*0819         Humanitarian Assistance, Defense
97*0827         World University Games, Defense
97*0828         Defense Reinvestment for Economic Growth, Defense
97*0829         World Cup USA, Defense
97*0832         Special Olympics - World Games
97*0834         DoD Family Housing Improvement Fund
97X0850         Payments to DoD Medicare Eligible Retiree Health Care Fund
97X8035         Defense Export Loan Guarantee Program Account
97X8036         DoD Military Unaccompanied Housing Improvement Program
97X8038         Support for International Sporting Competitions, Defense
97*0839         Quality of Life Enhancement, Defense
97*0840         OPLAN 34A-35 P.O.W. Payment
97*3296         Pinatubo Disaster Relief Fund
97X3910         ADP Equipment Management Fund, Defense
97X4090         Homeowners Assistance Fund, Defense
97*4090         Homeowners Assistance Fund, Defense
97X4093         William Langer Jewel Bearing Plant Revolving Fund, Defense
97*4166         Family Housing Improvement Fund, Direct Loan Financing Account
97*4167         Family Housing Improvement Fund, Guaranteed Loan Financing Account
97*4168         Defense Expense Loan Guarantee Financing Program
97*4179         Reserve Mobilization Fund
97X4555         National Defense Stockpile Transaction Fund, Defense
97X4931         Buildings Maintenance Fund
97X4950         Pentagon Reservation Maintenance Revolving Fund
97X4965         Emergency Response Fund, Defense
97X5187         Defense Cooperation Account, Defense
97X5188         Disposal of Department of Defense Real Property
97X5189         Lease of DoD Real Property
97X5193         DoD Overseas Military Facility Investment Recovery Account
97X5195         Use of Proceeds from the Transfer or Disposition of Commissary Facilities,
                Defense
97X5196         Theater Missile Defense Cooperation Account, Defense
97X5472         DoD, Medicare Eligible Retiree Health Care Fund
97X8097         DoD Military Retirement Fund
97X8098         DoD, Education Benefits Fund

DoD Performance and Accountability Report        266                   Part 3: Financial Information
Other Defense Organizations (Continued):

97*8164         Surcharge Collections, Sales of Commissary Stores
97X8165         Foreign National Employees Separation Pay Account, Defense
97X8168         National Security Education Trust Fund
97*8238         Kuwait Civil Reconstruction Trust Fund
97X8311         Uniformed Services University of the Health Sciences Gift Fund
97X8335         Voluntary Separation Incentive Trust Fund
97X8337         Host Nation Support for U.S. Relocation Activities, Defense
97*6xxx         (Nonentity) Deposit Fund Accounts

U.S. Army Corps of Engineers:

96*1039         Construction, National Parks Service
96*1105         State and Private Forestry, Forest Service
96*2020         Manu’a Islands, Department of Army
96*2050         Levee Restoration Program, Economic Development Administration
96X3112         Flood Control, Mississippi River and Tributaries, Corps of Engineers, Civil
96X3121         General Investigations, Corps of Engineers, Civil
96X3122         Construction, General, Corps of Engineers, Civil
96X3123         Operation and Maintenance, General, Corps of Engineers, Civil
96*3123         Operation and Maintenance, General, Corps of Engineers, Civil
96X3124         General Expenses, Corps of Engineers, Civil
96*3124         General Expenses, Corps of Engineers, Civil
96X3125         Flood Control and Coastal Emergencies, Corps of Engineers, Civil
96*3125         Flood Control and Coastal Emergencies, Corps of Engineers, Civil
96X3126         General Regulator Functions, Corps of Engineers, Civil
96X3128         Washington Aqueduct Capital Improvements, Corps of Engineers (Borrowing
                Authority)
96*3129         Payments to the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
96X3130         Formerly Utilized Sites Remedial Action Program (FUSRAP)
96*4045         Bonneville Power Administration
96X4902         Revolving Fund, Corps of Engineers, Civil
96X5007         Special Recreation Use Fees, Corps of Engineers, Civil
96X5066         Hydraulic Mining in California, Debris Fund
96X5090         Payments to States, Flood Control Act of 1954
96X5125         Maintenance and Operation of Dams and Other Improvements of Navigable
                Waters
96X5483         San Gabriel Basin Restoration Fund
96X5493         Fund for Non-Federal Use of Disposal Facilities, Corps of Engineers
96X8217         South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
96X8333         Coastal Wetlands Restoration Trust Fund
96X8861         Inland Waterways Trust Fund
96X8862         Rivers and Harbors Contributed and Advance Funds, Corps of Engineers, Civil
96X8863         Harbor Maintenance Trust Fund
96X8868         Oil Spill Research, Corps of Engineers, Civil Nonentity Funds:

DoD Performance and Accountability Report        267                   Part 3: Financial Information
U.S. Army Corps of Engineers (Continued):

96*6xxx         (Nonentity) Deposit Fund Accounts
96 12X1105      State and Private Forestry, Forest Service
96 13X2050      Economic Development Administration
96 14X1039      Construction National Park Service
96 21X2020      Operation and Maintenance, Army, American Samoa Projects
96 89X4045      Bonneville Power Administration
96 72*1021      Development Assistance, Agency for International Development
96 69X8083      Federal Aid Highways

        Note: The USACE is executive agency for the Inland Waterways Trust Fund and the
              Harbor Maintenance Trust Fund.


The following are applicable to multiple DoD Reporting Entities:

F3875           Budget Clearing Account (Suspense)
F3878           Budget Clearing Account (Deposits)
F3879           Undistributed Letter of Credit Differences
F3880           Unavailable Check Cancellations and Overpayments
F3885           Undistributed Intragovernmental Payments
F3886           Civilian Thrift Savings Plan

        Note: Appropriations shown with an asterisk (*) in the third position of the appropriation
                symbol indicates the appropriation may be single-year, multi-year or no-year.

        Note: Appropriations shown with an (X) in the third position of the appropriation symbol
                indicates the appropriation is a “no-year” appropriation.




DoD Performance and Accountability Report         268                    Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense


                                                  International      Foreign Military        Military Debt                        Foreign Military Foreign Military
           BALANCE SHEET                       Military Education       Financing            Reduction           Special Defense Loan Liquidating Financing, Direct
        As of September 30, 2004                 and Training        Program Grants           Financing          Acquisition Fund    Account       Loan Financing
              ($ in Millions)                        11*1081             11*1082              11x4174               11x4116         11x4121           11x4122

                 ASSETS
Fund Balance With Treasury                 $                 75.1               1,803.7                5.0                  16.7                  -               34.5
Accounts Receivable                                             -                     -               31.8                     -                  -                  -
Other Assets                                                    -                     -                  -                     -                  -                  -
Loans Receivable                                                -                     -              223.4                     -            3,271.9              934.3
Inventory and Related Property, Net                             -                     -                  -                     -                  -                  -
Other Assets                                                    -                     -                  -                     -                  -                  -
Total Assets                               $                 75.1               1,803.7              260.2                  16.7            3,271.9              968.8

                  LIABILITIES
Debt                                       $                    -                     -              228.3                     -            3,271.9              647.1
Other Liabilities                                               -                     -               31.9                     -                  -              321.7
Accounts Payable                                             26.0                   0.6               (0.0)                    -                  -                  -
Other Liabilities                                               -                     -                  -                     -                  -                  -
Total Liabilities                          $                 26.0                   0.6              260.2                     -            3,271.9              968.8

             NET POSITION
Unexpended Appropriation                   $                 49.1               1,801.6                      -                 -                   -                  -
Cumulative Results of Operations                                -                   1.5                      -              16.7                   -                  -
Total Net Position                         $                 49.1               1,803.1                      -              16.7                   -                  -

Total Liabilities and Net Position         $                 75.1               1,803.7              260.2                  16.7            3,271.9              968.8




Funds Appropriated to the President
Administered by the Department of Defense
                                                                                  Foreign
                                                                                  Military                                             Foreign Military Foreign Military
                                                              International      Financing        Military Debt          Special           Loan           Financing,
            STATEMENT OF NET COST                          Military Education    Program          Reduction             Defense         Liquidating      Direct Loan
             As of September 30, 2004                        and Training         Grants           Financing           Acquisition        Account         Financing
                   ($ in Millions)                               11*1081         11*1082           11x4174            Fund 11x4116       11x4121           11x4122

Program Costs:
 Intragovernmental Gross Cost                          $                -                 -                   11.2              -               138.6             86.3
 Less: Intragovernmental Earned Revenue                                 -                 -                    -                -                 -                -
 Intragovernmental Net Costs                                            -                 -                   11.2              -               138.6             86.3
 Gross Costs With the Public                                           80.5           5,302.3                346.0              -                56.6           (139.7)
 Less: Earned Revenues From The Public                                  -                (0.0)               (11.2)           (90.7)           (684.9)            31.6
Net Cost With the Public                               $               80.5           5,302.3                334.8            (90.7)           (628.3)          (108.1)
Total Net Costs                                        $               80.5           5,302.3                346.0            (90.7)           (489.7)           (21.8)
Costs not Assigned to Programs                                          -                 -                    -                -                 -                -

Less: Earned Revenues not Attributable to Programs                      -                 -                    -                -                 -                -
Net Cost of Operations                                 $               80.5           5,302.3                346.0            (90.7)           (489.7)           (21.8)




DoD Performance and Accountability Report                                       269                                      Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense

                                                             International
                                                                Military                        Military Debt         Special       Foreign Military Foreign Military
    STATEMENT OF CHANGES IN NET POSITION                    Education and    Foreign Military   Reduction            Defense       Loan Liquidating Financing, Direct
           As of September 30, 2004                            Training    Financing Program     Financing        Acquisition Fund     Account       Loan Financing
                 ($ in Millions)                               11*1081       Grants 11*1082      11x4174             11x4116          11x4121           11x4122
Cumulative Results of Operations
 Beginning Balance                                     $              -                 (4.1)           346.0               (91.8)          (546.3)           117.9
 Prior Period Adjustments (+/-)                                       -                 (4.1)           346.0               (91.8)          (546.3)           117.9
 Beginning Balance, as adjusted                        $              -                 (4.1)           346.0               (91.8)          (546.3)           117.9
Budgetary Financing Sources
 Appropriation Received                                $              -                  -                -                   -                -                -
 Appropriations Transferred in/out (+/-)                              -                  -                -                   -                -                -
 Other Adjustments (rescissions, etc.) (+/-)                          -                  -                -                   -                -                -
 Appropriations Used                                                 80.5            5,307.9              -               5,444.9             56.6              -
 Nonexchanged Revenue                                                 -                  -                -                   -                -                -

 Donations and Forfeitures of Cash and Cash Equivalents               -                  -                -                   -                -                -
 Transfers in/out Without Reimbursement (+/-)                         -                  -                -                   -                -                -
 Other Budgetary Financing Sources (+/-)                              -                  -                -                   -                -                -
Other Financing Sources:
 Donations and forfeitures of property                  $             -                  -                 -                  -                -                -
 Transfers in/out Without Reimbursement (+/-)                         -                  -                (0.0)            (149.7)             -             (139.7)
 Imputed financing from costs absorbed by others                      -                  -                 -                  -                -                -
 Other (+/-)                                                          -                  -                 -                  -                -                -
Total Financing Sources                                 $            80.5            5,307.9              (0.0)           5,295.2             56.6           (139.7)

Net Cost of Operations (+/-)                           $             80.5            5,302.3            346.0             5,124.5           (489.7)            (21.8)

Ending Balances                                        $              -                  1.5              -                  78.9              -                -

Unexpended Appropriations
 Beginning Balance                                     $             41.7            2,487.5              -               2,529.2              -                -
 Prior Period Adjustments (+/-)                                      41.7            2,487.5              -               2,529.2              -                -
 Beginning Balance, as adjusted                        $             41.7            2,487.5              -               2,529.2              -                -
Budgetary Financing Sources
 Appropriation Received                                $             91.7            4,581.0              -               4,729.3             56.6              -
 Appropriations Transferred in/out (+/-)                              -                 66.5              -                  66.5              -                -
 Other Adjustments (rescissions, etc.) (+/-)                         (3.8)             (25.4)             -                 (29.3)             -                -
 Appropriations Used                                                (80.5)          (5,307.9)             -              (5,444.9)           (56.6)             -
 Nonexchanged Revenue                                                 -                  -                -                   -                -                -

 Donations and Forfeitures of Cash and Cash Equivalents               -                  -                -                   -                -                -
 Transfers in/out Without Reimbursement (+/-)                         -                  -                -                   -                -                -
 Other Budgetary Financing Sources (+/-)                              -                  -                -                   -                -                -
Other Financing Sources:
 Donations and forfeitures of property                  $             -                  -                -                   -                -                -
 Transfers in/out Without Reimbursement (+/-)                         -                  -                -                   -                -                -
 Imputed financing from costs absorbed by others                      -                  -                -                   -                -                -
 Other (+/-)                                                          -                  -                -                   -                -                -
Total Financing Sources                                 $             7.4             (685.8)             -                (678.5)             -                -

Net Cost of Operations (+/-)                           $             49.1                -                -                   -                -                -

Ending Balances                                        $             49.1            1,801.6              -               1,850.7              -                -




DoD Performance and Accountability Report                                     270                                     Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense
                                                                                Foreign                                                       Foreign
                                                              International     Military                       Special         Foreign        Military
                                                                 Military     Financing      Military Debt    Defense       Military Loan   Financing,
        STATEMENT OF BUDGETARY RESOURCES                       Education      Program        Reduction       Acquisition    Liquidating     Direct Loan
                   As of September 30, 2004                   and Training      Grants        Financing         Fund          Account        Financing
                         ($ in Millions)                        11*1081        11*1082        11x4174         11x4116        11x4121         11x4122
Budgetary Financing Accounts
Budgetary Resources
Budget Authority
 Appropriation Received                                   $          91.7        4,581.0                -              -            56.6              -
 Borrowing Authority                                                    -              -                -              -               -              -
 Contract Authority                                                     -              -                -              -               -              -
 Net Transfers (+/-)                                                    -           66.5                -              -               -              -
 Other                                                                  -              -                -              -               -              -
Unobligated Balance
 Beginning of Period                                                   4.8            0.4               -           26.8             0.0              -
 Net Transfers, Actual (+/-)                                             -              -               -          (10.0)              -              -
 Anticipated Transfer Balances                                           -              -               -              -               -              -
Spending Authority from Offsetting Collections
 Earned                                                                 -               -               -              -               -              -
  Collected                                                             -             0.0               -            0.0           352.8              -
  Receivable from Federal Sources                                       -               -               -              -               -              -
 Change in unfilled Customer Orders                                     -               -               -              -               -              -
  Advance Received                                                      -               -               -              -               -              -
  Without advance from Federal Sources                                  -               -               -              -               -              -
 Anticipated for the rest of the Year, Without Advances                 -               -               -              -               -              -
 Transfers from Trust Funds                                             -               -               -              -               -              -
 Subtotal                                                 $             -             0.0               -            0.0           352.8              -
Recoveries of Prior Year Obligations                                 10.6             2.4               -              -               -              -
Temporarily Not Available Pursuant to Public Law                        -               -               -              -               -              -
Permanently Not Available                                            (3.8)          (25.4)              -              -          (342.6)             -

Total Budgetary Resources                                 $         103.1        4,624.9                -           16.8            66.8              -


STATUS OF BUDGETARY RESOURCES
Obligations Incurred
 Direct                                                   $          95.4        4,624.6                -              -            66.7              -
 Reimbursable                                                           -              -                -            0.0               -              -
 Subtotal                                                 $          95.4        4,624.6                -            0.0            66.7              -
Unobligated Balance
 Apportioned                                                          1.8            0.0                -              -               -              -
 Exempt from Apportionment                                              -              -                -              -               -              -
 Other Available                                                        -            0.0                -              -               -              -
Unobligated Balances Not Available                                    5.9            0.3                -           16.7               -              -
Total, Status of Budgetary Resources                      $         103.2        4,624.9                -           16.8            66.7              -

Relationship of Obligations to Outlays
Obligated Balance, Net - Beginning of Period              $          59.6        2,483.6                -              -                -             -
Obligated Balance Transferred, Net (+/-)                                -              -                -              -                -             -
Obligated Balance, Net - End of Period:
 Accounts Receivable                                                    -              -                -              -                -             -
 Unfilled Customer Order from Federal Sources                           -              -                -              -                -             -
 Undelivered Orders                                                  41.4        1,802.8                -              -                -             -
 Accounts Payable                                                    26.0            0.6                -              -                -             -
Outlays
 Disbursements                                                       77.1        5,302.4                -            0.0            66.7              -
 Collections                                                            -           (0.0)               -           (0.0)         (352.8)             -
 Subtotal                                                 $          77.1        5,302.4                -            0.0          (286.1)             -
Less: Offsetting Receipts                                               -              -                -              -               -              -
Net Outlays                                               $          77.1        5,302.4                -            0.0          (286.1)             -




DoD Performance and Accountability Report                              271                                   Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense
                                                                                Foreign                                                        Foreign
                                                              International     Military                         Special        Foreign        Military
                                                                 Military     Financing        Military Debt    Defense      Military Loan   Financing,
        STATEMENT OF BUDGETARY RESOURCES                       Education      Program          Reduction       Acquisition   Liquidating     Direct Loan
                   As of September 30, 2004                   and Training      Grants          Financing         Fund         Account        Financing
                         ($ in Millions)                        11*1081        11*1082          11x4174         11x4116       11x4121         11x4122
NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Budget Authority
 Appropriation Received                                   $              -                 -              -              -              -              -
 Borrowing Authority                                                     -                 -            6.9              -              -           70.4
 Contract Authority                                                      -                 -              -              -              -              -
 Net Transfers (+/-)                                                     -                 -              -              -              -              -
 Other                                                                   -                 -              -              -              -              -
Unobligated Balance
 Beginning of Period                                                     -                 -            2.7              -               -          45.1
 Net Transfers, Actual (+/-)                                             -                 -              -              -               -             -
 Anticipated Transfer Balances                                           -                 -              -              -               -             -
Spending Authority from Offsetting Collections
 Earned                                                                  -                 -             -               -              -              -
  Collected                                                              -                 -          37.7               -              -          940.9
  Receivable from Federal Sources                                        -                 -             -               -              -              -
 Change in unfilled Customer Orders                                      -                 -             -               -              -              -
  Advance Received                                                       -                 -             -               -              -              -
  Without advance from Federal Sources                                   -                 -             -               -              -              -
 Anticipated for the rest of the Year, Without Advances                  -                 -             -               -              -              -
 Transfers from Trust Funds                                              -                 -             -               -              -              -
 Subtotal                                                 $              -                 -          37.7               -              -          940.9
Recoveries of Prior Year Obligations                                     -                 -             -               -              -              -
Temporarily Not Available Pursuant to Public Law                         -                 -             -               -              -              -
Permanently Not Available                                                -                 -          (0.2)              -              -         (850.8)
Total Budgetary Resources                                 $              -                 -          47.2               -              -          205.6




DoD Performance and Accountability Report                              272                                     Part 3: Financial Information
Funds Appropriated to the President
Administered by the Department of Defense
                                                                                    Foreign                                    Foreign     Foreign
                                                                  International     Military         Military      Special     Military    Military
                                                                     Military     Financing           Debt        Defense       Loan     Financing,
               STATEMENT OF FINANCING                              Education      Program          Reduction     Acquisition Liquidating Direct Loan
                As of September 30, 2004                          and Training      Grants         Financing        Fund      Account     Financing
                      ($ in Millions)                               11*1081        11*1082         11x4174        11x4116     11x4121     11x4122
Resources Used to Finance Activities:
Budgetary Resources Obligated
  Obligations Incurred                                        $          95.4        4,624.5            42.2            0.0        66.7       171.1
   Less: Spending Authority from Offsetting Collections and
  Recoveries (-)                                                         (10.6)         (2.4)           (37.7)         (0.0)     (352.8)     (940.9)
Obligations Net of Offsetting Collections and Recoveries      $           84.9       4,622.1              4.5           0.0      (286.1)     (769.8)
Less: Offsetting Receipts (-)                                                -             -                -             -           -           -
Net Obligations                                               $           84.9       4,622.1              4.5           0.0      (286.1)     (769.8)
Other Resources
  Donations and Forfeitures of Property                       $             -              -               -              -           -           -
  Transfers In/Out Without Reimbursement (+/-)                              -              -               -          (10.0)          -      (139.7)
  Imputed Financing from Costs Absorbed by Others                           -              -               -              -           -           -
  Other (+/-)                                                               -              -           346.0          (90.7)     (203.6)      117.9
  Net Other Resources Used to Finance Activities                            -              -           346.0         (100.7)     (203.6)      (21.8)
Total Resources Used to Finance Activities                    $          84.9        4,622.1           350.5         (100.7)     (489.7)     (791.6)
Resources Used to Finance Items not part of the Net Cost
of Operations:
Change in Budgetary Resources Obligated for Goods,
Services, and Benefits ordered but not yet provided
  Undelivered Orders (-)                                      $           (4.4)        680.2                -             -           -        81.9
  Unfilled Customer Orders                                                   -             -                -             -           -           -
Resources that fund expenses recognized in Prior Periods                     -             -                -             -           -           -
Budgetary Offsetting Collections and Receipts that do not
affect Net Cost of Operations                                                -                 -         37.7             -           -       940.9
Resources that Finance the Acquisition of Assets                             -                 -        (42.2)            -           -      (253.0)
Other Resources or Adjustments to net Obligated
Resources that do not affect Net Costs of Operations
Less: Trust or Special Fund Receipts related to exchange in
the Entity's Budget (-)                                                      -                 -            -            -            -           -
Other (+/-)                                                                  -                 -          0.0         10.0            -       139.7
Total Resources Used to Finance Items not part of the Net
Cost of Operations                                            $           (4.4)        680.2             (4.5)        10.0            -       909.5

Total Resources Used to Finance the Net Cost of
Operations                                                    $          80.5        5,302.3           346.0          (90.7)     (489.7)      117.9

Components of the Net Cost of Operations that will not
Require or Generate Resources in the Current Period
Components Requiring or Generating Resources in Future
Periods
  Increase in Annual Leave Liability                          $              -                 -            -             -           -           -
  Increase in Environmental and Disposal Liability                           -                 -            -             -           -           -
  Upward/Downward Reestimates of Credit                                      -                 -         (0.0)            -           -      (139.7)
  Subsidy Expense (+/-)
  Increase in Exchange Revenue Receivable from the Public (-)                -                 -            -             -           -           -
  Other (+/-)                                                                -                 -            -             -           -           -
Total Components of Net Cost of Operations that will
require or generate Resources in Future Periods               $              -                 -         (0.0)            -           -      (139.7)

Components Not Requiring or Generating Resources
 Depreciation and Amortization                                $              -                 -            -             -           -           -
 Revaluation of Assets or Liabilities (+/-)                                  -                 -            -             -           -           -
 Other (+/-)                                                                 -                 -            -             -           -           -
Total Components of Net Cost of Operations that will not
Require or Generate Resources                                 $              -                 -            -             -           -           -


Total Components of Net Cost of Operations that will not
Require or Generate Resources in the Current Period           $              -                 -         (0.0)            -           -      (139.7)

Net Cost of Operations                                        $          80.5        5,302.3           346.0          (90.7)     (489.7)      (21.8)




DoD Performance and Accountability Report                              273                                 Part 3: Financial Information
           Independent Auditors’
           Report on the Principal
                Statements




DoD Performance and Accountability Report
                                     Page intentionally left blank.




DoD Performance and Accountability Report
DoD Performance and Accountability Report   274   Part 3: Financial Information
DoD Performance and Accountability Report   275   Part 3: Financial Information
DoD Performance and Accountability Report   276   Part 3: Financial Information
DoD Performance and Accountability Report   277   Part 3: Financial Information
DoD Performance and Accountability Report   278   Part 3: Financial Information
DoD Performance and Accountability Report   279   Part 3: Financial Information
DoD Performance and Accountability Report   280   Part 3: Financial Information
DoD Performance and Accountability Report   281   Part 3: Financial Information
             Part 4:
   Inspector General Summary
    of Management Challenges




DoD Performance and Accountability Report
                                     Page intentionally left blank.




DoD Performance and Accountability Report
Inspector General Summary of
Management Challenges
The Reports Consolidation Act of 2000, Public Law               Force Management Risk
106-531, permits the Secretary of Defense to submit
a consolidated report to the President, to the Director             •    Maintain quality workforce
of the Office of Management and Budget, and to
Congress within 150 days of the end of the fiscal                   •    Ensure sustainable military TEMPO and
year, which “shall include a statement prepared by                       maintain workforce satisfaction
the agency’s inspector general that summarizes what                 •    Maintain reasonable force costs
the inspector general considers to be the most serious
management and performance challenges facing the
                                                                    •    Shape the force of the future
agency, and briefly assesses the agency’s progress in
                                                                Operational Risk
addressing those challenges.” In the 2003 Annual
Report to the President and the Congress, the                       •    Have the right forces available
Secretary of Defense described the competing
demands among three difficult challenges: winning                   •    Posture the forces to succeed
the global war on terror, preparing for threats that                •    Provide a ready force
develop in this decade, and continuing to transform
for threats that will develop beyond 2010. The
                                                                    •    Employ forces consistent with strategic
                                                                         priorities
Report discusses the difficulty of making choices
among the competing challenges and presents a risk
management framework to guide DoD decision-                     Institutional Risk
making. The management challenges that the                          •    Streamline the decision process, improve
Inspector General identified, based on audits,                           financial management, drive acquisition
investigations, and inspections, fall into nine major                    excellence
areas. These areas, which were identified in the DoD
Performance and Accountability Reports for Fiscal                   •    Manage overhead and direct costs
Years 2002 and 2003, remain significant challenges.                 •    Improve the readiness and quality of key
The challenge areas, summarized here and in past                         facilities
Performance Accountability Reports, are as follows:
                                                                    •    Realign support to the warfighter
•   Joint Warfighting and Readiness,                            Future Challenges Risk
•   Homeland Defense,
                                                                    •    Drive innovative joint operations
•   Human Capital,
                                                                    •    Develop more effective organizations
•   Information Technology Management,
                                                                    •    Define and develop transformational
•   Acquisition Processes and Contract Management                        capabilities
•   Financial Management,                                           •    Define skills and competencies for the future
•   Health Care,
                                                                The Department’s risk management framework, and
•   Logistics, and
                                                                the associated outcome goals were discussed
•   Infrastructure and Environment.                             previously in the “Performance Highlights” section.
                                                                The following discussion of the nine management
These challenge areas fit into the risk management              challenge areas identifies affected outcome goals.
framework described in the 2003 Annual Report, that
is, force management risk, operational risk,
institutional risk and future challenge risk. The risk
framework is further divided as follows:


DoD Performance and Accountability Report                                Part 4: Inspector General Summary of
                                                          282
                                                                                 Management Challenges
                                                               Agriculture, Army, Defense, Energy, Health and
Joint Warfighting and                                          Human Services, and Veterans Affairs. The
                                                               summary identified nine systemic problems:
Readiness                                                      physical security, personnel access controls,
                                                               inventory accountability and controls, contingency
                                                               plans, registration with the Centers for Disease
    •    Have the right forces available                       Control and Prevention (CDC), import and export of
                                                               agents, safety and security training, management
    •    Posture the forces to succeed
                                                               oversight, and policies and procedures. Corrective
    •    Provide a ready force                                 actions, as recommended in the 27 reports, were
     • Drive innovative joint operations                       initiated by those agencies.
U.S. forces continue to transform to meet the new
and evolving threats, traditional and asymmetrical.            The increasing threat of terrorist actions against
Operations Iraqi Freedom and Enduring Freedom                  U.S. military and civilian populations demonstrates
reinforced the need for the Services to continue to            the need to enhance the safety of military forces in
train together and in combination to fight as a team.          the United States and overseas. DoD installations at
The experiences gained in those operations, together           home and abroad must plan for and be prepared to
with the ongoing efforts aimed at transforming                 execute the necessary actions to protect
U.S. forces, create an atmosphere of change and                U.S. personnel and assets against natural disasters or
evolution unlike any experienced in a long time.               those of human origin. The OIG visited selected
Each factor individually, as well as collectively,             installations and reported that the installations did not
challenges the DoD to ensure that U.S. forces are              have formal force protection programs, and their
ready to carry out their assigned missions, while              antiterrorism plans and training did not meet DoD
addressing their immediate needs. Many of the other            requirements. Another OIG effort identified
management challenge areas encompass those                     weaknesses in disaster preparedness and consequence
functions that support joint warfighting and readiness         management plans, training and exercise programs,
issues.                                                        and equipping and host nation support at the
                                                               installation level in relation to disaster preparedness
                                                               and consequence management programs. The OIG
Discussion
                                                               recommended that the U.S. European Command and
                                                               the Service components improve installation disaster
The Office of the Inspector General (OIG) services to
                                                               preparedness and consequence management
the Department included a number of projects in joint
                                                               programs at installations in the U.S. European
warfighting and readiness. The OIG’s review of
                                                               Command.
DoD’s management of network-centric warfare
(NCW) focused on the NCW implementation within
                                                               Inspector General Assessment of Progress
the DoD and specific NCW initiatives ongoing within
the Services. Although DoD components had
undertaken steps to incorporate NCW into DoD, DoD              The Department has made progress in joint
still needed to improve its approach to integrating            warfighting and readiness. Actions to establish the
NCW. DoD can assist the integration of NCW by                  Office of Force Transformation and to develop
providing the leadership, direction, and planning that         transformation plans for each of the Services are
will be required for the successful integration of             commendable. Those efforts look to the future and
NCW.                                                           assist the Department in continuing to address
                                                               traditional threats while evolving to address non-
                                                               traditional threats to the United States.
In response to allegations of fraud, waste, and abuse
made to the DoD Hotline, the OIG reviewed the use
of cargo aircraft in the U.S. Central Command area of          The DoD audit community continues to contribute to
responsibility. Although the OIG did not substantiate          the Department's efforts to enhance joint warfighting
the allegations, it did identify that external factors         and readiness. The OIG, GAO, the Army Audit
that the DoD had no control over directly affected             Agency, the Naval Audit Service, and the Air Force
operating efficiencies.                                        Audit Agency have each covered topics related to
                                                               improving the ability of the armed forces to respond
                                                               to threats to the United States. Topics such as the
The OIG summarized 27 reports on security controls
                                                               need for DoD management to establish guidelines
over biological agents, issues reported by the Offices
                                                               and policy for network-centric warfare, the progress
of the Inspectors General of the Departments of
                                                               on the Army’s new Stryker system, the mobilization

DoD Performance and Accountability Report                                Part 4: Inspector General Summary of
                                                         283
                                                                                Management Challenges
and use of Reserve component personnel, and the use              Discussion
and maintenance of pre-positioned materiels have all
received coverage. For every report that identified an           The importance of a robust intelligence program
issue needing attention, the Department is taking                within the government and especially within DoD has
positive actions to increase its warfighting ability and         gained increased visibility. The Department will be
readiness posture.                                               particularly challenged during the upcoming year as
                                                                 the Administration and Congress act to implement
The Inspector General Summary of Management                      the recommendations in the Final Report of the
Challenges in the FY 2003 DoD Performance and                    National Commission on Terrorist Attacks Upon the
Accountability Report noted that the Department                  United States. During FY 2004, the OIG increased
lacks comprehensive policy, guidance and training                the size of its Office of Deputy Inspector General for
concerning the roles, missions, functions, and                   Intelligence in recognition of the increased
relationships of Combatant Command Inspectors                    importance of this critical area. Classified reports
General. During FY 2004, the OIG DoD worked                      issued by this office and the defense intelligence
with the Joint Staff, Combatant Command, and                     agencies’ Inspectors General have made
Military Department Inspectors General to begin the              recommendations to improve the responsiveness of
development of policy, guidance, and training                    DoD intelligence to the terrorist threat.
required by these Inspectors General. These
initiatives will greatly enhance the abilities of these          Guarding against the threat to critical DoD
Inspectors General to perform their duties in support            information systems remains a significant challenge.
of the Combatant Commands. A new DoD Directive                   In September 2003, the Assistant Secretary of
and Instruction codifying Joint IG authority, policy,            Defense for Homeland Defense (ASD(HD)) assumed
and procedures, and Joint Inspector General                      responsibility for Critical Infrastructure Protection
Orientation Course Charter are being coordinated.                (CIP) oversight. Subsequently, the ASD(HD)
                                                                 requested the Office of the Inspector General to
                                                                 evaluate the CIP organization and policy; validate the
                                                                 efficiency and effectiveness of vulnerability
                                                                 assessment methodologies; and review procedures
Homeland Defense                                                 related to vulnerability assessments for data
                                                                 collection and analysis. The OIG Inspections and
                                                                 Evaluations Directorate began an evaluation of the
                                                                 Defense Critical Infrastructure Program in 2004 with
                                                                 emphasis on assets exposed to high risk.
    •    Improve readiness and quality of key
         facilities                                              The OIG conducted an evaluation of installation
    •    Provide a ready force                                   disaster preparedness and consequence management
    •     Employ forces consistent with strategic                that focused on the ability of installations in the
          priorities                                             European theater to deter, recover from, and protect
                                                                 critical operations and personnel from natural and
The global war on terror continues to heighten the               created disasters. The OIG reported opportunities to
level of threat from adversaries to the United States.           improve theater-level monitoring programs and
Those adversaries may use weapons of mass                        Service component planning, training, exercises, and
destruction, such as chemical or biological weapons              equipment related to the program.
or they may attempt to use information warfare to
attack the Defense information structure. Because of             For FY 2004, the annual statutory requirement to
those threats, homeland defense is a priority across             audit export controls focused on the Department’s
the federal government. The Department established               policies and procedures for preventing the transfer of
an Assistant Secretary of Defense for Homeland                   technologies and technical information with potential
Defense and the U.S. Northern Command as part of                 military application to countries and entities of
an effort to coordinate Departmental homeland                    concern. The OIG reported that the Department
defense policy and resources. Additional initiatives             needs to improve its policies and procedures for
with the common goal of protecting the United States             identifying unclassified export-controlled technology
work towards coordinating policy and resources at                and preventing unauthorized disclosure to foreign
the federal level with the Department of Homeland                nationals at contractor, university, and federally
Security.                                                        funded research and development centers. The report


DoD Performance and Accountability Report                                 Part 4: Inspector General Summary of
                                                           284
                                                                                 Management Challenges
disclosed weaknesses on exporting technology that              and Army Audit Agency reported on topics such as
underscore the need for continued emphasis in this             the need for changes in DoD management style to
area.                                                          effectively transform the department, the challenges
                                                               of implementing a secure global information grid, the
The Cooperative Threat Reduction Program was                   challenges of implementing the Federal Information
initiated to reduce the threat posed by weapons of             Security Management Act of 2002, and changes
mass destruction in the former Soviet Union by                 necessary to implement installation antiterrorism and
providing assistance to former Soviet states in                consequence management programs at installations.
building facilities and operating programs to                  The Department responded to the reports with
safeguard, transport, and ultimately destroy chemical,         positive actions to better protect American
biological, and nuclear weapons, delivery systems,             installations within the United States and abroad.
and infrastructure. Adequate controls for the
program are vital to ensuring that the limited program         The safeguarding and control of U.S. nuclear
funds are used effectively. The OIG identified that a          weapons is a key area associated with Homeland
facility constructed with Department funds might not           security. The OIG has initiated a series of projects to
be fully used because implementing agreements                  assess the policies, practices, and capabilities for
between the United States and Russia do not clearly            security control over and access to U. S. nuclear
address the amounts and types of fissile material to           weapons. During FY 2004 the OIG issued two
be stored at a facility. In addition, construction             reports on the need to make improvements in this
delays for the chemical weapons destruction facility           critical area. As a result of these reports the
may result because the implementing agreement did              Department has initiated actions to increase security
not require Russia to obtain the necessary                     over nuclear weapons and better monitor the
construction permits in a timely manner and there are          reliability of U. S. personnel with access to the
risks that the land allocation for the destruction             weapons.
facility may be rescinded due to violations of Russian
environmental laws. The Department reviewed and
renegotiated, when appropriate, implementing
agreements with Russia to ensure that controls are in
place for Department-funded construction and use of
facilities.                                                    Human Capital
In conjunction with the Inspectors General of the
Defense Intelligence Agency, the National
Geospatial-Intelligence Agency, the National                       •    Maintain quality workforce
Reconnaissance Office and the National Security                    •    Ensure sustainable military TEMPO and
Agency, the OIG also assessed the adequacy and                          maintain workforce satisfaction
effectiveness of the DoD intelligence agencies’
information assurance policies and procedures. We                  •    Maintain reasonable force costs
have made numerous recommendations to improve                       • Shape the force of the future
their information assurance programs. Each of the              The challenges in human capital are multifaceted.
DoD intelligence agencies has taken aggressive steps           The Department must ensure that civilian and
to improve its information assurance posture, but              military workforces are appropriately sized, well
more improvements are needed.                                  trained and motivated, held to high standards of
                                                               integrity, encouraged to engage in intelligent risk
Inspector General Assessment of Progress                       taking, and capable of functioning in an integrated
                                                               work environment and handling the emerging
The Department has made progress improving                     technologies and threats of the 21st century. Those
homeland defense. Establishing the Assistant                   challenges involve ensuring the Department’s
Secretary of Defense for Homeland Defense and the              workforce planning is focused on acquiring,
U.S. Northern Command to execute the mission of                developing, and retaining a total workforce to meet
homeland defense and civil support are laudatory               the needs of the future, to include the contractor
actions. Those new organizations seek appropriate              workforce. Additionally, as one of the nation’s
avenues to address threats to the United States. The           largest employers, the Department has a
DoD audit community and the criminal investigative             responsibility to promote a safe workplace.
community have contributed to the Department’s
efforts to enhance homeland security. OIG, GAO,

DoD Performance and Accountability Report                               Part 4: Inspector General Summary of
                                                         285
                                                                               Management Challenges
The Department employs more than 3.38 million                   this task, the USD(P&R) established the Department
civilian and military personnel, with an annual                 of Defense Care for Victims of Sexual Assaults Task
financial investment of more than $100 billion.                 Force. In April 2004, the Task Force published their
Managing such a large workforce plus contractor                 report, identified 35 key findings, and proposed 9
personnel confronts the Department with the need to             broad recommendations for immediate, near-term,
identify and maintain a balanced level of skills to             and long-term corrective actions. In September 2004,
maintain core defense capabilities and meet                     the USD(P&R) convened the DoD Care for Victims
increasing challenges and threats. Without focused              of Sexual Assault Conference, which is tasked to
recruiting, knowledge management programs, and a                develop action plans to implement the Task Force
transparent personnel system, DoD may have                      recommendations. As requested by Conference
difficulty hiring, developing, training, and retaining          organizers, OIG representatives were invited as
high quality people to become skilled soldiers,                 observers. The OIG will continue to monitor the
workers, managers, and leaders. In June 2004,                   progress of implementing the Task Force
Secretary Rumsfeld identified the need for shifting to          recommendations and suggest a program evaluation
a more joint training environment to ensure that all            process.
individuals, units, staffs and organizations - civilian
and military - receive timely and effective joint               During fiscal year 2004, the GAO issued 14 reports
education and training to accomplish the joint tasks            addressing Human Capital issues including the use of
that support operational needs.                                 new hiring flexibilities, assessing training and
                                                                development programs, and performance
Discussion                                                      management. Of particular interest to DoD was an
                                                                assessment of civilian personnel planning. The
Recent evaluations conducted by the OIG assessed                report found that despite DoD’s efforts to take steps
DoD efforts to combat trafficking in persons in                 in developing and implementing civilian workforce
Bosnia-Herzegovina and Kosovo and in Korea.                     needs, the DoD strategic plans generally lacked some
Trafficking in Persons (TIP) is a global problem that           key elements essential to successful workforce
enslaves thousands of people. The Department faces              planning. The plans did not include a gap analysis
a significant challenge to develop and implement                between critical skills and competencies currently
training and awareness programs that will ensure                needed by the workforce and those needed in the
both military and contractor personnel fully                    future. According to its strategic plan for fiscal years
understand, recognize, and take appropriate action in           2004-2009, the GAO plans to continue reviewing
regard to this serious crime. In accordance with the            DoD human capital, focusing on readiness; military
National Security Presidential Directive (NSPD-22),             training; human capital management of civilians,
DoD IG is assisting the Under Secretary of Defense              Active duty, and Reserve components; and the
for Personnel and Readiness to develop an awareness             potential for the Services to more efficiently and
and training campaign for all DoD personnel on                  effectively organize and deploy forces.
trafficking in persons that clearly explains the
worldwide problem of TIP as it relates to DoD. As a             The DoD audit community issued 16 reports
continuing effort, the Inspector General of the                 addressing the management of human capital. The
Department of Defense will be conducting evaluation             OIG reported that the Marine Corps staffing levels
visits to various regions of the world to assess DoD’s          for enlisted warfighting positions remained vacant
efforts to combat the trafficking in persons challenge.         upon deployment, putting Marines at higher risk
                                                                because of increased demands on limited personnel
The Department needs to develop uniform policies,               resources. In another report, the OIG discussed the
guidelines, and standards for sexual assault                    DoD reporting on the President’s Management
prevention, reporting, response, and accountability.            Agenda initiative for strategic management of human
In February 2004, in response to reports of alleged             capital to the Office of Management and Budget.
sexual assaults on service members in Iraq and                  Although adequate documentation existed to support
Kuwait, the Secretary of Defense directed the Under             DoD progress against the DoD Civilian Human
Secretary of Defense for Personnel and Readiness                Resources Strategic Plan, DoD did not have complete
(USD(P&R)) to undertake a 90-day review of all                  supporting documentation for DoD progress against
DoD and Service sexual assault policies and                     the DoD Restructuring Plan.
programs, and recommend changes necessary to
increase prevention, promote reporting, enhance the             In one effort pertaining to workforce satisfaction the
quality and support provided to victims, and improve            OIG reported on DoD implementation of the Voting
accountability of offender actions. To accomplish               Assistance Program, as directed in Section 1566,

DoD Performance and Accountability Report                                Part 4: Inspector General Summary of
                                                          286
                                                                                Management Challenges
chapter 80 of title 10, United States Code. The                 Representatives from the Department have met with
Federal Voting Assistance Program Office continued              employees, unions, and other affected parties and
to provide a variety of valuable resources and                  have formed working groups to identify and develop
assistance to voting assistance officers and uniformed          options and alternatives for NSPS. The Department
absentee voters in 2003. However, opportunities                 also developed a military training plan to transform
exist to improve the DoD voting assistance program.             from a deliberative, risk-averse culture to a more
The OIG recommended expediting revisions to DoD                 adaptive, risk-mitigating culture. In June 2004, DoD
guidance, providing command emphasis, and                       published the DoD Training Transformation
improving oversight of the program.                             Implementation Plan. The plan provides a dynamic,
                                                                capabilities-based training program that emphasizes
The Military Department audit agencies issued                   crisis-action planning, joint force organization, and
reports concluding that although Air Force civilian             mission rehearsal.
personnel officials generally filled non-competitive
requests for personnel fills, untimely fills of                 Recognizing that human capital is a crucial area for
competitive actions resulted in prolonged vacancies             the Department, the OIG dedicated an audit team to
of up to 132 days that hindered mission                         focus on this area and, along with the Service audit
accomplishment and contributed to workforce stress.             agencies, established the Human Capital Joint Audit
Another report concluded that the Navy had been                 Planning Group. In May 2004, the OIG announced a
unable to develop or field integrated information               review of the Enterprise Management of DoD Human
systems necessary to support the Navy’s future                  Capital, a top-down look at human capital
human capital needs due in part to the lack of an               management in the Department.
overarching human resources management strategic
plan for the Navy.                                              With regard to improving awareness within DoD of
                                                                the importance in combating Trafficking in Persons,
In May 2003, the Secretary of Defense challenged the            the Department has initiated aggressive efforts to
Department’s leadership to reduce the number of                 address this issue. During the course of the OIG
preventable mishaps and accidents by “at least 50%              assessment in Korea, the Commander of U.S. Forces
in the next two years.” In response to this challenge,          Korea responded promptly to OIG recommendations
the USD(P&R) created the Defense Safety Oversight               to improve its training program. On January 30,
Council. This forum meets regularly and reviews                 2004, the Deputy Secretary of Defense sent a
safety initiatives, metrics, and best practices of the          memorandum throughout the Department of Defense
military departments and OSD. The OIG participates              emphasizing the President’s call that “all
in this forum as an advisor. In August 2004, the                Departments of the United States Government will
USD(P&R) requested Inspector General assistance to              take a ‘zero tolerance’ approach to trafficking in
evaluate the DoD safety program, to include such                persons.” This memo was augmented by the
considerations as policies, organizational structure,           September 16, 2004, memorandum from Secretary
culture, and safety programs at the installation level.         Rumsfeld directing “commanders at all levels to
In response to this request, the OIG Inspections and            ensure their units are trained to understand and
Evaluations Directorate is assembling a team of                 recognize indicators of this serious crime.”
safety experts that will evaluate the Department’s
safety program and recommend best practices that
may be used to help achieve the Secretary’s accident
reduction goal.

Inspector General Assessment of Progress
                                                                Information Technology
                                                                Management
Overall, the Department has improved management
of human capital. The Department is developing the
National Security Personnel System (NSPS), the                      •     Streamline the decision process, improve
system designed to change how the Department hires,                       financial management, drive acquisition
pays, promotes, disciplines, and fires its civilian                       excellence
workforce. The NSPS establishes personnel practices             The key to success on the modern battlefield and in
in DoD that parallel personnel practices in the private         internal business activities is the ability to produce,
sector. The Department appointed a senior executive             collect, process, and distribute information. Data
and Program Executive Officer to oversee NSPS                   must be accurate, timely, secure, and in usable form.
design, planning, assessment, and implementation.

DoD Performance and Accountability Report                                Part 4: Inspector General Summary of
                                                          287
                                                                                Management Challenges
The huge scale, unavoidable complexity, and                    appropriate documentation requirements for the
dynamic nature of DoD activities make them heavily             system.
dependent on information technology. That
dependence has proven to be a major challenge                  Inspector General Assessment of Progress
because DoD management techniques have not kept
pace with the continual growth in information user             The Department has made progress addressing the
requirements and the shortened life spans of                   information technology management challenge. The
technologies before obsolescence. Much of the DoD              Business Management Modernization Program was
success in meeting the Secretary of Defense’s                  established in 2003 in recognition of the need to
priorities and the major management challenges will            manage information technology systems acquisitions
depend on effective and efficient information                  and modernization from an enterprise perspective.
technology management.                                         That program has provided oversight to instill
                                                               discipline in the acquisition and modernization
Discussion                                                     process. Further, in response to the President’s
                                                               Management Agenda initiative on Expanded
During fiscal year 2004, 24 audits indicated a wide            Electronic Government, the Department has also
range of management issues in systems selected for             increased the quality of business cases and visibility
review. The important systems for which                        into its information technology portfolio. The
management improvements were recommended                       Department received audit reports issued by OIG on
included the U.S. Army Corps of Engineers Financial            Information Technology Management in a positive
Management System and the U.S. Army Corps of                   manner and made changes to areas needing attention.
Engineers Enterprise Infrastructure Services.

In addition, auditors reported that the Department
made progress developing the DoD business
enterprise architecture necessary to respond to Office
of Management and Budget and congressional
                                                               Acquisition Processes and
requirements and to support DoD transforming                   Contract Management
initiatives. The OIG reported that DoD did not
adequately report information technology
investments to the Office of Management and Budget                 •     Streamline the decision process, improve
in support of the DoD Budget Request for FY 2005.                        financial management, drive acquisition
The component Chief Information Officers and Chief                       excellence
Financial Officers did not always include required             The DoD buys the most numerous and various goods
information in submitted reports. For example,                 and services in the world. In FY 2003, DoD spent
Capital Investment Reports did not completely                  $231 billion on acquisitions. On average, every
respond to one or more required data elements                  working day DoD issues more than 22,000 contract
addressing security funding, certification and                 actions valued at $841 million and makes more than
accreditation, training, and security plans.                   140,000 credit card transactions valued at $37
Consequently, the quality of the DoD information on            million. The Department has approximately 1,500
security reported to the Office of Management and              weapon acquisition programs with a collective life
Budget had limited value and did not demonstrate               value of $2.1 trillion. Department spending to
that DoD was effectively managing its proposed                 procure services from the private sector grew to $123
information technology investments for FY 2005.                billion in FY 2003 and continued to expand in FY
                                                               2004. The management challenge is to provide
An OIG report on the Collaborative Force-Building,             required materiel and services that are superior in
Analysis, Sustainment, and Transportation System               performance, high in quality, sufficient in quantity,
discussed that management control documentation                and reasonable in cost despite this enormous scale.
was not prepared to justify the initiation of the              Every acquisition dollar that is not prudently spent
system, compare budgeted and actual costs, measure             results in a dollar that is not available to fund the top
performance requirements, track scheduled and                  priorities of the Secretary of Defense.
actual timelines, or ensure that existing system
capabilities were considered. The U.S. Joint Forces
Command is conducting a “Quick Look and Final
Capability Needs Analysis” to determine the


DoD Performance and Accountability Report                                Part 4: Inspector General Summary of
                                                         288
                                                                                Management Challenges
Discussion                                                       The DoD audit community continued to identify
                                                                 ways that the Department could improve acquisition
During FY 2004, the DoD internal audit community                 of weapon system programs, including the following
and the GAO issued 154 reports that addressed a                  examples:
range of continuing acquisition problems. The
Defense Contract Audit Agency continued to assist                    •    Better negotiate contract terms (OIG audit of
contracting officers through contract audits that                         Air Force C-130J aircraft contract with a
identified more than $7 billion of questioned costs                       cost of $2.6 billion);
and funds. In FY 2004, savings from these
questioned costs helped to reduce the program costs                  •    Update acquisition program baselines,
and the need for additional appropriations.                               obtain satisfactory operational test results,
                                                                          and prepare life cycle cost estimates before
The Department must be vigilant in investigating                          making investment decisions (OIG audits of
procurement fraud and violations of procurement                           the CH-47F Improved Cargo Helicopter and
integrity rules to optimize the financial resources                       the Joint Chemical Agent Detector);
appropriated for national defense. The investigations                •    Develop better processes and controls for
of violations of the Procurement Integrity Act by the                     cost estimating (Naval Audit Service audits
former Principal Deputy Secretary of the Air Force                        of 18 programs’ cost estimate increases at
for Acquisition and Management and the former                             Naval Air Systems Command and Naval Sea
Chief Financial Officer for the Boeing Company and                        Systems Command for a total of $15 billion
their impact on acquisition programs highlight the                        during the life cycles); and
need for continued training for acquisition
professionals. Adverse actions taken by very few                     •    Implement effective management controls
people can cause delay for major acquisition                              (OIG audits of 27 acquisition category II
programs, impede quick delivery of new capabilities                       and III programs valued at $18.3 billion).
to the warfighter, and adversely affect the public
perception of the integrity of the acquisition process.          Military conflicts have almost always resulted in
                                                                 unforeseen contracting problems that compel contract
The OIG reviewed the Air Force planned acquisition               policy and procedural changes. An example from the
of 100 Boeing KC-767A Tanker aircraft. The report                current conflict is the planning for acquisition support
identified a variety of shortcomings in the approach             that the Office of Reconstruction and Humanitarian
the Air Force used to reach a multi-billion dollar               Assistance (replaced by the CPA) required to perform
agreement to acquire the aircraft and recommended                its mission. A review of 24 contracts, valued at
various changes before DoD allows the program to                 $122 million, showed that supplies and services were
proceed. The report identified statutory requirements            quickly acquired but that contracting rules were
and other issues pertaining to the current program               either circumvented or liberally interpreted. Lack of
structure and procurement strategy that required                 attention to proper contracting procedures resulted in
resolution before continuing the acquisition. An                 less than the best contracting solution or price for
overarching problem was that the Air Force did not               post-war occupation and humanitarian relief
properly execute its fiduciary responsibility to ensure          operations. The Deputy Secretary of Defense
that a fair and reasonable price was achieved and that           responded to the situation by designating an office to
warfighter needs were met.                                       study post-war strategy and to establish
                                                                 responsibilities, policies, and procedures for
The OIG reviewed the negotiations by the former                  acquisitions to support future post-war occupations
Principal Deputy Assistant Secretary of the Air Force            and relief operations.
for Acquisition and Management for the North
Atlantic Treaty Organization Airborne Warning and                Improving management of the growing volume of
Control Systems Mid-Term Modernization Program,                  service contracts is a challenge. An OIG review of
“Global Solution.” The report identified that senior-            purchases on 113 contracts valued at $17.8 billion for
level Air Force managers did not use appropriate                 professional and management support services
business and contracting procedures during                       identified inadequate competition (28 percent),
negotiations with The Boeing Company. The Air                    inadequate contract surveillance (67 percent), and
Force awarded a contract modification without                    inadequate basis for price reasonableness
knowing whether the $1.32 billion cost was fair and              determinations (88 percent). The report highlighted
reasonable. Air Force actions to renegotiate the                 that little had improved since a review in FY 2000
contract should result in a substantial price reduction.         identified similar problems. The Acting Under


DoD Performance and Accountability Report                                 Part 4: Inspector General Summary of
                                                           289
                                                                                 Management Challenges
Secretary of Defense for Acquisition, Technology,               KC-767A Tanker aircraft and C-130J aircraft,
and Logistics and the Services responded by                     contracting for Operation Iraqi Freedom, and use of
initiating numerous corrective actions to ensure that           multiple-award schedule contracts from other Federal
future acquisitions for services are properly awarded           agencies.
and administered. An OIG review of $415 million
of task orders for the Cooperative Threat Reduction
Program and the Defense Threat Reduction Agency
identified $78 million of task orders associated with
                                                                Financial Management
the Defense Threat Reduction Agency's Cooperative
Threat Reduction (CTR) program had been awarded
without citation of an exception to the fair                        •     Streamline the decision process, improve
opportunity to compete. The CTR program office                            financial management, drive acquisition
adopted procedures to ensure that exceptions are                          excellence
cited for all task orders wherein contractors will not          The Department’s financial statements are the most
be allowed to compete.                                          complex and diverse in the world. Its FY 2003
                                                                financial statements included $1.1 trillion in assets
The Inspectors General of the General Services                  and $1.6 trillion in liabilities. In FY 2004, the
Administration and Department of Interior identified            Defense Finance and Accounting Service (DFAS)
task orders that DoD activities improperly issued               processed the following payments on behalf of the
against information technology supply schedule                  Department: 12.6 million contractor invoices,
contracts. Defense activities issued task orders on             6.9 million travel payments, payments to 5.9 million
General Services Administration contracts valued at             people (including benefits to retirees and families),
about $150 million to information technology                    $127.3 million in accounting transactions, $455
contractors with no expertise in the required services.         billion in disbursements, and $13.5 billion in foreign
Work was actually performed by subcontractors at an             military sales. In addition, DFAS managed
additional cost of $10 million.                                 $226.5 billion in military retirement trust fund. The
                                                                Department prepares and obtains an audit opinion for
The Defense auditing community has significantly                the Department-wide financial statements and nine
contributed to the Department’s aggressive pursuit of           component financial statements. It also prepares the
savings through use of credit cards and reduced                 financial statements for three intelligence agencies.
vulnerability to misuse. In reports and testimony, the
OIG and GAO identified a need to increase focus on              Discussion
negotiating discounts and leveraging its $7.2 billion
in DoD purchase card spending to achieve savings.               The Department faces financial management
Efforts of the OIG data mining group and purchase               challenges that are complex, long-standing, and
card program office of DoD have increased senior                pervade virtually all its business operations, affecting
leadership involvement and improved management                  the ability to provide reliable, timely, and useful
controls over the purchase card program. The                    financial and managerial data to support operating,
Department has reduced the number of purchase                   budgeting and policy decisions. The challenges have
cards 47 percent, from 214,000 to 114,000.                      obstructed the Department from receiving an
                                                                unqualified opinion on its financial statements. The
Inspector General Assessment of Progress                        Office of Management and Budget anticipates that
                                                                the Department would be one of three agencies that
Overall, the Department has made progress over the              will not receive an unqualified opinion in FY 2004.
past decade in improving the acquisition process                In its June 30, 2004, Executive Branch Management
toward achieving acquisition excellence. The OIG                Scorecard, the Office of Management Budget gave
has contributed to Department efforts to improve                the Department an unsatisfactory rating for financial
acquisition processes through numerous                          performance.
recommendations. Despite progress, the growing
volume of acquisitions, the decrease in the number of           The GAO identified three high-risk areas in the
acquisition personnel, and the numerous annual                  Department (financial management, systems
changes in regulations and processes for the                    modernization, and inventory management) that
acquisition professional make this a long-term                  directly affect the Department’s ability to attain an
challenge. During the past year, the Department has             unqualified audit opinion on its financial statements.
had to react to previously unidentified problems                The OIG identified 11 material control weaknesses
related to: acquisition of major systems such as the            that also directly impact the Department’s ability to

DoD Performance and Accountability Report                                Part 4: Inspector General Summary of
                                                          290
                                                                                Management Challenges
attain an unqualified opinion including: financial            and useful information to support operating,
management systems; fund balance with treasury;               budgeting, and policy decisions. The initiatives to
inventory; operating material and supplies; property,         ensure reliability include obtaining and sustaining
plant and equipment; government-furnished material            unqualified audit opinions for the Department and its
and contractor-acquired material; environmental               components. Timeliness initiatives include
liabilities; intragovernmental eliminations;                  re-engineering reporting processes, instituting
accounting entries; statement of net cost; and                quarterly financial statements, and accelerating
statement of financing. The Department’s high-risk            end-of-year reporting. Initiatives for enhancing
areas and material control weaknesses will prevent            usefulness include requiring comparative financial
the federal government from achieving an                      reporting, and reporting specific financial
unqualified opinion on the FY 2004 consolidated               performance measures.
financial statements.
                                                              The OIG provided audit service and advice to the
Of the high-risk areas and material control                   Department with the goal of improving financial
weaknesses, the most significant is the Department’s          performance and obtaining an unqualified opinion on
financial management systems. The Department                  financial statements. The OIG is an independent
currently relies on an estimated 4,000 systems,               advisory member on the Financial Improvement
including accounting, acquisition, logistics,                 Executive Steering Committee (the Committee) that
personnel, and management systems, to perform its             monitors and directs the Department’s Financial
business operations. Many financial management                Improvement Plan process.
systems do not comply substantially with Federal
financial management system requirements. The                 Examples of specific audit services that the OIG
systems have little standardization across the                provided in FY 2004 include the following.
Department, multiple systems perform the same task
and identical data is stored in multiple systems. The         The OIG reviewed Comptroller reimbursement
systems are inefficient because personnel must                procedures of coalition support funds expended to
manually enter data into multiple systems and                 support the global war on terror. Management
execute many work-arounds and off-line records to             controls were not adequate to support coalition
translate data from one system to another.                    countries’ reimbursement requests and determine
                                                              whether requests were reasonable and claimed costs
In the National Defense Authorization Act for                 were in the context of U.S. National Security
FY 2003, Congress required the Department to                  Strategy. The Comptroller issued guidance clarifying
develop a business enterprise architecture and a              the documentation required and established
transition plan to implement it. The Act requires the         procedures to coordinate reimbursement requests
business enterprise architecture to describe an               with the Department of State to confirm that
information infrastructure that would enable the              proposed reimbursements are consistent with the
Department to achieve specific capabilities such as           U.S. National Security Strategy.
complying with Federal accounting, financial
management, and reporting requirements; integrating           The OIG studied the Department costs incurred for
accounting, budgeting, and information systems; and           monitoring satellite launches and contractor
routinely providing timely, accurate, and reliable            reimbursement. The Department did not adequately
financial and management data for management                  adjust estimates given to the satellite contractors to
decision making. The Department has delivered                 reflect actual costs or allocate indirect costs among
several versions of the business enterprise                   all Departmental services rendered. In addition, costs
architecture and transition plan but much work                to monitor satellite launches did not always match
remains. For example, GAO reported that                       supporting documentation. The Office of the Under
documentation describing the rationale for business           Secretary of Defense for Policy adjusted satellite
enterprise architecture choices, and acquisition and          contractor billings to reflect actual costs and
portfolio investment management decisions is                  established procedures to ensure that supporting
inadequate.                                                   documentation matches those costs incurred.

The President’s Management Agenda also contains               Inspector General Assessment of Progress
initiatives for improving the Department’s financial
performance. The President’s Management Agenda                The Department’s progress in financial management
directs the Office of Management and Budget to                is demonstrated by its emphasis on developing
work with the Department to provide reliable, timely,         effective, efficient financial systems that produce

DoD Performance and Accountability Report                              Part 4: Inspector General Summary of
                                                        291
                                                                              Management Challenges
accurate, timely, and reliable financial statements.          A challenge this year will be implementing federal
The Department has very ambitious goals for                   ceiling prices and federal supply schedule prices,
improving its financial performance and reporting.            using electronic data interchange technology in the
The Office of the Under Secretary of Defense                  retail pharmacy program. The federal ceiling prices
(Comptroller)\Chief Financial Officer established 22          and federal supply schedule prices, currently
independent financial statement audit committees to           available for the military treatment facility and mail
oversee the annual audits and to provide a forum to           order pharmacy programs, should allow DoD to
discuss and resolve accounting and auditing issues.           realize millions of dollars of savings in retail
An OIG representative is an advisory (nonvoting)              pharmacy costs. To make the pharmacy benefit more
member on the committees.                                     cost effective and to comply with the FY 2000
                                                              National Defense Authorization Act, the Department
                                                              is implementing a uniform formulary process.

Health Care                                                   The results of the Base Realignment and Closure
                                                              initiative will affect the numbers and types of
                                                              medical facilities in the DoD military health system.
    •   Maintain quality workforce                            The ongoing evaluation of transformational options
                                                              may result in a realignment of capabilities and
    •   Ensure sustainable military TEMPO and                 resources to increase the effectiveness of the military
        maintain workforce satisfaction                       health system. HIPAA includes provisions for
     • Maintain reasonable force costs                        privacy and security of patient health information.
The DoD military health system challenge is to                Those provisions will be implemented in two phases.
provide high quality health care in peacetime and             HIPAA required that procedures to ensure the
wartime. The DoD military health system must                  privacy of patient health information be implemented
provide quality care for approximately 9.2 million            by April 2003. Compliance with the requirement to
eligible beneficiaries within fiscal constraints and          safeguard patient health information requires
price growth pressure that have made cost control             completing tasks in FY 2004 in order for safeguards
difficult in the public and private sectors. The DoD          to be in place by the spring of FY 2005.
challenge is magnified because the military health
system must also provide health support for the full          A major challenge in medical readiness will be
range of military operations. The DoD military                completing a medical readiness review overseen by a
health system was funded at $29.8 billion in                  steering group co-chaired by the offices of the
FY 2004, including $17.3 billion in the Defense               USD(P&R) and the Director, Program Analysis and
Health Program appropriation, $6.9 billion in the             Evaluation. The review will identify medical
Military Departments’ military personnel                      readiness capabilities required by the National
appropriations, $.2 billion in military construction,         Security Strategy and warfighting transformation and
and $5.4 billion in the DoD Medicare-Eligible                 examine delivery procedures for wartime and
Retiree Health Care Fund to cover the costs of health         peacetime. Ongoing readiness challenges include
care for Medicare-eligible retirees, retiree family           readiness of the forces and readiness of the medical
members and survivors.                                        staff and units. Readiness of the forces means
                                                              ensuring that all deployable forces are individually
Discussion                                                    medically ready to perform their missions before
                                                              deploying, while deployed, and upon their return.
The primary peacetime challenges for the DoD                  Readiness of the medical staff and units means
military health system in FY 2005 will be completing          ensuring that medical staff can perform at all
the transition to the new TRICARE managed care                echelons of operation and the units have the right mix
contracts, completing the Base Realignment and                of skills, equipment sets, logistics support, and
Closure process, and ensuring compliance with the             evacuation capabilities. The Department developed
Health Insurance Portability and Accountability Act           six key elements for measuring individual readiness
(HIPAA).                                                      and the Military Departments are implementing
                                                              systems to report on those elements.
By removing the retail pharmacy program from the
new TRICARE managed care support contracts and                The health care system also faces the challenge of
consolidating the program into a single pharmacy              increased joint operations. The FY 2004 National
benefits manager, DoD continues its progress toward           Defense Authorization Act authorized temporary
developing a fully integrated pharmacy program.               provisions to expand TRICARE health and dental

DoD Performance and Accountability Report                              Part 4: Inspector General Summary of
                                                        292
                                                                              Management Challenges
coverage for Reserve component members and                      inventory management, information security,
families. The temporary health care benefits are                government purchase cards, military eyewear costs,
scheduled to end December 3l, 2004. The new                     DoD/VA sharing agreements, third party collections,
benefits presented a significant implementation                 medical readiness reporting, marketing, military
challenge to the Department. If the benefits are                treatment facility downsizing, and physician
continued, the Department will face a peacetime                 productivity.
challenge due to the increased number of
beneficiaries. The readiness challenge of keeping
reservists medically ready to deploy continues due to
the frequency and duration of reserve deployments.
                                                                Logistics
The President’s Management Agenda for FY 2002
                                                                    •    Streamline the decision process, improve
identified nine agency-specific initiatives. One of the
                                                                         financial management, drive acquisition
specific initiatives was the coordination of the DoD
                                                                         excellence
and the Department of Veterans Affairs medical
programs and systems. Effective October 1, 2003,                     • Manage overhead and direct costs
DoD and Veterans Affairs each must contribute                   The purpose of logistics is to reliably provide the
$15 million to the DoD-Veterans Affairs Health Care             warfighter the right materiel at the right time to
Sharing Incentive Fund to finance future sharing                support continuous combat effectiveness of the
initiatives. In addition, DoD was required to                   deployed force. DoD logistics support operations for
contribute $3 million in FY 2003, $6 million in                 supplies, transportation, and maintenance cost more
FY 2004, and $9 million in later years to cover a               than $90 billion annually. Logistics support involves
“health care resources sharing and coordination                 approximately 700,000 military and civilian
project.” We believe the sharing requirement will               personnel and several thousand private sector firms to
benefit both agencies and reduce costs.                         maintain more than 300 ships; 15,000 aircraft and
                                                                helicopters; 330,000 ground combat and tactical
Inspector General Assessment of Progress                        vehicles; and hundreds of thousands of additional
                                                                mission support assets. In addition, the Department
The Department has made progress improving health               maintains an inventory of such items as clothing,
care while attempting to control costs. The                     engines, and repair parts valued at an estimated
Department made significant progress implementing               $67 billion to support the warfighter.
new TRICARE contracts. TRICARE is transitioning
from 12 regions and 7 contracts in the United States            Discussion
to 3 regions and 3 contracts. Contracts for all three
regions, valued at $6.4 billion, were awarded in                During FY 2004, the DoD audit community reported
August 2003. The transition is scheduled for                    a broad range of logistics issues. Topics included
completion in November 2004. The contracts                      asset visibility, performance-based logistics,
provide incentives for customer satisfaction and                maintenance depot materiel control, and inventory
include the contractors as partners in support of               requirements determination.
medical readiness.
                                                                In one report, the OIG discussed improving the
The Department also made progress toward a fully                controls over materiel designated for or sent to
integrated pharmacy program. The Medical Joint                  disposal. Materiel that was reported as shipped to
Cross Service Group made significant progress in                disposal was not recorded as received at the Defense
developing the base realignment and closure process             Reutilization and Marketing Service or accounted for
for medical facilities.                                         on inventory records. Navy disposal transactions
                                                                valued at $134.3 million had $39 million worth of
The Department also made progress implementing                  transactions that were not recorded on accountable
HIPAA. A military health system-wide training                   supply records and were vulnerable to loss and
program was developed and a working group was                   undetected theft.
established to address HIPAA requirements for
contractors.                                                    DoD guidance requires that each Military
                                                                Department aggressively pursue performance based
During FY 2004, the DoD audit community issued                  logistics and submit a plan outlining their strategies.
26 reports on health care issues such as medical                The OIG reported that the Military Departments’
goods and services contracts, pharmaceutical                    implementation of performance based logistics might

DoD Performance and Accountability Report                                Part 4: Inspector General Summary of
                                                          293
                                                                                Management Challenges
not be achieving goals to improve readiness for
weapon systems or to reduce logistics support costs.
Overall, the Military Departments were
implementing performance based logistics strategies
for weapons systems, sub-systems, and components;
                                                                 Infrastructure and
however, with the exception of Navy headquarters,                Environment
their efforts were inconsistent, processes were
inadequate and uncoordinated, and results were
undeterminable.
                                                                     •    Improve readiness and quality of key
Inspector General Assessment of Progress                                  facilities
                                                                     •    Manage overhead and direct costs
The Department has made progress towards being a
                                                                      • Realign support to the warfighter
superior logistics provider through numerous
initiatives to improve logistics. That progress is               The challenge in managing approximately 4,700
tempered by the sheer magnitude of logistics                     military installations and other DoD sites is to
operations that makes it a long-term challenge. The              provide modern, habitable, and well-maintained
DoD audit community continually provides services                facilities, which cover a spectrum from test ranges to
to the Department in evaluating new business                     housing. The Department’s review of our defense
processes and identifying processes for reform.                  and security needs resulted in transforming our force
                                                                 structure and prompting a corresponding new base
Major logistics initiatives include Force-centric                structure.
Logistics Enterprise, DoD Business Management
Modernization Program, Performance Based                         The challenge of a new base structure is complicated
Logistics, and Base Realignment and Closure. The                 by the need to minimize spending on infrastructure so
Force-centric Logistics Enterprise initiative is a               funds can be used instead on defense capability.
comprehensive program to integrate logistics with                Unfortunately, the Department has an obsolescence
operational planning and to meet warfighter                      crisis in facilities and environmental requirements
requirements for more agile and rapid support.                   have continually grown. Furthermore, the
Force-centric Logistic Enterprise is focused on near-            Department maintains an estimated 25 percent more
term collaborative initiatives that directly improve             base capacity than needed to support its forces which
warfighter support, address known structural                     diverts scarce resources from critical areas.
problems, and accelerate achieving the Department’s
long-range vision of Focused Logistics. The primary              Discussion
objective of the DoD Business Management
Modernization Program is to change DoD business                  Transformation through Base Realignment and
processes in logistics and financial systems to                  Closure poses a significant challenge and opportunity
achieve efficiencies, and in the process to eliminate            for the Department. Base Realignment and Closure
redundant and non-compatible systems. The                        2005 should eliminate excess physical capacity and
objectives of the Performance Based Logistics                    transform DoD infrastructure into a more efficient
initiative are to compress the supply chain, eliminate           structure for greater joint activity. As part of the
non-value-added steps, and improve readiness for                 challenge, the Department must meet the timelines
major weapons systems and commodities. The                       established in law and use certified data that are
objective of the Base Realignment and Closure                    accurate and complete to develop recommendations.
initiative is to realign the DoD military base structure         Another critical aspect of the Base Realignment and
and examine and implement opportunities for greater              Closure is to have a fair and accurate process that
joint activity. The OIG is providing audit services to           will withstand GAO, Base Realignment and Closure
evaluate the logistics initiatives and to support Base           Commission and public scrutiny.
Realignment and Closure Joint Cross Service Groups
that are analyzing common business-oriented                      The Department is the largest steward of properties in
functions for supply, storage, and industrial                    the world, responsible for more than 29 million acres
functions.                                                       in the United States and abroad with a physical plant
                                                                 of 586,000 buildings and other structures valued at
                                                                 approximately $646 billion. Those installations and
                                                                 facilities are critical to supporting our military forces
                                                                 and must be properly sustained and modernized to be

DoD Performance and Accountability Report                                  Part 4: Inspector General Summary of
                                                           294
                                                                                  Management Challenges
productive assets. The goal of the Department is a
67-year replacement cycle for facilities and the
current program would achieve that level in FY 2008.
The replacement cycle was reduced from a
re-capitalization rate of 192 years in FY 2001 to
136 years in FY 2004.

As of the 2nd Quarter, FY 2004, the Military
Departments owned 1,867 electric, water,
wastewater, and natural gas systems worldwide. The
Department has implemented an aggressive program
to complete privatization decisions on all the water,
sewage, electric, and gas utility systems by
September 2005. In addition, although installation
commanders must strive to operate more efficiently,
they must do so without sacrificing their ability to
operate in the event of a terrorist attack on our
homeland. Comprehensive plans for preventing
sabotage and responding to attacks on water and
power at military installations will be complicated by
civilian control of utilities.

As of June 30, 2004, DoD has an estimated
$61.1 billion in environmental liabilities. The
Department continues to correct past material control
deficiencies in identifying and tracking sites with
environmental liabilities and maintaining audit trails
for financial liability estimates. The Department
needs to improve documentation and supervisory
review of environmental liability estimates.

The DoD audit agencies issued 24 reports on
infrastructure and environmental issues during
FY 2004. The agencies reported on topics such as
military construction projects, residual value of
facilities at overseas bases, Base Realignment and
Closure, recycling operations, energy management,
and land use controls and monitoring at formerly
used defense sites.

Inspector General Assessment of Progress

The Department has made progress this year in
defining all of the infrastructure problems as it works
toward making recommendations for realignment and
closure in the Base Realignment and Closure 2005
process. That progress comes after decades of
struggle with aging and excess infrastructure. The
oversight and breadth of Base Realignment and
Closure 2005 far exceeds prior Base Realignment and
Closure efforts in 1989, 1991, 1993, and 1995.




DoD Performance and Accountability Report                       Part 4: Inspector General Summary of
                                                          295
                                                                       Management Challenges
                                  Part 5:
                                Appendixes




DoD Performance and Accountability Report
                                     Page intentionally left blank.




DoD Performance and Accountability Report
  Appendix A: Improper Payments Information Act of 2002
As discussed in Part 1 “Management Discussion and                to us. The audit provides an average amount of
Analysis,” the Department conducted a review of the              overpayment per account as well as the average number
improper payments relating to the Military Retirement            of accounts overpaid per month. The rate overpaid is
and Military Health Benefits programs per the Office of          multiplied by the population overpaid to arrive at an
Management and Budget (OMB) guidance. Results of                 estimated monthly amount overpaid, which is then
the review follow.                                               annualized. Improper payments found through other
                                                                 sources, situation reports, internal tracking and other
1. Describe your agency’s risk assessment(s),                    required audits, are added to this figure to determine the
performed subsequent to compiling your full program              final annual estimation of improper payments for the
inventory. List the risk-susceptible programs (i.e.,             program.
programs that have a significant risk of improper
payments based on OMB guidance thresholds)                       Military Health Benefits. To determine the
identified through your risk assessments. Be sure to             statistically valid estimate of the annual amount of
include the programs previously identified in the former         erroneous payments, the Department uses the
Section 57 of OMB Circular A-11.                                 following sampling methodology to pull TRICARE
                                                                 Encounter Data records for the Annual Target Health
The Department reviewed all of its programs and                  Care Cost audits of the Managed Care Support
activities and determined that nine programs/activities          Services contracts.
were susceptible to erroneous payments. Risk
assessments were performed for each of the nine                  For each contract option period, a statistically valid
programs/activities identified by the Department as              sample of claims with care end dates within the
being susceptible to erroneous payments. The risk                specified option period is selected for payment error
assessments addressed the strength of the internal               auditing. Variable sampling, using stratified
controls in place to prevent improper payments (such             sampling with optimum allocation, is used to
as prepayment reviews), system weaknesses                        calculate the sample size for the payment errors. The
identified internally or by outside audit activities,            sample size is determined with a 90% confidence
voluntary returns of overpayments by vendors, etc.               level and 1% precision.
None of the programs/activities identified were found
to be susceptible to high risk. Two of these programs            Twelve sample strata are used with claims ranging
were previously identified in Section 57 of OMB                  from $100 to less than $100,000. Another stratum
Circular A-11. These are Military Retirement and                 consists of all claims $100,000 and over. Claims
Military Health Benefits.                                        with a cost less than $100 are not sampled. Claims
                                                                 with a cost of greater than $100 but less than
2. Describe the statistical sampling process conducted           $100,000 are broken down into 12 strata. A formula
to estimate the improper payment rate for each program           is applied to calculate the sample size for each
identified.                                                      stratum. A finite population correction is then
                                                                 applied to each stratum sample size with the final
The statistical sampling process used for the two                sample size calculated by summing all the corrected
programs that were previously identified in Section 57           stratum sample sizes. Finite population correction is
of OMB Circular A-11 are outlined below:                         first applied on each stratum, before the summation
                                                                 of sample sizes of all strata. A minimum sample size
Military Retirement. Using the fiscal year (FY)                  of 30 is forced into each stratum. If the stratum
2003 file size and the estimated rate of erroneous               universe count is less than 30, all the claims in that
payments as a baseline, Military Retired and                     stratum are audited. The audit process for payment
Annuitant Pay is conducting a random sample, which               samples projects universe value based on the audit
will yield an annual estimate with a probability level           results. The samples are separately projected to the
of 95% and a sample precision of plus or minus                   universe of claims for each quarter. The results of
2.5%. The size of the random sample will vary                    these projections are then combined into the
monthly depending on the number of retiree death                 following categories: Total number of claims in the
transactions recorded. Once the number of accounts               universe, government payment estimation, correct
is known, a random sample of the monthly                         government payment, error amount and the estimated
population is determined. The randomly selected                  error percent in the universe of claims. The percent
accounts are then audited to determine if the account            of overpayments is applied to all the payments to
was overpaid once the member’s death was reported                determine the amount of allowable cost. The percent


DoD Performance and Accountability Report                  296     Part 5: Appendix A – Improper Payments
                                                                           Information Act
  Appendix A: Improper Payments Information Act of 2002
will be recovered based on total overpayments--not               Payment Act. Minimizing the error rate is
net of underpayments. In other words, there is "zero             accomplished through statistically valid samples with
tolerance” for errors.                                           financial penalties assessed to the contractor making
3. Explain the corrective actions your agency plans to           the disbursement on behalf of the Department. The
implement to reduce the estimated rate of improper               construct of the managed care contracts effectively
payments. Include in this discussion what is seen as the         reduces improper payments to zero.
cause(s) of errors and the corresponding steps
necessary to prevent future occurrences. If efforts are
already underway, and/or have been ongoing for some
length of time, it is appropriate to include that
information in this section.

Military Retirement. With the large population size
served, the complexity of entitlements, and volume of
transactions, the Military Retired and Annuitant Pay
programs are at risk of making improper payments.
While the total elimination of improper payments is
virtually impossible, the Department has implemented
and continues to explore methods to minimize these
amounts. In this regard, Military Retired and Annuitant
Pay, in coordination with the Social Security
Administration, is implementing a death match process,
which should significantly reduce the amount of
improper payments. This process allows Military
Retired and Annuitant Pay to receive death notice
information through an automated system match on
military retirees. The death notification process, in
many cases, will prevent the payment system from
generating an improper payment. Other initiatives, such
as improved quality control measures, system
enhancements and the automation of manual processes,
are also underway to further streamline the processing
and maintenance of Retired Pay accounts.

Military Health Benefits. The Medical Health
Benefits program currently audits statistically valid
samples that over the years have consistently
produced an error rate of less than the 2 percent
standard contained in the TRICARE contracts—an
amount less than the 2.5 percent threshold allowed by
the Improper Payments Information Act as
implemented by the Office of Management and
Budget. The TRICARE Management Agency audits
payments, extrapolates the results of the payments to
the universe and disallows the full amount of the
extrapolated total representing a statistical projection
of overpayments.

The cause(s) of errors in health care claims
processing is related to both improperly submitted
claims by the provider community, as well as a
minimal degree of human error that can be expected
with handling a large volume of claims within the
tight time parameters established through the Prompt


DoD Performance and Accountability Report                  297     Part 5: Appendix A – Improper Payments
                                                                           Information Act
  Appendix A: Improper Payments Information Act of 2002
4. The following table summarizes the Department’s improper payment reduction outlook for each of these programs from
FY 2004 through FY 2007.


                              Improper Payment (IP) Reduction Outlook FY 2004 – FY 2007

                             FY 04             FY 04           FY 04              FY 05         FY 06         FY 07
       Program
                             Outlays           IP %             IP $              IP %          IP %          IP %
 Military Retirement
                           $35.8 billion      .0952%      $34.1 million          .0922%        .0892%        .0862%
 (Note 1)
 Military Health
                           $4.6 billion        2.16%      $100.1 million         2.0%          2.0%          2.0%
 Benefits (Note 2)



    Footnotes:                                                         historically the final overall percentage has
    Note 1. Military retired and annuitant pay is                      been below the contractual requirement that
    projecting a decrease in the percentage of                         the payment error rate shall not exceed 2
    improper payments for the upcoming fiscal                          percent. Last year’s DoD Performance and
    years.                                                             Accountability Report listed the preliminary
                                                                       error rate for FY 2003 as 1.36 percent (the
    Note 2. The FY 2004 data which reports a                           most current percent available at the time the
    2.16 percent payment error rate is subject to                      report was required). The final payment
    change as additional information is received.                      error rate for fee-for-service claims was 0.85
    The 2.16 percent is not the final figure. Once                     percent--well below the 2 percent threshold
    all the audits have completed the                                  and considerably lower than the l.36 percent
    administrative process by September 2005,                          originally reported.




DoD Performance and Accountability Report                298       Part 5: Appendix A – Improper Payments
                                                                           Information Act
Appendix A: Improper Payments Information Act of 2002
5. Discuss your agency’s Recovery Auditing                   held accountable for reducing and recovering
effort, if applicable, including the amount of               improper payments.
recoveries expected, the actions taken to recover
them, and the business process changes and                   Certifying Officer Legislation currently in effect
internal controls instituted and/or strengthened to          holds certifying and disbursing officers accountable
prevent further occurrences.                                 for government funds. Pecuniary liability attaches
                                                             automatically when there is a fiscal irregularity, i.e.
                                                             (a) a physical loss of cash, vouchers, negotiable
Since the start of the program in FY 1996, the
                                                             instruments, or supporting documents or (b) an
Department has collected over $17.8 million. Of              erroneous payment. Pecuniary liability for
this amount, $6.3 million was recovered in                   accountable officials attaches if a
FY 2004 alone. Similar recoveries are expected               commander/director determines that an erroneous
in FY 2005. The increase in recoveries is related            payment was the result of the accountable official’s
to the ability of the Department to electronically           negligence. For certifying officers and disbursing
provide all of the disbursing information                    officers, there is a presumption of negligence and
requested by the recovery auditing vendor. Prior             those individuals bear the burden of proof in
to that time, the vendor was limited to finding this         establishing the absence of negligence; i.e., they must
information manually. Most of the recoveries                 produce evidence to establish that there was no
                                                             contributing fault or negligence on their part. A
occurred on disbursements made by the Defense
                                                             presumption of negligence does not apply to
Logistics Agency. The Naval Supply Systems
                                                             accountable officials. Efforts to recover from the
Command accounted for approximately                          recipient must be undertaken in accordance with the
$500,000. The Defense Information Systems                    debt collection procedures prescribed in Volume 5,
Agency, Naval Air Systems Command, and the                   Chapters 29 and 30 of the Department of Defense
Defense Commissary Agency have issued                        Financial Management Regulation.
contracts for recovery auditing services. As there
were no significant findings by the recovery                 In addition, the Department is establishing
auditing vendor at Defense Commissary Agency,                performance metrics to track and reduce erroneous
the option year of the contract was not exercised.           payments. These metrics will include all
                                                             programs/activities that the Department has identified
                                                             as having a risk of erroneous payments.
Recovery auditing claims follow the same
collection procedures as other overpayments.
                                                             7. Describe whether the agency has the information
Once an overpayment is identified, a demand
                                                             systems and other infrastructure it needs to reduce
letter is sent to the vendor. If reimbursement is
                                                             improper payments to the levels the agency has
not received within 35 days, offsetting procedures
                                                             targeted.
are initiated on future invoices. If no additional
invoices are received, the claim is sent to Defense
                                                             The Department maintains the infrastructure needed
Finance and Accounting Service Debt
                                                             to monitor erroneous payments for the Military
Management Office.
                                                             Retirement and Military Health Benefits programs:
The Defense Finance and Accounting Service
                                                             Military Retirement. At the current time Military
Internal Review Office is responsible for the
                                                             retired and annuitant pay has the information and
Department’s post-payment audit function.
                                                             infrastructure needed to reduce improper payments.
Within 180 days of payment, the Internal Review
Office reviews disbursements to identify
overpayments and recommend corrective actions                Military Health Benefits. The TRICARE
to minimize future overpayments.                             Management Agency has a national claims database
                                                             that captures fee-for-service claims for care rendered
6. Describe the steps the agency has taken and               and paid for by TRICARE. Derived from data
plans to take (including time line) to ensure that           forwarded by TRICARE Managed Care Support
agency managers (including the agency head) are              Contractors in a specific format that is run against a
                                                             specific set of quality control edits, the database

DoD Performance and Accountability Report              299     Part 5: Appendix A – Improper Payments
                                                                       Information Act
Appendix A: Improper Payments Information Act of 2002
maintains information on covered beneficiaries and
the care each receives. The extensive data
requirement contributes to data integrity and the
fiscal soundness of a single audit trail and allows for
close oversight of the claims paid by TRICARE. In
addition, TRICARE Management Agency has had
performance standards in place for a number of years
and contractors have continually met or exceeded
them. Contractors already have a financial incentive
to pay claims correctly and to stay below 2 percent,
given that the agency will not fund unallowable costs
(overpayments) submitted by its contractors making
the disbursements.

8. A description of any statutory or regulatory
barriers which may limit the agencies’ corrective
actions in reducing improper payments.

Military Retirement. Two barriers impede the
agency’s ability to take corrective actions in reducing
improper payments, the Federal Acquisition
Regulation and the Retired and Annuitant Pay service
contract. On January 28, 2002, the servicing of
Retired and Annuitant Pay came under the purview
of a private contractor, ACS Government Services,
later taken over by Lockheed Martin Government
Services. Although most functions remain
unchanged from when the government performed
these functions, there are now contractual limits to
the government’s involvement in the day-to-day
operations of Retired and Annuitant Pay. The
Continuing Government Activities office was formed
to oversee the Retired and Annuitant Pay contract, to
ensure the contractual requirements are followed,
however, the government can no longer direct how
the work is accomplished. In order to bring about an
operational change, both the government and the
contractor must come to an agreement as to how to
effectuate a change and who will fund a change. Any
deviation from the current contract requires a contract
modification, which is detailed in the Federal
Acquisition Regulation.

Military Health Benefits. There are currently no
statutory or regulatory barriers that limit the
Department’s corrective actions for this program. In
addition, as previously mentioned erroneous
payments are continually less than the 2 percent error
rate for this program.




DoD Performance and Accountability Report                 300   Part 5: Appendix A – Improper Payments
                                                                        Information Act
                                 Appendix B: Glossary


 Acronym                                       Full Name
AC               Actual Cost
AC/RC            Active Component/Reserve Component
AFRIMS           Air Force Restoration Information Management System
AFRL             Air Force Research Lab
AILG             Armament Retooling & Manufacturing Support Initiative (ARMS)
                 Initiative Loan Guarantee
AOC              Area of Concern
AOR              Accumulated Operating Results
ARMS             Armament Retooling & Manufacturing Support Initiative
ASBCA            Armed Services Board of Contract Appeals
ASVAB            Armed Services Vocational Aptitude Battery
ATM              Automated Teller Machine
BMMP             Business Management Modernization Program
BRAC             Base Realignment and Closure
CAIG             Cost Analysis Improvement Group
CAM              Contractor Acquired Material
CARS             Consolidated Acquisition Reporting System
CBY              Charge Back Years
CEFMS            Corps of Engineers Financial Management System
CERCLA           Comprehensive Environment Response, Compensation Liability Act
CERPS            Centralized Expenditure & Reimbursement Processing System
CFAST            Collaborative Force Sustainment and Transportation
CFO              Chief Financial Officer
CIO              Chief Information Officer
CIP              Construction in Progress
COLA             Cost of Living Adjustment
CONPLAN          Concept of Operations Plan
CPI              Consumer Price Index
CPIM             Consumer Price Index-Medical
CRA              Credit Reform Act
CRO              Cumulative Results of Operations
CSRR             Common Submarine Radio Room
CSRS             Civil Service Retirement System
CTA              Collaborative Technology Alliances
CTC              Cost to Complete
CWC              Chemicals Weapons Convention
CWT              Customer Wait Time
DAAS             Defense Automatic Addressing System
DAB              Defense Acquisition Board
DAES             Defense Acquisition Executive Summary
DeCA             Defense Commissary Agency
DELMAR           Data Element Management/Accounting Reporting System
DERP             Defense Environmental Restoration Program
DERF             Defense Emergency Response Fund
DFAS             Defense Finance & Accounting Service


DoD Performance and Accountability Report      301              Part 5: Appendix B – Glossary
                                 Appendix B: Glossary

 Acronym                                          Full Name
DHP              Defense Health Program
DHS              Department of Homeland Security
DJC2             Deployable Joint Command and Control
DLA              Defense Logistics Agency
DMAG             Depot Management Activity Group
DMDC             Defense Manpower Data Center
DNS              Defense National Stockpile
DoD              Department of Defense
DoL              Department of Labor
DOTMLPF          Doctrine, Organization, Training, Material, Leadership, Personnel & Facilities
DRMO             Defense Reutilization Management Office
DRRS             DoD Readiness Reporting System
DSTAG            Defense Science and Technology Advisory Group
DT               Developmental Test
DTAP             Defense Technology Area Plan
DTO              Defense Technology Objective
DTRA             Defense Threat Reduction Agency
EPP              Enhanced Planning Process
EPR              Environmental Program Requirements
ER               Environmental Restoration
ESL              Expected Service Life
ESORTS           Enhanced Status of Resources and Training System
FBWT             Fund Balance With Treasury
FCRA             Federal Credit Reform Act
FECA             Federal Employees’ Compensation Act
FEGLI            Federal Employees’ Group Life Insurance Program
FEHB             Federal Employees’ Health Benefits
FERS             Federal Employees’ Retirement System
FFB              Federal Financing Bank
FMS              Financial Management Service
FMS              Foreign Military Sales
FMSTF            Foreign Military Sales Trust Fund
FRM              Facilities Recapitalization Metric
FSM              Facilities Sustainment Model
FUDS             Formerly Used Defense Sites
FY               Fiscal Year
FYDP             Future Years Defense Program
GAAP             Generally Accepted Accounting Principles
GAFS-R           General Accounting and Finance System-Rehost
GAO              Government Accountability Office
GCC              Geographic Combatant Commands
GF               General Fund
GFM              Government Furnished Material
GIG              Global Information Grid
GMRA             Government Management Reform Act
GPRA             Government Performance Results Act


DoD Performance and Accountability Report         302               Part 5: Appendix B – Glossary
                                 Appendix B: Glossary

 Acronym                                        Full Name
GSA              General Service Administration
GWOT             Global War on Terror
HD/LD            High Density/Low Density
HMO              Health Management Organization
HSDG             High School Diploma Graduate
IBNR             Incurred But Not Reported
ICP              Intelligence Campaign Plan
IOC              Initial Operational Capability
IPAC             Intragovernmental Paying and Collection
IPL              Integrated Priority Lists
IRAS             Intragovernmental Review and Analysis System
IRR              Incremental Revenue Recognition
IRR              Installations Readiness Report
IT               Information Technology
JAEC             Joint Assessment and Enabling Capability
JCDE             Joint Concepts Development and Experimentation
JCS              Joint Chiefs of Staff
JLLP             Joint Lessons Learned Program
JFC              Joint Functional Concepts
JIC              Joint Integrating Concepts
JKDDC            Joint Knowledge Development and Distribution Capability
JNTC             Joint National Training Center
JOC              Joint Operating Concepts
JOpsC            Joint Operations Concepts
JPG              Joint Programming Guidance
LAC              Latest Acquisition Cost
LCM              Lower of Cost or Market
LLRW             Low Level Radioactive Waste
MAC              Moving Average Cost
MAFR             Merged Accounting & Fund Reporting System
MDAP             Major Defense Acquisition Program
MERHCF           Medicare-Eligible Retiree Health Care Fund
MET              Mission Essential Tasks
MHPI             Military Housing Privatization Initiative
MHS              Military Health System
MILSATCOM        Military Satellite Communications
MOU              Memorandum of Understanding
MRF              Military Retirement Fund
MRS              Military Retirement System
MSC              Military Sealift Command
MTF              Military Treatment Facility
NACTEK           Naval Commercial Test Kit
NAWC             Naval Air Warfare Center
NDAA             National Defense Authorization Act
NDPP&E           National Defense Property, Plant & Equipment
NE               Not Evaluated


DoD Performance and Accountability Report       303              Part 5: Appendix B – Glossary
                                 Appendix B: Glossary

 Acronym                                       Full Name
NOAA             National Oceanic and Atmospheric Administration
NORM             Navy Normalization of Data Systems
NSPS             National Security Personnel System
NULO             Negative Unliquidated Obligations
NRV              Net Realizable Value
O&S              Operation and Support
OA               Operational Availability
ODO              Other Defense Organizations
ODO-GF           Other Defense Organizations – General Fund
OM&S             Operating Materials & Supplies
OMB              Office of Management and Budget
OEPM             Officer and Enlisted Personnel Management
OPM              Office of Personnel Management
OSD              Office of the Secretary of Defense
OUSD             Office of the Under Secretary of Defense
PDR              Programming Data Requirement
PERSTEMPO        Personnel Tempo
P.L.             Public Law
PMA              Power Marketing Agency
PPBS             Planning, Programming and Budgeting System
PP&E             Property, Plant & Equipment
PVB              Present Value of Benefits
QDR              Quadrennial Defense Review
QoL              Quality of Life
QRMC             Quadrennial Defense Review of Military Compensation
RACER            Remedial Action Cost Engineering Requirements
RBS              Rural Business-Cooperative Service
RCRA             Resource Conservation & Recovery Act
RDT&E            Research, Development, Test and Evaluation
RFQ              Request for Quotations
RML              Readiness Markup Language
RVU              Relative Value Units
S&T              Science and Technology
SAR              Selected Acquisition Report
SARA             Superfund Amendment & Reauthorization Act
SBR              Statement of Budgetary Resources
SFFAS            Statement of Federal Financial Accounting Standards
SJFHQ            Standing Joint Force Headquarters
SMAG             Supply Management Activity Group
SOCOM            Special Operations Command
SoNC             Statement of Net Cost
SP               Standard Price
SPG              Strategic Planning Guidance
SUVOS            Semiconductor Ultraviolet Optical Sources
TARA             Technology Area Review and Assessment
TSAT             Transformational Satellite Communications System


DoD Performance and Accountability Report      304              Part 5: Appendix B – Glossary
                                 Appendix B: Glossary

 Acronym                                         Full Name
TSP              Thrift Savings Plan
TOA              Total Obligation Authority
UDO              Undelivered Orders
UMD              Unmatched Disbursements
USACE            United States Army Corps of Engineers
USDA             United States Department of Agriculture
USD(I)           Under Secretary of Defense for Intelligence
USJFCOM          United States Joint Forces Command
USSGL            United States Standard General Ledger
USSOCOM          United States Special Operations Command
VAN              Value Added Network
VSI              Voluntary Separation Incentive
WARS             Worldwide Ammunition Reporting System
WCF              Working Capital Fund




DoD Performance and Accountability Report         305          Part 5: Appendix B – Glossary
                            Appendix C: Internet Links


               Topic                                          Internet Link
                        Department of Defense Internet Links
Department of Defense (DoD)             www.defenselink.mil
DoD Performance and                     www.dod.mil/comptroller/par
Accountability Report
Detailed Performance Information
                               www.dod.mil/comptroller/par/fy2004/06-
                               01_Detailed_Performance.pdf
DoD Quadrennial Defense Review www.defenselink.mil/pubs/qdr2001.pdf
(2001)
DoD Business Management        www.dod.mil/comptroller/bmmp/pages/index.html
Modernization Program
DoD Annual Defense Report      www.defenselink.mil/execsec/adr2003/
(2003)
DoD Budget (2004)              www.dod.mil/comptroller/defbudget/fy2004/index.html
Office of the Secretary of Defense      www.defenselink.mil/osd/
Joint Chiefs of Staff                   www.dtic.mil/jcs/
Department of the Army                  www.army.mil
Department of the Navy                  www.navy.mil
U.S. Marine Corps                       www.usmc.mil
Department of the Air Force             www.af.mil
Combatant Commands                      www.defenselink.mil/sites/u.html#unified
DoD Agencies                            www.defenselink.mil/sites/a.html#agencies
DoD Field Activities                    www.defenselink.mil/sites/f.html#fldacts
DoD Organization                        www.defenselink.mil/odam/omp/pubs/GuideBook/ToC.htm
Joint Doctrine Electronic Library       www.dtic.mil/doctrine/jel/new_pubs/jp0_2.pdf

                                  External Internet Links
               Topic                                          Internet Link
Office of Personnel Management          www.opm.gov/account
(OPM)
FirstGov.gov                            www.first.gov
Results.gov                             www.results.gov




DoD Performance and Accountability Report        306               Part 5: Appendix C – Internet Links
                                     Page intentionally left blank.




DoD Performance and Accountability Report
